                                                            Financial and Related Highlights
                                                                                                                      % Change                  September 30,        September 30,
                                       (Dollars in Thousands)
                                                                                                                    2013 over 2012                  2013                 2012

Fund Balance with Treasury                                                                                                     15.6%            $ 1,996,736          $ 1,726,955
Property, Plant, and Equipment, Net                                                                                              8.5%                   257,008            236,980
Other Assets                                                                                                                 (16.2%)                      15,240            18,188
     Total Assets                                                                                                              14.5%            $ 2,268,984          $ 1,982,123

Deferred Revenue                                                                                                               12.1%            $       931,548      $     830,955
Accounts Payable                                                                                                                 6.9%                     80,399            75,186
Accrued Payroll, Benefits, and Leave                                                                                          (18.3%)                   177,630            217,364
Other Liabilities                                                                                                              (1.2%)                   130,170            131,744
     Total Liabilities                                                                                                           5.1%           $ 1,319,747          $ 1,255,249
Net Position                                                                                                                   30.6%                    949,237            726,874
Total Liabilities and Net Position                                                                                             14.5%            $ 2,268,984          $ 1,982,123
Total Program Cost                                                                                                              9.5%            $ 2,540,427          $ 2,320,947
Total Earned Revenue                                                                                                            12.1%               (2,719,972)          (2,427,082)
Net Income from Operations                                                                                                     69.2%            $      (179,545)     $    (106,135)
Budgetary Resources Available for Spending                                                                                     12.2%            $     2,931,558      $ 2,612,627
Total Collections, Net of Outlays                                                                                            239.8%             $       (274,909)    $     (80,894)
Federal Personnel                                                                                                                2.1%                     11,773            11,531
Disbursements by Electronic Funds Transfer (EFT)                                                                              —                               100%           100%
On-Time Payments to Vendors                                                                                                   —                               99%             99%


                                                                           Performance Highlights
                                                                                                                          FY 2013                    FY 2013         Performance
                                       Performance Measures                                                                                                                        1
                                                                                                                           Target                     Actual             Results
Patent Average First Action Pendency (months)                                                                                18.0                      18.2          Slightly Below
Patent Average Total Pendency (months)                                                                                       30.1                      29.1                Met
Patent Quality Composite Score                                                                                              65-73                      71.9                Met
Patent Applications Filed Electronically                                                                                   98.0%                      98.1%                Met
Trademark Average First Action Pendency (months)                                                                          2.5 – 3.5                     3.1                Met
Trademark Average Total Pendency (months)                                                                                    12.0                      10.0                Met
Trademark First Action Compliance Rate                                                                                     95.5%                      96.3%                Met
Trademark Final Compliance Rate                                                                                            97.0%                      97.1%                Met
Exceptional Office Action                                                                                                  23.0%                      35.1%                Met
Trademark Applications Processed Electronically                                                                            76.0%                      79.0%                Met
Percentage of prioritized countries for which country teams have
made progress on at least 75% of action steps in the country-specific
action plans along the following dimensions:
1. institutional improvements of IP office administration for advancing
   IP rights,                                                                                                              75.0%                      100%                 Met
2. institutional improvements of IP enforcement entities,
3. improvements in IP laws and regulations, and
4. establishment of government-to-government cooperative
   mechanisms.
1
    The performance result of a given measure is either met (100 percent or greater of target), slightly below (95 to 99 percent of the target), or not met
    (below 95 percent of target).
Addendum to the Fiscal Year 2013 USPTO
Performance and Accountability Report (PAR)
On December 18, 2013, two days after the final             leaders,” said Commissioner for Patents Margaret A.
publication of the FY 2013 USPTO PAR, the agency           (Peggy) Focarino. “Our employees have faced
received notice from the Partnership for Public Service    significant challenges, including the impact of
that the USPTO was ranked number 1 out of 300              budget sequestration despite being a fully fee-funded
agency subcomponents in its 2013 Best Places to Work       agency, and the completion of our implementation of
in the Federal Government® report.                         the Leahy-Smith America Invents Act, the most
                                                           sweeping overhaul of our nation’s patent system in
Since this survey was conducted for fiscal year 2013, it
                                                           generations. Yet despite those challenges we
was felt that, despite the PAR already being
                                                           maintained our upward momentum in being
completed,      this   signal   achievement     should
                                                           recognized by our employees as a Best Place to Work
accompany it.        Accordingly, this post-publication
                                                           in the federal government.”
addendum is incorporated into the FY 2013 USPTO PAR
to formally memorialize the USPTO’s ranking as the         One large component of USPTO’s success has been our
number one best place to work in the federal               highly successful telework program, which the PPS
government.                                                recognized with a 2012 nomination for its annual
                                                           Samuel J. Heyman Service to America awards (the
                                                           Sammies). The agency’s telework program improved
                                                           flexibility in employee work location, reduced examiner
                                                           turnover to historically low levels, increased examiner
                                                           productivity, and saved the agency millions each year
                                                           in overhead costs.
                                                           Building collaborative team-based approaches to
                                                           projects and increasing technical and leadership
                                                           training opportunities have also improved the morale
                                                           and effectiveness of our highly talented workforce.
                                                           Over the last two years, the USPTO’s Creativity and
                                                           Innovation Challenge has helped improve operations
                                                           through collaboration and idea-sharing between the
                                                           agency and its employees. Developed in partnership by
                                                           USPTO management and the employee unions —The
                                                           Patent Office Professional Association, the National
The 2013 Best Places to Work in the Federal                Treasury Employee Union (NTEU), Chapter 243 and NTEU
Government® Recognition                                    Chapter 245 — the challenge established an interactive
                                                           employee forum encouraging employees to submit
The USPTO was named number one out of 300 agency           and vote on innovative ways to improve the agency.
subcomponents in the 2013 Best Places to Work in the
Federal Government rankings released by the non-
profit Partnership for Public Service (PPS). The annual
report is based on a survey of more than 700,000 civil
servants     from    371     federal   agencies    and
subcomponents conducted earlier this year by the
Office of Personnel Management (OPM). The USPTO’s
rise to number one follows a steady climb from
number 172 in 2007 to number five in 2012 (see chart
above).

“This is a tremendous tribute to the tireless dedication
of our hardworking employees, unions, and agency
Table of Contents
Message from the Deputy Under Secretary of Commerce for Intellectual Property and
Deputy Director of the United States Patent and Trademark Office .............................................................. 3
Management’s Discussion and Analysis ........................................................................................................ 6
      Mission and Organization of the USPTO ................................................................................................... 7
      Performance Goals and Results............................................................................................................. 11
             USPTO Strategic Plan ........................................................................................................................ 13
             Strategic Goal 1: Optimize Patent Quality and Timeliness ........................................................... 15
             Strategic Goal 2: Optimize Trademark Quality and Timeliness .................................................... 27
            Strategic Goal 3: Provide Domestic and Global Leadership to Improve Intellectual
            Property Policy, Protection, and Enforcement Worldwide ............................................................. 35
             Management Goal: Achieve Organizational Excellence .............................................................. 47
      Management Challenges and What’s Ahead ..................................................................................... 60
      Accompanying Information on USPTO Performance ............................................................................. 65
             Performance Audits and Evaluations ............................................................................................ 65
      Management Assurances and Compliance with Laws and Regulations .......................................... 67
      Financial Discussion and Analysis ......................................................................................................... 74
Financial Section ............................................................................................................................................ 87
      Message from the Chief Financial Officer .............................................................................................. 88
      Principal Financial Statements and Related Notes ............................................................................. 90
      Independent Auditors’ Report .............................................................................................................. 121
Other Information .......................................................................................................................................... 127
      Schedule of Spending ........................................................................................................................... 128
      Inspector General’s Top Management Challenges Facing the USPTO .............................................. 129
      Summary of Financial Statement Audit and Management Assurances ......................................... 180
      Improper Payments Information Act of 2002, as amended ................................................................. 181
      The Nature of the Training Provided to USPTO Examiners .................................................................. 183
      FY 2013 USPTO Workload Tables ............................................................................................................ 187
Glossary of Acronyms and Abbreviation List .............................................................................................. 217


                               Web address for the USPTO Performance and Accountability Report

                                                     www.uspto.gov/about/stratplan/

                                                                    ABOUT THIS REPORT
               The USPTO Performance and Accountability Report (PAR) for FY 2013 provides a comprehensive
               summary of program and financial results and is structured to help the President, the Congress,
               and the American public assess our performance relative to our mission and accountability for
                                                 our financial resources.




                                                                                                                                                                                    1
                                                                                                                                                                    www.uspto.gov
2
    PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
Message from the Deputy Under Secretary of
Commerce for Intellectual Property and Deputy
Director of the United States Patent and
Trademark Office

The United States Patent and Trade-                                  over the previous year. The USPTO con-
mark Office has over the last year con-                              tinues to maintain consistent first office
tinued to foster innovation, competi-                                action trademark pendency figures
tiveness, and economic growth at                                     within the target range of 2.5 to 3.5
home and abroad, while maintaining                                   months, with disposal pendency run-
the standard for what a user-friendly,                               ning at 10 months, lower than the 12-
stakeholder-oriented 21st-century gov-                               month performance target.
ernment agency can be.
                                                                      We implemented in March 2013 the
As expressed in the USPTO’s 2010-2015                                 final provisions of the Leahy-Smith Amer-
Strategic Plan, our mission is to foster                              ica Invents Act that President Obama
innovation, competitiveness, and eco-                                 signed into law on September 16, 2011,
nomic      growth,    domestically   and                              including the first-inventor-to-file provi-
abroad by delivering high-quality and timely exam-       sion. That provision further harmonizes our patent
ination of patent and trademark applications,            operations with patent offices around the world,
guiding domestic and international intellectual          and includes safeguards to ensure that only an
property policy, and delivering intellectual property    original inventor or his assignee may be awarded a
information and education worldwide, with a highly       patent.
skilled, diverse workforce.
                                                         Significantly, the process of patent reform did not
The agency continues to make significant progress        end with the implementation of these provisions. In
in reducing the unexamined patent application            June of this year—in conjunction with the release of
backlog. At the end of FY 2013, the agency de-           a White House paper on “Patent Assertion and U.S.
creased the unexamined patent application back-          Innovation”—President Obama announced five
log to 584,998 from its zenith in 2009. This reduction   executive actions and seven legislative recom-
constitutes a 31 percent reduction. Our total pen-       mendations designed to protect innovators from
dency was reduced to 29.1 months and our first           the abusive litigation of Patent Assertion Entities
action pendency was reduced to 18.2 months,              and to ensure the issuance of high quality patents.
much lower than the previous year. As discussed          The USPTO is implementing four of the five execu-
in greater detail in the Goal 1 section, we have im-     tive actions. In fact, the USPTO was already taking
plemented two significant initiatives that have          proactive measures to address stakeholder con-
helped to reduce our Request for Continued Exam-         cerns surrounding patent litigation, including a
ination (RCE) backlog. An RCE is a request by an         January 2013 “Real Party in Interest” roundtable we
applicant to reopen prosecution of the patent ap-        hosted at the USPTO to receive input on possible
plication after prosecution is closed.                   changes to our rules of practice to ensure more
                                                         transparency in patent ownership.
Our Trademark organization continued to experi-
ence increased applications in FY 2013, with             Expanding on the success of our Elijah J. McCoy
433,654 new classes filed, a 4 percent increase          Satellite Office in Detroit, we began the process of



                                                                                                                        3
                                                                                                        www.uspto.gov
        MESSAGE FROM THE DEPUTY UNDER SECRETARY



        opening three more permanent satellite offices, in       rate, and consistent as we improve our ability to
        Dallas, Denver, and Silicon Valley. Currently oper-      measure progress toward our performance goals.
        ating in temporary spaces, these offices place
        USPTO personnel in every continental U.S. time           This fiscal year, we learned that the USPTO was
        zone, providing critical government resources and        named one of the U.S. Federal Government’s Best
        services in some of our nation’s most dynamic            Places to Work by the non-profit Partnership for Pub-
        hubs of innovation.                                      lic Service, which ranked the USPTO number 5 out
                                                                 of 292 federal agency subcomponents based on a
        It has also been a year of exciting progress on the      survey by the Office of Personnel Management.
        international front, as we worked with offices           The USPTO has climbed the rankings in recent
        around the world to build a more robust and effi-        years, from 105th to 5th place in just four short
        cient international intellectual property system. In     years—a remarkable achievement that speaks
        January, in partnership with the European Patent         volumes about the dedication to excellence of
        Office (EPO), we formally launched the Coopera-          every employee in our agency.
        tive Patent Classification (CPC) system that incor-
        porates the best practices of both offices. In June,     Our telework program is a vital component of em-
        the Korean Intellectual Property Office became the       ployee satisfaction. This improved flexibility in work
        first office to join the USPTO and EPO in using CPC.     location for more than 72 percent of our workforce
        We furthered our cooperation with our IP5 partners,      has reduced examiner turnover to historically low
        China, Korea, Japan and EPO, and hosted the an-          levels, increased examiner productivity, and saved
        nual IP5 heads of office meeting in the Silicon Val-     the agency millions each year in overhead costs.
        ley. Working collaboratively with other offices, we      Telework continues to contribute greatly to the mo-
        also continued to expand harmonization efforts,          rale and effectiveness of our highly talented and
        promote work sharing among offices, and improve          creative employees.
        intellectual property multilaterally through the         Despite our future challenges, we fully expect to
        World Intellectual Property Organization and in          achieve or exceed our goals. We are building a
        other fora.                                              remarkably talented and nimble staff that is de-
        In support of the Administration’s “Open Govern-         signed to scale to our evolving needs. The USPTO is
        ment” initiative, we continue to put more and more       dedicated to leading the rapidly evolving 21st Cen-
        important information on-line, through tools like a      tury intellectual property system. We are positioned
        robust Data Visualization Center that includes           to work transparently with our stakeholder partners
        dashboards for Patents, Trademarks, External Af-         and to diligently continue our efforts to advance
        fairs, and our Patent and Trademark Trial and Ap-        intellectual property rights globally. We remain fully
        peal Boards.                                             prepared to accelerate our nation’s technological
                                                                 and commercial needs and help retain its place as
        However, FY 2013 was not without its challenges.         the international model of innovation.
        Despite the USPTO’s significant progress in applica-
        tion inventory reduction this year, the sequestration
        experienced in FY 2013 impacted many IT im-
        provements and threatens our ability to meet pa-
        tent application pendency and first office action
        targets in the future. The far-reaching effect of this
        financial reduction is still being evaluated. We are
                                                                 Teresa Stanek Rea
        also challenged by maintaining our current
        Trademark performance levels while experiencing          Deputy Under Secretary of Commerce for
        continued growth and the need to replace out-            Intellectual Property and Deputy Director of the
        dated information technology systems.                    United States Patent and Trademark Office

        We are confident that the USPTO’s financial and          November 20, 2013
        performance data are complete, reliable, accu-



4
    PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                5
www.uspto.gov
                                                            Management's
                                                    Discussion and Analysis




6
    PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                         MANAGEMENT’S DISCUSSION AND ANLYSIS




 Mission and Organization
 of the USPTO
Mission
Fostering innovation, competitiveness, and economic growth, domestically and abroad, to deliver
high-quality and timely examination of patent and trademark applications, guiding domestic and
international intellectual property policy, and delivering intellectual property information and ed-
ucation worldwide, with a highly skilled, diverse workforce.

The United States Patent and Trademark Office’s         opportunity by promoting innovation, entrepre-
(USPTO) mission is derived from Article I, Section 8,   neurship, competitiveness, and stewardship.
Clause 8, of the Constitution “to promote the pro-
gress of science and useful arts, by securing for       Our Organization
limited times to authors and inventors the exclusive
right to their respective writing and discoveries,”     As shown in Figure 4, the USPTO is led by the Under
and the Commerce Clause of the Constitution (Ar-        Secretary of Commerce for Intellectual Property
ticle 1, Section 8, Clause 3) supporting the Federal    and Director of the USPTO, who consults with the
registration of trademarks.                             Patent Public Advisory Committee (PPAC) and the
                                                        Trademark Public Advisory Committee (TPAC). The
For most of the last century, the United States has     USPTO is comprised of two major components, the
been the clear leader in developing new technol-        Patent Business Line and the Trademark Business
ogies, products, and entire industries that provide     Line, which are teamed with several other support-
high-value jobs for Americans, enabling us to           ing units, as shown in the organization chart on
maintain our economic and technological leader-         page 12. Headquartered in Alexandria, Virginia,
ship.                                                   the USPTO also has a satellite office in Detroit, Mich-
                                                        igan (which opened on July 13, 2012), and is es-
As an agency of the Department of Commerce
                                                        tablishing three more offices in Dallas, Texas; Den-
(DOC), the USPTO is uniquely situated to support
                                                        ver, Colorado; and Silicon Valley, California (Figure
the accomplishment of the Department’s mission
                                                        1). Finally, the USPTO has two storage facilities lo-
to create the conditions for economic growth and
                                                        cated in Virginia and Pennsylvania.




                                                                                                                      7
                                                                                                      www.uspto.gov
        MANAGEMENT’S DISCUSSION AND ANLYSIS



        The USPTO has evolved into a unique government
        agency. In 1991, under the Omnibus Budget Rec-
        onciliation Act (OBRA) of 1990, the USPTO became
        fully supported by user fees to fund its operations.
        In 1999, the American Inventors Protection Act
        (AIPA) established the USPTO as an agency with
        performance-based attributes; for example, a clear
        mission statement, measurable services, a perfor-
        mance measurement system, and known sources
        of funding. In 2011, President Obama signed into
        law the Leahy-Smith America Invents Act (AIA). The
        AIA promotes innovation and job creation by im-
        proving patent quality, clarifying patent rights, re-
        ducing the application backlog, and offering ef-
        fective alternatives to costly patent litigation. It also
        provides temporary fee-setting authority that is es-
                                                                     National Inventors Hall of Fame 2013 inductee, John
        sential to the USPTO’s sustainable funding model.            Daugman.

        As the clearinghouse for U.S. patent rights, the
        USPTO is an important catalyst for U.S. economic            scope of claimed subject matter to a large body of
        growth as it plays a key role in fostering the innova-      technological information to determine whether
        tion that drives job creation, investment in new            the claimed invention is new, useful, and non-
        technology, and economic recovery. Through the              obvious. Patent examiners also provide answers on
        prompt granting of patents, the USPTO promotes              applications appealed to the Patent Trial and Ap-
        the economic vitality of American business, paving          peal Board (PTAB); prepare initial memoranda for
        the way for investment, research, scientific devel-         interference proceedings, post-grant proceedings,
        opment, and the commercialization of new inven-             etc., to determine priority of invention; and prepare
        tions. The USPTO also promotes economic vitality            preliminary examination reports for international
        by ensuring that only valid patent applications are         applications filed under the Patent Cooperation
        granted, thus providing certainty that enhances             Treaty (PCT). The patent process includes perform-
        competition in the marketplace.                             ing an administrative review of newly filed applica-
                                                                    tions, publishing pending applications, issuing pa-
        The Patent Organization. The Patent organization
                                                                    tents to successful applicants, and disseminating
        examines patent applications to compare the
                                                                    issued patents to the public.

          Figure 1                                                  The Trademark Organization. The Trademark or-
                  Map of USPTO and Satellite Offices                ganization registers marks (trademarks, service
                                                                    marks, certification marks, and collective member-
                                                                    ship marks) that meet the requirements of the
                                                                    Trademark Act of 1946, as amended, and provides
                                                                    notice to the public and businesses of the trade-
                                                                    mark rights claimed in the pending applications
                                                                    and existing registrations of others. The core pro-
                                                                    cess of the Trademark organization is the examina-
                                                                    tion of applications for trademark registration. As
                                                                    part of that process, examining attorneys make
                                                                    determinations of registrability under the provisions
                                                                    of the Trademark Act, which includes searching the
                                                                    electronic databases for any pending or registered
                                                                    marks that are confusingly similar to the mark in a
                                                                    subject application, preparing letters informing

8
    PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                           MANAGEMENT’S DISCUSSION AND ANLYSIS



applicants of the attorney’s findings, approving
applications to be published for opposition, and
                                                            Our People
examining statements of use in applications filed           At the end of FY 2013, the USPTO work-force (Figure
under the Intent-to-Use provisions of the Trademark         2) was composed of 11,773 Federal employees
Act.                                                        (including 8,051 patent examiners and 409 trade-
                                                            mark examining attorneys).
Domestically, the USPTO provides technical advice
and information to executive branch agencies on
IP matters and trade-related aspects of IP rights.           Figure 2
Internationally, the USPTO works with foreign gov-                             USPTO Staffing
ernments to establish regulatory and enforcement
mechanisms that meet international obligations                                              409

relating to the protection of IP.

The performance information presented in this re-
                                                                                              3,313
port is the joint effort of the Under Secretary‘s office,
the Patent organization, the Trademark organiza-
tion, the Office of Policy and External Affairs (OPEA),                   8,051
and the Office of the Chief Financial Officer
(OCFO).

                                                                           Patent Examiners
                                                                           Trademark Examining Attorneys
                                                                           Remaining USPTO Staff




                                                                                                                           9
                                                                                                           www.uspto.gov
         MANAGEMENT’S DISCUSSION AND ANLYSIS




         America Invents Act
         On September 16, 2011, President            AIA Studies
         Obama signed the Leahy-Smith
         America Invents Act (AIA) (Pub. L.       The AIA mandates the USPTO to
         No. 112-29) into law. This sweeping      conduct studies into certain areas of
         reform introduced some of the            intellectual property law and make
         biggest changes to the patent            recommendations to Congress
         system in 200 years. Among the           based on study findings. In FY 2013,
         most significant changes, the Act        the agency planned to finalize the
         transitions the patent system of the     confirmatory genetic testing study,
         United States from a “first to invent”   which commenced in FY 2012.
         to a “first inventor to file” system.    However, the intra-agency
                                                                                                Deputy Under Secretary Teresa Stanek
                                                  clearance process for the genetic
                                                                                                Rea speaks at an AIA Public Forum.
         Since its enactment, the USPTO has       testing report is still ongoing. The
         worked diligently to implement the       agency also was required in FY 2013
         AIA’s statutory requirements to          to issue a report on practitioner             AIA Outreach
         improve patent quality, reduce the       misconduct before the Office, which
                                                                                                It is the USPTO’s top priority to keep
         backlog of patent applications,          was finalized and released in                 our stakeholders informed and as
         reduce domestic and global               September 2013. For more                      involved in the AIA implementation
         patenting costs for U.S companies,       information about these AIA-required          as possible. In FY 2013, we took the
         provide greater certainty in patent      studies, please see                           following steps to maximize
         rights, and offer effective alternatives www.uspto.gov/aia_implementation.
                                                                                                transparency and
         to costly and complex litigation.
                                                                                                stakeholder/public participation:
                                                     AIA Programs
         In this fiscal year, the USPTO has
         accomplished the following                  The AIA requires the USPTO to              •   Public forum in March 2013 to
                                                     establish certain programs to assist           educate stakeholders about the
         significant milestones in
                                                                                                    new final rules for the first-
         implementing the AIA:                       applicants when they file and
                                                                                                    inventor-to-file, micro-entity, and
                                                     prosecute patent applications. In FY           fee-setting statutory provisions.
         Rulemaking                                  2013, the agency was required to
                                                     continue work establishing                 •   Second anniversary public fo-
         In order to implement federal
                                                                                                    rum in September 2013 to pro-
         statutes, agencies typically must           additional satellite offices in Denver,
                                                                                                    vide guidance about successes
         incorporate the statutory provisions        Dallas, and Silicon Valley (the USPTO          and pitfalls of recent AIA filings
         into their regulatory scheme by             identified these locations in FY 2012          for all AIA statutory provisions.
         engaging in rulemaking. The USPTO           and opened the initial satellite office
                                                                                                •   Continuing maintenance of the
         completed its AIA implementation            in Detroit in FY 2012). Due to
                                                                                                    USPTO website to provide AIA
         rulemaking in FY 2013. Specifically,        sequestration and other federal                implementation information and
         the agency issued final rules for the       budgetary constraints, the agency              updates such as videos and fre-
         first-inventor-to-file, micro-entity, and   has been delayed in its efforts. It is         quently-asked-questions.
                                                     proceeding as resources permit to
         fee-setting provisions in March 2013.                                                  •   Continuing use of AIA Subscrip-
         For more information regarding AIA-         secure the necessary space,                    tion Center to inform subscribers
         related rulemaking, associated              infrastructure, and personnel to               via email about AIA.events and
         comments, etc, please go to                 eventually open these offices.                 new information
         www.uspto.gov/aia_implementation/.
                                                     For more information on the progress
                                                     of these satellite offices, please go to
                                                     www.uspto.gov/about/locations/index.jsp.




10
     PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                       MANAGEMENT’S DISCUSSION AND ANLYSIS




 Performance Goals and Results
Introduction to Performance                            The USPTO strategic planning performance frame-
                                                       work is designed to strengthen the capacity of the
In FY 2010, the USPTO issued its 2010-2015 Strategic   USPTO by focusing on a specific set of goals and
Plan, which recognizes that innovation has be-         the steps we must take to reach those goals, as
come the principal driver of our modern economy        follows:
by stimulating economic growth and creating
                                                       •   Provide timely examination of patent applica-
high-paying jobs. America’s innovators rely on the         tions: Reduce the average time to first office
U.S. patent and trademark systems to secure in-            action for patent applications to 10 months
vestment capital and to bring their products and           (average time from filing until an examiner’s ini-
services to the marketplace as soon as possible.           tial determination on patentability), and aver-
Therefore, it is critical that the USPTO thrive for        age total pendency to 20 months (average
American innovation to succeed.                            time from filing until the application is issued as
                                                           a patent or abandoned)
Strategic Planning Performance Framework               •   Improve quality of patent examination

The USPTO’s mission is to foster innovation and        •   Improve patent appeal and post-grant pro-
competitiveness by providing high quality and              cesses
timely examination of patent and trademark appli-      •   Optimize trademark quality and maintain pen-
cations, guiding domestic and international intel-         dency
lectual property policy, and protecting intellectual    Figure 3
property rights. The USPTO 2010-2015 Strategic Plan
                                                               Summary of FY 2013 Strategic Goal
(www.uspto.gov/about/stratplan/) provides three
                                                                  Performance Target Results
strategic goals and one management goal in
support of the agency’s mission with a focus on
achieving results. The strategic objectives under
the first three goals define what the agency needs                                        9%
to do in order to achieve the goals. The manage-
ment goal provides the administrative support
foundation for the USPTO to achieve organizational                      91%
excellence.

                                                                   Met Target    Slightly Below Target




                                                                                                                         11
                                                                                                         www.uspto.gov
         MANAGEMENT’S DISCUSSION AND ANLYSIS



             Figure 4
                                            FY 2013 UNITED STATES PATENT AND TRADEMARK OFFICE




         •     Demonstrate global leadership in all aspects of                 plan includes a Balanced Scorecard. This identifies
               IP policy development                                           the objectives, initiatives, and performance
                                                                               measures associated with each strategic goal.
         •     Improve IT infrastructure and tools
                                                                               These performance commitments are outlined in
         •     Implement a sustainable funding model for                       the strategic framework presented in Table 1.
               operations
         •     Improve relations with employees and stake-                     Following the presentation of the Strategic Planning
               holders.                                                        Framework, a summary table (Table 2) provides
         These priorities support the DOC’s focus on eco-                      trend information on performance results within
         nomic growth, and its goal of delivering the tools,                   each strategic goal. This is followed by a more de-
         systems, policies, and technologies critical to trans-                tailed discussion of our strategy and performance
         forming our economy, fostering U.S. competitive-                      results, by strategic objective within each strategic
         ness, and driving the development of new busi-                        goal.
         nesses. 1
                                                                               The USPTO has two major components: the Patent
         There are 11 Strategic Plan performance outcome                       Business Line and the Trademark Business line,
         measures, all designed to achieve the USPTO’s stra-                   which are teamed with several other supporting
         tegic goals. Annual performance targets were de-                      units, as shown in the organization chart (Figure 4).
         veloped for each measureable outcome.
                                                                               This will be the final year of our FY 2010-2015 Strate-
         The USPTO met its targets for 10 of its 11 perfor-                    gic Plan. New directives, such as the Government
         mance measures as shown in Figure 3.                                  Performance and Results Modernization Act of
                                                                               2010, etc., require the agency to update its current
         Our Strategic Plan communicates the USPTO’s prior-                    Strategic Plan. The new 2014-2018 Strategic Plan
         ities and directions, and serves as the foundation                    currently is under development, and is expected to
         for programmatic and management functions. As                         be published in the 2nd Quarter of FY 2014. Next
         a management tool for tracking progress in meet-                      year’s PAR will evaluate the USPTO’s performance
         ing each of our performance commitments, the                          against the plans in that document.

         1
           The Office of Policy and External Affairs changed its name to the
         Office of Policy and International Affairs in FY 2014.




12
     PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                                  MANAGEMENT’S DISCUSSION AND ANLYSIS



Table 1
                                             2010 – 2015 Strategic Plan

                                                       MISSION
             Fostering innovation, competitiveness, and economic growth, domestically and abroad, by
            delivering high-quality and timely examination of patent and trademark applications, guid-
           ing domestic and international intellectual property policy, and delivering intellectual property
                 information and education worldwide, with a highly skilled, and diverse workforce.

                                                        VISION
                    Leading the Nation and the World in Intellectual Property Protection and Policy.

 Strategic Goals with Resources Invested                                       Objectives
                                                  Re-Engineer Patent Process to Increase Efficiencies and Strengthen Ef-
                                                  fectiveness
                 GOAL 1:
                                                  Increase Patent Application Examination Capacity
       Optimize Patent Quality and
                                                  Improve Patent Pendency and Quality by Increasing International
               Timeliness
                                                  Cooperation and Work Sharing
          Obligations: $2,231.4 million
                                                  Measure and Improve Patent Quality
          Total Cost: $2,281.2 million
                                                  Improve Appeal and Post-Grant Processes
                                                  Develop and Implement the Patent End-to-End Processing System
                                                  Maintain Trademark First Action Pendency on Average between 2.5
                                                  – 3.5 Months with 12.0 Months Final Pendency
                 GOAL 2:                          Continuously Monitor and Improve Trademark Quality
     Optimize Trademark Quality and               Ensure Accuracy of Identifications of Goods and Services in Trademark
                Timeliness                        Applications and Registrations
          Obligations: $211.5 million             Enhance Operations of Trademark Trial and Appeal Board (TTAB)
          Total Cost: $213.1 million              Modernize IT System by Developing and Implementing the Trademark
                                                  Next Generation IT System
                                                  Develop a New Generation of Trademark Leaders
                 GOAL 3:                          Provide Domestic Leadership on IP Policy Issues and Development of
 Provide Domestic and Global Leadership           a National IP Strategy
  to Improve Intellectual Property Policy,        Provide Leadership on International Policies for Improving the Protection
  Protection and Enforcement Worldwide            and Enforcement of IP Rights (IPR)

           Obligations: $46.4 million
           Total Cost: $46.1 million
                                                  Improve IT Infrastructure and Tools
          MANAGEMENT GOAL:
                                                  Implement a Sustainable Funding Model for Operations
   Achieve Organizational Excellence
                                                  Improve Employee and Stakeholder Relations




                                                                                                                                   13
                                                                                                                   www.uspto.gov
         MANAGEMENT’S DISCUSSION AND ANLYSIS




         Summary of Strategic Goal Results
         The following table summarizes FY 2013 actual performance results against established goals and targets for
         each key performance measure. The table also includes actual performance results for the past four fiscal
         years. For the latest updated status of these and other performance measures, please visit our Data Visuali-
         zation Center at: www.uspto.gov/about/stratplan/dashboards.jsp. There were no measures that have
         been either discontinued or changed since the FY 2012 PAR.

           Table 2
                                                Summary of Strategic Goal Results for FY 2009 – FY 2013
                                                                            FY 2009        FY 2010       FY 2011       FY 2012       FY 2013        FY 2013
                Strategic Goals Performance Measures
                                                                             Actual         Actual        Actual        Actual        Target         Actual

           GOAL 1: Optimize Patent Quality and Timeliness

               Average First Action Pendency                                   25.8           25.7         28.0           21.9          18.0         18.2
               Average Total Pendency                                          34.6           35.3         33.7           32.4          30.1         29.1
               Patent Quality Composite Score                                  N/A            N/A          30.7           72.4         65-73         71.9
               Patent Applications Filed Electronically                       82.4%          89.5%         93.1%         97.1%         98.0%        98.1%1

           GOAL 2: Optimize Trademark Quality and Timeliness

               Average First Action Pendency                                    2.7            3.0          3.1           3.2         2.5 -3.5        3.1

               Average Total Pendency                                          11.2           10.5         10.5           10.2          12.0         10.0

               First Action Compliance Rate                                   96.4%          96.6%         96.5%         96.2%         95.5%         96.3%
               Final Compliance Rate                                          97.6%          96.8%         97.0%         97.1%         97.0%         97.1%

               Exceptional Office Action                                       N/A            N/A          23.6%         26.1%         23.0%         35.1%

               Trademark Applications Processed                               62.0%          68.1%         73.0%         77.0%         76.0%         79.0%
                Electronically

           GOAL 3: Provide Domestic and Global Leadership to Improve Intellectual Property Policy, Protection and Enforcement
           Worldwide

               Percentage of prioritized countries for which                   N/A           75.0%         100%          75.0%         75.0%         100%
               country teams have made progress on at least
               75% of action steps in the country-specific ac-
               tion plans along the following dimensions:
               1. institutional improvements of IP office admin-
                  istration for advancing IP rights,
               2. institutional improvements of IP enforcement
                  entities,
               3. improvements in IP laws and regulations, and
               4. establishment of government-to-government
                  cooperative mechanisms.
               The performance result of a given measure is either   Met (100 percent or greater of target),           Slightly Below (95 to 99 percent of
               the target), or Not Met (below 95 percent of target).
               N/A: Denotes new performance measures where data was not available.
           1
               This is preliminary data and is expected to be final after the publication of this report and will be reported in the FY 2014 PAR.




14
     PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                            MANAGEMENT’S DISCUSSION AND ANALYSIS




What is a patent?
A patent is an intellectual
property right granted by the
government of the United States
of America to an inventor “to
exclude others from making,
using, offering for sale, or selling
the invention throughout the
United States or importing the
invention into the United States”
for a limited time in exchange
for public disclosure of the
invention when the patent is
granted.
                                       A patent drawing of a sneaker sole. On the
There are three types of patents     left side: a woman running during sunrise.
– utility, design and plant. Utility
patents may be granted to anyone who invents or discovers any new and
useful process, machine, article of manufacture, or composition of matter,
or any new and useful improvement thereof. Design patents may be
granted to anyone who invents a new, original, and ornamental design for
an article of manufacture. Plant patents may be granted to anyone who
invents or discovers and asexually reproduces any distinct and new variety
of plant.

For a detailed look at how the patent application examination process
works, please visit this site:

www.uspto.gov/patents/process/




                  PATENTS: Strategic Goal 1


                                                                                                        15
                                                                                        www.uspto.gov
         MANAGEMENT’S DISCUSSION AND ANALYSIS




         Below are performance trends for Strategic Goal 1 measures. The Patent Quality Composite Score Measure
         is new and does not yet have sufficient data to show a trend.


                                                             Patent Average First Action Pendency

                  30                                                                        28.0
                                       26.9              27.5              25.7

                                                                                                                 22.6
                                       25.6              25.8              25.4
                  20                                                                          23.0                                 18.2                      Target
                                                                                                                 21.9
                                                                                                                                                             Actual
                                                                                                                                   18.0


                  10
                                     FY 2008           FY 2009            FY 2010           FY 2011            FY 2012           FY 2013

           Trend: Trends are positive from FY 2008 to FY 2013. Additional discussion for this metric can be found on page 21.




                                                                  Patent Average Total Pendency

                  40                                      37.9
                                       34.7                                 35.3               34.8              34.7
                                                                                                                                   30.1
                  30                                      34.6              34.8               33.7
                                       32.2                                                                      32.4
                                                                                                                                   29.1                     Target

                  20                                                                                                                                        Actual



                  10
                                     FY 2008            FY 2009           FY 2010            FY 2011           FY 2012            FY 2013

           Trend: Trends are positive from FY 2008 to FY 2013. Additional discussion for this metric can be found on page 21.




                                                            Patent Applications Filed Electronically

                100%                                                                         93.1%           97.1%               98.1%
                                                                           90.0%
                                                         82.4%                                                                   98.0%
                                       71.7%                                                92.0%             96.0%
                 80%                                                       89.5%
                                                          80.0%
                 60%                    69.0%
                                                                                                                                                            Target
                 40%
                                                                                                                                                            Actual
                 20%

                  0%
                                     FY 2008           FY 2009           FY 2010           FY 2011           FY 2012            FY 2013

           Trend: Trends are positive from FY 2008 to FY 2013. This measure has served its purpose and is expected to be discontinued after FY 2013. Additional
           discussion for this metric can be found on page 22.




16
     PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                          MANAGEMENT’S DISCUSSION AND ANALYSIS




Strategic Goal 1: Optimize Patent Quality and Timeliness
This year was one of both accomplishments and              migrated from a first-to-invent system to a first-
challenges for the Patent organization.                    inventor-to-file system. This migration harmonizes
                                                           U.S. law with other industrialized nations and gives
Through five executive actions, the White House in         greater certainty regarding patent rights. Accord-
early June announced several major steps to im-            ingly, America’s innovators are seeing the benefits
prove incentives for future innovation in high tech        of the AIA.
patents, a key driver of economic growth and
good-paying American jobs. The USPTO is respon-            The USPTO continued to engage in efforts to im-
sible for executing four of the initiatives: begin a       prove the patent examination process, enabling
rulemaking process to require patent applicants            important innovations to move more quickly to the
and owners to regularly update patent ownership            marketplace. The agency continues to make sig-
information; develop and commence training for             nificant progress in reducing the unexamined pa-
patent examiners on scrutiny of functional claim           tent application backlog. From a high of 764,000
language; provide an accessible, plain English on-         in January 2009, the agency has decreased this
line portal that will answer key questions for small       backlog to approximately 584,998 by the end of FY
businesses and enterprising individuals; and finally,      2013, a 31 percent reduction. Our total pendency
expand dedicated stakeholder outreach through              was reduced to 29.1 months and our first action
round table events and partnerships, such as the           pendency was reduced to 18.2 months, much
Software Partnership Initiative. This particular initia-   lower than the previous year. Prior to sequestra-
tive is an opportunity to bring stakeholders together      tion, the USPTO was on target to meet its patent
through a series of roundtable discussions to share        application pendency goal of 10 months to first
ideas, feedback, experiences, and insights on              action by 2016 and 20 months total patent appli-
software-related patents. The International Trade          cation pendency by 2017.
Commission (ITC) is responsible for the fifth initia-
tive, strengthening enforcement process of exclu-          The USPTO also was on track to reach an optimal
sion orders.                                               working level inventory in FY 2016. However, as a
                                                           result of the reduced fee availability this year due
The agency successfully and timely completed its           to sequestration and the need to halt most patent
implementation of all new statutory provisions of          examiner hiring, the agency will not achieve these
the America Invents Act (AIA) by March. In par-            Administration priority goals within these time
ticular, the agency established procedures for a           frames.
third party to submit potential prior art to the exam-
iner in a pending patent application to assist an          OBJECTIVE 1: Re-engineer Patent Process
examiner in determining the patentability of a             to Increase Efficiencies and Strengthen
claimed invention. Numerous third parties have             Effectiveness
used this procedure as the agency has received
                                                           The USPTO is realizing benefits from the success of
several hundred prior art submissions, and exam-
                                                           various initiatives, pilots, and operational improve-
iners have made rejections based on those sub-
                                                           ments. The agency has moved from a one-track
missions in several instances. Likewise, FY 2013
                                                           patent examination process to a multi-track pro-
marked the first complete year in which the agen-
                                                           cess by adopting procedures and initiatives that
cy executed the three types of administrative trials
                                                           incentivize the abandonment of applications that
to enable a third party to challenge an issued pa-
                                                           are not important to applicants; accelerate de-
tent before the agency in lieu of the federal district
                                                           ployment of critical information technologies; per-
courts. The agency has granted many petitions
                                                           mit an applicant to accelerate applications; and
filed by several hundred third parties to initiate the-
se administrative trials. Further, the agency has




                                                                                                                        17
                                                                                                        www.uspto.gov
         MANAGEMENT’S DISCUSSION AND ANALYSIS




         explore other incentive and accelerated examina-        In the QPIDS program, when an examiner deter-
         tion options. Specific initiatives include:             mines that no item of information in the Information
                                                                 Disclosure Statement (IDS) necessitates reopening
         Prioritized Examination - Track One                     prosecution, the USPTO will issue a corrected notice
                                                                 of allowability and the application is returned to
         The USPTO published a final rule to implement
         Track One of the "Three-Track" initiative on April 4,   the publications cycle. Only those applications in
         2011, and began accepting applications under            which the IDS necessitates a reopening of prosecu-
         Track One on September 26, 2011. The goal is to         tion are processed as RCEs.
         provide a final disposition within twelve months, on    The goal of AFCP 2.0 is to reduce the number of
         average, once prioritized status is granted and of-     RCEs and by encouraging increased collaboration
         fers small businesses a discount on this option.        between the applicant and the examiner to effec-
         Since its inception, the agency received over           tively advance prosecution of the application. The
         11,700 Track One patent applications, and more          revised procedure focuses the pilot on review of
         than 4,700 entrepreneurs have taken advantage of        proposed claim amendments and allows the
         these discounted fees. The agency completed             USPTO to better evaluate the pilot. Examiners con-
         more than 8,200 first actions on Track One exami-       tinue to use their professional judgment to decide
         nations in an average of 62 days, mailed over           whether the response can be fully considered un-
         2,900 allowances, and issued more than 2,700 pa-        der AFCP 2.0.
         tents.

         Quick Path Information Disclosure Statement
         (QPIDS) and After Final Consideration Pilot
         (ACFP) 2.0

         One way the USPTO is achieving its goal to optimize
         pendency and achieve an appropriate working
         inventory is through reducing our backlog of pa-
         tent applications associated with a Request for
         Continued Examination (RCE). An RCE is a request
         by an applicant to reopen prosecution of the pa-
         tent application after prosecution is closed. There
         is currently a backlog of 78,272 applications relat-
         ed to RCEs, and this backlog diverts our resources       “My client decided to take advantage of Track One
         from examination of new applications. We received        because we believed infringement by a competitor was
                                                                  imminent. We filed using Track One and received a first
         input from the public on the many reasons why an
                                                                  Office Action on the merits two months later. Our exam-
         RCE is filed, allowing us to design new programs
                                                                  iner was exceptional. The Office Action was thoughtful
         and initiatives aimed at reducing the need for an        and complete; the prior art search was thorough. We
         RCE.                                                     were able to secure for our client a Notice of Allowance
                                                                  less than three months after the initial filing date. The
         The Quick Path Information Disclosure Statement          patent was issued six weeks later. I have nothing but
         (QPIDS) pilot program and the After Final Consid-        good things to say about both of my Track One experi-
         eration Pilot (AFCP) 2.0 are two initiatives that we     ences. My thanks to the USPTO for taking this initiative."
         implemented to reduce the RCE backlog. The
                                                                  For other testimonials about Track One, please visit:
         QPIDS pilot program has already helped the agen-
                                                                  www.uspto.gov/patents/init_events/track_one_testimonials.jsp
         cy avoid over 1,100 RCEs.




18
     PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                        MANAGEMENT’S DISCUSSION AND ANALYSIS




Cooperative Patent Classification (CPC)

A new chapter opened in global classification of
patent documents this year. A collaborative, inter-
nationally-compatible    classification  system—
Cooperative Patent Classification (CPC)—was es-
tablished between the USPTO and the European
Patent Office (EPO) for cataloging technical and
patent documents used in the patent-granting
process.

Since the beginning of 2013, the USPTO has been in
a two-year transition period in which we will move
toward full use of CPC. Examiners are receiving
extensive training enabling them to effectively
search in CPC and place CPC symbols 1 on pub-
lished patent applications and granted patents.          Derris Banks, Group Director of Technology Center 2600,
Over 8 million U.S. patent documents already con-        speaks to Cooperative Patent Classification community
taining CPC symbols result in a more comprehen-          stakeholders.

sive search of prior art. Once fully implemented,
our examiners will classify and search in CPC.          The AIA, signed into law by President Obama on
                                                        September 16, 2011, requires the USPTO to establish
CPC is the future of classification for the USPTO and   three satellite locations by September 16, 2014. The
the EPO. Together, we are engaging other IP offices     satellite offices will function as hubs of innovation
to expand the use of CPC and are exploring future       and creativity, helping protect and foster American
enhancements to the CPC system. By joining to-          innovation in the global marketplace, and creating
gether and sharing resources with the EPO, CPC          hundreds of highly-skilled jobs in each of the local
will provide far-reaching benefits to our employees,    communities. The first USPTO satellite office, the
stakeholders, and the international patent classifi-    Elijah J. McCoy Satellite Office, opened in Detroit,
cation community.                                       Michigan, on July 13, 2012. The Detroit office is the
                                                        first of four announced USPTO satellite offices, each
OBJECTIVE 2: Increase Patent Application
                                                        of which will save critical time and resources. All
Examination Capacity
                                                        four locations: Detroit; Denver, Colorado; Silicon
The USPTO continues to increase its examination         Valley, California; and Dallas, Texas, currently have
capacity by employing new recruitment and de-           offices staffed by Patent Trial and Appeal Board
velopment models to hire, train, and retain a high-     (PTAB) judges, who are helping reduce the board’s
ly-skilled and diverse workforce.                       inventory of appeal cases and AIA trials. The
                                                        PTAB’s nationwide presence will allow applicants
As part of our effort to modernize the United States    and their attorneys to appear for hearings from our
patent system, we implemented a Nationwide              satellite locations, which will minimize costs of court
Workforce Program that directly expands the em-         appearances. Directors are in place in the Detroit
ployment candidate pool, minimizes real estate          and Silicon Valley offices.
costs associated with workforce expansion, and
expands the national presence of the USPTO for          Given our current budget constraints under se-
enhanced interaction with the IP community.             questration, efforts to move into permanent spaces
                                                        for three locations - Denver, Silicon Valley, and Dal-
                                                        las - have been delayed. We continue to operate
                                                        and engage local stakehodlers about IP rights and
1
    Internationally compatible search symbols.          awareness from the temporary spaces.



                                                                                                                         19
                                                                                                         www.uspto.gov
         MANAGEMENT’S DISCUSSION AND ANALYSIS




         Detroit                                                     The presence of the office in this important hub of
                                                                     American innovation has increased the agency’s
         As the agency’s very first satellite office, Detroit rep-   ability to support innovators; and provide the Mid-
         resents a historic achievement for the USPTO. The           west IP community resources that enable inventors
         Detroit team is meeting and exceeding the needs             to better understand, obtain, maintain, and com-
         of the agency and a community of innovators.                mercialize their IP rights.
         The Detroit office expands our capacity and aids            The Detroit office offers workshops and seminars
         productivity, despite tough budgetary constraints.          that provide local businesses and inventors
         Through increased outreach efforts with entrepre-           knowledge to develop, license, and distribute
         neurs and innovators throughout the Midwest, the            technologies and services. Numerous outreach
         USPTO stays attuned to the needs of the area’s              events and several “Saturday Seminars” have been
         unique ecosystem of creativity and enterprise.              held for local inventors and entrepreneurs, ena-
         By tapping into local talent to hire and train 100          bling them to learn more about patents and
                                                                     trademarks.
         new patent examiners in Detroit, the team at this
         office helped us achieve our goal of reducing the           The Detroit office provides us opportunities to foster
         backlog of unexamined patent applications. Since            new partnerships with organizations such as the
         opening, the Detroit office has already issued sev-         Henry Ford Museum and the Auto Harvest Founda-
         eral thousand First Office Actions.                         tion. The office also partners with regional inventor
                                                                     associations to raise awareness of key tools and
         The Detroit office also expanded the PTAB by hiring
                                                                     resources that empower businesses of all sizes to
         new judges from the region with plans in place to
         add more. This increase in staff will help the agen-        grow and protect their products and services in a
         cy reduce its inventory of appeal cases and AIA             global economy.
         trials. The PTAB’s nationwide presence will allow
                                                                     OBJECTIVE 3: Improve Patent Pendency and
         applicants and their attorneys to appear for hear-
                                                                     Quality by Increasing International
         ings from our satellite locations, which will minimize
                                                                     Cooperation and Work Sharing
         costs of court appearances. It also allows practi-
         tioners to more readily access and navigate the             Patent processing times are primarily gauged by
         patent appeals process.                                     two measures – Average First Action Pendency
                                                                     (Table 3) and Average Total Pendency (Table 4).
                                                                     Average First Action Pendency is the average
                                                                     length of time it takes from filing until an examiner’s
                                                                     initial determination of the patentability of an in-
                                                                     vention. Average Total Pendency is the average
                                                                     length of time it takes from filing until the applica-
                                                                     tion is issued as a patent or is abandoned by the
                                                                     applicant. Although financial adjustments brought
                                                                     on by budget sequestration and updated esti-
                                                                     mates of fee revenue early in the year impacted
                                                                     our ability to achieve both FY 2013 pendency tar-
                                                                     gets, we continue to make some progress in reduc-
                                                                     ing patent pendency.

                                                                     The Patent Prosecution Highway (PPH) continues to
                                                                     be a successful work sharing vehicle, delivering
           The Detroit, Michigan building hosting the USPTO’s        prosecution advantages to both users and IP offic-
           satellite office.                                         es. PPH provides users reduced numbers of office




20
     PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                        MANAGEMENT’S DISCUSSION AND ANALYSIS




actions, lower costs, higher grant rates, and faster     by partnering with new offices and conducting
prosecution, and they are all factors that drive the     stakeholder outreach (the USPTO currently has PPH
growth of the program.                                   agreements with 26 other IP offices). As of the end
                                                         of FY 2013, the USPTO has received over 20,000 ap-
Table 3                                                  plications within the PPH program since its incep-
               Measure: Patent Average                   tion, with over 6,500 of these coming in FY 2013.
           First Action Pendency (Months)                The USPTO is receiving approximately 550 requests
    FISCAL YEAR        TARGET            ACTUAL          per month, a 22 percent increase over the previous
        2009             27.5             25.8           fiscal year.
       2010              25.4              25.7
       2011              23.0              28.0
                                                         Since its inception in FY 2011, the Patent Coopera-
       2012              22.6              21.9
                                                         tion Treaty (PCT) - PPH program has become a
                                                         contributing force to the increased growth of the
       2013              18.0              18.2
                                                         overall PPH program. For over one year, the majori-
       2014             17.11

                                                         ty of new PPH requests at the USPTO have come in
       2015             15.11
Target slightly below.
                                                         through the PCT-PPH work sharing route. For more
1
 Outyear targets subject to change                       about PCT-PPH, please see the discussion in Goal 3.

                                                         All participating offices work together to streamline
Table 4
                                                         and improve the program. Most recently, the
              Measure: Patent Average
                                                         USPTO and 12 other offices agreed to a new PPH
              Total Pendency (Months)
                                                         pilot, simplifying the program for users by adhering
    FISCAL YEAR         TARGET           ACTUAL          to a common set of guidelines and a single re-
        2009             37.9             34.6           quest form. This is a major achievement for the
       2010              34.8               35.3         USPTO and its partners, as the 13 offices account
       2011              34.5               33.7         for approximately 90 percent of global PPH usage.
       2012              34.7               32.4         Details of the pilot are under negotiation among
       2013              30.1               29.1         the offices, and it is expected to launch in January
       2014              26.11                           2014.
       2015              25.71
Target met.                                              OBJECTIVE 4: Measure and Improve Patent
1
 Outyear targets subject to change                       Quality

PPH metrics to highlight include:                        Improving patent quality was a key element in
                                                         building bipartisan support for the AIA.
•    An allowance rate of approximately 90 per-
     cent, significantly higher than the overall USPTO   The USPTO continues to leverage a more robust
     average allowance rate;                             quality measure, the Patent Quality Composite
                                                         Score. This quality composite metric is composed
•    A lower-than-average average appeal rate of         of seven total factors that take into account stake-
     0.4 percent versus the overall USPTO average        holder comments, including three factors drawn
     appeal rate of 3.0 percent; and                     from the USPTO’s previous quality measurement
                                                         procedures, and four additional factors that focus
•    A 13.0 percent rate of requests for continued
                                                         upon data never before acquired and/or em-
     examination versus the average rate of 29.6
                                                         ployed for quality measurement purposes. The fac-
     percent.
                                                         tors measure: (1) the quality of the action setting
Because of these advantages over traditional             forth the final disposition of the application; (2) the
proceution paths, usage of PPH has grown in popu-        quality of the actions taken during the course of
larity. The USPTO continues to expand the program        the examination; (3) the perceived quality of the




                                                                                                                        21
                                                                                                        www.uspto.gov
         MANAGEMENT’S DISCUSSION AND ANALYSIS




         patent process, as measured through external            share their technical knowledge on prior art and
         quality surveys of applicants and practitioners; (4)    industry standards in areas of emerging and estab-
         the quality of the examiner’s initial search; (5) the   lished technologies. The PETTP provides an excel-
         degree to which the first action on the merits fol-     lent opportunity for communication between pa-
         lows best examination practices; (6) the degree to      tent examiners and the experts who work in the
         which global USPTO data on patent examination           various technologiyy USPTO examiners encounter.
         activities is indicative of compact, robust prosecu-    This enhanced communication contributes to im-
         tion; and (7) the degree to which patent prosecu-       proving overall patent quality and decreasing pa-
         tion quality is reflected in the perceptions of the     tent pendency.
         examination corps as measured by internal quality
         surveys. Table 5 exhibits our recent progress on this   Table 5
         measure. Note that FY 2011 was the baseline year.             Measure: Patent Quality Composite Score
         For more information on the Patent Quality Com-             FISCAL YEAR        TARGET           ACTUAL
         posite, please visit www.uspto.gov/about/ adviso-               2011             N/A             30.7
         ry/ppac/20130314_PPAC_QualityComposite.pdf.                    2012              48-56            72.4
                                                                        2013              65-73            71.9
         Table 6 provides the relative cost effectiveness of
                                                                        2014              83-91
         the entire patent examination process over time, or
                                                                        2015              100
         the efficiency with which the organization applies
                                                                 Target met.
         its resources to production.

         We are continuously reaching out to our stake-          Table 6
         holders for feedback regarding quality.          Our                  Measure: Total Cost Per
         roundtable discussions and partnership meetings                       Patent Production Unit
         provide opportunities for applicable stakeholders           FISCAL YEAR        TARGET           ACTUAL
         to improve their understanding of facts, and per-               2009            $3,562           $3,523
         haps reconsider their activities. Moreover, this out-          2010             $3,530           $3,471
         reach provides us input that enables us to contin-             2011             $4,041           $3,594
         ually improve and to ensure both consistency and               2012             $3,970           $3,617
         correctness at the individual case level. Town Hall            2013             $4,041           $3,686
         meetings with examination staff and management                 2014            $4,4251
         help pinpoint where the USPTO could benefit from               2015            $4,0281
         additional training. All of this is continuing to en-   Target met.
         sure correct examination decisions across the           1
                                                                  Outyear targets subject to change
         board.
                                                                 In addition, the Office of Patent Training (OPT) pro-
         In providing more effective training on quality, the
                                                                 vided a two-phase training program to new super-
         USPTO enhances patent examination fundamen-
                                                                 visory patent examiners which offers coaching and
         tals, communication, and cooperation between            mentoring, leadership and software training mod-
         the examiner and applicant. The USPTO utilizes          ules to foster employee engagement and help pa-
         highly successful training and refresher training       tent examiners reach their full potential. Patent
         programs that encompass over 20 modules de-
                                                                 managers and supervisors will continue to partici-
         signed to enhance examiners’ knowledge and
                                                                 pate in a Leadership Development Program which
         skills in procedural and legal topics pertaining to
                                                                 focuses on educating and creating future agency
         patent examination. In addition, the USPTO also
                                                                 leaders. This year, the OPT received recertification
         implemented the Patent Examiner Technical Train-
                                                                 for the ISO 9001:2008, while the Office of Patent
         ing Program (PETTP) which provides patent exam-
                                                                 Quality Assurance (OPQA) maintained their certifi-
         iners with direct access to experts who are able to     cation of registration for the International Stand-




22
     PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                                 MANAGEMENT’S DISCUSSION AND ANALYSIS




ards ISO 9001:2008. The ISO 9001 quality standard
is the most widely recognized and established
quality management system framework in the
world, outlining requirements that provide the
foundation for both OPQA and OPT to meet stake-
holder expectations and achieve customer satis-
faction.

OBJECTIVE 5: Improve Appeal and Post-Grant
Processes

In its first full year of operation, and the first full year
of accepting and addressing proceedings under
the AIA, the Patent Trial and Appeal Board (PTAB)
received nearly 600 petitions to initiate AIA
proceedings. This includes petitions received
during late September 2012, when petitions under                 A demonstration of Patents End-to-End. From left to right:
the AIA could be officially submitted.                   This    Amelia Rutledge, Office of Patent Information Manage-
                                                                 ment (OPIM) Detailee, Primary Examiner, Art Unit 2177;
tremendous inflow of new proceedings is higher
                                                                 Jamie Kucab, OPIM Detailee Primary Examiner, Art Unit
than initially estimated during planning but is a                3681; Nelson Yang, Patent Business Analyst; Sharon
challenge that the PTAB eagerly accepted and                     Grubaugh, UniX Designer, Design For Context; and Arti
                                                                 Singh-Pandey, Primary Examiner, Art Unit 1786.
enthusiastically embraced.             More than 200
decisions on petitions have been issued, all within
the deadlines imposed by statute. All petitions                 In an effort to ensure the PTAB is able to meet
awaiting decision are also meeting statutory                    statutory requirements in the future, while reducing
requirements. In addition, nearly 200 trials have               the regular ex parte appeal inventory, the PTAB has
been instituted and 45 have been terminated,                    endeavored to take all possible steps to maximize
again, all within statutory deadlines.                          its ability to issue decisions on all areas of its
                                                                jurisdiction,  this  includes    realigning    board
While the workload resulting from a steadily                    operations to improve efficiency, continued
increasing number of AIA proceedings has been,                  aggressive hiring of new judges, and actively
and will continue to be a challenge for the PTAB,               working with the patent examiner corps to find new
the board issued a record number of appeals                     and innovative ways for patent examiner resources
decisions in FY 2013: 12,250.          Due to the               to assist PTAB judges in issuing timely, quality
outstanding efforts of the Administrative Patent                decisions.
Judges and staff at the PTAB, and despite the
additional workload caused by the intake of AIA                 OBJECTIVE 6: Develop and Implement the
proceedings, the inventory of ex parte appeals has              Patent End-to-End Processing System
remained essentially stable and is currently below
the level it was at the end of FY 2012. While we                Patents End-To-End (PE2E) represents an extensive
expect to keep making progress, many factors will               portfolio of tools for improved processing of patent
continue to affect the reduction, including intake              applications, based on a multi-year, user-centered,
of new appeals, successful hiring in FY 2014, and               agile-development methodology. The tools under
increased intake of proceedings authorized by the               development focus on core improvement. These
AIA. All indications suggest that the PTAB will be              include migrating from an image-centered envi-
able to maintain the inventory at current levels                ronment to a structured text-centered (extensible
while still meeting statutory obligations under the             markup language (XML)) environment, integrating
AIA.                                                            functionality fragmented among multiple legacy
                                                                tools, improving analytical and searching capabili-



                                                                                                                                    23
                                                                                                                    www.uspto.gov
         MANAGEMENT’S DISCUSSION AND ANALYSIS




         ties, automating laborious and repetitive tasks, and      gpsn.uspto.gov/.     In addition to providing a
         providing a modern application architecture to            framework for broader international patent search
         satisfy agency needs for scalability and reliability in   capabilities, the project provides a test-bed for
         the face of an ever-increasing workload.                  deployment of the new PE2E patent search system,
                                                                   which has been delayed due to the sequestration
          Table 7                                                  as well.
                       Measure: Patent Applications
                           Filed Electronically                    In 2013, the OCIO deployed additional functionality
                                                                   to transmit USPTO patent data to our partner IP5
            FISCAL YEAR            TARGET            ACTUAL
                2009                80.0%             82.4%        offices – EPO, SIPO, Korean Intellectual Property Of-
                2010                90.0%             89.5%        fice (KIPO), and Japan Patent Office (JPO). This
                2011                92.0%             93.1%
                                                                   reduces the workload for patent examiners around
                2012                96.0%             97.1%
                                                                   the world when they are examining applications
                                                                   that are members of the same patent family.
                2013                98.0%             98.1%
          Target met. Metric to be discontinued after FY 2013.
                                                                   CPC is a partnership between the USPTO and the
                                                                   EPO to harmonize patent classification between
         The use of electronic filings as shown in Table 7 has
                                                                   offices under a single standard. This required the
         risen to 98.1 percent. In addition to exceeding this
                                                                   USPTO to develop and deploy new core classifica-
         year’s target, this demonstrates that patent appli-
                                                                   tion functionality, system integration with legacy
         cants are almost exclusively using electronic
                                                                   search systems, and collaboration tools with the
         means for filing their patent applications. This was
                                                                   EPO.
         the original objective of this measure and it has
         served its purpose. FY 2013 will be the final year for    Supporting this classification system required adap-
         this metric.                                              tations to legacy systems and data within the
                                                                   USPTO, which were made and deployed in 2013,
         The Text2PTO projects aim to allow and promote
                                                                   including collaboration tools to facilitate joint clas-
         text submissions of patent applications from appli-
                                                                   sification between the USPTO and EPO as well as
         cants. It will provide applicants with a suite of pre-
                                                                   tools to allow the examiners to use CPC.
         submission tools to analyze and validate applica-
         tions. Planning for Text2PTO began in 2012, and           Management
         outreach to the IP community has been conducted
         to vet different approaches, understand applicant         To achieve organizational excellence, the Patent
         needs, and communicate the advantages of text-            organization is striving to improve employee and
         based submission. Early in FY 2013, the USPTO pro-        stakeholder relations. Several initiatives are under
         vided a demonstration of a text-submission proto-         way.
         type. Text2PTO was suspended this year due to
                                                                   The USPTO is committed to being an employer of
         sequestration.
                                                                   choice, and employees play a critical role in sup-
         As the first major step in allowing examiners to          porting that effort. The Employee Viewpoint Survey
         search a broad range of international patent data,        (EVS) measures USPTO employees’ opinions re-
         the Office of the Chief Information Officer (OCIO)        garding their work environment, including areas
         this year deployed functionality to enable                such as job satisfaction, personal work experience,
         searching of Chinese patents from 1985 to 2012            training, and leadership. Over the last five years,
         provided by the Chinese State Intellectual Property       we have implemented improvements that have
         Office (SIPO) in XML format. Search results include       helped us climb steadily from number 172 to num-
         the original text of the patents, the machine-            ber 5 in the Partnership for Public Service’s (PPS)
         translated text of the patents, and an image of the       “Best Places to Work in Federal Government” rat-
         original patent.      The search is available at          ings index. This year the USPTO’s participation rate




24
     PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                      MANAGEMENT’S DISCUSSION AND ANALYSIS




was 71 percent which exceeded our goal of 70            cifically, when there is a breakdown in the normal
percent.                                                application process, including before and after
                                                        prosecution, the Patents Ombudsman Program
Our RCE outreach effort included a series of events     can assist in getting the application back on track.
to share ideas, feedback, experiences, and in-
sights on RCE-related prosecution strategies. Each      Lastly, there are a limited but growing number of
event consisted of a roundtable discussion and a        regional pro bono programs to assist financially
focus session. Roundtable discussion topics were        under-resourced inventors and small businesses in
generally directed toward learning root causes for      the United States, but many additional programs
RCE filings, the role of RCE practice in patent pros-   are anticipated to become operational over the
ecution, prosecution strategies to reduce the need      next year or two. An online portal for placing in-
for RCE filings, and recommendations for changes        ventors into the current regional pro bono patent
in USPTO procedures to reduce the need for RCE          legal programs has been developed. This portal
filings. Roundtable participants had the opportuni-     serves as a clearinghouse and is operated by the
ty to speak about these or related topics.              Federal Circuit Bar Association.

Now in its third year, the Patents Ombudsman Pro-
gram enhances the USPTO's ability to assist appli-
cants or their representatives with issues that arise
during patent application prosecution. More spe-




                                                                                                                    25
                                                                                                    www.uspto.gov
         MANAGEMENT’S DISCUSSION AND ANALYSIS




26
     PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                        MANAGEMENT’S DISCUSSION AND ANALYSIS




What is a trademark or service mark?
 A trademark or service
mark is a word, name,
symbol, device, or any
combination, used to iden-
tify and distinguish the
goods and services of one
seller or provider from those
of others, and to indicate
the source of the goods
and services.        Although
federal registration of a
mark is not mandatory, it
has several advantages,
including notice to the
public of the registrant’s
claim of ownership of the
mark, legal presumption of
ownership nationwide, and
                                Trademark presentation at the Trademark Expo.
a presumption of the ex-
clusive right to use the
mark on or in connection with the goods and services listed in the registra-
tion. Recordation of a registered trademark with U.S. Customs and Border
Protection enables the owner to stop infringing goods from entering the
United States.

For a look at the steps involved for obtaining a trademark from the USPTO,
please visit this site: www.uspto.gov/trademarks/process/




   TRADEMARKS: Strategic Goal 2


                                                                                                    27
                                                                                    www.uspto.gov
         MANAGEMENT’S DISCUSSION AND ANALYSIS




         Below are those Strategic Goal 2 measures for which enough data is available to establish performance
         trends. The Exceptional Office Action Measure is relatively new and has insufficient data to show a trend.

                                                          Trademark Average First Action Pendency
               4                        3.5               3.5                                                                             3.5
                                                                               3.5               3.5                   3.5
                                        3.0              2.7                   3.0
                                                                                                      3.1                   3.2              3.1    Target
               2                      2.5                2.5               2.5                   2.5                   2.5                  2.5     Actual



               0
                                 FY 2008            FY 2009            FY 2010               FY 2011              FY 2012             FY 2013

           Trend: Trends are stable. Additional discussion for this metric can be found on page 29.



                                                                Trademark Average Total Pendency
              16                    14.3
                                                        13.0             13.0                 12.5                                   12.0
                                                                                                                     12.0
              12
                                    11.8              11.2              10.5                   10.5                                                Target
                8                                                                                                    10.2             10.0
                                                                                                                                                   Actual
                4

                0
                                 FY 2008            FY 2009            FY 2010               FY 2011            FY 2012             FY 2013

           Trend: Trends are positive from FY 2008 to FY 2013. Additional discussion for this metric can be found on Page 30.



                                                           Trademark First Action Compliance Rate
             98%
                                                       96.4%            96.6%                 96.5%                  96.2%            96.3%
                                   95.8%
             96%
                                     95.5%             95.5%             95.5%                95.5%                  95.5%           95.5%         Target
             94%
                                                                                                                                                   Actual
             92%

             90%
                                  FY 2008           FY 2009            FY 2010               FY 2011             FY 2012            FY 2013

           Trend: Trends are positive from FY 2008 to FY 2013. Additional discussion for this metric can be found on Page 30.


                                                                 Trademark Final Compliance Rate
             98%

                                                                                                             97.1%                97.1%
                                      97.6%                    97.0%                 97.0%
             97%                                                                                                                                   Target
                                       97.0%                                                                 97.0%                 97.0%
                                                                                 97.0%                                                             Actual
                                                             96.8%
             96%
                                     FY 2009              FY 2010                FY 2011                    FY 2012               FY 2013

           Trend: Trends are stable. Additional discussion for this metric can be found on page 30.



                                                     Trademark Applications Processed Electronically
              80%                                                                                      77.0%                          79.0%
              75%                                                                    73.0%
                                                               68.1%                                                               76.0%
              70%                                                                                            74.0%
                                      62.0%                                                                                                        Target
              65%                                                                    68.0%
              60%                                              65.0%                                                                               Actual
              55%                     62.0%
              50%
                                     FY 2009               FY 2010               FY 2011                    FY 2012               FY 2013

           Trend: Trends are positive from FY 2009 to FY 2013. Additional discussion for this metric can be found on page 33.




28
     PERFORMANCE AND ACCOUNTABILTIY REPORT FY 2013
                                                                        MANAGEMENT’S DISCUSSION AND ANALYSIS




Strategic Goal 2: Optimize Trademark Quality and Timeliness
We have experienced a global expansion of trade
within and among states and countries over the
years, resulting in sustained economic growth and
prosperity. Trade greatly benefits from and de-
pends on a strong intellectual property (IP) system.
Throughout recorded history, trademarks have
served this function and allowed inventors and
businesses to brand and differentiate the source
and quality image of their product and service of-
ferings. With globalization, trademarks are becom-
ing more valuable as business assets serving to
strategically position a company and cement its
client base. By registering trademarks, the USPTO
plays an instrumental role in enhancing consumer
protection and safeguarding brands and their re-
lated investments.
                                                         Trademark Expo, October 2012.
The Trademark organization has met and exceed-
ed its performance targets for several years now,
                                                        processing tools and systems, and enhanced out-
and continues to leverage and expand its invest-
                                                        reach and stakeholder engagements. The Trade-
ments in human capital, process reengineering,
                                                        mark Electronic Application System (TEAS) electron-
and information technology.
                                                        ic filing levels are at record highs of more than 99
OBJECTIVE 1: Maintain Trademark First Action            percent. TEAS Plus, which represents electronic ap-
                                                        plications that meet stricter filings requirements,
Pendency on Average between 2.5-3.5 Months
                                                        comprises more than 33 percent of all new appli-
with 12.0 Months for Final Pendency
                                                        cation filing. With more TEAS Plus filings, applica-
Despite the inherent uncertainty and volatility of      tions at filing are more complete; and have higher
trademark filings, first action pendency—the length     quality which translates to higher and faster ap-
of time between receipt of a trademark application      provals upon first action.
and when the USPTO makes a preliminary decision
—remains well within the optimum range of 2.5 to        Table 8
3.5 months. This range reflects our external and                   Measure: Trademark Average
internal stakeholders’ need for expediency, quality,              First Action Pendency (Months)
operational effectiveness, and cost efficiency. Re-       FISCAL YEAR          TARGET           ACTUAL
sults are contained in Table 8. Average total pen-            2009            2.5 to 3.5          2.7
dency—the average number of months from date                  2010            2.5 to 3.5           3.0
of filing to notice of abandonment, notice of allow-          2011            2.5 to 3.5           3.1
ance, or registration —is equally impressive at 10.0          2012            2.5 to 3.5           3.2
months for applications not involved in inter partes          2013            2.5 to 3.5           3.1
proceedings or previously suspended. See Table 9              2014            2.5 to 3.5
for FY 2013 results.                                          2015            2.5 to 3.5
                                                        Target met.
Maintaining low pendency requires appropriate
staffing and hiring, sustained productivity, continu-
ous support and expansion of electronic filing and




                                                                                                                     29
                                                                                                     www.uspto.gov
         MANAGEMENT’S DISCUSSION AND ANALYSIS




          Table 9                                                 Table 10
                        Measure: Trademark Average                           Measure: Trademark First Action
                         Total Pendency (Months)                                   Compliance Rate
            FISCAL YEAR            TARGET            ACTUAL         FISCAL YEAR          TARGET            ACTUAL
                2009                13.0              11.2              2009              95.5%             96.4%
                2010                 13.0             10.5              2010              95.5%             96.6%
                2011                 12.5             10.5              2011              95.5%             96.5%
                2012                 12.0             10.2              2012              95.5%             96.2%
                2013                 12.0             10.0              2013              95.5%             96.3%
                2014                 12.0                               2014              95.5%
                2015                 12.0                               2015              95.5%
          Target met.                                             Target met.


         OBJECTIVE 2: Continuously Monitor and                    Table 11
         Improve Trademark Quality                                              Measure: Trademark Final
                                                                                   Compliance Rate
         The quality of first actions exceeded the 95.5 per-
         cent compliance target and the quality of final ac-        FISCAL YEAR          TARGET            ACTUAL
                                                                        2009              97.0%             97.6%
         tion exceeded the 97 percent target. The quality of
                                                                        2010              97.0%             96.8%1
         office actions is measured through an evaluation
                                                                        2011              97.0%             97.0%
         of the substantive decisions on the legal registrabil-
                                                                        2012              97.0%             97.1%
         ity of a mark. The quality targets reflect the high
                                                                        2013              97.0%             97.1%
         standards set by the Trademark organization, as
                                                                        2014              97.0%
         well as a commitment to improve quality through
         enhanced training and communication, promo-                    2015              97.0%
         tion of electronic filing and processing, and greater    Target met.
                                                                  1
                                                                   Within the target range of 97.0% considering the mar-
         use of online tools. See Tables 10 and 11 for FY
                                                                  gin of error of (+/- 0.6%)
         2013 results.

         The efficiency measure (Table 12) is calculated by       Table 12
         dividing total expenses associated with the exami-               Measure: Total Cost Per Trademark
         nation and processing of trademarks (including                            Office Disposal
         associated overhead and allocated expenses) by             FISCAL YEAR          TARGET            ACTUAL
         outputs or office disposals. The measure is a rela-            2009              $639              $474
         tive indicator of the efficiency of the trademark              2010               $607              $520
         process and related services over time; it does not            2011               $650              $541
         represent the unit cost of a trademark since office            2012               $607              $560
         disposals are only one measure among many                      2013               $609              $552
         products and services that the USPTO performs                  2014              $6201
         each year.                                                     2015              $6031
                                                                  Target met.
         The newer and more comprehensive measure of
                                                                  1
                                                                   Outyear targets subject to change
         quality, the exceptional office action, indicates the
         excellence of first office actions based on search,
         evidence, writing, and decision making. The              results illustrate the commitment of the examina-
         measure, which is evaluated by reviewing a ran-          tion staff to provide excellent service and the
         dom sample of applications, exceeds the revised          commitment of management to provide high-
         target and statutory standard for accuracy. The          quality training and mentoring to enhance stake-




30
     PERFORMANCE AND ACCOUNTABILTIY REPORT FY 2013
                                                                            MANAGEMENT’S DISCUSSION AND ANALYSIS




holder engagement and public outreach. For              on the acceptability of identifications of goods and
more information about the Exceptional Office Ac-       services in a wide range of nations. Also, the
tion, please visit the USPTO Data Visualization Cen-    USPTO continued coordination with the “TM5” 1 on
ter and www.uspto.gov/about/advisory/tpac/              the TM5 Identification of Goods and Services Pro-
tpac_2012annualrpt.pdf.                                 ject, a harmonized list of identifications of goods
                                                        and services and their classifications that would be
OBJECTIVE 3: Ensure Accuracy of                         accepted in all TM5 offices, along with any addi-
Identifications of Goods and Services in                tional national office that has “docked on” to the
Trademark Applications and Registrations                project, such as Canada, the Philippines, the Rus-
                                                        sian Federation, Mexico, and Singapore.
The USPTO improved tools offered to trademark
applicants so that they are better equipped to ac-      Finally, the Trademark organization continued its
curately identify their goods and/or services. For      pilot program requiring additional proof of use in
example, the USPTO debuted an “ID Checker” fea-         connection with a random selection of Section 8
ture in the electronic application form to help ap-     and 71 Affidavits of Continued Use to assess the
plicants assess whether their description of goods      level of accuracy of the identifications on the regis-
and/or services is consistent with language previ-      ter. Preliminary results from the pilot are expected
ously deemed acceptable in the U.S. Acceptable          to issue within six months and will provide useful
Identification of Goods and Services Manual (ID         background and facilitate further public discussion
Manual). In addition, the Trademark organization        on this issue.
enhanced its ID Manual to include more explana-
tory notes and a new optional interface that helps
focus a search on the most helpful entries. Another
resource offered to the public was a “Goods and
Services” video, which was updated and reposted
on the USPTO website as part of the Trademark In-
formation Network series that assists the public with
various aspects of the trademark process.

The USPTO also increased outreach to ensure that
its identification resources remain current and help-
ful, even in specialized industries with emerging
technologies. For example, the Trademark organi-
zation partnered with stakeholder organizations
such as the International Trademark Association
and the Intellectual Property Owners to establish
teams of industry experts on the goods and/or ser-          "Excellent presentation....The speaker was very en-
vices who will work to make sure the adequately             gaging—what a great source of information! I feel so
                                                            much more confident about this topic and the pro-
addresses the needs of particular industries. Feed-
                                                            cess of TM/SM and [registered marks]."
back from stakeholders was incorporated into
                                                            -Attendee evaluation from one of our “Trademark
USPTO examining attorney training on identification         Basics” training presentations to the public. An over-
policy and practice.                                        view of the course may be found here:
                                                            www.uspto.gov/trademarks/basics/index.jsp.
The USPTO furthered its collaboration with the inter-
national community on harmonized accurate and
acceptable identifications. The agency began            1
                                                          The "TM5" consists of the USPTO, the Japan Patent Office, the Euro-
cooperation with the World Intellectual Property        pean Community's industrial design and trademark office, the Korean
Organization (WIPO) on its WIPO Goods and Ser-          Intellectual Property Office, and the Chinese State Administration for
                                                        Industry and Commerce. These organizations collectively address
vice Manager, a database providing information          international trademarks and industrial design issues.




                                                                                                                                   31
                                                                                                                   www.uspto.gov
         MANAGEMENT’S DISCUSSION AND ANALYSIS




         OBJECTIVE 4: Enhance Operations of
         Trademark Trial and Appeal Board (TTAB)

         The Trademark Trial and Appeal Board (TTAB) host-
         ed a public roundtable discussion in November
         2012 with representatives of stakeholder organiza-
         tions regarding the use of Accelerated Case Reso-
         lution (ACR) and related “best practices” that result
         in more efficient trial case proceedings. The dis-
         cussion promoted transparency in relation to
         board operations, provided stakeholders with the
         opportunity to discuss their respective experiences
         with ACR, and included discussion of how the
         board can leverage best practices to pursue con-
         tinued process improvements for trial cases. The
         board’s attorneys and judges also continued to
                                                                 Commissioner for Trademarks, Debbie Cohn and TPAC
         emphasize and promote the benefits of ACR op-
                                                                 members at the USPTO. Back row, L to R: Linda K. McLeod,
         tions during speeches, panel discussions and            Jody Haller Drake, Cheryl L. Black, Ray Thomas, Jr., and
         through webinars. The board received suggestions        Anne H. Chasser. Front Row, L to R: Deborah A. Hampton,
                                                                 Commissioner Cohn, TPAC Chair Maury M. Tepper, III, and
         from participants about desirable subjects for dis-
                                                                 Kathryn Barrett Park,
         cussion in future roundtables, and added an e-
         mail address that allows parties to submit sugges-      board and the Court of Appeals for the Federal
         tions for ACR and related process improvements.         Circuit.    In all, this revision acknowledges
                                                                 developments in practice since the first revision of
         The TTAB continued to work closely with the
                                                                 the third edition was posted on the board’s Web
         Trademark Public Advisory Committee (TPAC) and
                                                                 page in June 2012. The board has maintained its
         stakeholders to provide more and different forms of
                                                                 commitment to make annual updates to the
         information on board performance. The board
                                                                 manual for three years. Also in FY 2013, the board
         developed a one-page summary of various
                                                                 posted chapter 1200 of the TBMP, which covers ex
         performance measures already posted on the
                                                                 parte appeal practice, for public comment in the
         board’s Web page, and which is updated on a
                                                                 Idea Scale application. The board will post a
         quarterly basis. In addition, the board developed
                                                                 portion or sections of the TBMP twice per year to
         several new dashboards that display TTAB
                                                                 receive public comments and suggestions.
         performance data in a visual manner, and posted
         these on the board’s Web page. Stakeholders             Throughout the year, the TTAB fufilled its
         have the opportunity to comment on the                  commitment to developing the law by issuing a
         dashboards via an e-mail address established for        substantial number of precedential opinions and
         that purpose.                                           orders, with 49 such decisions issued on a wide
                                                                 variety of substantive and procedural matters. The
         In June 2013, the TTAB issued the second revision of
                                                                 TTAB’s precedential decisions on ex parte appeals
         the third edition of the Trademark Board Manual of
                                                                 provide procedural and substantive guidance to
         Procedure        (TBMP):      http://www.uspto.gov/
                                                                 the trademark examining attorneys, trademark
         trademarks/process/appeal/Preface_TBMP.jsp.
                                                                 owners, and the trademark bar. The TTAB’s
         The manual was revised to incorporate new
                                                                 precedential     decisions  in   opposition   and
         material related to amendments of the Trademark
                                                                 cancellation proceedings provide guidance to
         Act, the Trademark Rules of Practice, and the
                                                                 trademark owners and the bar on procedural
         Federal Rules of Civil Procedure, as applicable, as
                                                                 matters pertaining to the Trademark Rules of
         well as many precedential decisions issued by the
                                                                 Practice, the application of the Federal Rules of




32
     PERFORMANCE AND ACCOUNTABILTIY REPORT FY 2013
                                                                        MANAGEMENT’S DISCUSSION AND ANALYSIS




Civil Procedure to board cases, and on substantive      Table 13
legal matters.                                                   Measure: Trademark Applications
                                                                    Processed Electronically
OBJECTIVE 5: Modernize Information
                                                          FISCAL YEAR          TARGET           ACTUAL
Technology (IT) System by Developing and
                                                              2009              62.0%            62.0%
Implementing the Trademark Next Generation
                                                              2010              65.0%            68.1%
IT System
                                                              2011              68.0%            73.0%
Electronic systems represent an investment in                 2012              74.0%            77.0%
mission-critical infrastructure. More than 99 percent         2013              74.0%            79.0%
of applications are filed electronically, with 79             2014              78.0%1
percent processed electronically from filing to               2015              80.0%1
disposal.     A great effort has been made to           Target met.
                                                        1
                                                         Outyear targets subject to change
maintain, enhance, and modernize the trademark
systems IT infrastructure.
                                                        OBJECTIVE 6: Develop a New Generation of
TEAS forms have been enhanced to allow for              Trademark Leaders
broader adoption, increased user-friendliness, and      This fiscal year, we also ensured the provision of
higher quality.    The First Action System for          effective tools and supervisory structure to compli-
Trademarks (FAST), which manages the internal           ment both on campus and remote workforce.
process for docketing, crediting and routing            Trademark management completed a first-ever
application processing and examination, has been        “Succession Plan” recognizing the skills and devel-
improved and redeployed to all examiners.               opment necessary for ensuring leadership continui-
                                                        ty for essential positions. A number of develop-
In FY 2013, 79 percent of applications were exclu-
                                                        mental positions were created to give aspiring
sively filed through electronic means from filing to
                                                        leaders an opportunity to act in positions of in-
disposition (Table 13). This performance result
                                                        creased management responsibility. The Trade-
demonstrates the success of our outreach efforts to
                                                        marks organization sponsored an onsite leadership
improve electronic correspondence following the
                                                        development training day in June on “employee
initial filing.
                                                        engagement” for current managers. Focus groups
While enhancement work is under way on several          were held to address findings from the “Employee
other legacy systems and functionalities, the           Viewpoint Survey” to provide a forum for better un-
Trademark organization is making great progress         derstanding and addressing survey results.
creating a modern IT infrastructure by separating
                                                        The Trademark organization also provided effective
systems that compete for resources and creating a
                                                        support and management for telework and Tele-
more economical virtual environment.            Most
                                                        work Enhancement Act Pilot Program (TEAPP) ex-
Trademark systems have been separated, making
                                                        pansion—an important component in retaining the
them more stable to operate, maintain, and
                                                        best people for our organization’s future. Trade-
migrate. The virtualization is helping reduce system
                                                        mark management worked cooperatively with un-
footprints while offering a more scalable and cost-
                                                        ion bargaining representatives to expand telework
effective IT platform. The office has successfully
                                                        opportunities. A new agreement was reached in
migrated the Trademark Status and Document
                                                        September that allows expansion of the hours that
Retrieval (TSDR) system and a novel reporting and
                                                        examining attorneys may work from home while
datamart system to the cloud. Preparations are
                                                        maintaining an office onsite. The updated guide-
nearly complete for launching the new electronic
                                                        lines, among numerous other modifications and
Official Gazette (eOG) which will automate the
                                                        clarifications, clarify use of collaboration tools to
functionality of a system that replaces a decades-
                                                        permit effective communications with a dispersed
old paper manual in the cloud as well.
                                                        workforce.



                                                                                                                     33
                                                                                                     www.uspto.gov
         MANAGEMENT’S DISCUSSION AND ANALYSIS




34
     PERFORMANCE AND ACCOUNTABILTIY REPORT FY 2013
                                                                MANAGEMENT’S DISCUSSION AND ANALYSIS




        What is the role of the USPTO and
        intellectual property policy?
        The United States Patent
        and Trademark Office
        (USPTO) advises the Pres-
        ident, through the Secre-
        tary of Commerce, and
        all federal agencies on
        national and interna-
        tional intellectual proper-
        ty policy issues, including
        IP protection in other
        countries. The USPTO’s
        Strategic Plan highlights
        these activities in the
        USPTO’s Strategic Goal 3:
        Provide Domestic and
                                     President Barack Obama speaking at the National
        Global Leadership to         Medal of Technology and Innovation Award
        Improve         Intellectual Ceremony on February 1, 2013.
        Property Policy, Protec-
        tion, and Enforcement Worldwide. The Office of Policy and External Af-
        fairs (OPEA) oversees and implements this policy role.




INTELLECTUAL PROPERTY: Strategic Goal 3



                                                                                                            35
                                                                                            www.uspto.gov
         MANAGEMENT’S DISCUSSION AND ANALYSIS




         Below is the Strategic Goal 3 measure for which sufficient data is available to establish performance trends.


           Percentage of prioritized countries for which country teams have made progress on at least 75% of action steps in the country-specific
           actions plans along the following dimensions:
                1.    Institutional improvements of IP office administration for advancing IP rights
                2.    Institutional improvements of IP enforcement entities
                3.    Improvements in IP laws and regulations, and
                4.    Establishment of government-to-government cooperative mechanisms
              120%
                                                                       100.0%                                             100.0%
              100%
                                             75.0%                                              75.0%
                80%

                60%                                                     75.0%                    75.0%                    75.0%               Target

                40%                                                                                                                           Actual
                                              50.0%
                20%

                 0%
                                            FY 2010                  FY 2011                   FY 2012                   FY 2013

           Trend: Trends are positive from FY 2010 to FY 2013. Additional discussion for this metric can be found on page 48.




36
     PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                                                MANAGEMENT’S DISCUSSION AND ANALYSIS




Strategic Goal 3: Provide Domestic and Global Leadership to
Improve Intellectual Property Policy, Protection and
Enforcement Worldwide
The Office of Policy and External Affairs (OPEA) 1
assists the Under Secretary of Commerce for Intel-
lectual Property and Director of the USPTO in advis-
ing the President, through the Secretary of Com-
merce, and federal agencies on domestic and in-
ternational IP issues.

OPEA’s work includes the following:

•    It helps formulate U.S. domestic and
     international policy regarding protection and
     enforcement of intellectual property rights, and
     promotes the development of intellectual
     property systems, nationally and internationally.

•    It consults with foreign governments and other
     U.S government agencies on the substantive
     technical analysis of intellectual property rights
                                                                                Deputy Under Secretary Teresa Stanek Rea meets with
     enforcement laws, legal and judicial regimes,
                                                                                Soowon Lee, CFO and Director General, Bureau of Gen-
     civil   and     criminal   procedures,    border                           eral Administration, Seoul National University on January
     measures, and administrative regulations                                   25, 2013.
     relating to the enforcement of intellectual
     property laws.
                                                                            OBJECTIVE 1: Provide Domestic Leadership on
•    It supports the Office of the U.S. Trade                               IP Policy Issues
     Representative, the Department of State and
     other U.S. government agencies in international                        Provide Empirical Evidence on the Economic
     negotiations and consultations, and assists with                       Impact of USPTO Operations
     the drafting, reviewing, and implementation of
     intellectual property obligations in bilateral and                     The entire U.S. economy relies on some form of IP,
     multilateral treaties and trade agreements.                            because virtually every industry either produces or
                                                                            uses IP 2 www.uspto.gov/news/publications/IP_ Re-
•    It provides and participates in technical                              port_March_2012.pdf. Hence, patent examination
     assistance and capacity-building programs for                          backlogs and the ability to obtain a timely patent
     foreign governments seeking to develop or
                                                                            can have significant consequences to the U.S.
     improve their intellectual property laws and
                                                                            economy.
     regulations.

•    It manages the IP Attaché program, in                                  On June 26, 2013, the United Kingdom Intellectual
     partnership with the U.S. and the Foreign                              Property Office and the USPTO released the working
     Commercial Service to improve the protection                           draft of a joint report on the economic and opera-
     and enforcement of intellectual property rights
     overseas.
                                                                            2
1                                                                             As cited in the report the Secretary of Commerce released April 11,
  The Office of Policy and External Affairs changed its name to the
                                                                            2012, titled “Intellectual Property in the U.S. Economy: Industries in
Office of Policy and International Affairs, effective FY 2014, or October
                                                                            Focus,” which was co-authored by the USPTO and the Economics and
1, 2013.                                                                    Statistics Administration.




                                                                                                                                                       37
                                                                                                                                       www.uspto.gov
         MANAGEMENT’S DISCUSSION AND ANALYSIS




         tional impacts of patent application backlogs.
         www.ipo.gov.uk/ipresearch-uspatlog-201306.pdf.

         The report clarifies ambiguity surrounding the terms
         “backlog” and “pendency,” and identifies and
         quantifies the main contributors to pendency.

         Notable findings of the U.S. analysis indicate that
         total pendency has grown primarily due to the in-
         crease in first-action pendency, and that one of the
         main contributors to total pendency is the greater
         use of Requests for Continued Examinations
         (RCEs). In particular, applications with at least one
         RCE disproportionately displace other applications.

         This report makes valuable methodological contri-
         butions and presents a variety of findings important
         to patent policy. The USPTO responded to the
         backlog challenge with a variety of actions, includ-
         ing: hiring additional examiners; changing the ex-
         aminer count system; changing the examiner
         docket management system; America Invents Act
         (AIA) initiatives such as expedited review and fee-
                                                                        Promotional material from the “Workshop on
         setting; and new pilot programs designed to
                                                                        Empirical Studies of Trademark Data” hosted
         streamline patent prosecution.                                 by the University of Oxford in December 2012.

         The policies implemented to date by the USPTO are
                                                                  applications, registrations, and renewals. The re-
         reducing pendency. The quantity of unexamined
                                                                  port shows that annual applications have nearly
         patent applications at the end of FY 2013 is 584,998
                                                                  tripled over the past two decades, which is con-
         with first-action pendency at 18.2 months, the low-
                                                                  sistent with broader economic growth but also
         est in a decade.
                                                                  suggests intensified trademark use. New registra-
         Improve Transparency and Access to IP                    tions have increased by a factor of four since 1991.
         Related Data
                                                                  In conjunction with the data release, the USPTO
         In January of 2013, the USPTO published The USPTO        recently sponsored two events to encourage the
         Trademark Case Files Dataset: Descriptions, Les-         use of trademark data in empirical economic re-
         sons, and Insights, along with a public use dataset      search. The Workshop on Empirical Studies of
         of trademark applications and registrations. These       Trademark Data was hosted at the University of Ox-
         data were released as part of an ongoing initiative      ford in December 2012, and Using Trademark Data
         to make patent and trademark information availa-         for Empirical Research was held at the New York
         ble in a form convenient for public use and aca-         University School of Law, Engelberg Center on In-
         demic research.                                          novation Law and Policy (ECILP), in September
                                                                  2013.
         By releasing the data, the USPTO seeks to encour-
         age new streams of research on trademarks and            Monitoring and Providing Policy Guidance on
         what they indicate about their users, the strategies     Key IP Issues Raised in Courts
         for employing them, and the wider economic im-
                                                                  The USPTO strongly influences IP law and policy
         pacts that the data will help uncover. The research
                                                                  through domestic litigation, both as a party and as
         provides a “first look” at the key trends in trademark



38
     PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                           MANAGEMENT’S DISCUSSION AND ANALYSIS




                                                            This is the first time in over 30 years that the Su-
                                                            preme Court has considered the issue of patent-
                                                            eligibility of biological products. In the wake of the
                                                            Myriad decision, OGC helped the Office of Patent
                                                            Legal Administration implement the decision and
                                                            address any issues left open by the Court. At the
                                                            invitation of the U.S. Court of Appeals for the Fed-
                                                            eral Circuit, the USPTO Deputy Solicitor also per-
                                                            sonally argued the government’s position on
                                                            whether patent claims to a computer-implemented
                                                            method of exchanging obligations between parties
                                                            are patent eligible in CLS Bank Int’l v. Alice Corp.,
                                                            (http://www.cafc.uscourts.gov/images/stories/opi
                                                            nions-orders/11-1301.pdf) advocating that courts
                                                            resolve issues of patent-eligibility on a case-by-case
                                                            basis, based on factual inquiry and claim construc-
 Federal Circuit judge and former Deputy General Counsel    tion. The en banc (the full) Court affirmed the low-
 for Intellectual Property and Solicitor Ray Chen.
                                                            er court’s determination that the claims at issue
                                                            impermissibly claimed an abstract idea and, as
an amicus curiae (“friend of the court”). The               such, were patent-ineligible.
agency’s IP litigation responsibilities fall primarily on
the Office of the Solicitor within the USPTO’s Office       OGC also worked with the Solicitor General to for-
of General Counsel (OGC). The Solicitor’s Office            mulate the government’s position in Bowman v.
defends, among other things, the decisions of the           Monsanto (www.supremecourt.gov/opinions /12
agency’s Patent Trial and Appeal Board (PTAB)               pdf/11-796_c07d.pdf) which addressed whether
and Trademark Trial and Appeal Board (TTAB), de-            the planting of genetically modified seed to pro-
cisions of the Director, and the agency’s rulemak-          duce a subsequent generation of seed constitutes
ing and policies in court. These decisions involve a        an infringing “making” under 35 U.S.C. § 271. More
wide variety of issues, affecting both agency prac-         specifically, Bowman concerned whether the pur-
tice and substantive patent and trademark law,              chase of genetically modified seed from a grain
and impacting a broad spectrum of intellectual              elevator as a commodity exhausted Monsanto’s
property law issues.                                        rights to subsequent generations of seed resulting
                                                            from the planting of the commodity seed. The Su-
On the IP policy front, OGC worked to clarify the           preme Court agreed with the government and
standards for patent-eligibility under 35 U.S.C. § 101      Monsanto that Bowman’s planting of the commod-
in a series of important cases over the past several        ity seed to produce new seed was an unauthorized
years. Most recently, OGC advised the U.S. Solicitor        making, infringing Monsanto’s patent rights. The
General and the Department of Justice in Associa-           Bowman decision is expected to govern the out-
tion for Molecular Pathology v. Myriad Genetics             come in future cases concerning other self-
(www.supremecourt.gov/opinions/12pdf/12-398                 replicating technologies.
_1b7d.pdf) on the question of whether isolated
genes are patent-eligible subject matter. Although          On other fronts, OGC saw an uptick in the number
the USPTO’s long-standing practice has been that            of patent appeals taken in district court pursuant to
all isolated forms of nucleic acids, including genes,       35 U.S.C. § 145 following the Supreme Court’s 2012
are patent-eligible, the Supreme Court held that            decision in Hyatt v. Kappos (www.supremecourt.
isolated genes are patent-ineligible products of            gov/opinions/11pdf/10-1219.pdf), which for the
nature, whereas complementary DNAs (cDNAs)                  first time allowed patent applicants to present to
manufactured in laboratories are patent-eligible.           the district court new evidence in defense of pa-




                                                                                                                          39
                                                                                                          www.uspto.gov
         MANAGEMENT’S DISCUSSION AND ANALYSIS




         tentability that was previously available but not         vide pro bono legal services to independent inven-
         presented to the USPTO. A similar uptick was seen         tors and small businesses.
         in the number of trademark appeals taken under
         the analogous trademark statute, 15 U.S.C. §              Providing Domestic Education Outreach and
         1071(b). These types of appeals consume large             Capacity Building
         amounts of agency resources, including manpow-
                                                                   The USPTO, through the Global Intellectual Property
         er and initial cash outlays for expert witnesses and
                                                                   Academy (GIPA) in the OPEA, provides IP educa-
         travel. Despite these challenges, the Solicitor’s Of-
                                                                   tional opportunities to U.S. and foreign government
         fice has successfully defended the USPTO in each
                                                                   officials, domestic small and medium-sized enter-
         of the 145 appeals in which the district court has
                                                                   prises (SMEs), universities, and the public. The GI-
         issued a final order, securing either dismissal,
                                                                   PA provides expertise on administration, protection,
         summary judgment, or remand in the USPTO’s fa-
                                                                   and enforcement in all areas of domestic and in-
         vor.
                                                                   ternational IP. In FY 2013, the GIPA conducted 114
         OGC continues to strengthen relations with the IP         training programs for foreign government officials,
         community through OGC’s Office of Enrollment              reaching an audience of 7,078 foreign government
         and Discipline (OED). This year OED published new         officials from over 135 countries. The GIPA also
         ethics rules that help to streamline practitioners’       conducted 39 programs targeted to U.S. SMEs, with
         professional responsibility obligations, bringing         an audience of 2,416 people. Domestic programs
         USPTO obligations in line with most state bar re-         include outreach to Native American tribes, edu-
         quirements, all while protecting the IP community.        cational programs on IP awareness, and road-
         OED’s Law School Clinic Certification Pilot Program       shows providing IP information to SMEs seeking to
         also hosted a visit to the USPTO on March 12, 2013.       do business in other countries. The GIPA has in-
         The event included speakers from various business         creasingly engaged members of the judiciary with-
         units within the USPTO and covered new develop-           in the U.S. and abroad. Additionally, the GIPA
         ments in patent law. OED continues to collaborate         partners to develop and deliver educational out-
         with the 28 law schools who participate in the pro-       reach programs with various agencies and com-
         gram to ensure that the clinic programs help pro-         ponents of the United States government, in partic-
                                                                   ular the Small Business Administration, and various
                                                                   bureaus of the Department of Commerce (DOC),
                                                                   including the International Trade Administration,
                                                                   the Minority Business Development Agency, and
                                                                   the U.S. Export Assistance Centers of the U.S. Com-
                                                                   mercial Service. The GIPA is using technology to
                                                                   make training programs more efficient and to ex-
                                                                   pand the reach of those programs. For example,
                                                                   the GIPA hosts a database of all training and ca-
                                                                   pacity-building activities conducted by U.S. gov-
                                                                   ernment agencies. In addition, the GIPA hosts dis-
                                                                   tance-learning modules on its web site. Those
                                                                   modules, which are available in seven different
                                                                   languages, have received over 38,948 hits since
                                                                   they were first posted on the site in 2010. The GIPA
            Foreign officials have indicated how helpful the       programs are aimed at small business outreach.
            training of the USPTO’s Global Intellectual Property
                                                                   Figures 5, 6, and 7 show the number of programs,
            Academy’s (GIPA) is for their work. In a survey
                                                                   officials, and countries trained by the GIPA.
            taken of former participants in GIPA programs, 100
            percent responded that they had taken positive
            action as a result of the training they received.




40
     PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                                     MANAGEMENT’S DISCUSSION AND ANALYSIS




                                                                      and stakeholders to discuss, develop, promote,
 Figure 5
                                                                      and implement effective and balanced IP-related
                  Number of Attendees Trained
                                                                      legislation and administrative actions. Discussions
4,000                                        3,617
                                                                      and briefings focused on continued implementa-
                                                                      tion of the AIA, congressional proposals to address
3,000                                                       2,662     patent litigation abuse, cyber security, copyright
                                                                      reforms, and other matters related to domestic and
                 1,887
2,000                                                                 international IP rights.
                              1,328
                                                                      On June 4, 2013, the White House Task Force on
1,000
                                                                      High-Tech Patent Issues announced major steps to
                                                                      address abusive patent litigation and to improve
      0
                                                                      incentives for future innovation in high-tech pa-
            FY2013 Q1       FY2013 Q2      FY2013 Q3      FY2013 Q4
                                                                      tents. The steps include five executive actions and
 Figure 6                                                             seven legislative recommendations designed to
                                                                      protect innovators from frivolous patent litigation
                         Educational Programs
                                                                      and ensure the issuance of the highest-quality pa-
 60                                                                   tents. The USPTO was tasked with implementing
                                           52
 50                                                                   four of the five executive actions: making “real par-
                                                          42
                                                                      ty-in-interest” the new default; tightening functional
 40         35
                                                                      claiming; empowering downstream users; and ex-
 30                         24                                        panding dedicated outreach and study.              The
 20
                                                                      USPTO also engaged with Congressional staff and
                                                                      stakeholders in developing consensus legislative
 10                                                              5
                   3               1            2                     language consistent with the seven recommended
  0                                                                   legislative measures identified by the White House.
          FY 2013, Q1 FY 2013, Q2 FY 2013, Q3 FY 2013, Q4
                  Total Programs        Remote Programs               In the area of copyright laws, the DOC released a
                                                                      green paper titled Copyright Policy, Creativity, and
 Figure 7                                                             Innovation in the Digital Economy (Green Paper) to
          Cumulative Number of Countries Trained                      advance discussion on a set of policy issues critical
140                                                        135        to economic growth. The Green Paper is a product
                                            122
120                           113                                     of the DOC’s Internet Policy Task Force (IPTF), with
                 92                                                   input from the USPTO and the National Telecom-
100
                                                                      munications and Information Administration (NTIA).
 80

 60                                                                   The Green Paper discusses the goals of maintain-
                                                                      ing an appropriate balance between rights and
 40
                                                                      exceptions as the law continues to be updated;
 20
                                                                      ensuring that copyright can be meaningfully en-
  0                                                                   forced on the Internet; and furthering the devel-
          FY2013, Q1       FY2013, Q2    FY2013, Q3    FY2013, Q4
                                                                      opment of an efficient online marketplace.

Engaging U.S. Government Agencies and                                 The Green Paper is the most thorough and com-
Congress on Legislation that Improves the IP                          prehensive analysis of digital copyright policy is-
System                                                                sued by any administration since 1995. Through the
                                                                      IPTF, the USPTO and NTIA will solicit further public
Throughout FY 2013, the USPTO continued to en-                        comments and convene roundtables and forums
gage Congress, other U.S. government agencies,                        on a number of key policy issues.




                                                                                                                                    41
                                                                                                                    www.uspto.gov
         MANAGEMENT’S DISCUSSION AND ANALYSIS




         Throughout the year, OPEA officials organized nu-         General Assembly that fully reflects the various
         merous briefings for Congressional staff on various       proposals suggested by committee members, as
         IP policy issues, including the status of international   well as the “no mandatory disclosure” option sup-
         agreements and activities in China, the impacts of        ported by the U.S. and several other countries. The
         sequestration on the USPTO, and the potential im-         USPTO also continued to seek improvements in the
         pact of proposed legislation, and the status of pa-       WIPO registration services under the Patent Coop-
         tent and trademark operations. Congressional              eration Treaty and the Madrid Protocol Concerning
         staff were invited to meet with USPTO leadership in       the International Registration of Marks.
         “Day in the Life of the USPTO” sessions at the Alex-
                                                                   Improving Efficiency and Cooperation in the
         andria, Virginia, headquarters to learn about the
                                                                   Global IP System – Patents
         daily work activities of patent and trademark exam-
         iners. A tour of the Smithsonian Institution’s exhibit    Throughout FY 2013, work sharing continued to be
         on “Inventing a Better Mousetrap” was also ar-            a key international engagement strategy for the
         ranged for interested Congressional Staff at the          USPTO to help reduce examination backlogs, im-
         American Art Museum in Washington, D.C. Finally,          prove examination quality, and promote streamlin-
         the USPTO conducted extensive outreach to and             ing of the international patent system. The Patent
         interaction with our stakeholder community on im-         Prosecution Highway (PPH), first launched in 2006,
         plementation of the AIA, through speaking en-             remained the USPTO’s cornerstone of work sharing
         gagements, webcasts, a frequently updated mi-             cooperation. The PPH allows applicants to obtain
         crosite, roundtable discussions, and roadshows.           patents faster and more cheaply in multiple juris-
         Interested Capitol Hill staff attended these sessions.    dictions, while enabling the participating offices to
         Objective 2: Provide Leadership on                        leverage each other’s work in improving examina-
                                                                   tion efficiency and quality.
         International Policies for Improving the
         Protection and Enforcement of IP Rights                   The success of the PPH is evidenced by the contin-
                                                                   ued trend in 2013 of substantial increases in user
         Leading Efforts at the WIPO and Other                     participation, as well as by the growth in the num-
         Intergovernmental/International Organizations             ber of participating offices. The USPTO received on
         to Improve International IP Rights Systems
                                                                    Figure 8
         Throughout FY 2013, the USPTO continued to lead
                                                                                 Paris Route (PPH) and Patent
         efforts to improve IP multilaterally in several fora
                                                                                 Cooperation Treaty (PCT-PPH)
         including the World Intellectual Property Organiza-
         tion (WIPO), the World Trade Organization (WTO),          12,000                                                                 11,115
                                                                                                                                                11,402
                                                                                                                                                      11,641


         and other intergovernmental organizations.        In                                                           10,105
                                                                                                                              10,336
                                                                                                                                    10,601
                                                                                                                9,835
         June 2013 in Marrakesh, Morocco the USPTO led             10,000
                                                                                        8,991
                                                                                                9,197
                                                                                                        9,612

                                                                            8,612 8,802
         the U.S. delegation at a WIPO Diplomatic Confer-                                                                                                       7,894
         ence to negotiate a landmark multilateral treaty           8,000                                                                 7,148 7,288
                                                                                                                                                        7,555
                                                                                                                                  6,807
                                                                                                                          6,505
         that will improve access to books for the visually                                              5,963
                                                                                                                 6,186

                                                                    6,000                        5,540
         impaired. The treaty is the culmination of years of                 4,931 5,131
                                                                                         5,290


         work on improving access for the blind, visually im-
                                                                    4,000
         paired, and print disabled to published works in
         formats such as Braille, large print text, and audio
                                                                    2,000
         books.

         The USPTO is actively engaged in the WIPO Inter-               0
         governmental Committee on Intellectual Property
         and Genetic Resources, Traditional Knowledge
         and Folklore to transmit consolidated text to the                                          PPH           PCT-PPH




42
     PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                         MANAGEMENT’S DISCUSSION AND ANALYSIS




average about 100 more PPH requests per month            Improving Efficiency and Cooperation in the
in 2013 than in 2012 (see Figure 8 on New PPH Re-        Global IP System – TM5
quests per Month-Paris and PCT-PPH Combined).
The USPTO also expanded its PPH partnerships to 26       The “TM5”—consisting of the USPTO, the JPO, the
other patent offices, up from 22 as reported in          European Community’s Office for Harmonization in
2012, and is in discussions with several other offices   the Internal Market, the Korean Intellectual Property
to launch new programs.                                  Office (KIPO), and the Chinese State Administration
                                                         for Industry and Commerce—brings together the
At the same time, the USPTO continues to lead ef-        largest trademark and design offices in the world to
forts to develop and implement a next-generation         share information and collaborate on projects that
PPH that will simplify and streamline the system by      increase efficiencies in filing and maintaining inter-
replacing the present network of bilateral ar-           national portfolios of trademarks and industrial de-
rangements with a central, standardized, more us-        signs.
er-friendly framework. At a meeting in June 2013,
the USPTO secured commitments from 11 other              TM5 design experts are presently considering re-
participating offices to implement a pilot project in    quirements for presenting the design in an applica-
January 2014 to test out the new framework.              tion, inter-office exchanges of priority documents,
                                                         and a harmonized grace period for filing an appli-
The USPTO also made significant advances in other        cation for an industrial design following a public
areas of work sharing-related cooperation. One           disclosure of the design. Current TM5 trademark
key effort that has seen rapid progress since 2012       projects include a harmonized list of trademark
has been the Cooperative Patent Classification           identifications and classifications of goods and
(CPC) project, a product of a partnership between        services and their translations that will be accepted
the USPTO and the European Patent Office (EPO).          in all TM5 offices, and in third countries that partici-
Formally launched in January 2013, the CPC is a          pate in the project; a methodology for generating
harmonized international system for classifying pa-      uniform statistics that assists in measuring forecast-
tents and published patent applications for ease of      ing data on trademarks and designs; agreement
searching during the patent granting process. The        on common terms to identify the status of applica-
CPC includes approximately 250,000 classification        tions and registrations; research on image search
symbols based on the International Patent Classifi-      systems for figurative marks; creation of a taxono-
cation (IPC) system, thus enabling examiners and         my system for goods and services to achieve better
patent users worldwide to conduct searches by            organization and a common grouping of goods
accessing the same classified patent document            and services; and integration of trademark data in
collections. It will be used by the USPTO and more       global search databases. Most notably, the USPTO
than 45 patent offices, totaling more than 20,000        has worked diligently with the TM5 partners to ex-
patent examiners. CPC will lead to more efficient        change best practices on the topic of bad faith
prior art searches, higher quality patents, and im-      trademark applications and to create solutions
proved work sharing among offices.                       and move these solutions to implementation.
Another major project has been the joint devel-
                                                         Improving Enforcement and Providing
opment, with the Japan Patent Office (JPO), of the
                                                         Capacity Building and Technical Assistance to
“Global Dossier.” The Global Dossier concept envi-
                                                         Key Countries/Regions
sions a one-stop shop for applicants to electroni-
cally file and manage a global portfolio of patent       The USPTO developed and implemented capacity
applications and for offices to access information       building and technical assistance programs for
for work sharing purposes.                               foreign enforcement officials focusing on key is-
                                                         sues.




                                                                                                                        43
                                                                                                        www.uspto.gov
         MANAGEMENT’S DISCUSSION AND ANALYSIS




         In Peru, a program was held on The Enforcement of
         Copyrights in the Digital Environment for judges in
         South America. Approximately 50 magistrates from
         Argentina, Brazil, Chile, Paraguay, Peru, and Uru-
         guay had the opportunity to present the copyright
         enforcement scenario in their countries, and to at-
         tend presentations from different authorities, indus-
         try representatives, and academia. The USPTO
         conducted the Workshop for the Judiciary on Digi-
         tal Piracy and Copyright Enforcement in Mexico.
         Judges from the Federal District and the states of
         Monterrey (Nuevo Leon), Guadalajara (Jalisco),
         Estado de Mexico, Leon (Guanajuato), and
         Queretaro actively participated in the program,
         both as presenters and in larger discussion groups.
         The workshop provided comparative jurisprudence
         between U.S. and Mexican law, specifically ad-          Deputy Under Secretary Teresa Stanek Rea meets with a
                                                                 delegation from China that included officials from China’s
         dressing how each system treats illegal activity in
                                                                 National Copyright Administration and from the National
         the online context. Topics of presentation and dis-     People’s Congress.
         cussion included copyright enforcement challeng-
         es in the digital environment, introduction to U.S.     the importance of public-private cooperation, chal-
         criminal copyright law and jurisprudence in the         lenges faced by specific industries, organized
         digital environment, prosecuting digital IP crimes      crime, and free trade zones. Attendees participat-
         and remedies, and damages and sentencing de-            ed, both as presenters and in discussions with the
         terminations in copyright infringement cases.           larger group. The USPTO hosted the ASEAN-USPTO
                                                                 Roundtable for the Judiciary on IPR Issues and En-
         The USPTO hosted a visiting delegation from the
                                                                 forcement in Thailand, in cooperation with the
         Turkish National Police and conducted a program
                                                                 ASEAN Secretariat. Thirty judges participated in the
         on U.S. intellectual property enforcement and
                                                                 program—three from each of the 10 ASEAN coun-
         combating the threat of counterfeit medicines. The
                                                                 tries. The program focused on IP protection and
         investigation of counterfeit trademark and copy-
                                                                 enforcement, and provided a comparison of U.S.
         right piracy crimes issues were addressed from
                                                                 and ASEAN enforcement and judicial systems, as
         both domestic and international perspectives.
                                                                 well as an overview and case study discussion on
         Presentations and discussions with U.S. Customs
                                                                 civil litigation, criminal IP prosecution and trials,
         and Border Protection, the Department of Justice,
                                                                 and utilization of judicial mediation in dispute reso-
         the New York Police Department, and stake-holders
                                                                 lution of IPR cases.
         were provided.
                                                                 In cooperation with ASEAN Secretariat, the USPTO
         In Southeast Asia a workshop on Effective Practices
                                                                 held the Intellectual Property Workshop for Public
         in Transnational Cooperation in the Border En-
                                                                 Prosecutors and Law Enforcement in Thailand. The
         forcement of Intellectual Property Rights was held in
                                                                 program had the participation of 40 public prose-
         Bangkok, Thailand, in cooperation with the Associ-
                                                                 cutors and law enforcement officials from the
         ation of Southeast Nations (ASEAN) Secretariat.
                                                                 ASEAN countries. The workshop focused on investi-
         Customs officials from the following countries par-
                                                                 gating and prosecuting IPR crimes in the digital
         ticipated in the program:       Brunei Darussalam,
                                                                 environment, approaches for confronting the prob-
         Cambodia, Indonesia, Lao Peoples’ Democratic
                                                                 lem of organized crime, handling electronic evi-
         Republic, Malaysia, Myanmar (Burma), Thailand,
                                                                 dence, shutting down infringing websites that traf-
         Vietnam, China, and India. The discussions fo-
         cused on regional trends in combatting illicit trade,



44
     PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                            MANAGEMENT’S DISCUSSION AND ANALYSIS




                                                             tice, in conducting an IP enforcement program in
                                                             Dar Es Salaam, Tanzania for up to 50 police, prose-
                                                             cutors, and customs officials from Tanzania, Rwan-
                                                             da, Uganda, Burundi, Kenya and Congo. In addi-
                                                             tion, the USPTO and INTERPOL organized a joint IP
                                                             enforcement training in Gaborone, Botswana, for
                                                             45 police, prosecutors, and customs officials from
                                                             Botswana, Malawi, Namibia, South Africa, and
                                                             Zambia. Following this capacity-building program,
                                                             INTERPOL coordinated enforcement actions, under
                                                             Operation Kalahari, resulting in the seizure of over
                                                             $1.2 million in counterfeit products. The USPTO sup-
                                                             ported the National Intellectual Property Rights Co-
                                                             ordination Center in holding the first-ever IP en-
                                                             forcement training at the U.S. International Law En-
                                                             forcement Academy in Botswana, Gaborone.
 Ambassador (Dr.) Konji Sebati meets Bismarck Myrick,
 Director of the Office of Equal Opportunity and Diversity   Over 35 enforcement officials from Botswana,
 and Mary Denison, Deputy Commissioner of Trademarks         Ghana, Mauritius, Nigeria, Seychelles, and Swazi-
 on April 22, 2013.                                          land participated in the program. In addition to
                                                             instruction on IP enforcement best practices, a
fic in counterfeit and piratical goods, and working
                                                             computer lab session was also conducted so par-
with private industry to identify infringing goods.
                                                             ticipants could learn how to access and use vari-
The USPTO conducted a program titled IP Protec-              ous online IP databases.
tion & Enforcement: IP and Economic Develop-
                                                             Providing Policy Advice and Expertise to Other
ment, Public Health, and Safety for officials from
                                                             U.S. Government Agencies
South Korea, representing the Intellectual Property
Office, the Fair Trade Commission, the Communi-              Throughout FY 2013, the USPTO provided policy ad-
cations Commission, the Food and Drug Admin-                 vice and technical expertise on IP domestic and
istration, and the Ministry of Education, Science,           international IP issues to the DOC and other Federal
and Technology. The focus of the program was on              agencies. The USPTO advised the United States
enforcement, featuring U.S. government speakers              Trade Representative during the World Trade Or-
from the USPTO, the U.S. Department of Justice               ganization (WTO) Trade Policy Reviews and WTO
Computer Crime and Intellectual Property Section,            accession process of several countries, including
the U.S. Immigration and Customs Enforcement,                the evaluation of IP laws, regulations, and practic-
the U.S. Customs and Border Protection, the Feder-           es of countries and their consistency with the
al Bureau of Investigation, the U.S. Copyright Office,       Agreement on Trade-Related Aspects of Intellectual
and stakeholders. Discussion topics included U.S.            Property. The USPTO also provided policy advice in
practice concerning criminal IP prosecution, copy-           the course of reviews of several Section 337 Interna-
right piracy, pharmaceutical counterfeiting, crimi-          tional Trade Commission orders.
nal IP-infringement investigation, and counterfeit
                                                             The USPTO provides policy advice and expertise to
automotive parts.
                                                             the U.S. Department of State regarding IP issues
The USPTO has sought to improve IP enforcement in            that arise in various agencies of the United Nations,
Sub-Saharan Africa through its capacity-building             including WIPO and the World Health Organization,
and technical assistance programs. In particular,            as well as the Organization for Economic Coopera-
the USPTO worked with the International Criminal             tion and Development.
Police Organization’s (INTERPOL) Trafficking in Illicit
Goods Program, along with the Department of Jus-




                                                                                                                          45
                                                                                                          www.uspto.gov
         MANAGEMENT’S DISCUSSION AND ANALYSIS




         Providing Technical Expertise in Negotiation               and mission statement that clearly links program
         and Implementation of Bilateral and                        objectives and priorities to the overall mission of the
         Multilateral Agreements                                    USPTO. Standard operating procedures, devel-
                                                                    oped by the IP Attaché Task Force, were imple-
         Throughout FY 2013, the USPTO continued to pro-            mented. They require attachés to: (1) consult with
         vide expert technical advice on IP protection in           stakeholders to define and prioritize IP-related busi-
         connection with ongoing negotiations and imple-            ness objectives in their country and region; (2)
         mentation of bilateral and multilateral agreements.        build a matrix of U.S. and foreign stakeholder asso-
         For example, the USPTO played an active role in            ciations and companies and their respective IP-
         the negotiations regarding the IP portions of the          related concerns; (3) identify any existing bilateral
         Trans-Pacific Partnership (TPP) and Trans-Atlantic         agreements that support our objectives; and (4)
         Trade and Investment Partnership (TTIP) free trade         seek to negotiate bilateral agreements, or informal
         agreement negotiations. The USPTO continued to             work plans, and associated metrics with host gov-
         provide expertise in ongoing IPR discussions in            ernments.
         WIPO on the protection of broadcasting organiza-
                                                                    Two new attaché posts were established in Mexico
         tions and on several patent issues including patent
                                                                    City, Mexico, and in Shanghai, China, respectively.
         quality, patents and health, technology transfer,
         and exceptions and limitations. The USPTO contin-          The addition of the Shanghai position will increase
         ued to play an active role in the negotiation of Sci-      the USPTO’s presence in China from two cities to
                                                                    three, and the addition of the Mexico City position
         ence and Technology (S&T) Agreements with sev-
                                                                    will expand the USPTO’s overseas presence from
         eral countries, and provided expertise in the devel-
                                                                    seven countries to eight. A vacant IP attaché posi-
         opment of a new model IPR Annex for S&T Agree-
         ments.                                                     tion was filled in Beijing, China, and new IP atta-
                                                                    chés were hired to cover the Middle East and North
         Increasing the Effectiveness of IP Attachés in             Africa, as well as Guangzhou, China.
         Prioritized Countries/Regions
                                                                    The implementation of country-specific action
         The USPTO places a high priority on increasing the         plans in prioritized countries is shown in Table 14.
         effectiveness of the global IP system. In 2013, the IP
                                                                    This reflects the USPTO’s continued efforts in engag-
         Attaché program further implemented a new vision
                                                                    ing foreign IP offices, enforcement entities, and leg-
                                                                    islatures.

                                                                    Table 14
                                                                    Measure: Percentage of prioritized countries for which
                                                                    country teams have made progress on at least 75% of ac-
                                                                    tion steps in the country-specific action plans along the
                                                                    following dimensions: 1. institutional improvements of IP
                                                                    office administration for advancing IP rights, 2. institutional
                                                                    improvements of IP enforcement entities, 3. improvements
                                                                    in IP laws and regulations, and 4. establishment of gov-
                                                                    ernment-to-government cooperative mechanisms.
                                                                       FISCAL YEAR             TARGET               ACTUAL
                                                                           2010                  50%                  75%
                                                                           2011                  75%                 100%
                                                                           2012                  75%                  75%
                                                                           2013                  75%                 100%
                                                                           2014                  75%
                                                                           2015                  75%
                                                                    Target met.
          Deputy Under Secretary Teresa Stanek Rea at the signing
          of a bilateral Memorandum of Understanding between
          the USPTO and Mexican Institute of Industrial Property.




46
     PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                         MANAGEMENT’S DISCUSSION AND ANALYSIS




What is management’s focus on
maximizing the USPTO’s mission
performance?

The      USPTO’s    overarching
management goal focuses on
the shared responsibility that is
a prerequisite for achieving
success as the USPTO grows
and modernizes.        This goal
advances the USPTO’s perfor-
mance on its three core
mission      strategic     goals
through effective alignment
and management of human
capital, information resources,
infrastructure and security
management, and sustaina-           Deputy Under Secretary Teresa Stanek
ble financial capital.              Rea speaks at a panel with USPTO senior
                                    executives.




                               MANAGEMENT GOAL


                                                                                                     47
                                                                                     www.uspto.gov
         MANAGEMENT’S DISCUSSION AND ANALYSIS




48
     PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                           MANAGEMENT’S DISCUSSION AND ANALYSIS




Management Goal: Achieve Organizational Excellence
Fulfillment of the USPTO’s mission requires strong         structure to connectivity to systems virtualization to
leadership and collaborative management. While             new personal computers and laptops for employ-
the three agency strategic goals focus on our core         ees.
mission, our overarching management goal focus-
es on the prerequisite for achieving those goals           In keeping with the Obama Administration’s com-
and objectives—namely, the priorities of sound re-         mitments to “Transparency, Participation, and Col-
source management, solid workforce planning,               laboration”, the USPTO expanded access to all pa-
corporate support services, and effective use of           tent    and     trademark      data    through    the
information technology (IT).                               www.data.gov and www.google.com web-sites;
                                                           has a “cloud first” policy; is working to align the IT
OBJECTIVE 1: Improve IT Infrastructure and                 budget with modular development; is reforming
Tools                                                      and strengthening the agency’s Investment Review
                                                           Boards; and has created “TechStat” and “Portfolio-
The USPTO continued to make improvements in our            Stat” models for the USPTO. The OCIO continues to
IT enterprise architecture, internal IT processes, and     work to improve the visibility of IT costs through a
the Office of the Chief Information Officer (OCIO)         standardized budget execution system with assis-
organizational alignment to improve our ability to         tance from the Office of the Chief Financial Officer
be more responsive and better manage and deliv-            (OCFO). This has allowed the OCIO to work with all
er quality products at enhanced service levels.            USPTO business units to create an improved long-
                                                           term IT investment strategy, which is discussed fur-
In particular, these IT initiatives directly support the
                                                           ther in the USPTO Strategic Information Technology
USPTO 2010-2015 Strategic Plan to:
                                                           Plan     for   2010-2015.      See    www.uspto.gov/
•   Improve overall efficiency;                            about/offices/cio/ITP_Overview.pdf.

•   Improve availability of and streamline access to       In fulfilling responsibilities under 44 U.S.C. § 3504(h),
    USPTO information, data, and services with             the USPTO uses a Capital Planning and Investment
    improvements to the USPTO web-site;                    Control process to prioritize investments and de-
                                                           termine funding levels for subsequent fiscal years.
•   Serve an increasing, geographically dispersed          Projects are carefully managed throughout their life
    workforce with the deployment of the Universal         cycle, and progress reviews are conducted at key
    Laptop (UL);

•   Implement faster, more secure information
    exchange by adhering to the Federal
    Information Security Management Act (FISMA);

•   Continue expansion and improvement of e-
    filing, e-processing, and other e-government
    efforts; and

•   Improve the USPTO’s IT infrastructure and tools.
The USPTO completed the remaining two of nine
infrastructure modernization projects comprising
our OCIO Information Technology Improvement
Portfolio (formerly titled OCIO Road Map and Trans-
formation Plan) on time and on budget. This port-
folio covered everything from basic network infra-




                                                                                                                           49
                                                                                                           www.uspto.gov
         MANAGEMENT’S DISCUSSION AND ANALYSIS




                                                                   all patent and trademark fees established, author-
           Figure 9
                                                                   ized, or charged under Title 35 of the U.S. Code
                          Total Number of Open
                                                                   and the Trademark Act of 1946 (15 U.S.C. § 1051 et
                      Plan of Action and Milestones
                                                                   seq.), respectively. When fees are set, the aggre-
                   Created        Cancelled / Closed     Balance   gate revenue from the patent fees may only recov-
            300                                                    er the aggregate estimated cost of the patent op-
            250
                                                                   erations, including administrative costs of the
                                                                   USPTO. Likewise, the aggregate revenue from the
            200                                                    trademark fees may only recover the aggregate
                                                                   estimated cost of the trademark operations, also
            150
                                                                   including administrative costs to the USPTO.
            100
                                                                   During FY 2013, the agency implemented the last
             50                                                    of the six initiatives articulated within the Sustaina-
                                                                   ble Funding Model Objective (Objective 2 of the
              0
                  Oct. 1,    Q1FY13   Q2FY13   Q3FY13   Q4FY13
                                                                   USPTO 2010-2015 Strategic Plan). The last initiative
                   2012                                            implemented was to set and adjust fees using the
                                                                   fee setting authority enacted in the AIA. Fee set-
         milestone dates to compare the project’s status to        ting is an important initiative of the agency’s Stra-
         planned benefit, cost, and schedule, along with           tegic Goal Objective to implement a sustainable
         technical efficiency and effectiveness measures.          funding model for its operations. On January 18,
         All major IT system investments are reported in Of-       2013, the agency issued a final rule to set and ad-
         fice of Management and Budget (OMB) Circular A-           just patent fees with effective dates in March 2013
         11 Exhibit 53, Exhibit 300A and 300B, and the             and January 2014. During implementation, the
         USPTO’s      IT   Investment   Portfolio.      See        agency consulted with its Patent Public Advisory
         www.itdashboard.gov for more information on the           Committee, stakeholders, and the public. Specifi-
         USPTO’s IT investments.                                   cally, the USPTO published a final rulemaking that
                                                                   was essential to establishing a sustainable funding
         The USPTO’s OCIO continued to work diligently with
                                                                   model by focusing on reducing the current patent
         the Office of the Inspector General (OIG) and the
                                                                   application backlog, decreasing patent penden-
         Department of Commerce (DOC) to improve the
                                                                   cy, improving patent quality, upgrading the agen-
         USPTO’s overall IT security program and the quality
                                                                   cy’s patent business IT capability and infrastruc-
         of the certification and authorization.       See
                                                                   ture, and building a patent operating reserve. The
         www.oig.doc.gov for more detailed information.
                                                                   operating reserve will enable the agency to main-
         The chart (Figure 9) shows the total number of            tain operations by absorbing and responding to
         Open Plan of Actions and Milestones (POA&M) for           temporary changes in its economic and operating
         the USPTO’s operational systems at the end of FY          environments or circumstances. The final rule also
         2012 and every quarter of FY 2013. Any known se-          reduced fees for micro entities under Section 10(b)
         curity weakness requiring remediation is tracked          of the Act (75 percent discount), and furthered key
         using POA&M. Our goal is to bring total number of         policy considerations.
         open POA&Ms as low as possible by remediating
                                                                   The FY 2012 through FY 2014 President’s Budgets
         security weaknesses in the systems.
                                                                   highlighted the agency’s activities toward achiev-
                                                                   ing a sustainable funding model, including:
         OBJECTIVE 2: Implement a Sustainable Fund-
         ing Model for Operations
                                                                   •   Conducting regular historical cost analyses of
         Section 10 of the America Invents Act (AIA) author-           activities supporting fees to provide sufficient
         izes the Director of the USPTO to set or adjust by rule       trending information to inform fee changes.




50
     PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                         MANAGEMENT’S DISCUSSION AND ANALYSIS




•   Ensuring access to fee collections to support
    the agency’s objectives.

•   Instituting an interim patent fee increase.

•   Pursuing the authority to adjust our fee
    structure by regulation to better align fees with
    the cost of providing services.

•   Funding an operating reserve to manage
    operations on a multi-year basis and thereby
    protect the agency against unforeseen
    disruptions in revenue.
These activities support all aspects of budget for-       Advancements in USPTO’s Human Resources
mulation, performance reporting, and strategic
                                                          Information Systems
planning, thus ensuring the USPTO meets reporting
requirements, such as this Performance and Ac-            Human resources operations are fairly consistent
countability Report (PAR), strategic planning up-         throughout the federal service. As such, many of
dates, and budget submissions.                            the activities and services provided by the USPTO’s
                                                          Office of Human Resources (OHR) are similar to
OBJECTIVE 3: Improve Employee and                         those services provided to other federal employees
Stakeholder Relations                                     (i.e. pay, benefits, job classifications, recruitments,
                                                          personnel action processing, etc.). Given that
We were greatly honored to be named one of the
                                                          consistent approach, the OPM identified the Hu-
“Best Places to Work in the Federal Government” by
                                                          man Resources Line of Business (HRLOB) eGovern-
the non-profit Partnership for Public Service (PPS),
                                                          ment initiative as a blueprint for more effective and
which ranked the USPTO fifth out of 292 federal
                                                          efficient human resource information management
agency subcomponents based on a survey of
                                                          across government. Under HRLOB, service provid-
more than 700,000 civil servants conducted in 2012
                                                          ers have responsibility for providing, supporting,
by the Office of Personnel Management (OPM)
                                                          hosting, upgrading, and maintaining the Human
[the results were not published until the first quarter
                                                          Resources Management Systems—integrated solu-
of FY 2013]. The USPTO has climbed the rankings in
                                                          tions for Human Capital Management—while
recent years, from 105th in 2009, to 56th in 2010, to
                                                          agencies retain control over their processes and
19th in 2011—a remarkable achievement that
                                                          strategic functions.
speaks volumes about the dedication to excel-
lence of every employee in our agency.                    In FY 2013, the USPTO implemented the Department
                                                          of Treasury’s HRLOB solution, known as HR Connect.
One large component of this success is our hugely
                                                          HR Connect, a modern, best-practice solution, is
successful telework program. This improved flexibil-
                                                          being used very successfully throughout the federal
ity in work location for more than 72 percent of our
                                                          government. This solution is also part of a larger
workforce has reduced examiner turnover to histor-
                                                          DOC-wide solution. Use of this system will provide
ically low levels, increased examiner productivity,
                                                          many benefits, including: the ability to enter data
and saved the agency millions each year in over-
                                                          once and use that same information often; virtually
head costs. Building collaborative team-based
                                                          eliminating paper processing and providing an
approaches to projects and increasing technical
                                                          electronic workflow for most commonly performed
and leadership training opportunities have also
                                                          functions, thus optimizing workflow efficiencies; and
paid huge dividends in improving the morale and
                                                          providing self-service features for managers and
effectiveness of our highly talented and creative
                                                          employees.
employees.




                                                                                                                         51
                                                                                                         www.uspto.gov
         MANAGEMENT’S DISCUSSION AND ANALYSIS




                                                                  neously webcast, while the remaining 31 percent
                                                                  were webinars offered online only. To further de-
                                                                  velop and strengthen leadership capacity to its
                                                                  maximum potential, the agency also offered an
                                                                  Executive Education Program. This continuing pro-
                                                                  gram involves executive development plans, par-
                                                                  ticipation in 360 Degree assessments, personal
                                                                  coaching, and participation in leadership forums
                                                                  and Senior Executive Service (SES) Council discus-
                                                                  sions.

                                                                  Advancements in the USPTO’s Wellness
                                                                  Program

                                                                  The USPTO continues to offer workplace flexibilities
                                                                  that increase employee morale, engagement, per-
                                                                  formance, and commitment to the agency. In ad-
         Advancements in USPTO’s Leadership                       dition to leading the federal government in tele-
         Development Programs                                     work and hoteling programs, offering extremely
                                                                  flexible work schedules, and providing its workforce
         The USPTO identifies leadership development as a
                                                                  with an onsite child care center and fitness facility,
         key, cross-cutting strategy for achieving organiza-
                                                                  the agency runs an extremely robust wellness pro-
         tional excellence and meeting strategic business
                                                                  gram. With a strong emphasis on employee health
         objectives. The USPTO focuses its resources on tal-
                                                                  and wellness, this program includes an agency-
         ent development processes that yield a sustaina-
                                                                  wide wellness council that planned over 80 activi-
         ble return on investment, while allowing the USPTO
                                                                  ties in FY 2013. These wellness activities and events
         to close competency gaps, build a strong pipeline
                                                                  encompass a wide array of topics, with the most
         of talent, ensure continuity of leadership, and ac-
                                                                  frequent being health screenings, blood drives,
         complish agencywide objectives.         The agency
                                                                  health and wellness fairs, retirement seminars, fi-
         conducted an annual enterprise-wide training
                                                                  nancial planning, parenting classes, and elder
         needs assessment, in which 3,456 employees, rep-
                                                                  care.
         resenting approximately 30 percent of USPTO’s
         workforce, participated. The employees’ input led
         to the development and implementation of com-
         prehensive training programs, mentoring pro-
         grams, and individual employee development
         plans (IDPs) which can be leveraged by a large
         percentage of the agency’s workforce. In FY 2013,
         the LDP was expanded to include virtual instructor
         led training sessions (ILT) and online LDP certificate
         program and learning plans. These resources were
         designed to enhance leadership development
         opportunities for our large teleworking population
         by providing ongoing two-way communication with
         the instructors and expanding access to computer-
         based classes. Of the 60 ILTs that were offered in
         FY 2013, 48 percent were offered by virtual means.
         Of those offered by virtual means, 69 percent were
         instructor-led classroom sessions that were simulta-      Healthy food representatives at the USPTO Wellness Fair.




52
     PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                          MANAGEMENT’S DISCUSSION AND ANALYSIS




Long-standing wellness activities offered during FY
2013 include the Farmer’s Market (May-October),
Employee Assistance Program, LifeCare Life Man-
agement Services, an on-site Weight Watchers Pro-
                                                          transitioning servicemembers. The agency’s veter-
gram, walking and running Groups, and a Nursing
                                                          an hiring goals for FY 2012 and FY 2013 were 20
Mothers’ Program. The agency recently launched
                                                          percent of all hires for the agency overall, and 10
a new wellness Intranet site designed as a one-stop
                                                          percent of all patent examiner hires. In FY 2012 the
shop for wellness topics. The site offers employees
                                                          agency finished at 15 percent and 5 percent, re-
direct access to health and wellness resources,
                                                          spectively. In FY 2013, those numbers have risen
services, links, and schedules for wellness events.
                                                          considerably to 19 percent overall and nearly tri-
 “I joined the USPTO,
                                                          pled for patent examiners up to 12 percent.
 June 2013, upon
 separating from the                                      Advancements in the USPTO’s Physical
 U.S. Army Special                                        Workspaces
 Operations      Com-
 mand as a patent                                         The USPTO continues to excel in creating a work-
 examiner.      I was
 contacted directly
                                                          place that is modern, attractive, safe, secure, and
 and brought in as                                        energy-efficient.
 an employee un-
 der the Veterans                                         Satellite Offices
 Recruitment      Act.
 Transitioning to the                                     In FY 2012, the USPTO kicked off its Nationwide
 USPTO from the
                                                          Workforce Program by establishing its first satellite
 military was made extremely easy and convenient by
 the effort the agency puts into veterans recruitment.”   office in Detroit, Michigan. In FY 2013, the program
                                                          expanded by occupying temporary office spaces
                                                          in Dallas, Denver, and Silicon Valley, with plans to
Advancements in the USPTO’s Veterans and
                                                          occupy more permanent space in these locations
Transitioning Servicemembers Program
                                                          over the next several years. More than an exten-
In support of the USPTO’s goal to increase the hiring     sion of the USPTO, this program is a valuable force
of veterans and transitioning servicemembers, the
agency built on last year’s success by expanding
its participation in career fairs to include Transition
Assistance Program Employer Panels conducted
on military installations. The agency also conduct-
ed information sessions regarding at colleges and
universities to student and alumni veteran associa-
tions and strengthened relationships with the Edu-
cation and Employment Initiative Regional Coordi-
nators of the Department of Defense’s (DoD) Office
of Warrior Care Policy. The Veteran Internship Pro-
gram selected four transitioning servicemembers
for the 2013 Class of Student Trainee Patent Exam-
iners. The USPTO also participated in DoD’s intern-
ship program, Operation Warfighter; developed for
active duty service members recovering at military
treatment facilities and seeking transition back to
                                                           The Byron Rogers Building in Denver, Colorado, selected
the military or civilian workforce. The USPTO’s efforts    to be the permanent home of the USPTO Denver Satellite
produced substantial gains in hiring veterans and          Office.




                                                                                                                           53
                                                                                                           www.uspto.gov
         MANAGEMENT’S DISCUSSION AND ANALYSIS




         in the economic and innovative environment of
         these regions and gives the agency a physical
         presence in every time zone across the contiguous
         United States.

         During FY 2013 the USPTO partnered with the Gen-
         eral Services Administration on a workplace analy-
         sis for our satellite offices. This analysis, which in-
         cluded focus groups, interviews, and time studies,
         recommended a new workplace concept that bet-
         ter addresses employee requirements and provides
         spaces for public outreach and education.
                                                                   The Environmental Protection Agency's prestigious Energy
                                                                   Star certification was awarded in February to LCOR, owner
         Energy Efficiency
                                                                   of the USPTO's Alexandria campus, for achieving strict build-
                                                                   ing performance standards and outstanding energy effi-
         The USPTO won an Energy and Environmental
                                                                   ciency. The Alexandria campus buildings performed in the
         Stewardship Award from the DOC in recognition of          top 25 percent of all similar commercial buildings nation-
         its highly successful recycling program—marking           wide. Pictured from left to right: Ed Stratchko, LCOR; Maren
         the second consecutive year the USPTO has won             Williams, USPTO Space and Facilities Management Division
         this award. Over the past five years, the agency’s        Manager; Roxanne Fuhrman, USPTO; Mike Mestre, LCOR;
                                                                   and Sudan Saha, USPTO.
         waste diversion rate climbed from 36 percent in FY
         2008 to a remarkable 86 percent through FY 2013.
                                                                   its emergency preparedness posture, Continuity of
         This represents more than 3,698 tons of waste ma-
                                                                   Operations Plan (COOP)-related tabletop exercises
         terials that were recycled, thereby diverting waste
                                                                   were held with Business Unit COOP managers,
         from landfills.
                                                                   Emergency Response Group personnel, and Re-
         In FY 2013 the USPTO, in partnership with LCOR, the       constitution Team Members.
         owner of the Alexandria campus buildings, was the
         recipient of the Environmental Protection Agency’s        Warehouse Efficiencies
         (EPA) prestigious Energy Star award for achieving         In an effort to reduce operating expenses, the
         strict building performance standards set by the          USPTO’s records retention procedures were updat-
         EPA. Energy Star buildings use less energy, cost          ed to allow for the disposal of a large number of
         less to operate, produce fewer greenhouse gas             paper application documents that appear in the
         emissions, and perform better than 75 percent of          USPTO’s official electronic record of application. As
         similar office buildings nationwide. This again is the    a result, 278,800 boxes of paper were recycled,
         second straight year for this award.                      yielding revenue of $207,959. Following the dis-
                                                                   posal, the shelving used to store the documents
         The USPTO Green Team’s outreach program kept
                                                                   was also recycled, yielding scrap metal proceeds
         employees informed of ways to save energy at
                                                                   in excess of $19,000. Finally, warehouse space
         both work and home through its “Green at USPTO”
                                                                   previously devoted to the storage of the boxed ap-
         web-site, lobby-level kiosks, and an annual green
                                                                   plications was returned to the General Services
         fair.
                                                                   Administration, reducing the USPTO’s annual ware-
         Safety and Security                                       house rental rate by $662,384 annually.

         The USPTO’s emergency preparedness programs               Advancements in Telework
         were improved by the rollout of a self-service fea-
                                                                   The USPTO continues to be a model for telework in
         ture allowing employees to receive notification of
                                                                   the federal government. Telework at the USPTO is a
         campus emergencies, inclement weather alerts,
                                                                   corporate business strategy, which supports mis-
         etc., on their mobile devices. To further enhance



54
     PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                       MANAGEMENT’S DISCUSSION AND ANALYSIS




sion achievement and goal fulfillment via a distrib-    up to six annual mandatory trips back to the USPTO
uted workforce. In FY 2013, more than 8,550 em-         headquarters in Alexandria, Virginia. Hoteling (or
ployees agencywide were working from home at            full-time teleworking) employees may now elect,
least one day a week, translating to 72.6 percent of    voluntarily and for their own convenience, to live
the USPTO workforce. This is an increase of nearly      greater than 50 miles from the USPTO campus, by
1,191 teleworking employees from the same time          becoming a TEAPP participant—thereby changing
last fiscal year.                                       their official duty station. In FY 2013, 1,280 employ-
                                                        ees were participating in the TEAPP. For the number
Additionally, between FY 2012 and FY 2013, the          and geographical distribution of all USPTO hotelers,
percent of positions eligible to telework increased     please see Figure 10.
from 73.5 percent to 90.8 percent (+2,174 eligible
positions agencywide).                                  In April 2013, USPTO won the DOC Green Innova-
                                                        tion Award for demonstrating excellence in tele-
As part of the Telework Enhancement Act of 2010,        work. The award recognizes an innovation or idea
the USPTO was granted legislative authority to con-     with clear potential to transform the federal com-
duct the federal government’s initial Telework Trav-    munity's overall energy and environmental perfor-
el Expenses Test Program. The USPTO Telework En-        mance, in keeping with the goals defined by Exec-
hancement Act Pilot Program (TEAPP) allows em-          utive Order 13514. Telework provides cost savings
ployees to waive their right to travel expenses for     by reducing the need for additional office space,

 Figure 10
                                       USPTO Hoteling Across the USA




                                                                                                                      55
                                                                                                      www.uspto.gov
         MANAGEMENT’S DISCUSSION AND ANALYSIS




         enhances recruitment and retention, fosters great-       OEEOD expanded the New Examiner Mentoring
         er efficiency in production and management, pro-         Program from 50 mentoring pairs to over 130 pairs,
         vides opportunities for expanded work flexibility        after the initial pilot demonstrated overwhelmingly
         and better work-life balance for participating em-       positive results – the attrition rate for mentees was
         ployees, and reduces the agency’s overall envi-          half that of new examiners who did not participate.
         ronmental footprint.                                     The program’s goal is to help new patent examin-
                                                                  ers acclimate to the agency and improve retention
            While agencies                                        past the initial probationary period. The second
            remained                                              pilot concluded in June 2013 with positive results
            closed for the                                        again.
            second day of
            Hurricane                                             On May 9, 2013, the agency hosted its annual
            Sandy,     patent
            examiners main-                                       capstone diversity event, Community Day. On
            tained a 58 per-                                      Community Day, USPTO business units and offices,
            cent production                                       unions, affinity groups, and civic groups showcase
            rate and trade-
                                 Jacob Petranek, Primary Patent   their organizations to USPTO employees. On Com-
            marks examin-
                                 Examiner.                        munity Day, the agency’s Deputy expressed a
            ing     attorneys
            maintained a 79 percent production rate. Similarly,   commitment to a diverse workforce, and presented
            patent examiners maintained an 83 percent pro-
                                                                  the agency’s Equal Employment Opportunity
            duction rate and trademark examining attorneys
            maintained a 93 percent production rate during the    Awards. This year, the event highlighted the agen-
            March 6, 2013 snowstorm that shutdown Washing-        cy’s affinity group with a “Spotlight on Diversity.”
            ton, D.C. metropolitan agencies. Without telework
            and hoteling, the agency would have been much         Community Day has four core purposes: (1) inform
            less productive during this time.                     employees of the agency equal employment op-
            -“Mobile Work Exchange,” Fall 2013.                   portunity policy and program; (2) provide recogni-
                                                                  tion, in the form of the Equal Employment Oppor-
                                                                  tunity Award, to employees who demonstrate su-
         Equal Employment Opportunity and Diversity               perior accomplishments in support of the agency’s
                                                                  diversity program, as required; (3) promote active
         The Office of Equal Employment Opportunity and
                                                                  engagement in recognized employee resource
         Diversity (OEEOD) actively supports a network of 12
         affinity groups at the USPTO. OEEOD’s work in-
         cludes conducting quarterly meetings with the             Figure 11
         leaders of the affinity groups to discuss joint pro-               Total USPTO Employees by Race
         jects and programs; for example, the annual Inter-                       and National Origin
         national Food Sample Festival that allows the affini-           American            Hispanic,
         ty groups to showcase diversity through food.                   Indian or              3%
                                                                           Alaska
                                                                        Native, <1%
         Figure 11 shows the current racial and national
         origin diversity of the USPTO for FY 2013.
                                                                                                 African
                                                                                                American,
         Additionally, OEEOD managed the agency’s Na-                                             21%
         tional Engineering Week event in partnership with                     Asian, 27%
         the Office of Education and Outreach and several
         of the agency’s affinity groups. The interactive,
         hands-on program focused on bringing in local
         high school students to learn about 3D printing                                    White, 48%

         technology, with the hope of inspiring them to pur-
         sue careers in engineering and science.




56
     PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                         MANAGEMENT’S DISCUSSION AND ANALYSIS




                                                         efforts with the Office of Innovation Development
                                                         (OID), administratively situated within the Patent
                                                         organization. The OID serves a key role in promot-
                                                         ing innovation and technological development in
                                                         the United States. The OID oversees programs that
                                                         foster and support innovation in the independent
                                                         inventor and small business communities, universi-
                                                         ties, and non-profit organizations. To this end, the
                                                         OID designs and implements outreach programs
                                                         that target a wide range of demographics includ-
                                                         ing independent inventors, women, small business
                                                         concerns, minorities, and other under-served
                                                         communities. The OID also works closely with other
                                                         officials and agencies throughout the government
                                                         in support of the Obama administration’s efforts to
                                                         promote small business, entrepreneurship, and job
 USPTO Community Day volunteers posing with the food     creation. As part of this year’s effort, the OID held
 collected for the Stamp Out Hunger Food Drive, spon-
                                                         three Saturday Seminars at the Detroit satellite of-
 sored by U.S. Postal Service.
                                                         fice, and a Regional Independent Inventors Con-
                                                         ference in Kansas.
groups, and educate the workforce on office initia-
tives (e.g., employee viewpoint survey, computer         One strategic long-term initiative spearheaded
security, wellness programs, green initiatives, etc.);   specifically by OID is the USPTO’s ongoing collabo-
and (4) expose employees to civic organizations in       ration with the Smithsonian Institution. Over the next
the broader community (City of Alexandria) to im-        seven years, the OID will assist the Smithsonian in
prove community conditions that affect employa-          producing exhibits and programming for the Arts
bility.

OEEOD also works closely with the relevant affinity
groups on Special Emphasis Month programs. For
example, OEEOD partnered with various affinity
groups to host programs for Hispanic Heritage
Month, Native American Heritage Month, Black His-
tory Month, Lesbian, Gay, Bisexual, and
Transgender Pride Month, Asian American and Pa-
cific Islander Heritage Month and Caribbean Amer-
ican Heritage Month. Additionally, for the first time,
OEEOD, in conjunction with the USPTO Chapter of
Blacks in Government, the National Society of Black
Engineers USPTO Professional Chapter, the Society
of Ethiopian American Engineers and Scientists and
the Caribbean Intellectual Property Association,
hosted an event to celebrate Juneteenth.
                                                           A USPTO team tours the Smithsonian Institution Arts and
Providing Information and Feedback Channels                Industry building, which is due to open in FY 2014. From
                                                           Left to Right: Dana Colarulli, Pherabe Kolb (Smithsonian
for Employees and the Public
                                                           Institution), Jim Payne, Teresa Stanek Rea, John Cabe-
                                                           ca, Wayne Clough (Secretary of the Smithsonian Institu-
The USPTO continues to support the independent             tion), Richard Maulsby, Bruce Kisliuk, Debbie Cohn and
inventor community and enhanced its outreach               Todd Elmer.




                                                                                                                            57
                                                                                                            www.uspto.gov
         MANAGEMENT’S DISCUSSION AND ANALYSIS




         and Industries Building on the National Mall,               written and compliant, limiting the resources need-
         scheduled to open in 2014. The OID will provide             ed for examination and directly contributing to the
         input, content, and direction to the Smithsonian on         USPTO’s strategic goals of reducing pendency and
         matters of technology and IP, and make use of the           improving patent quality.
         Arts and Industries Building for special events and
         regularly scheduled programming.                            Implementation of the Patents Ombudsman Pro-
                                                                     gram was a direct response to the public’s request
         The OID also participates extensively in outreach           for a dedicated resource providing assistance to
         initiatives with inventor organizations throughout          patent applicants, attorneys, and agents with ap-
         the United States. These non-profit inventor organi-        plication-specific issues related to patent prosecu-
         zations assist inventors with their innovations and         tion advancement. This program serves as a
         their desire to start a business based on those in-         means for maintaining the lines of communication
         ventions.                                                   between practitioners and examiners. The Patent
                                                                     Ombudsman Program has resulted in improved,
         The USPTO continues to encourage the growth of              high-quality customer service by advancing the
         pro bono IP legal services through universities and         status of patent applications while simultaneously
         professional law associations. In all cases, the OID        demonstrating the agency’s commitment to
         plays an instrumental role in the development of            achieving its strategic goals by improving patent
         protocol for the pro bono program and finding               quality and timeliness, promoting confidence in the
         partners for this endeavor. The ultimate goal is to         patent examination process, and improving rela-
         have regions covering the entire country and to             tions with stakeholders, all in an effort to ultimately
         have a single entity, the Federal Circuit Bar Associ-       spur innovation and economic growth.
         ation, serve as an intake and referral center for all
         inventors and small businesses interested in pro            Also in FY 2013, the USPTO, in collaboration with its
         bono services. The pro bono program helps ensure            three employee unions, developed the Creativity
         that applications submitted to the USPTO are well           and Innovation 2.0 Pilot Program. The purpose of
                                                                     the Program was to provide a 24/7 online commu-
                                                                     nity-building environment that enabled innovation
                                                                     and cross-organizational collaboration within the
                                                                     USPTO. It was also meant to empower USPTO em-
                                                                     ployees to develop innovative ideas on how to im-
                                                                     prove the agency, and to comment and vote on
                                                                     those ideas. The pilot generated 470 ideas, several
                                                                     of which were implemented. The Pilot program is
                                                                     currently being evaluated by a joint labor-
                                                                     management team, with the intent to establish a
                                                                     permanent program in FY 2014.

                                                                     The Office of Education and Outreach sponsors
                                                                     educational outreach programming for the USPTO
                                                                     and is managed through the Office of the Under
                                                                     Secretary. The USPTO provides educational activi-
                                                                     ties and participates in educational programs for
           World Intellectual Property Organization (WIPO) Deputy
                                                                     students, educators, and young inventors and in-
           Director General, Innovation and Technology Sector        novators of all ages. This fiscal year, an 11-part
           James Pooley speaks at the 2013 World Intellectual        series, “Science of Innovation,” was produced by
           Property Day event on Capitol Hill. The 2013 theme was
           “Creativity: The Next Generation.” The program included   NBC Learn, the educational arm of NBC News, in
           representatives from NBC Learn, the education arm of      partnership with the National Science Foundation
           NBC News.                                                 (NSF) and the USPTO. The series highlights innova-



58
     PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                      MANAGEMENT’S DISCUSSION AND ANALYSIS




tions, but also explains the specific processes that    that regulations were issued to implement the AIA
helped bring them about, such as the need to im-        provisions while complying with applicable rule-
agine and invent, as well as the desire to improve      making requirements. OGL was integrally involved
existing innovations and even inspire others. The       in every stage of the AIA rulemaking process, work-
stories are told through the eyes of scientists and     ing with representatives from every business unit
engineers funded by the NSF, who have used pa-          and interacting with outside parties and stake-
tents and sometimes trademarks to protect their         holders to ensure prompt completion of the rules.
work. “Science of Innovation” launched on Febru-        OGL secured expedited clearances of the many
ary 11, 2013, the 165th birthday of Thomas Alva         AIA rules, saving the agency time and money and
Edison, to underscore the fact that the spirit of in-   facilitating successful issuance of the rules within
novation lives on in the United States today. The       the statutory deadlines. These rules included a
videos in this collection are available for free and    new patents fee schedule designed to build a sus-
aligned to middle school and high school lesson         tainable funding model and to provide increased
plans produced by the National Science Teachers         filing options for applicants and expanded dis-
Association (NSTA) and to national education            counts for small businesses and independent in-
standards.                                              ventors. OGL advised on numerous employment
                                                        and labor matters arising from the AIA initiative to
AIA Implementation/Rulemaking Legal Support             hire additional patent examiners and PTAB person-
                                                        nel, and the implementation of various other AIA
The Office of General Law (OGL) is the non-IP legal
                                                        initiatives. OGL provides legal support for the
component of the Office of General Counsel. It is
                                                        USPTO’s many agreements, procurements, and
responsible for providing legal advice and support
                                                        partnerships to promote intellectual property pro-
concerning the administration and management
                                                        tection domestically and internationally related to
of the USPTO. OGL also represents the USPTO in
                                                        the AIA. OGL supports the USPTO’s AIA public out-
various administrative proceedings concerning
                                                        reach, including assistance to help small business-
employment, labor and procurement issues. OGL
                                                        es and independent inventors take advantage of
provides administrative law support for the USPTO’s
                                                        new processes and fee discounts provided by the
rulemaking efforts and in particular helped ensure
                                                        AIA.




                                                                                                                    59
                                                                                                    www.uspto.gov
         MANAGEMENT’S DISCUSSION AND ANALYSIS




           Management Challenges and
           What’s Ahead
         The distance between innovation and the market-          dency targets and the attainment of the agency’s
         place is shrinking. Said another way, innovation is      10 and 20-month pendency goals.
         moving more quickly from creation to manufacture
                                                                  The AIA promotes innovation and job creation by
         and distribution. IP is a necessary instrument for
                                                                  improving patent quality, clarifying patent rights,
         innovators and businesses to capture value as
                                                                  reducing the application backlog, and offering
         ideas move to the marketplace. In performing its
                                                                  effective alternatives to costly patent litigation. The
         mission—quality examination and disposition of
                                                                  implementation of the AIA’s provisions will continue
         patents and trademarks—the USPTO faces signifi-
                                                                  to present numerous challenges and the USPTO
         cant challenges.
                                                                  continues to look forward to actively engage
         Given current budget constraints under sequestra-        stakeholders both in outreach and education re-
         tion, efforts to move into permanent spaces for          garding these changes.
         three locations—Denver, Colorado; Silicon Valley,
                                                                  Build and Focus on Improvements
         California; and Dallas, Texas—have been delayed,
         but the personnel in those locations are nonethe-        The Patent and Trademark organizations built on
         less continuing to operate from the temporary            their accomplishments and worked toward meet-
         spaces, and striving to grow our presence in the         ing the objectives of the USPTO 2010-2015 Strategic
         satellite office locations remains a top agency pri-     Plan while working with stakeholders to ensure that
         ority. These offices are in addition to the USPTO’s      the objectives remained aligned with their needs.
         first satellite office in Detroit, Michigan, which
         opened in 2012. The four offices will function as        The Patent organization’s continuing challenges
         hubs of innovation and creativity, helping protect       are to reduce patent pendency and the excess
         and foster American innovation in the global mar-        inventory of unexamined patent applications to an
         ketplace, helping businesses cut through red tape,       appropriate working inventory, while improving pa-
         and creating new economic opportunities in each          tent quality and building a highly trained and sta-
         of the local communities.                                ble workforce. By providing patent applicants with
                                                                  additional options to accelerate the USPTO’s review
         Also, the failure to hire sufficient numbers of patent   of their applications, they gain greater control over
         examiners this year will impact backlog and pen-         examination timing. Collaborative efforts in areas



60
     PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                       MANAGEMENT’S DISCUSSION AND ANALYSIS




that include automation, global patent classifica-      organization has embarked on a large multi-year
tion, and work sharing has resulted in increased        program to modernize its IT infrastructure. The
efficiency. The Patent organization continues to        challenge is to deliver on time and on budget
forge ahead in meeting these challenges by hiring,      despite evolving business requirements, ever-
training, and retaining highly skilled and diverse      changing technologies, and stiff competition for
examiners.                                              talent and know-how. The organization developed
                                                        a plan that recognized these constraints and
A significant challenge for the Trademark organiza-
                                                        adopted agile methodologies to cost-effectively
tion will be maintaining performance levels while
                                                        meet its IT goals. A part of this challenge will be to
continuing to grow and replace outdated IT sys-
                                                        deliver enhanced systems functionality to internal
tems. Our performance metrics and stakeholder
                                                        and external users. The pressure to maintain a
feedback indicate that the Trademark organization
                                                        legacy system while building a modern platform
has achieved a high level of performance. The key
                                                        can lead to a narrow focus on replacement versus
challenge becomes maintaining this level of high
                                                        enhancement.         This focus can also be
performance when faced with significant year-over-
                                                        exacerbated by the lack of visibility to future
year growth and while rebuilding mission-critical
                                                        business requirements and needs as the
infrastructure and systems. To address this chal-
                                                        technological and socio-economic landscapes
lenge, the organization developed a coherent
                                                        continually change. The Trademark organization is
long-term strategic plan and is actively monitoring
                                                        addressing this challenge by maintaining its focus
and reporting progress towards achieving its per-
                                                        on enhancements, by targeting a scalable and
formance goals and IT modernization projects.
                                                        flexible    technological     platform,    and     by
We must also continue to enhance trademark              continuously seeking input and feedback from its
quality and pendency. The organization has              stakeholders.
achieved a record of high-level quality. The expec-
                                                        Finally, ensuring cost efficiency will continue to be
tation for even higher quality is legitimate, but can
                                                        an ongoing challenge. As the Trademark organi-
be elusive and/or cost-prohibitive. The Trademark
                                                        zation grows and invests to address greater service
organization has been addressing this challenge
                                                        requests and future needs, costs can escalate and
by adopting a more holistic definition of quality
                                                        impact efficiency. To address this challenge, the
and excellence, by expanding and tailoring train-
                                                        organization has adopted a cautious plan that
ing programs, and by enhancing communication
                                                        favors better and full usage of existing resources
with applicants and within internal work groups.
                                                        before incremental investments. The organization
Maintaining optimal application pendency level is
                                                        is also actively monitoring, through a sophisticated
also an issue meriting close observation. Penden-
                                                        managerial accounting system, its cost of services
cy is determined by the volume of application fil-
                                                        and activities to ensure efficient and effective re-
ings and our ability to adjust examination capacity
                                                        source allocation.
to maintain process and examination times. Given
the inherent volatility of trademark filings and the    Manage and Execute to Goals
inflexibility of adjusting examination capacity,
maintaining optimal pendency can be a signifi-          The USPTO’s promotion, protection, and enforce-
cant challenge if the organization lacks the re-        ment of IPR have never been more important to our
sources or tools to respond quickly to sudden eco-      nation’s economic prosperity. The USPTO must har-
nomic changes and filings. The organization has         ness the expertise and skills within the agency and
demonstrated success with accurate filing fore-         leverage new technology to achieve its goals. The
casts and incentives which permit adjustments to        actions we have taken to create a unified strategy
ensure consistent pendency.                             to deliver timely, high-quality patents and trade-
                                                        marks must be carefully managed. The agency
Completing IT projects on time and within budget        continues to face the external pressures of increas-
will be a priority to watch. The Trademark              ing application volume and rapid technology



                                                                                                                      61
                                                                                                      www.uspto.gov
         MANAGEMENT’S DISCUSSION AND ANALYSIS




         changes. We will meet these challenges by con-          creased reliance on electronic systems presents
         tinuing to update our antiquated IT infrastructure;     other challenges to the USPTO in the event of an
         by hiring, retaining, and training examiners; and by    unplanned outage or disruption in processing.
         improving our operations to be more effective and
                                                                 Strengthen Global IPR Systems
         efficient. As we improve our agency, we must con-
         tinue to focus on building relationships with our       The USPTO faces numerous challenges in seeking
         workforce, applicants, patent and trademark own-        to strengthen global IP systems, including funding
         ers, Congress, and the public.                          insecurity caused by the global recession for many
                                                                 IP institutions around the world. The USPTO will con-
         Continue to Move to an Electronic Workplace
                                                                 tinue to promote the strengthening of IP systems
         The Patent and Trademark organizations have             through its policy advocacy and leadership, and
         made significant progress to eliminate paper doc-       its training and education efforts. In close cooper-
         uments and manual transactions from their pro-          ation with other agencies of the U.S. government,
         cesses. Electronic communications are improving         the USPTO will continue to promote the adequate
         and encouraging more applicants to do business          and effective protection and enforcement of IP
         electronically by using Web-based systems. The          rights overseas.
         Patent and Trademark organizations now rely heav-
                                                                 USPTO Funding Model
         ily on data submitted or captured electronically to
         support examination, publish documents, and is-         The USPTO is challenged to finish establishing a sus-
         sue registrations. Because of the high degree of        tainable funding model that provides the require-
         reliance on electronic operations, both organiza-       ments-based authority to spend all fees collected
         tions are dependent on the management and               on operations and work received, spans multiple
         support of internal IT systems and services to man-     years, and is adaptable to fluctuations inherent in
         age their operations and provide services to the        estimates. An important aspect of a sustainable
         public.                                                 funding model is the authority to set and adjust
                                                                 fees by regulation, so that we can properly estab-
         The Patent and Trademark organizations, along
                                                                 lish and align fees in a timely, fair, and consistent
         with the support of the OCIO, are working to ad-
                                                                 manner without the inherent time impediments of
         dress the challenge of completing an electronic
                                                                 the legislative process. The USPTO obtained this
         docket and file management system for each or-
                                                                 authority for seven years in the AIA, signed on Sep-
         ganization. These systems will link all operations
                                                                 tember 16, 2011. The agency began to alleviate
         and processing that support core examination and
                                                                 these challenges with an implementing rule that
         post-issuance activities. A fully electronic workflow
                                                                 was published in January 2013. A majority of this
         will allow both organizations to better manage the
                                                                 rule was implemented in March 2013 and the re-
         fluctuations in filings and to be more efficient and
                                                                 mainder will be effective in January 2014. With this
         in processing and responding to filings.
                                                                 rule, the USPTO exercised, for the first time in its ex-
         Another major challenge is to integrate and mod-        istence, the ability to adjust fees in such a way as
         ernize legacy systems, especially those now used        to establish a sustainable funding model, reduce
         for Patent operations. The legacy systems were          the current patent application backlog, decrease
         developed over the past 30+ years. Most of these        patent pendency, improve patent quality, and up-
         systems have their own user interface, do not allow     grade the agency’s patent business IT capability
         for easy movement of data to other systems, and         and infrastructure.
         were built on now obsolete technology. The goal
         of our Next Generation IT systems is to provide a       The fee-setting authority provided for in the AIA
         common user interface and full data integration         sunsets seven years from September 2011. Also,
         using modern IT tools, replacing the current anti-      sequestration this year presented a new challenge
         quated and decaying infrastructure.        This in-     in securing the authority to spend all fees collected




62
     PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                        MANAGEMENT’S DISCUSSION AND ANALYSIS




on operations and work received. In the future, the      Moving forward and in line with the Diversity and
USPTO will continue to build its operating reserve to    Inclusion Strategic Plan (D&ISP), OEEOD intends to
a level that sustains operations, work toward secur-     support the agency’s hiring initiatives by helping to
ing permanent fee-setting authority, and address         recruit a diverse pool of well-qualified applicants.
the challenges associated with being able to             OEEOD will support hiring by identifying sources of
spend all of the fees it collects on operations and      diverse and well-qualified applicants, coordinating
work received from applicants.                           with the affinity groups to support recruitment ef-
                                                         forts, and assisting with the on-boarding process.
Human Capital Management
                                                         OEEOD is also working with OHR to develop an ex-
The USPTO’s mission requires a highly skilled, well-     ecutive development program to increase the di-
educated, and diverse workforce. The agency              versity of the agency’s SES, which is currently not
continues to face the ongoing need to recruit, hire,     reflective of the agency’s overall diversity. The de-
develop, and retain sufficient numbers of qualified      velopment program will incorporate best practices
professionals in a highly competitive environment.       for identifying and nurturing a diverse pool of future
In order to do so, the USPTO strives to be recog-        executives.
nized as an employer of choice. The results of the
annual Employee Viewpoint Survey (EVS) are used          OEEOD continues its responsibility for ensuring that
extensively to direct efforts and resources towards      the agency remains a fair workplace with equal
employer-of-choice programs, benefits, and strate-       opportunity for all. OEEOD is working to maximize
gies. In FY 2013, we learned that, as a result of the    available technology to become a leader in user
agency’s focus on the EVS and subsequent efforts         and results-oriented investigations so that issues
to meet the needs of our employees, the USPTO            are handled in an efficient, collaborative, and ac-
was recognized by the non-profit PPS as number 5         cessible manner.
out of 292 federal agency subcomponents as the           Create IT Enterprise Architecture and Tools
“Best Place to Work.” The USPTO will need to con-
                                                         that Support Mission-Critical Business and
tinue to find even more innovative ways to retain
                                                         Programmatic Requirements
this highly desirable employee acknowledgement.
                                                         In FY 2014, the USPTO will continue to take steps to
The agency uses a cradle-to-grave approach
                                                         improve its ability to be more responsive and to
when it comes to anticipating employees’ needs
                                                         better manage and deliver quality products at en-
and exceeding their expectations—starting with
                                                         hanced service levels. This will be accomplished by
proactive engagement at job fairs, targeted re-
                                                         reducing the complexity of systems, establishing
cruitment trips, an aggressive veteran’s hiring pro-
                                                         and enforcing more standards, and practicing
gram, and other recruitment venues to attract and
                                                         continual process improvement.
hire highly sought after candidates in all engineer-
ing disciplines, computer sciences, and other pro-       The challenge facing the OCIO will be in continu-
fessional fields. Once aboard, the agency turns its      ing efforts to:
attention to retaining their services and skill sets.
Our retention strategies are continually updated to      •   Work on strengthening our IT Infrastructure and
reflect industry best practices. Attrition data is           moving to a “cloud” computing environment;
tracked and survey results monitored in an effort to
discern the effectiveness of our retention initiatives   •   Complete the expansion of IT infrastructure to
and to identify developing trends. The agency                include faster network connections to/from the
continues to focus on work-life enhancements in-             USPTO campus and additional collaboration
cluding the federal government’s best telework               tools in support of a nationwide workforce;
program, an extensive wellness program, and a
number of engaged affinity groups, all of which
increase employee satisfaction.



                                                                                                                       63
                                                                                                       www.uspto.gov
         MANAGEMENT’S DISCUSSION AND ANALYSIS




         •   Plan, implement, and maintain IT systems that            capabilities and upgrade e-tools to the public;
             support and improve business processes in the            help move the USPTO to full electronic records
             Patent and Trademark organizations;                      and eliminate the need to collect and store
                                                                      paper records; and continue to improve overall
         •   Work to develop and fully implement an IT                data quality;
             Human Capital Strategic Plan, in alignment
             with the new USPTO 2014-2018 Strategic Plan,         •   Work with the OCFO to plan, implement, and
             currently under development;                             support the Fee Processing Next Generation
                                                                      (FPNG) system that will integrate with the
         •   Improve the security, availability, and quality of       business IT systems for the Patent and
             IT systems and services while reducing their             Trademark organizations; and
             complexity and cost; support business area
             needs to accommodate the hiring and                  •   Continue to add datasets to the              U.S.
             equipping of new employees; provide internal             government’s         www.data.gov            and
             online tools (regarding consistency and quality          www.google.com        web-sites, providing    the
             of searching and examination); provide                   public with no-cost access to bulk text      and
             electronic file management and workflow;                 image data collections of current            and
             develop interactive online electronic filing             retrospective patent and trademark data.




64
     PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                       MANAGEMENT’S DISCUSSION AND ANALYSIS




 Accompanying Information
 on USPTO Performance
Performance Audits and Evaluations
The OIG completed two new final audit reports in        transition to a subsequent phase in the SDLC
FY 2013. The first report, USPTO Deployed Wireless      based on their assessment of the effectiveness of
Capability with Minimal Consideration for IT Security   incorporating security into the process. The USPTO
(February 2013, OIG-13-014-A) focused on the ef-        concurred with the OIG’s audit findings and began
fectiveness of the USPTO’s IT security program by       to address all recommendations. As of September
determining whether key security measures ade-          30, 2013, the USPTO has fully implemented the OIG
quately protect its systems and access to the Pub-      findings in the final report. This evaluation was per-
lic and Enterprise Wireless LAN (PEWLAN). The           formed in support of the Management Goal, Ob-
USPTO concurred with the OIG’s final report rec-        jective 1: Improve IT Infrastructure and Tools.
ommendations. The OIG recommended that the
USPTO ensure that the system owners register all        The second final report, USPTO Successfully Imple-
systems under development in Cyber Security As-         mented Most Provisions of the America Invents Act,
sessment and Management during the system's             but Several Challenges Remain (September 2013,
initiation phase and that the USPTO rigorously ap-      OIG-13-032-A) , reviewed the USPTO’s efforts to im-
plies its system development life cycle (SDLC) pro-     plement the America Invents Act (AIA). The USPTO
cess and the National Institute of Standards and        concurred with the OIG’s final report recommenda-
Technology’s (NIST) risk management framework to        tions and has begun taking initial steps to ensure
all system-development projects. Further, the OIG       their timely implementation. The USPTO realigned
recommended that system owners, information             and is increasing PTAB’s IT capabilities to strength-
system security officers, technical leads, project      en its project planning and execution. The USPTO
managers, and program managers attend the               is In process of preparing a comprehensive Capital
USPTO's SDLC role-based training course on a regu-      Investment Decision Paper for the PTAB Next Gen-
lar basis. Finally, they recommended that Cyberse-      eration IT System. The USPTO will also ensure the
curity Division representatives have a role in decid-   quality of First Inventor to File applications by im-
ing whether IT system development projects should       proving the evaluative process of incoming appli-
                                                        cations and additional training.       The USPTO will



                                                                                                                      65
                                                                                                      www.uspto.gov
         MANAGEMENT’S DISCUSSION AND ANALYSIS




         provide Congress an updated assessment of the             ing direction and support on data collection
         agency’s ability to establish – or not establish – sat-   methodology and analysis, ensuring that data
         ellite offices that meet AIA provisions no later than     quality checks are in place, and reporting perfor-
         September 30, 2014. The USPTO will also develop a         mance management data.
         consistent and coordinated approach in establish-
         ing and managing the satellite offices. And, finally,     DATA ACCURACY — The USPTO conducts verifica-
         the USPTO will prepare an overall AIA report, to in-      tion and validation of performance measures peri-
         clude milestones for completing the five remaining        odically to ensure quality, reliability, and credibility.
         AIA reports and certain individual implementation         At the beginning of each fiscal year, and at various
         plans. This evaluation was performed in support of        points throughout the reporting or measurement
         Goal 1: Optimize Patent Quality and Timeliness.           period, sampling techniques and sample counts
                                                                   are reviewed and adjusted to ensure data are sta-
         Performance Data Verification and Validation              tistically reliable for making inferences about the
                                                                   population as a whole. Data analyses are also
         In accordance with the GPRA Modernization Act of          conducted to assist the business units in interpret-
         2010 requirements, the USPTO is committed to mak-         ing program data, such as the identification of sta-
         ing certain the performance information it reports is
                                                                   tistically significant trends and underlying factors
         complete, accurate, and consistent. The USPTO
                                                                   that may be impacting a specific performance in-
         developed a strategy to validate and verify the           dicator. For examination quality measures, the re-
         quality, reliability, and credibility of USPTO perfor-    view programs themselves are assessed in terms of
         mance results as follows:                                 reviewer variability, data entry errors, and various
         ACCOUNTABILITY — Responsibility for providing             potential biases.
         performance data lies with managers of USPTO
                                                                   Commissioner’s Performance for FY 2013
         programs who are held accountable for making
         certain that procedures are in place to ensure the        The American Inventors Protection Act (AIPA), Title
         accuracy of data and the performance measure-             VI, Subtitle G, the Patent and Trademark Office
         ment sources are complete and reliable.                   Efficiency   Act,   requires    that   an    annual
                                                                   performance agreement be established between
         QUALITY CONTROL — Automated systems and da-               the Commissioner for Patents and the Secretary of
         tabases that collect, track, and store performance        Commerce, and the Commissioner for Trademarks
         indicators are monitored and maintained by USPTO          and     the    Secretary    of    Commerce.      The
         program managers, with systems support provided           Commissioners for Patents and Trademarks have FY
         by the OCIO. Each system, such as the Patent Ap-          2013 performance agreements with the Secretary
         plication Location and Monitoring or Trademark            of Commerce, which outline the measurable
         Reporting and Application Monitoring, incorpo-            organizational goals and objectives for which they
         rates internal program edits to control the accura-       are responsible. They may be awarded a bonus,
         cy of supporting data. The edits typically evaluate       based upon an evaluation of their performance as
         data for reasonableness, consistency, and accu-           defined in the agreement, of up to 50 percent of
         racy. Crosschecks between other internal auto-            their base salary. The results achieved in FY 2013
         mated systems also provide assurances of data             are documented in this report. FY 2013 bonus
         reasonableness and consistency. In addition to            information is currently not available. For FY 2012,
         internal monitoring of each system, experts outside       the Commissioner for Patents was awarded a
         of the business units routinely monitor the data-         bonus of 13.9 percent of base salary and the
         collection methodology. The OCFO is responsible           Commissioner for Trademarks was awarded a
         for monitoring the agency’s performance, provid-          bonus of 13.9 percent of base salary.




66
     PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                      MANAGEMENT’S DISCUSSION AND ANALYSIS




    Management Assurances and
    Compliance with Laws and
    Regulations
This section provides information on the USPTO’s       the FMFIA. The objectives of internal control are to
compliance with the following legislative man-         ensure:
dates:
                                                       •   Effectiveness and efficiency of operations;
•   Federal Managers’ Financial Integrity Act          •   Reliability of financial reporting; and
•   Federal Financial Management Improvement           •   Compliance with laws and regulations.
    Act
                                                       The statement of assurance that follows is based
•   Federal Information Security Management Act        on the wide variety of evaluations, control assess-
•   Agency’s Financial Management Systems              ments, internal analyses, reconciliations, reports,
    Strategy                                           and other information, including the DOC OIG au-
•   Inspector General (IG) Act Amendments              dits, and the independent public accountants’
                                                       opinion on the USPTO’s financial statements and
•   OMB Financial Management Indicators
                                                       their reports on internal control and compliance
•   Prompt Payment Act                                 with laws and regulations. In addition, the USPTO is
•   Civil Monetary Penalty Act                         not identified on the GAO’s High Risk List related to
                                                       controls governing various areas.
•   Debt Collection Improvement Act
•   Biennial Review of Fees                            Federal Financial Management Improvement
                                                       Act (FFMIA)
Management Assurances                                  The FFMIA requires federal agencies to report on
                                                       agency substantial compliance with federal finan-
Federal Managers’ Financial Integrity Act (FMFIA)
                                                       cial management system requirements, federal
The FMFIA requires federal agencies to provide an      accounting standards, and the U.S. Standard
annual statement of assurance regarding man-           General Ledger at the transaction level. In ac-
agement controls and financial systems. USPTO          cordance with OMB Circular A-127 (revised), sub-
management is responsible for establishing and         stantial compliance is achieved when an agency’s
maintaining effective internal control and financial   financial management systems routinely provide
management systems that meet the objectives of         reliable and timely financial information for manag-


                                                                                                                     67
                                                                                                     www.uspto.gov
         MANAGEMENT’S DISCUSSION AND ANALYSIS



         ing day-to-day operations as well as to produce
         reliable financial statements, maintain effective
         internal control, and comply with legal and regula-    On the basis of the USPTO’s comprehensive
                                                                internal control program during FY 2013, the
         tory requirements. The USPTO complied substantial-
                                                                USPTO can provide reasonable assurance
         ly with the FFMIA for FY 2013.                         that its internal control over the effectiveness
                                                                and efficiency of operations and compliance
         Other Compliance with Laws                             with applicable laws and regulations as of
                                                                September 30, 2013, was operating effective-
         and Regulations                                        ly. Accordingly, I am pleased to certify with
                                                                reasonable assurance that our agency’s sys-
         Federal Information Security Management Act            tems of internal control, taken as a whole,
         (FISMA)                                                comply with Section 2 of the Federal Manag-
         The USPTO remains vigilant in reviewing administra-    ers’ Financial Integrity Act of 1982.        Our
                                                                agency also is in substantial compliance with
         tive controls over information systems and is always
                                                                applicable federal accounting standards
         seeking methods of improving our security pro-         and the U.S. Standard General Ledger at the
         gram. During FY 2013, the USPTO continued its          transaction level and with federal financial
         dedicated efforts in support of compliance with        system requirements.         Accordingly, our
         FISMA standards and improvement of our security        agency fully complies with Section 4 of the
         program. The USPTO IT Security Program includes a      Federal Managers’ Financial Integrity Act of
                                                                1982, with no material non-conformances.
         strategy for continuous monitoring, which conducts
         credentialed compliance and vulnerability scans        In addition, the USPTO conducted its assess-
         on servers, network devices, database, and Web-        ment of the effectiveness of our agency’s in-
         application on a quarterly basis. The analysis is      ternal control over financial reporting, which
                                                                includes safeguarding of assets and compli-
         being performed to ensure that operating systems
                                                                ance with applicable laws and regulations, in
         have been configured in accordance with their          accordance with OMB Circular A-123, Man-
         security baseline and appropriate software patch       agement’s Responsibility for Internal Control.
         levels. Additionally, the IT Security program has      Based on the results of this evaluation, the
         integrated artifacts to support Security Impact        USPTO provides reasonable assurance that its
         Analysis within the systems development lifecycle      internal control over financial reporting as of
                                                                June 30, 2013 was operating effectively and
         that allow assessment of testing requirements for
                                                                no material weaknesses were found in the
         systems undergoing new developments, en-
                                                                design or operation of the internal control
         hancements, or maintenance. This proactive ap-         over financial reporting. In addition, no ma-
         proach to security within the development process      terial weaknesses related to internal control
         has successfully assessed changes and enabled          over financial reporting were identified be-
         security compliance for systems as they are being      tween July 1, 2013 and September 30, 2013.
         developed or updated.

         As a result, the Chief Information Security Officer
         and the OCIO staff working together made a con-
         certed effort to meet the compliance requirements
         of FISMA, while also meeting the reporting require-
         ments to OMB. These endeavors were a complete          Teresa Stanek Rea
         success. All USPTO systems achieved a 100 per-         Deputy Under Secretary of Commerce
         cent FISMA compliance reporting level for FY 2013.     for Intellectual Property and Deputy
         There were no deficiencies identified that are con-    Director of the United States Patent and
         sidered to be the result of any material weaknesses    Trademark Office
         in internal control. As a result of the work accom-    October 3, 2013
         plished, the USPTO was able to continue with con-
         tinuous monitoring and provide an accurate sum-
         mary of information consistent with OMB reporting
         requirements for year-end reporting.


68
     PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                        MANAGEMENT’S DISCUSSION AND ANALYSIS



The Inspector General’s Statement of Management          replace legacy RAM with modern 21st century
Challenges for the DOC (in the Other Information         technology that has more automated internal con-
section of this report) identifies IT security as a      trols, electronic commerce capabilities, and will be
cause for concern department-wide, to include the        able to meet the patent and trademark fee collec-
USPTO. While the OIG continues to report IT security     tion needs of the future. As the USPTO progresses
as a Commerce-wide concern, USPTO manage-                with its patent and trademark IT strategies (Patents
ment has concluded that IT security issues within        End-to-End and Trademarks Next Generation), the
the agency have been sufficiently resolved begin-        fee processing system also needs to progress to the
ning in FY 2009 to remove the material weakness.         next generation. The lack of modern technology in
                                                         legacy RAM hinders the USPTO from taking full ad-
The USPTO continues to coordinate closely with the
                                                         vantage of the potential benefits from Patents End-
OIG throughout the year, as well as review annual
                                                         to-End and Trademarks Next Generation initiatives.
assessments with the OIG, to gain additional insight
and ensure compliance with requirements.                 Inspector General Act Amendments
Agency’s Financial Management Systems                    The Inspector General Act, as amended, requires
Strategy                                                 semi-annual reporting on IG audits and related ac-
                                                         tivities, as well as any requisite agency follow-up.
The USPTO’s Consolidated Financial System (CFS)
                                                         The report is required to provide information on the
provides support for financial management, fee
                                                         overall progress on audit follow-up and internal
collections, procurement, and travel management
                                                         management controls, statistics on audit reports
functions to the USPTO. CFS leverages several
                                                         with disallowed costs, and statistics on audit reports
Commercial-off-the-shelf (COTS)/Government-off-
                                                         with funds put to better use. The USPTO did not
the-shelf (GOTS) products, including a core finan-
                                                         have audit reports with disallowed costs or funds
cial and acquisition system (Momentum Finan-
                                                         put to better use in FY 2013.
cials), an eTravel system (FedTraveler), a budget
execution and compensation projection system             The USPTO’s follow-up actions on audit findings and
(Corporate Planning Tool using the Cognos Plan-          recommendations are essential to improving the
ning tool), a cost accounting system (Activity           effectiveness and efficiency of our programs and
Based Information System built using the Profitability   operations. As of September 30, 2013, manage-
and Cost Management tool), and a data ware-              ment had resolved eight recommendations out-
house (Enterprise Data Warehouse accessed using          standing from reports issued in FY 2011 and FY 2012
the Business Objects tool). Additionally, CFS in-        (OIG-11-033-A: “Patent End-to-End Planning and
cludes an internally developed fee collection sys-       Oversight Need to Be Strengthened to Reduce De-
tem (Revenue Accounting and Management                   velopment Risk”; OIG-12-018-A: “The Patent Hoteling
(RAM)), an imaging system (Office of Finance Im-         Program is Succeeding as a Business Strategy”;
aging System built using the Documentum tool),           and OIG-12-032-A: “USPTO Other Backlog: Past
and an internally developed application to auto-         Problems and Risks Ahead for the Board of Patent
mate the transit subsidy program (Transit Subsidy        Appeals and Interferences”). Zero recommenda-
System).                                                 tions were outstanding as of September 30, 2013.

The Fee Processing Next Generation (FPNG) in-            Two new audit report were issued during FY 2013
vestment replaces RAM, the USPTO’s legacy fee            (OIG-13-014-A: “USPTO Deployed Wireless Capabil-
collection system. FPNG will use a combination           ity with Minimal Consideration for IT Security” and
COTS, GOTS, and open source code, as well as a           OIG-13-032-A: “USPTO Successfully Implemented
custom user interface that has the same look-and-        Most Provisions of the America Invents Act, but
feel as other USPTO web-sites. Developing and im-        Several Challenges Remain”). For details on this
plementing FPNG supports USPTO’s Strategic Priori-       audit, refer to page 65. Six recommendations were
ty, “Improve IT Infrastructure and Tools,” and will      outstanding      as   of   September    30,    2013.




                                                                                                                     69
                                                                                                     www.uspto.gov
         MANAGEMENT’S DISCUSSION AND ANALYSIS



                                             Status of IG Act Amendment Audit Recommendations
                                                            as of September 30, 2013
          Report for                                                                                                                  Completion
                         Status                  Recommendation                                      Action Plan
         Fiscal Year                                                                                                                    Date
                                   The USPTO Director should direct the appro-       a)   The USPTO ensured that key mile-
                                   priate USPTO officials to improve oversight of         stone reviews are conducted semi-
                                   PE2E by:                                               annually with the ITIRB and quarterly
                                                                                          with the CRB. In addition the CRB re-
                                   a) Updating USPTO oversight procedures                 ceives monthly financial and sum-
                                        for PE2E by establishing                          mary progress reports.
                                        • the key milestone oversight review         b)   To ensure PE2E is achieving its mile-
                                          schedule,                                       stones and following applicable
                                        • criteria for evaluating project progress        government and industry best prac-
                                          at oversight reviews, and                       tices for development, the USPTO has        November
             FY 2011     Closed
                                                                                          retained a world-class expert on leg-         2012
                                        • thresholds for convening special over-          acy migration and business architec-
                                          sight reviews                                   ture to provide insight, validate, and
                                   b)   Seeking independent expert advice on              offer corrective advice for PE2E de-
                                        technical and project management for              velopment, deployment, and appli-
                                        input into milestone reviews and defining         cation migration strategies.
                                        the rules of engagement for independ-
                                        ent reviewers, including when advice will
                                        be sought and access given to project
                                        artifacts and personnel.
                                   Conduct a more comprehensive calculation          The USPTO undertook an assessment of
                                   for costs and cost avoidance related to PHP       the costs and cost avoidance associated
                                                                                                                                       October
             FY 2012     Closed    in order to obtain more accurate estimates        with the PHP as part of the Cost Benefit
                                                                                                                                        2012
                                   of the cost and benefits affiliated with this     Analysis for the Telework Enhancement
                                   program                                           Act Pilot Program.
                                   Ensure that internal controls are in place so     The USPTO reviewed the eligibility, signup
                                   that only eligible patent examiners partici-      procedures, and records retention pro-
                                                                                                                                       October
             FY 2012     Closed    pate in PHP and appropriate documentation         cedures for the PHP. We ensured proce-
                                                                                                                                        2012
                                   is maintained.                                    dures are in place to fully reflect the eligi-
                                                                                     bility information for all PHP participants.
                                   Align BPAI’s 1resource planning with the hiring   Board resource (Administrative Patent
                                   actions and expected production levels of         Judge “APJ”) planning and hiring actions
                                   patent examiners.                                 made taking expected patent examiner
                                                                                     hiring and production as one of the pri-
                                                                                     mary planning factors. The Board has
                                                                                                                                      September
             FY 2012     Closed                                                      already begun a significant APJ hiring
                                                                                                                                         2013
                                                                                     effort, which is expected to continue.
                                                                                     Ultimate hiring results will depend on fee
                                                                                     revenue projections, attracting sufficient
                                                                                     numbers of qualified candidates, and
                                                                                     other factors.
                                   Direct BPAI to develop and publish perfor-        The Board developed and published per-
                                                                                                                                      September
             FY 2012     Closed    mance measures and targets for ex parte           formance measures for ex parte appeals
                                                                                                                                         2013
                                   appeals and other proceedings.                    and other proceedings.
                                   Develop comprehensive management plans            The Board developed comprehensive
                                   (including how to measure progress, gauge         management plans to address the im-
                                   performance, and identify risk) to address        plementation and operational oversight           September
             FY 2012     Closed
                                   the implementation and operational over-          of the new PTAB proceedings under the               2013
                                   sight of the new BPAI proceedings under the       AIA.
                                   AIA.
                                   Ensure that data processing systems meet          Completed work with Judges and staff on
                                   the needs of all four AIA proceedings.            internal processing requirements. Liaised
                                                                                                                                      September
             FY 2012     Closed                                                      with OCIO to implement systems by re-
                                                                                                                                         2013
                                                                                     quired dates. Sought and received input
                                                                                     from public users.




         1
             Note, pursuant to the AIA, effective September 16, 2012, BPAI is now known as the Patent Trial and Appeal Board (PTAB).

70
     PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                                      MANAGEMENT’S DISCUSSION AND ANALYSIS



                                Status of IG Act Amendment Audit Recommendations
                                               as of September 30, 2013
 Report for                                                                                                              Completion
              Status                Recommendation                                      Action Plan
Fiscal Year                                                                                                                Date
                       Explore the feasibility of BPAI’s current man-    Worked with OHR to assess the structure
                       agement and administrative structure and          of the Board in relation to current work
                                                                                                                         September
  FY 2012     Closed   staffing, given the increase in the number of     and staffing levels and expected growth
                                                                                                                            2013
                       proceedings and staff at BPAI.                    in staffing to meet needs of new proceed-
                                                                         ings under the AIA.
                       Ensure that system owners register all systems    a) We ensured that systems under de-
                       under development in Cyber Security As-                velopment are registered in CSAM.
                       sessment and Management (CSAM) during             b) We ensured that System Owners and
                       the initiation phase of the System Develop-            Technical Leads are educated on
                       ment Lifecycle (SDLC).                                 how to initiate registration of systems
                                                                              during the initiation phase of the
                                                                              SDLC.                                       February
  FY 2013     Closed
                                                                                                                            2013
                                                                         c) The USPTO CyberSecurity Division
                                                                              maintains ongoing close communi-
                                                                              cation with System Owners and
                                                                              Technical Leads during the initial
                                                                              phase of the SDLC process to miti-
                                                                              gate security issues early in the cycle.
                       Ensure that USPTO rigorously applies its SDLC     a)   We ensured that all IT system devel-
                       process and the Risk Management Frame-                 opment projects are executed in ac-
                       work (RMF) to all IT system development pro-           cordance with the SDLC process.
                       jects. This should include ensuring that re-      b)   We applied the RMF to all USPTO sys-
                       quired system security documents are ap-               tems in accordance with NIST Spe-
                       propriately developed and updated and that             cial Publication 800-37 Rev. 1.             February
  FY 2013     Closed   security controls required to protect a system    c)   We ensured that all system security           2013
                       are implemented and assessed.                          documentation is properly devel-
                                                                              oped and maintained to accurately
                                                                              reflect the present state of the infor-
                                                                              mation systems as part of the contin-
                                                                              uous monitoring efforts.
                       Ensure that system owners, information sys-       a)   Identified all information system
                       tem security officers, technical leads, project        stakeholders with significant security,
                       managers, and program managers attend                  technical and managerial roles and
                       the SDLC role-based training course on a               notified of the annual role base train-
                       regular basis.                                         ing sessions.
                                                                         b)    Ensure that all stakeholders involved
                                                                                                                         September
  FY 2013     Closed                                                          with information systems developed
                                                                              and deployed at the USPTO are re-             2013
                                                                              quired to attend the annual
                                                                              SDLC/Security role-based training.
                                                                         c)   Track attendance and completion of
                                                                              the training sessions are recorded
                                                                              and maintained.
                       Ensure that the CyberSecurity Division repre-     a)   We ensured that representatives play
                       sentatives have a role in deciding whether IT          a critical role in determining if infor-
                       system development projects should transi-             mation systems are authorized to
                       tion to a subsequent phase in the SDLC                 transition to a subsequent phase
                       based on their assessment of the effective-            based on the SDLC process recom-
                       ness of incorporating security into the pro-           mendation.
                       cess.                                             b)   We communicated with the system
                                                                              owners and technical leads in order         February
  FY 2013     Closed                                                          to determine whether or not the pro-          2013
                                                                              ject can proceed to the next phase
                                                                              of the SDLC.
                                                                         c)   We track progress by recording in the
                                                                              form of a Yes/No vote by the Cyber-
                                                                              Security Division representatives as
                                                                              projects move from one SDLC stage
                                                                              to another.




                                                                                                                                         71
                                                                                                                         www.uspto.gov
         MANAGEMENT’S DISCUSSION AND ANALYSIS



                                          Status of IG Act Amendment Audit Recommendations
                                                         as of September 30, 2013
          Report for                                                                                                         Completion
                       Status                Recommendation                                      Action Plan
         Fiscal Year                                                                                                           Date
                                Strengthen project planning and execution          The report was issued on September 30,
                                between OCIO and PTAB and, looking for-            2013. The action plan will be developed
                                ward, with other USPTO units lacking a work-       in the first quarter of FY 2014.
                                ing relationship with the OCIO by adhering to
                                USPTO’s System Development Lifecycle poli-                                                      To be
           FY 2013     Open
                                cies for risk management practices, require-                                                 determined
                                ments collection, and communications and
                                reevaluating whether waivers to specific pro-
                                ject requirements should apply if initial fund-
                                ing and scope assumptions change.
                                Develop a multiyear plan that comprehen-           The report was issued on September 30,
                                sively addresses PTAB’s IT requirements, in-       2013. The action plan will be developed
                                                                                                                                To be
           FY 2013     Open     cluding internal IT staffing and training          in the first quarter of FY 2014.
                                                                                                                             determined
                                needs, to support its expanded responsibili-
                                ties under the AIA.
                                Ensure the quality of FITF application pro-        The report was issued on September 30,
                                cessing by soliciting feedback from examin-        2013. The action plan will be developed
                                ers after they have taken substantive FITF         in the first quarter of FY 2014.
                                                                                                                                To be
           FY 2013     Open     training and after they have reviewed their
                                                                                                                             determined
                                first FITF applications, and oversample recent-
                                ly filed FITF applications included in USPTO’s
                                established quality assurance reviews.
                                Provide Congress with an updated assess-           The report was issued on September 30,
                                ment of the agency’s ability, or not, to estab-    2013. The action plan will be developed
                                lish satellite offices that meet the provisions    in the first quarter of FY 2014.             To be
           FY 2013     Open
                                outlined in the AIA and provide a plan to                                                    determined
                                establish its remaining satellite offices as re-
                                sources become available.
                                Strengthen the management of the satellite         The report was issued on September 30,
                                office program to develop a consistent and         2013. The action plan will be developed
                                coordinated approach to establish and op-          in the first quarter of FY 2014.
                                erate satellite offices by taking the following
                                actions:
                                a) Develop a consistent and centralized
                                     approach to effectively manage the
                                     planning and opening of currently
                                     planned satellite offices and assess
                                     whether this approach should continue                                                      To be
           FY 2013     Open          if additional satellite offices are needed.                                             determined
                                b) Determine a standardized position de-
                                     scription for the satellite office regional
                                     director whose documented responsibili-
                                     ties are commensurate with and reflect
                                     their responsibilities and grade level, or
                                     develop a single, centralized manageri-
                                     al function at USPTO headquarters re-
                                     sponsible for operating and evaluating
                                     satellite offices.
                                Prepare a comprehensive implementation             The report was issued on September 30,
                                plan for the issuance of the overall AIA Im-       2013. The action plan will be developed
                                plementation report, to include milestones for     in the first quarter of FY 2014.
                                completing the six other remaining AIA re-                                                      To be
           FY 2013     Open
                                ports, and individual implementation plans to                                                determined
                                address the operational oversight needed to
                                carry out its Pro Bono and Diversity of Appli-
                                cants programs.




72
     PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                                MANAGEMENT’S DISCUSSION AND ANALYSIS



OMB Financial Management Indicators                               proper agency for litigation. Although the Act has
                                                                  no material effect on the USPTO since it operates
The OMB prescribes the use of quantitative
                                                                  with minimal delinquent debt, all debt more than
indicators to monitor improvements in financial
                                                                  180 days old has been transferred to the U.S. De-
management. The USPTO tracks other financial
                                                                  partment of the Treasury for cross-servicing.
performance measures as well. The table below
shows the USPTO’s performance during FY 2013                      Biennial Review of Fees
against performance targets established internally
                                                                  The Chief Financial Officers Act of 1990 requires a
and by OMB and the government-wide Metric
                                                                  biennial review of agency fees, rents, and other
Tracking System (MTS).
                                                                  charges imposed for services and things of value
Prompt Payment Act                                                it provides to specific beneficiaries as opposed to
                                                                  the American public in general. The objective of
The Prompt Payment Act requires federal agen-
                                                                  the review is to identify such activities and to
cies to report on their efforts to make timely pay-
                                                                  begin charging fees, where permitted by law, and
ments to vendors, including interest penalties for
                                                                  to periodically adjust existing fees to reflect cur-
late payments. In FY 2013, the USPTO did not pay
                                                                  rent costs or market value so as to minimize gen-
interest penalties on 99.3 percent of the 8,318
                                                                  eral taxpayer subsidy of specialized services or
vendor invoices processed, representing pay-
                                                                  things of value (such as rights or privileges) pro-
ments of approximately $603.0 million. Of the 55
                                                                  vided directly to identifiable non-federal benefi-
invoices that were not processed in a timely man-
                                                                  ciaries. The USPTO is a fully fee-funded agency
ner, the USPTO was required to pay interest penal-
                                                                  without subsidy of general taxpayer revenue. The
ties on all 55 invoices. The USPTO paid $2 in inter-
                                                                  USPTO uses Activity Based Costing (ABC) to calcu-
est penalties for every million dollars disbursed in
                                                                  late the cost of activities performed for each fee,
FY 2013. Virtually all recurring payments were
                                                                  and uses this information to evaluate and inform
processed by EFT in accordance with the EFT pro-
                                                                  when setting fees. When appropriate, fees are
visions of the Debt Collection Improvement Act of
                                                                  adjusted to be consistent with legislative require-
1996.
                                                                  ments to recover full cost of the goods or services
Civil Monetary Penalty Act                                        provided to the public.
There were no Civil Monetary Penalties assessed                   Consistent with the provisions of the AIA, the
by the USPTO during FY 2013.                                      USPTO expects to continuously assess fees, on at
                                                                  least a biennial basis following the initial fee ad-
Debt Collection Improvement Act
                                                                  justments published in January 2013. Section
The Debt Collection Improvement Act prescribes                    10(c) of the AIA directs the USPTO to consult the
standards for the administrative collection, com-                 PPAC and TPAC, respectively, annually on the ad-
promise, suspension, and termination of federal                   visability of reducing fees set or adjusted under
agency collection actions, and referral to the                    Section 10(a).
                                                                                       FY 2013          FY 2013
                         Financial Performance Measure                                  Target        Performance
 Percentage of Timely Vendor Payments (MTS)                                              98%               99%
 Percentage of Payroll by Electronic Transfer (OMB)                                      90%              100%
 Percentage of Treasury Agency Locations Fully Reconciled (OMB)                          95%              100%
 Timely Reports to Central Agencies (OMB)                                                95%              100%
 Audit Opinion on FY 2013 Financial Statements (OMB)                                  Unmodified        Unmodified
 Material Weaknesses Reported by OIG (OMB)                                               None             None
 Timely Posting of Inter-Agency Charges (USPTO)                                         30 days          17 days
 Average Processing Time for Travel Payments (USPTO)                                    8 days            5 days




                                                                                                                            73
                                                                                                            www.uspto.gov
         MANAGEMENT’S DISCUSSION AND ANALYSIS




           Financial Discussion and Analysis
         Financial Highlights
         The USPTO received an unmodified (clean) audit           of the USPTO’s objective to continually improve the
         opinion from the independent public accounting           accuracy and usefulness of its financial manage-
         firm of KPMG LLP on its FY 2013 financial statements,    ment information.
         provided in the Financial Section of this report. This
                                                                  Balance Sheet and Statement of Changes in
         is the 21st consecutive year that the USPTO re-
                                                                  Net Position
         ceived a clean opinion. Our unqualified audit
         opinion provides independent assurance to the            At the end of FY 2013, the USPTO’s consolidated
         public that the information presented in the USPTO       Balance Sheet presents total assets of $2,269.0 mil-
         financial statements is fairly presented, in all mate-   lion, total liabilities of $1,319.8 million, and a net
         rial respects, in conformity with accounting princi-     position of $949.2 million.
         ples generally accepted in the United States of          Total assets increased 48.1 percent over the last
         America. In addition, KPMG LLP reported no mate-         four years, resulting largely from the increase in
         rial weaknesses or significant deficiencies in the       Fund Balance with Treasury. The following graph
         USPTO’s internal control, and no instances of non-
         compliance with laws and regulations affecting the                                 Composite of Assets
                                                                                              (Dollars in Millions)
         financial statements. Refer to the Other Accom-
         panying Information section for the Summary of               Fund                                                           $1,996.7
                                                                    Balance                                                     $1,727.0
         Financial Statement Audit and Management As-                                                                        $1,631.2
                                                                       with
                                                                                                                         $1,436.4
         surances.                                                  Treasury                                          $1,309.8

         The summary financial highlights presented in this                              $257.0
                                                                      Net
         section provide an analysis of the information that       Property,             $237.0
                                                                                        $206.6
                                                                  Plant, and
         appears in the USPTO’s FY 2013 financial state-          Equipment
                                                                                       $174.4
                                                                                        $205.8
         ments. The USPTO financial management process
         ensures that management decision-making infor-                             $15.3
                                                                      Other         $18.1
         mation is dependable, internal controls over finan-          Assets
                                                                                    $15.7
                                                                                    $17.1
         cial reporting are effective, and that compliance                          $16.7
         with laws and regulations is maintained. The issu-
                                                                               $0           $500      $1,000      $1,500        $2,000
         ance of these financial statements is a component               FY 2013        FY 2012       FY 2011     FY 2010       FY 2009




74
     PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                                MANAGEMENT’S DISCUSSION AND ANALYSIS




shows the changes in assets during this period.         $287.2 million and the Trademark operating reserve
                                                        was $155.1 million, 1.5 and 8.7 months of operating
Fund Balance with Treasury is the single largest as-
                                                        expenses, respectively.
set on the Balance Sheet and represents 88.0 per-
cent of total assets at the end of FY 2013. Over half   The other major asset is property, plant, and
of the Fund Balance with Treasury represents fees       equipment. The net balance of this asset has in-
the USPTO has collected, but has not been author-       creased by $51.2 million during the past four years,
ized to spend through the annual appropriation          with the acquisition values of property, plant, and
process – this includes temporarily unavailable fees    equipment increasing by $208.3 million. The USPTO
of $937.8 million and unavailable special fund re-      is beginning to completely re-invent our IT systems
ceipts under OBRA of $233.5 million, which total        from end-to-end, which will lead to future increases
$1,171.3 million in unavailable fees. This asset is     in IT hardware, software, and software in develop-
also comprised of unpaid obligated funds of             ment values. This was evidenced by an increase of
$265.5 million, other funds held on deposit for cus-    $205.4 million from FY 2011 through FY 2013 for IT
tomers of $117.6 million, and unobligated funds         hardware, software, and software in development.
carried over from one year to the next (operating
                                                        Total liabilities increased from $1,255.2 million at
reserve) of $442.3 million.
                                                        the end of FY 2012 to $1,319.8 million at the end of
The unavailable special fund receipts and the           FY 2013, representing an increase of $64.6 million,
temporarily unavailable funds require Congres-          or 5.1 percent. The following graph shows the
sional appropriation before they will be available      composition of liabilities during the past five years.
for USPTO’s use.      These funds, together with
amounts obligated and held on deposit, represent                               Composite of Liabilities
77.8 percent of the Fund Balance with Treasury.                                       (Dollars in Millions)

The operating reserve is available for use without                                                                            $931.5
further Congressional appropriation and is main-         Deferred                                                         $830.9
                                                                                                                           $845.8
                                                         Revenue
tained to permit the USPTO to plan for long-term                                                                       $774.4
                                                                                                                        $800.3
financial stability, as well as temporary changes in
                                                                              $80.4
our cash flow. As such, the operating reserve is not                          $75.2
                                                        Accounts
tied to a specific event and enables the USPTO to                              $85.6
                                                         Payable
                                                                              $70.1
address fluctuations in revenues or unexpected                                 $90.2

demands on resources. In addition, the operating         Accrued                      $177.6
                                                           Payroll,                     $217.4
reserve is used to manage cash flow at the begin-                                      $203.9
                                                           Leave,
                                                                                      $178.5
ning of the fiscal year to ensure the agency has          Benefits                   $156.8
adequate resources to sustain current operations.                                $118.7
Total fee collections are lower than operating re-      Customer                 $121.7
                                                         Deposit                $105.6
quirements early in the year, and do not fully cover    Accounts                $102.3
                                                                                $98.1
the necessary expenses such as payroll and con-
                                                                            $11.6
tractual obligations that occur close to the fiscal                         $10.0
                                                            Other
year start. The operating reserve is intended to                            $10.3
                                                         Liabilities
                                                                            $10.3
provide sufficient resources to continue current                            $11.1

operations until the collection of fees builds over                    $0       $200          $400       $600        $800      $1,000
the subsequent months.                                             FY 2013          FY 2012    FY 2011     FY 2010     FY 2009

As required by 35 U.S.C. §42(c)(3), the USPTO
                                                        The USPTO’s deferred revenue is the largest liability
maintains and tracks two separate and distinct
                                                        on the Balance Sheet. The liability for deferred rev-
operating reserve balances – one for Patent opera-
                                                        enue is calculated by analyzing the process for
tions and one for Trademark operations. At the
                                                        completing each service provided. The percent
end of FY 2013, the Patent operating reserve was



                                                                                                                                            75
                                                                                                                            www.uspto.gov
         MANAGEMENT’S DISCUSSION AND ANALYSIS




                                   Deferred Revenue                                                   fee rates result in increases in deferred revenue.
                                    (Dollars in Millions)
                                                                                                      The following table depicts the changes in the fil-
         $1,000                                                                     $0.3
                                                    $0.3
                                                                                                      ings and pendencies during the past five years. In
                                                                    $0.4                   $68.7
                    $0.6
           $800
                                    $0.5
                                                           $64.9           $66.2
                                                                                                      FY 2013, despite a decrease in first action penden-
                           $57.9
                                           $63.1                                                      cy of 3.7 months, unearned patent fees increased
           $600                                                                                       12.8 percent as a result of the increased fee rates
                                                                                                      associated with the more recent applications. De-
           $400            $741.8          $710.8                            $764.3          $862.5
                                                           $780.6                                     ferred revenue associated with the patent process
           $200
                                                                                                      is expected to decrease in the upcoming years
                                                                                                      due to the anticipated decreases in pendencies.
              $0                                                                                      In the FY 2014 President’s Budget, the number of
                   FY 2009     FY 2010          FY 2011            FY 2012         FY 2013
                                                                                                      patent applications filed from FY 2014 through FY
                   Patent                   Trademark                  Undeposited
                   Unearned Fees            Unearned Fees              Checks                         2018 is expected to gradually increase, with first
                                                                                                      action pendency decreasing to 10.0 months and
         incomplete based on the inventory of pending
                                                                                                      total pendency to 18.8 months by FY 2018. The
         work and completion status is applied to fee col-
                                                                                                      pendency decreases will result in patent deferred
         lections to estimate the amount for deferred reve-
         nue liability.                                                                               revenue decreases.

         FY 2013 resulted in an increase to the deferred rev-                                         The deferred revenue associated with the trade-
                                                                                                      mark process increased in FY 2013. Trademark de-
         enue liability of $100.6 million, or 12.1 percent from
                                                                                                      ferred revenue increased by $2.5 million, or 3.8
         FY 2012. The deferred revenue liability includes un-
                                                                                                      percent, from FY 2012, with an overall 18.7 percent
         earned patent and trademark fees, as well as un-
         deposited checks. The unearned patent fees rep-                                              increase over the past four years. The FY 2013 in-
         resented 92.6 percent of this liability for FY 2013.                                         crease was consistent with the increase in trade-
                                                                                                      mark applications, offset by trademark average
         The following graph depicts the composition of the
                                                                                                      pendency decreasing to 10.0 months and total
         deferred revenue liability, in addition to the change
                                                                                                      trademark first action pendency slightly decreasing
         in this liability during each of the past five years.
                                                                                                      to 3.1 months. Estimates included in the FY 2014
         Deferred revenue at the USPTO is largely impacted                                            President’s Budget project the pendencies to re-
         by the change in patent and trademark filings,                                               main constant in the upcoming years.
         changes in the first action pendency rates, and
         changes in fee rates. Increases in patent and
         trademark filings, first action pendency rates, and

                                   Filings and Pendencies                                              FY 2009     FY 2010   FY 2011     FY 2012    FY 2013
          Patent Filings                                                                                 486,499   509,367    537,171    565,406    601,3171
          Percentage Change in Patent Filings                                                             (2.1)%      4.7%       5.5%       5.3%       6.4%
          Patent First Action Pendency (months)                                                             25.8      25.7        28.0       21.9       18.2
          Percentage Change in Patent First Action Pendency                                                 0.8%    (0.4)%       8.9%    (21.8)%     (16.9)%
          Total Patent Pendency (months)                                                                    34.6      35.3        33.7       32.4       29.1
          Percentage Change in Total Patent Pendency                                                        7.5%      2.0%     (4.5)%     (3.9)%     (10.2)%

          Trademark Filings                                                                              352,051   368,939    398,667    415,026     433,654
          Percentage Change in Trademark Filings                                                         (12.3)%      4.8%       8.1%       4.1%       4.5%

          Trademark First Action Pendency (months)                                                           2.7       3.0         3.1        3.2          3.1
          Percentage Change in Trademark First Action Pendency                                           (10.0)%     11.1%       3.3%       3.2%      (3.1)%
          Total Trademark Average Pendency (months)                                                         11.2      10.5        10.5       10.2       10.0
          Percentage Change in Total Trademark Average Pendency                                           (5.1)%    (6.2)%         --%     (2.9)%     (2.0)%
          1
           Preliminary data




76
     PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                                                           MANAGEMENT’S DISCUSSION AND ANALYSIS




The Statement of Changes in Net Position presents                                        ferred revenue collected as we work off the back-
the changes in the financial position of the USPTO                                       log.
due to results of operations and unexpended ap-
                                                                                         The Statement of Net Cost compares fees earned
propriations. The movement in net position is the
                                                                                         to costs incurred during a specific period of time. It
result of the net income or net cost for the year.
                                                                                         is not necessarily an indicator of net income or net
The change in the net position during the past five
                                                                                         cost over the life of a patent or trademark. Net in-
years is presented in the following graph.
                                                                                         come or net cost for the fiscal year is dependent
                         Net Positions                                                   upon work that has been completed over the vari-
                       (Dollars in Millions)                                             ous phases of the production life cycle. The net
                                                                                         income calculation is based on fees earned during
                                                                                         the fiscal year being reported, regardless of when
                                                                       $949.2            those fees were collected. Maintenance fees also
                                                      $726.9                             play a large part in whether a total net income or
                                                                                         net cost is recognized. Maintenance fees collect-
                                             $602.3
                                                                                         ed in FY 2013 are a reflection of patent issue levels
                                    $492.3
                                                                                         3.5, 7.5, and 11.5 years ago, rather than a reflec-
                           $375.8                                                        tion of patents issued in FY 2013.         Therefore,
                                                                                         maintenance fees can have a significant impact
   $0      $200         $400         $600             $800        $1,000                 on matching costs and revenue.

         FY 2013     FY 2012   FY 2011        FY 2010        FY 2009                     During FY 2013, the number of patent filings in-
                                                                                         creased by 6.4 percent over the prior year. Despite
                                                                                         this increase, the Patent organization disposed 5.4
The increase in net position from $726.9 million at
                                                                                         percent more applications than were disposed of
the end of FY 2012 to $949.2 million at the end of FY
                                                                                         during FY 2012. This, combined with increased fee
2013, or 30.6 percent, is attributable to the results of
                                                                                         collections, resulted in an increase in patent de-
operations.
                                                                                         ferred revenue and a decrease in earned revenue.
Statement of Net Cost
                                                                                         During FY 2013, with the number of trademark ap-
The Statement of Net Cost presents the USPTO’s                                           plications increasing by 4.5 percent over the prior
results of operations by the following responsibility                                    year, the Trademark organization was able to con-
segments – Patent, Trademark, and Intellectual                                           tinue to address the existing inventory and main-
Property Policy, Protection and Enforcement                                              tain pendency between 2.5 and 3.5 months during
Worldwide. The following table presents the total                                        FY 2013. The Trademark organization was able to
USPTO’s results of operations for the past five fiscal                                   do this while recognizing a slight increase in de-
years. In FY 2013, USPTO generated a net income                                          ferred revenue and corresponding decrease in
of $179.5 million due to an increase in fees re-                                         revenue earned.
ceived and revenue recognition of previously de-


                   Net (Cost)/Income
                                                                            FY 2009             FY 2010         FY 2011         FY 2012         FY 2013
                    (Dollars in Millions)
 Earned Revenue                                                                 $ 1,927.1       $ 2,101.7       $ 2,236.4       $ 2,427.1       $ 2,719.9
 Program Cost                                                                       (1,981.9)       (2,007.0)       (2,148.1)       (2,321.0)       (2,540.4)
 Net (Cost)/Income                                                              $     (54.8)    $       94.7    $       88.3    $     106.1     $     179.5




                                                                                                                                                                77
                                                                                                                                                www.uspto.gov
         MANAGEMENT’S DISCUSSION AND ANALYSIS




                         FY 2013 Earned Revenue                     Patent
                                                                    Traditionally, the major components of earned rev-
                                                                    enue derived from patent operations are mainte-
                                                                    nance fees, initial application fees for filing, search,
                                               9.6%                 and examination, and issue fees. These fees ac-
                                                                    count for approximately 83 percent of total patent
                                                                    income. The following chart depicts the relation-
                         90.4%
                                                                    ship among the most significant patent fee types.

                                                                    Patent maintenance fees are the largest source of
                                                                    earned revenue by fee type. During FY 2013,
                                                                    maintenance fees collected increased $138.7 mil-
                                                                    lion, or 19.9 percent, from FY 2012. Since these fees
                          Patent           Trademark                are recognized immediately as earned revenue,
                                                                    any fluctuations in the rates of renewal have a sig-
         Earned Revenue                                             nificant impact on the total earned revenue of the
                                                                    USPTO. To some extent, renewals recoup costs in-
         The USPTO’s earned revenue is derived from the
                                                                    curred during the initial patent process. As shown
         fees collected for patent and trademark products
                                                                    below, the renewal rates for all three stages of
         and services. Fee collections are recognized as
                                                                    maintenance fees increased or remained stable
         earned revenue when the activities to complete
                                                                    this year.
         the work associated with the fee are completed.
         The earning process is the same for all collections        Application fee revenue earned upon filing de-
         even though a certain portion of the fees may not          creased from $124.2 million in FY 2012 to $119.5
         be made available to the USPTO for spending.               million in FY 2013 (decrease of 3.8 percent), with
         Temporarily unavailable fee collections occur              the number of applications increasing from
         when the USPTO is not appropriated the authority           565,406 to 601,317 over the same period (increase
         to spend all fees collected during a given year.           of 6.4 percent). The FY 2014 President’s Budget
         During FY 2013, due to sequestration, the USPTO            projects a 5.0 percent increase in patent applica-
         collected $147.7 million in fee collections that were      tions filed beginning in FY 2014 through FY 2018,
         designated as temporarily unavailable.                     which will contribute to continued budgetary re-
                                                                    sources, as well as earned fee revenue.
         Earned revenue totaled $2,719.9 million for FY 2013,
         an increase of $292.8 million, or 12.1 percent, over
         FY 2012 earned revenue of $2,427.1 million. Of rev-                  FY 2013 Patent Revenue by Fee Type
         enue earned during FY 2013, $600.6 million related
         to fee collections that were deferred for revenue             1.5%
         recognition in prior fiscal years, $836.5 million relat-     2.3%
                                                                                   7.1%
         ed to maintenance fees collected during FY 2013,           6.1%
         which were considered earned immediately,                                                        Maintenance

         $1,278.5 million related to work performed for fees                                      34.1%   Filing, Search, and
         collected during FY 2013, and $4.3 million were not                                              Examination
                                                                                                          Issue
         fee-related.
                                                                           21.4%                          Extensions of Time
         For fees collected and earned during FY 2013,
                                                                                                          PCT
         there was an increase of $113.2 million over these
         same fees earned during FY 2012. This increase                                                   Services
                                                                                          27.5%
         can primarily be attributed to the increase in                                                   Other
         overall Patent fee rates effective in March 2013.




78
     PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                                                MANAGEMENT’S DISCUSSION AND ANALYSIS




                  Patent Renewal Rates1                            FY 2009         FY 2010         FY 20112        FY 20122         FY 2013
 First Stage                                                            80.3%            99.4%         101.3%           78.3%             92.0%
 Second Stage                                                           63.5%            71.2%             80.6%        55.7%             63.3%
 Third Stage                                                            45.4%            50.0%             60.0%        47.0%             47.0%
 1
     Note: the First Stage refers to the end of the 3rd year after the initial patent is issued; the Second Stage refers to the end of
     the 7th year after the initial patent is issued; and the Third Stage refers to the end of the 11th year after the initial patent is is-
     sued. For example, in FY 2013, 92.0 percent of the patents issued three years ago were renewed, 63.3 percent of the patents
     issued seven years ago were renewed, and 47.0 percent of the patents issued 11 years ago were renewed.
 2
     Note: Due to the implementation of the 15 percent fee surcharge on September 26, 2011, the FY 2011 renewal rates include
     some early renewals that would have otherwise been renewed in FY 2012.

Earned issue fee revenue increased from $463.3                             will continue to increase, which will contribute to
million in FY 2012 to $525.5 million in FY 2013, with                      the continued growth in budgetary resources, as
the number of patents issued increasing from                               well as earned fee revenue.
270,258 to 290,083 over the same period, an in-
                                                                           Trademark registration can be a recurring source
crease of 13.4 percent and 7.3 percent, respective-
                                                                           of revenue. To some extent, renewal fees recoup
ly. These increases are in line with the increases in
                                                                           costs incurred during the initial examination pro-
production and the patent allowance rate. The FY
                                                                           cess.    As shown below, the renewal rates for
2014 President’s Budget projects that patents is-
                                                                           trademarks have remained fairly stable over the
sued will increase an average of 2.1 percent each
                                                                           last five years, indicating continued earned reve-
fiscal year through FY 2018, which will result in in-
                                                                           nue from this source. Further, in the FY 2014 Presi-
creases in maintenance fees in future years.
                                                                           dent’s Budget, earned revenue from trademark
Trademark                                                                  renewals is expected to continue in the future.

Trademark fees are comprised of application filing,
                                                                                  FY 2013 Trademark Revenue by Fee Type
renewals, services, and Trademark Trial and Ap-
peal Board fees. Additional fees are charged for
intent-to-use filed applications, as additional re-
quirements must be met for registration. The follow-                                    13.8%
                                                                                                                    Use-Based and Intent-to-Use
                                                                                                     15.6%
ing chart depicts the relationship among the most                                                                   Applications for Registration
                                                                                 6.2%
significant trademark fee types.                                                                                    Renewal Fees

Earned revenue for trademark applications in-                                  11.9%                                Services
creased from $130.1 million in FY 2012 to $137.7
                                                                                                                    Trademark Trial and
million in FY 2013, with the number of trademarks                                                                   Appeal Board
registered increasing from 243,459 to 259,681 over                                                                  Other Intent-to-Use Fees
the same period, increases of 5.8 percent and 6.7                                                  52.5%
percent, respectively.     The FY 2014 President’s
Budget projects that trademark applications filed

               Trademark Renewal Rates1                            FY 2009         FY 2010         FY 2011         FY 2012         FY 20132
 Renewals                                                               29.3%            29.3%             29.3%        30.2%             30.2%
 1
     Note: the renewals occur every 10th year for registered trademarks. For example, in FY 2013, 30.2 percent of the trademarks
     granted ten years ago were renewed.
 2
     Preliminary data.




                                                                                                                                                     79
                                                                                                                                     www.uspto.gov
         MANAGEMENT’S DISCUSSION AND ANALYSIS




         Program Costs                                                                  impacts the change in total program costs from
                                                                                        year-to-year. Total personnel services and benefits
         Program costs totaled $2,540.4 million for the year
                                                                                        costs for the year ended September 30, 2013, were
         ended September 30, 2013, an increase of $219.4
                                                                                        $1,814.8 million, an increase of $188.4 million, or
         million, or 9.5 percent, over FY 2012 program costs
                                                                                        11.6 percent, over FY 2012 personnel services and
         of $2,321.0 million. The USPTO’s most significant
                                                                                        benefits costs of $1,626.4 million. This change was
         program cost is personnel services and benefits,
                                                                                        predominantly the result of a net increase of 242
         which comprise approximately 66 percent of
                                                                                        personnel, from 11,531 at the end of FY 2012 to
         USPTO’s total program costs.         Any significant
                                                                                        11,773 at the end of FY 2013.
         change or fluctuation in staffing or pay rate directly
                                                                                        The USPTO directs maximum resources to the priori-
                                FY 2013 Program Costs
                                                                                        ty functions of patent and trademark examination,
                                                                                        as well as IP policy, protection, and enforcement
                               7.2%      1.8%
                4.4%                                                                    worldwide. For FY 2013, costs directly attributable
             3.5%                           0.7%
                                                               Personnel Costs          to the Patent, Trademark, and IP protection busi-
                                                                                        ness areas represent 83.6 percent of total USPTO
                                                               Rent, Communication,
                                              16.4%            & Utilities              costs. The remaining costs, representing support
                                                               Printing                 costs, are allocated to the business areas using
                                                               Contractual Services     ABC accounting. Allocated costs increased 10.0
                                                                                        percent over the past year in line with increased IT
                                                               Other
                                                                                        investments.
                                                               Depreciation
                    66.0%                                                               Patent
                                                               Allocated Costs
                                                                                        Total costs for the Patent business unit increased
                                                                                        $536.6 million, 30.8 percent, from FY 2009 through
                                                                                        FY 2013. The Patent organization’s most significant
                                 USPTO Program Costs                                    program costs relate to personnel services, and
                                       (Dollars in Millions)                            account for 80.7 percent of the increase in total
                                                                                        cost of Patent operations during the past four
                                                                             $1,932.9   years. Patent personnel costs for the year ended
                                                                          $1,761.4
               Patent                                                                   September 30, 2013, were $1,532.2 million, an in-
                                                                       $1,628.2
          Direct Costs
                                                                     $1,528.6           crease of $146.8 million, or 10.6 percent, over FY
                                                                    $1,482.8
                                                                                        2012 personnel costs of $1,385.4 million. Rent,
                                 $151.9                                                 communications, and utilities, printing and repro-
           Trademark             $147.9                                                 duction, and contractual service costs represent
               Direct            $137.3
                Costs            $136.3                                                 15.2 percent of the Patent program costs for FY
                                 $135.7
                                                                                        2013. During FY 2013, contractual and printing
                                                                                        costs increased in line with the overall increase in
                               $38.1
                     IP
            Protection
                               $32.3                                                    Patent costs due to increases in the number of pa-
                               $36.4
                Direct
                               $35.4
                                                                                        tents issued.
                 Costs
                               $32.3
                                                                                        Patent costs were predominantly spread over two
                                          $417.5                                        patent products: utility patents and 371 filings (an
            Allocated
                                         $379.4                                         international application designated to the U.S.
                                        $346.2
                Costs                                                                   that has entered the national stage). The cost
                                       $306.7
                                       $331.1                                           percentages presented are based on direct and
                          $0           $500        $1,000      $1,500        $2,000
                                                                                        indirect costs allocated to patent operations and
                                                                                        are a function of the volume of applications pro-
                     FY 2013      FY 2012      FY 2011   FY 2010   FY 2009
                                                                                        cessed in each product area.




80
     PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                                                       MANAGEMENT’S DISCUSSION AND ANALYSIS




              FY 2013 Patent Cost by Product                                                  FY 2013 Trademark Cost by Product

                     1.9%
            3.1%             0.1%                                                               5.7% 0.5%
     6.2%                                                                              5.8%                                          New Applications

                                                             Utility            4.3%
                                                                                                                                     Trademark Trial and
                                                                                                                                     Appeal Board
                                                             371 Filing
                                                                                                                                     Other Services
   15.0%
                                                             Other                 9.1%
                                                                                                                                     Intent-to-Use Marks
                                                             PCT

                                                             Design                                                                  Renewals and Post
                                                                                                                                     Registration
                                      73.7%                  Plant                                                  74.6%
                                                                                                                                     Madrid Protocol




                              Patent Costs                                                                  Trademarks Costs
                            (Dollars in Millions)                                                           (Dollars in Millions)
            Direct                                                                            Direct
                                                                 $1,532.2                 Personnel                                                $122.1
        Personnel                                             $1,385.4                                                                            $117.6
            Costs                                          $1,281.6                           Costs                                             $112.1
                                                        $1,172.2                                                                                $111.9
                                                       $1,098.9
                                                                                                                                               $107.9
          Direct              $157.1
     Contractual                                                                             Direct
                             $144.4                                                                            $14.3
        Services             $130.0                                                    Contractual
                              $160.1
                                                                                                                $15.9
                                                                                          Services            $10.7
                               $203.0
                                                                                                              $10.7
            Direct           $112.4                                                                            $13.3
     Printing and            $97.5
    Reproduction             $90.2                                                  Direct Rent,
                            $77.6                                               Communications,              $7.7
                            $58.2                                                                            $7.4
                                                                                    and Utilities            $7.1
    Direct Rent,            $77.9                                                                            $6.7
Communications,             $77.3                                                                            $7.6
    and Utilities           $72.7
                            $76.7                                                             Other
                            $73.4
                                                                                       Direct Costs          $7.8
                                                                                                             $7.0
            Other         $53.3                                                                              $7.4
     Direct Costs         $56.8                                                                              $7.0
                          $53.7                                                                              $6.9
                          $42.0
                          $49.3
                                                                                          Allocated
        Allocated                                                                             Costs                              $61.2
                                   $348.3                                                                                     $53.4
            Costs                 $318.0                                                                                      $54.5
                                 $285.1
                                $249.3                                                                                      $46.3
                                $261.8                                                                                         $57.5

                     $0           $500        $1,000      $1,500       $2,000                          $0    $20    $40     $60   $80    $100 $120 $140
           FY 2013    FY 2012         FY 2011     FY 2010      FY 2009                     FY 2013      FY 2012     FY 2011       FY 2010   FY 2009


Trademark                                                                       by other minor cost increases and decreases.

Total costs for the Trademark business unit in-                                 The Intent-to-Use cost includes costs related to ex-
creased $19.9 million, 10.3 percent, from FY 2009                               amining both the application and the additional
through FY 2013. The Trademark organization’s                                   intent to use disclosures. The overall cost percent-
most significant program costs relate to personnel                              ages presented below are based on both direct
services, and account for most of the increase in                               costs and indirect costs allocated to trademark
total cost of Trademark operations during the past                              operations and are a function of the volume of
four years. This increase of $14.2 million was offset                           applications processed in each product area.




                                                                                                                                                               81
                                                                                                                                               www.uspto.gov
         MANAGEMENT’S DISCUSSION AND ANALYSIS




                      Intellectual Property, Protection,                                    Annual Growth in Available Budgetary Resources
                           And Enforcement Costs                                                                 (Dollars in Millions)
                                    (Dollars in Millions)
                                                                                                                                                          $2,931.6
                                                                               $22.0
                     Direct                                              $18.5                                                                        $2,612.6
                 Personnel                                             $17.4
                     Costs                                                 $19.8                                                              $2,338.6
                                                                        $18.0
                                                                                                                                           $2,161.6
                                                          $10.9                                                                         $1,981.2
                   Direct                          $8.3
              Contractual                                          $14.7
                 Services                              $10.7
                                                   $8.8                                    $0     $500      $1,000     $1,500    $2,000     $2,500     $3,000
                                                                                                  FY 2013    FY 2012      FY 2011       FY 2010      FY 2009
                                        $3.0
             Direct Rent,              $2.7
         Communications,               $2.4
                                                                                           In FY 2013, sequestration was enacted govern-
             and Utilities             $2.6                                                ment-wide to effect an annual five percent reduc-
                                       $2.6
                                                                                           tion in spending. This restricted full access to
                                     $1.2
                                      $1.9                                                 agency fee collections. As we are an agency
              Direct Travel          $1.3
                                      $1.6                                                 funded entirely by user fees, this affects our opera-
                                      $1.8
                                                                                           tions significantly.
                                    $1.0
                      Other        $0.9                                                    The USPTO was provided appropriation authority to
                                   $0.6
               Direct Costs        $0.7                                                    spend anticipated fee collections in FY 2013 for an
                                    $1.1
                                                                                           amount up to $2,933.2 million, of which five per-
                                                  $8.0                                     cent would be sequestered and unavailable. This
                 Allocated                        $8.0
                     Costs
                                                $6.6                                       was more than the amount of total fees collected
                                                          $11.1
                                                           $11.8                           in FY 2013.
                              $0        $5        $10        $15           $20       $25   In FY 2013, we used the new authority in the AIA to
                    FY 2013        FY 2012     FY 2011     FY 2010         FY 2009
                                                                                           set fees so that we are able to manage patent and
                                                                                           trademark revenue fluctuations and properly align
         Intellectual Property Policy, Protection, and En-
                                                                                           fees in a timely, fair, and consistent manner.
         forcement Worldwide
                                                                                           The following charts present the source of funds
         Total costs for IP Protection increased $2.0 million,
                                                                                           made available to the USPTO in FY 2013, and the
         or 4.5 percent, from FY 2009 through FY 2013. The
                                                                                           use of such funds representing FY 2013 total obliga-
         most significant program costs for IP Protection in
                                                                                           tions incurred, as reflect on the Statement of Budg-
         FY 2013 relate to personnel services, and account
                                                                                           etary Resources.
         for 47.7 percent of the total cost for IP Protection
         operations. The next largest cost associated with                                                    Sources of Funding
         the policy, protection, and enforcement of intellec-                                                    (Dollars in Millions)
         tual property worldwide is contractual services,
         which include joint project agreements. These                                                       $4.3
                                                                                                  $250.2             $237.9
         costs were incurred in line with the activities dis-                                                                   $21.4
                                                                                                                                              Operating Reserve
         cussed on pages 37 to 46.
                                                                                                                                              Recovery of Prior
         Statement of Budgetary Resources                                                                                                     Year Obligations

         During FY 2013, total budgetary resources available                                                                                  Patent Fee
                                                                                                                                              Collections
         for spending was 12.2 percent over the amount
         available in the preceding year, with a 48.0 per-                                                                                    Trademark Fee
                                                                                                      $2,417.8                                Collections
         cent increase over the past five fiscal years. The
                                                                                                                                              Other Collections
         increase in budgetary resources available for use is
         depicted by the graph below.




82
     PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                                              MANAGEMENT’S DISCUSSION AND ANALYSIS




                           Uses of Funding                                   The below chart illustrates amounts of fees that
                           (Dollars in Millions)                             Congress has appropriated to the USPTO for spend-
     $29.4                                                                   ing over the past five fiscal years, as well as the
 $104.2                                        Patent Direct                 cumulative unavailable fee collections. These cu-
                  $326.3
                                                                             mulative unavailable fee collections remain in the
                              $242.9           Trademark Direct              USPTO’s general fund account at the U.S. Depart-
                                                                             ment of the Treasury (Treasury) until appropriated
                                               IP Policy, Protection,
                                                                             for use by Congress. In addition to these annual
                                               and Enforcement Direct
                                                                             restrictions, collections of $233.5 million are una-
                                               IT Allocated
                                                                             vailable in accordance with the OBRA of 1990, and
             $1,671.9                                                        deposited in a special fund receipt account at the
                                               Other Allocated
                                                                             Treasury.

                                                                             Statement of Cash Flows
USPTO operations rely on patent maintenance fees
                                                                             The Statements of Cash Flow, while not a required
to fund a portion of the work being completed
                                                                             financial statement, are audited and are present-
each fiscal year. During FY 2013, maintenance
                                                                             ed for purposes of additional analysis. The Cash
fees collected increased $138.7 million, or 19.9
                                                                             Flow statement records the company's cash trans-
percent, from FY 2012. As maintenance fees are
                                                                             actions (the inflows and outflows) during the given
one of the largest sources of budgetary resources
                                                                             period. The document provides aggregate data
and are recognized immediately as earned reve-
                                                                             regarding all cash inflows received from both its
nue, any fluctuations in the rates of renewal have a
                                                                             ongoing operations and external investment
significant impact on the total resources available
                                                                             sources, as well as all cash outflows that pay for
to the USPTO. To some extent, renewals recoup
                                                                             business activities and investments during the peri-
costs incurred during the initial patent process. As
                                                                             od. Cash flow is calculated by making certain ad-
shown on page 79, the renewal rates for all three
                                                                             justments to net income/cost by adding or sub-
stages of maintenance fees increased during FY
                                                                             tracting differences in revenue and expense trans-
2013.
                                                                             actions (appearing on the Balance Sheet and
As defined earlier, temporarily unavailable fee col-                         Statement of Net Cost) resulting from transactions
lections occur when the USPTO is not appropriated                            that occur from one year to the next. These ad-
the authority to spend all fees collected during a                           justments are made because non-cash items are
given year. During FY 2013, the USPTO collected                              included in preparing the net income/cost (State-
fee collections that were designated as temporarily                          ment of Net Cost) and total assets and liabilities
unavailable due to sequestration. As a result, there                         (Balance Sheet). Since not all transactions involve
were $937.8 million in temporarily unavailable fee                           actual cash items, many items have to be adjusted
collections at the end of FY 2013.                                           when calculating cash flow.


          Temporarily Unavailable Fee Collections
                                                                            FY 2009     FY 2010       FY 2011     FY 2012       FY 2013
                            (Dollars in Millions)
 Fiscal year fee collections                                            $ 1,874.2 $ 2,068.5 $ 2,298.9 $ 2,406.8 $ 2,815.7
 Fiscal year collections appropriated                                       (1,874.2) (2,016.0) (2,090.0) (2,406.8)             (2,668.0)
 Fiscal year unavailable collections                                    $             - $    52.5 $     208.9 $         -   $      147.7
 Prior year collections unavailable                                            528.7        528.7       581.2       790.1          790.1
 Subtotal                                                               $      528.7 $      581.2 $     790.1 $     790.1 $        937.8
 Special fund unavailable receipts                                             233.5        233.5       233.5       233.5          233.5
 Cumulative temporarily unavailable fee collections $                          762.2 $      814.7 $ 1,023.6 $ 1,023.6 $ 1,171.3




                                                                                                                                                83
                                                                                                                                www.uspto.gov
         MANAGEMENT’S DISCUSSION AND ANALYSIS




         The USPTO receives fees for its primary activities of       come. Depreciation and Accrued Payroll, Leave,
         issuing patents and registering trademarks and              and Benefits operate similarly, as the accrued ex-
         chooses to include information on the sources and           penses that do not affect the cash flow are adjust-
         amounts of cash provided to assist report users in          ed for, thereby increasing net income. Deferred
         understanding its operating performance. While              revenue is also a significant factor, as the USPTO
         the fees received are an increase in cash flow, they        has received the fees, but not completed all of the
         may not necessarily be available for spending               work; in a year when the deferred revenue liability
         based on budgetary restrictions. Over half of the           decreases, such as FY 2012, net income increases
         Fund Balance with Treasury represents fees the              without a corresponding increase in the cash flow;
         USPTO has collected, but has not been authorized            the increase to net income is removed for deter-
         to spend through the annual appropriation pro-              mining cash flow. Other adjustments are predomi-
         cess – this includes cumulative temporarily una-            nantly comprised of changes in accounts payable
         vailable fees of $937.8 million and unavailable             balances; in a year when the overall liability bal-
         special receipt funds under OBRA of $233.5 million,         ance decreases, then a reader can conclude that
         which total $1,171.3 million in unavailable fees.           an increased amount of cash was disbursed,
         Cash flow is determined by looking at three com-            thereby requiring a reduction to net income/cost;
         ponents by which cash enters and leaves the                 alternately, in a year when the overall liability bal-
         USPTO: operations, investing, and financing. Histor-        ance increases, a reader can conclude that a
         ically at the USPTO, cash flow adjustments to oper-         lesser amount of cash was disbursed.
         ational activities result in an increase to net in-


                     Composition of USPTO Cash Flow
                                                                 FY 2009       FY 2010       FY 2011       FY 2012       FY 2013
                              (Dollars in Millions)
          Cash Flow from Operations
            Net (Cost)/Income                                    $ (54.8) $         94.7 $      88.3 $       106.1       $   179.5
          Operating Adjustments
            Depreciation                                         $      63.3   $    59.1 $      52.7 $        67.9       $    71.9
            Accrued Payroll, Leave, and Benefits                        11.1        43.6        47.2          32.9             5.0
            Deferred Revenue                                          (48.2)       (25.9)       71.4         (14.8)          100.6
            Other Adjustments                                         (15.1)       (17.3)       20.0            4.1            7.3
              Total Adjustments                                  $      11.1   $    59.5 $     191.3 $        90.1       $   184.8
              Net Cash (Used)/Provided by Operating
                                                                 $    (43.7) $ 154.2 $         279.6 $       196.2       $   364.3
              Activities
          Net Cash Used in Investing Activities
            Property, Plant, and Equipment                       $    (65.0) $ (27.6) $        (84.9) $      (98.2) $        (91.4)
          Financing Activities
            Non-Expenditure Transfer                             $      (2.0) $          - $           - $    (1.0) $         (2.0)
            Accounting Standard Change                                (11.9)             -             -             -             -
              Net Cash Used in Financing Activities              $    (13.9) $           - $           - $    (1.0)      $   (2.0)
          Net Cash Provided/(Used)                               $ (122.6) $       126.6 $     194.7 $        97.0       $   270.9




84
     PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                     MANAGEMENT’S DISCUSSION AND ANALYSIS




The investment of property, plant, and equipment       report have been prepared by USPTO manage-
is a cash transaction that has not been accounted      ment to report the financial position and results of
for in net income/cost. This investment reduces        operations of the USPTO, pursuant to the require-
net income/cost further for calculating cash flow.     ments of 31 U.S.C. §3515(b). While the statements
Investments decreased in FY 2010 as the USPTO          have been prepared from the books and records
chose to refocus IT investing modifications. Since     of the USPTO in accordance with GAAP for federal
FY 2010, the USPTO has been focused on upgrad-         entities and the formats prescribed by OMB in OMB
ing our IT systems from end-to-end, which resulted     Circular A-136 (revised), the statements are in ad-
in increases beginning in FY 2011 in IT software and   dition to the financial reports used to monitor and
software in development values. In addition, the       control budgetary resources, which are prepared
USPTO began deploying Universal Laptops agency-        from the same books and records. The statements
wide in FY 2011, replacing outdated desktop com-       should be read with the understanding that they
puters and work-at-home laptops.                       are for a component of the U.S. Government, a
                                                       sovereign entity.
Adjustments to financing-type activities are infre-
quent at the USPTO. Non-expenditure transfers at       Management Responsibilities
the USPTO are the movement of appropriated fee
                                                       USPTO management is responsible for the fair
collections to other federal governmental entities,
                                                       presentation of information contained in the prin-
without an impact to net income/cost. In addition,
                                                       cipal financial statements, in conformity with GAAP,
due to the implementation of Statement of Federal
                                                       the requirements of OMB Circular A-136, and guid-
Financial Accounting Standard (SFFAS) 31, Ac-
                                                       ance provided by the Department of Commerce.
counting for Fiduciary Activities, in FY 2009, the
                                                       Management is also responsible for the fair presen-
presentation of fiduciary funds were removed from
                                                       tation of the USPTO’s performance measures in ac-
the Balance Sheet and are therefore reflected as a
                                                       cordance with OMB requirements. The quality of
decrease of cash.
                                                       the USPTO’s internal control rests with manage-
Limitation on Financial Statements                     ment, as does the responsibility for identifying and
                                                       complying with pertinent laws and regulations.
The principal financial statements included in this




                                                                                                                 85
                                                                                                 www.uspto.gov
         MANAGEMENT’S DISCUSSION AND ANALYSIS




86
     PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
           FINANCIAL SECTION




Financial Section




                                  87
                  www.uspto.gov
         FINANCIAL SECTION




             Message from the Chief
             Financial Officer
         When confronted with obstacles, any                                              financial systems requirements;
         organization has two options: it can                                             •       the Association of Government
         grind to a halt or it can keep pushing                                           Accountants (AGA) awarded the
         forward. Within the Office of the Chief                                          USPTO the Certificate of Excellence in
         Financial Officer, we are facing many                                            Accountability Reporting for the 11th
         challenges: resource constraints, work-                                          consecutive year for our Fiscal Year
         load growth, and mission expan-                                                  2012 Performance and Accountability
         sion. However, each of these chal-
                                                                                          Report; and
         lenges, when seen in another light, is
         also an opportunity. Now more than                                               • finally, the USPTO won the Certificate
         ever, it is important that we take ad-                                           of Excellence in Citizen-Centric Report-
         vantage of every chance to help our                                              ing for our second Citizen-Centric Re-
         organization thrive.                                                     port, awarded by AGA for 2012, again clearly
                                                                                  demonstrating the USPTO’s excellence in inte-
         This past fiscal year, we capitalized on our chal-                       grating performance and accountability report-
         lenges and our opportunities. I am pleased to re-                        ing.
         port the following:
                                                                               In our 2010 – 2015 Strategic Plan, the USPTO set
                                                                               forth the ambitious goal of establishing a sustaina-
         •    this fiscal year marks our 21st year of receiving
                                                                               ble funding model. The Leahy-Smith America In-
              an unmodified opinion on the agency’s finan-
                                                                               vents Act (AIA), which was enacted at the end of
              cial statements 1; the auditors reported no ma-
                                                                               FY 2011, granted the USPTO the authority to set its
              terial weaknesses or significant deficiencies in
                                                                               fees by regulation. Using our new fee-setting au-
              the design and operation of the USPTO’s system
                                                                               thority, the USPTO developed a revised patent fee
              of internal control over financial reporting;
                                                                               structure that was implemented in March 2013.
         •    as part of the annual audit, it was determined                   This fee structure is designed to ensure that the
              that our financial system complies with federal                  agency generates sufficient patent revenue to re-
                                                                               cover our patent operating costs, as well as to fur-
         1
           The Deputy Under Secretary completed her services at the USPTO on
                                                                               ther key policy considerations, such as fostering
         November 20, 2013. The CFO letter covers the full audit period up     innovation and offering patent prosecution options
         through December 4, 2013 and is considered the official transmittal
         letter.
                                                                               to our stakeholders.


88
     PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                                            FINANCIAL SECTION



The AIA enactment marked a major milestone for           In addition, our financial management team con-
providing the USPTO with the tools to achieve fi-        tinues to assist in managing the many challenges
nancial stability. However, we are ever cognizant        of planning for, funding, procuring, staffing, moni-
of the need to balance the agency’s tremendous           toring, and ensuring continued operations at the
opportunities for growth and improvement against         agency’s satellite offices that opened this year in
its challenges and risks associated with operating       temporary office space – Dallas, Texas; Denver,
in an environment of numerous unknowns and un-           Colorado; and Silicon Valley, California. Our relo-
certainties. Looking ahead, there are many varia-        cation to permanent office spaces in Dallas and
bles that we cannot predict – changes in the fiscal      Denver is scheduled for FY 2014; we are currently
climate; fluctuations in demand for the USPTO’s          evaluating the timing and options for opening the
services; and continued turbulence in economic           permanent office space in Silicon Valley. The
conditions. As such, the agency is committed to          many challenges continue to be met successfully.
smart, scalable growth that allows us to continually
make adjustments and course corrections, which           Our talented and committed employees continue
will enable us to achieve our goals without putting      to display great dedication toward producing a
the financial and operational health of the USPTO        high standard of financial management at the
unnecessarily at risk.                                   USPTO. Our employees approach challenges as
                                                         opportunities, both for the agency and for them-
We are also mindful of the added responsibility that     selves. We look to the future with confidence, as
comes with fee setting authority. More than ever         we continue to support the strategic direction of
the agency is operating with an eye toward effi-         the USPTO by working as a trusted partner within
ciency, cost-consciousness, and improved service         the organization and providing sound advice to
and accountability. In the financial management          enable informed program and financial decision-
area, this is translating into efforts to enhance out-   making.
reach and transparency around our Fee Pro-
cessing Next Generation initiative, which aims to
improve our stakeholders’ payment experience.
We are also looking to facilitate the USPTO’s mission
success by improving our service to internal stake-
holders, through efforts to provide more meaningful                             Anthony P. Scardino
financial analysis to decision-makers and to im-                                Chief Financial Officer
prove the acquisition process with a focus on im-                               December 4, 2013
proving upon the customer-centric service culture.

With so much uncertainty in the funding environ-
ment, we had to be particularly vigilant coming
into FY 2013. During FY 2012 we worked diligently
with business units within the USPTO to ensure that
we entered this year with a sufficient operating re-
serve to help us prepare for multiple funding sce-
narios. This proved to benefit us this year, especial-
ly with the sequestration requirements that went
into effect in March. While we were forced to re-
duce spending and delay certain items that would
have improved on our performance results, we
have been able to continue executing on the activ-
ities critical to our mission – examining patents and
registering trademarks.




                                                                                                                   89
                                                                                                   www.uspto.gov
         FINANCIAL SECTION




           Principal Financial Statements and
           Related Notes




                                          Members of the FY 2013 Performance and Accountability
                                          Report Team, Top right: David Fitzpatrick; second row: Dennis
                                          Detar, Walter Schlueter, Karen Strohecker; front row: Cheron
                                          Green, Shana Willard, Jennifer Jacobs.




90
     PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                                          FINANCIAL SECTION



United States Patent and Trademark Office

Consolidated Balance Sheets

As of September 30, 2013 and 2012
(Dollars in Thousands)                                                  2013                   2012

ASSETS
 Intragovernmental:
   Fund Balance with Treasury (Note 2)                              $    1,996,736         $    1,726,955
   Accounts Receivable (Note 3)                                                  47                     36
   Other Assets – Advances and Prepayments (Note 6)                            1,726                  2,450
 Total Intragovernmental                                                 1,998,509              1,729,441

 Cash (Note 4)                                                                 5,405                  4,331
 Accounts Receivable, Net (Note 3)                                              130                    715
 Property, Plant, and Equipment, Net (Note 5)                              257,008                236,980
 Other Assets – Advances and Prepayments (Note 6)                              7,932               10,656
 Total Assets                                                       $    2,268,984         $    1,982,123


LIABILITIES
 Intragovernmental:
   Accounts Payable                                                 $          8,107       $          5,866
   Accrued Payroll and Benefits                                                7,365               16,969
   Accrued Workers’ and Unemployment Compensation                              1,778                  1,822
   Customer Deposit Accounts (Note 7)                                          5,934                  5,977
 Total Intragovernmental                                                    23,184                 30,634

 Accounts Payable                                                           72,292                 69,320
 Accrued Payroll and Benefits                                               82,184                117,489
 Accrued Leave                                                              88,081                 82,906
 Customer Deposit Accounts (Note 7)                                        112,747                115,736
 Deferred Revenue (Note 9)                                                 931,548                830,955
 Actuarial Liability (Note 10)                                                 9,711                  8,209
 Total Liabilities (Note 8)                                         $    1,319,747         $    1,255,249
 Commitments and Contingencies (Note 12)

NET POSITION
 Cumulative Results of Operations –
  Funds from Dedicated Collections (Note 14)                        $      949,237         $      726,874
 Total Net Position                                                 $      949,237         $      726,874
Total Liabilities and Net Position                                  $    2,268,984         $    1,982,123


The accompanying notes are an integral part of these consolidated financial statements.




                                                                                                                  91
                                                                                                  www.uspto.gov
         FINANCIAL SECTION



         United States Patent and Trademark Office

         Consolidated Statements of Net Cost

         For the years ended September 30, 2013 and 2012
         (Dollars in Thousands)                                                  2013                  2012

         Strategic Goal 1: Optimize Patent
           Quality and Timeliness
           Total Program Cost                                                $    2,281,196        $    2,079,357
           Total Program Earned Revenue                                          (2,458,296)           (2,180,532)
           Net Program Income                                                      (177,100)            (101,175)


         Strategic Goal 2: Optimize Trademark
           Quality and Timeliness
           Total Program Cost                                                       213,147              201,307
           Total Program Earned Revenue                                            (261,676)            (246,550)
           Net Program Income                                                       (48,529)             (45,243)


         Strategic Goal 3: Provide Domestic and Global
           Leadership to Improve Intellectual Property Policy,
           Protection and Enforcement Worldwide
           Total Program Cost                                                           46,084            40,283
         Net Income from Operations (Notes 14 and 15)                        $     (179,545)       $    (106,135)


         Total Entity
           Total Program Cost (Notes 16 and 17)                              $    2,540,427        $    2,320,947
           Total Earned Revenue                                                  (2,719,972)           (2,427,082)
         Net Income from Operations (Notes 14 and 15)                        $     (179,545)       $    (106,135)


         The accompanying notes are an integral part of these consolidated financial statements.




92
     PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                                          FINANCIAL SECTION



United States Patent and Trademark Office

Consolidated Statements of Changes in Net Position

For the years ended September 30, 2013 and 2012
(Dollars in Thousands)                                                   2013                  2012

                                                            Funds from Dedicated Funds from Dedicated
                                                                 Collections          Collections
CUMULATIVE RESULTS OF OPERATIONS
 Beginning Balances                                                  $     726,874         $     602,260


Budgetary Financing Sources:
 Transfers Out Without Reimbursement                                            (2,000)           (1,000)


Other Financing Sources:
 Imputed Financing                                                          44,818                19,479
Total Financing Sources                                                     42,818                18,479

Net Income from Operations                                                 179,545               106,135
Net Change                                                                 222,363               124,614
Cumulative Results of Operations                                     $     949,237         $     726,874


Net Position, End of Year                                            $     949,237         $     726,874


The accompanying notes are an integral part of these consolidated financial statements.




                                                                                                                  93
                                                                                                  www.uspto.gov
         FINANCIAL SECTION



         United States Patent and Trademark Office

         Consolidated Statements of Budgetary Resources

         For the years ended September 30, 2013 and 2012
         (Dollars in Thousands)                                                   2013                 2012

         BUDGETARY RESOURCES
           Unobligated Balance: Brought Forward, October 1                   $      237,872        $     177,705
           Recoveries of Prior Year Unpaid Obligations                               21,351               23,026
           Spending Authority from Offsetting Collections (discretionary)         2,672,335             2,411,896
         Total Budgetary Resources                                           $    2,931,558        $    2,612,627

         STATUS OF BUDGETARY RESOURCES
           Obligations Incurred                                              $    2,489,267        $    2,374,755
           Unobligated Balance, End of Year: Apportioned                            442,291              237,872
         Total Status of Budgetary Resources                                 $    2,931,558        $    2,612,627

         CHANGE IN OBLIGATED STATUS
           Unpaid Obligations:
             Unpaid Obligations, Brought Forward, October 1                  $      344,793        $     325,328
             Obligations Incurred                                                 2,489,267             2,374,754
             Gross Outlays                                                        (2,547,149)          (2,332,263)
             Recoveries of Prior Year Unpaid Obligations                            (21,351)             (23,026)
             Unpaid Obligations, End of Year                                 $      265,560        $     344,793
           Uncollected Payments from Federal Sources:
             Uncollected Customer Payments, Brought Forward, October 1       $           (37)      $          (298)
             Change in Uncollected Customer Payments                                     (10)                 261
             Uncollected Customer Payments, End of Year                      $           (47)      $           (37)

         Memorandum (non-add) entries:
         Obligated Balance, Net, Start of Year                               $      344,756        $     325,030
         Obligated Balance, Net, End of Year                                 $      265,513        $     344,756


         BUDGET AUTHORITY AND NET OUTLAYS
           Budget Authority, Gross (discretionary)                           $    2,672,335        $    2,411,896
           Actual Offsetting Collections (discretionary)                          (2,822,058)          (2,413,157)
           Change in Uncollected Customer Payments
             from Federal Sources (discretionary)                                        (10)                 261
           Budget Authority, Net (discretionary)                              $     (149,733)      $       (1,000)

           Gross Outlays (discretionary)                                      $    2,547,149       $    2,332,263
           Actual Offsetting Collections (discretionary)                          (2,822,058)          (2,413,157)
         Net Collections (discretionary)                                      $     (274,909)      $     (80,894)


         The accompanying notes are an integral part of these consolidated financial statements.



94
     PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                                          FINANCIAL SECTION



United States Patent and Trademark Office

Consolidated Statements of Cash Flows (Indirect Method)

For the years ended September 30, 2013 and 2012

(Dollars in Thousands)                                              2013                       2012

CASH FLOWS FROM OPERATING ACTIVITIES

 Net Income from Operations                                        $       179,545         $      106,135
 Adjustments Affecting Cash Flow:
   Imputed Financing from Cost Absorbed by Others                           44,818                    19,479
   Decrease/(Increase) of Accounts Receivable                                 574                      (317)
   Decrease/(Increase) in Advances and Prepayments                           3,448                     (968)
   Increase/(Decrease) Accounts Payable                                      4,720                (10,454)
   (Decrease)/Increase in Accrued Payroll and Benefits                     (44,909)                    7,308
   Increase in Accrued Leave and Workers’ and
     Unemployment Compensation                                               5,131                     6,053
   (Decrease)/Increase in Customer Deposit Accounts                         (3,032)                   16,129
   Increase/(Decrease) in Deferred Revenue                                 100,593                (14,827)
   Increase/(Decrease) in Actuarial Liability                                1,502                     (197)
   Depreciation, Amortization, or Loss on Asset Dispositions                71,882                    67,900
 Total Adjustments                                                         184,727                    90,106
Net Cash Provided by Operating Activities                                  364,272                196,241


CASH FLOWS FROM INVESTING ACTIVITIES
 Purchases of Property and Equipment                                       (91,417)               (98,252)
Net Cash Used in Investing Activities                                      (91,417)               (98,252)


CASH FLOWS FROM FINANCING ACTIVITIES
 Transfers Out Without Reimbursement                                        (2,000)                   (1,000)
Net Cash Used in Financing Activities                                       (2,000)                   (1,000)
Net Cash Provided by Operating, Investing, and Financing
Activities                                                         $       270,855         $          96,989


Fund Balance with Treasury and Cash, Beginning of Year             $   1,731,286           $    1,634,297
Net Cash Provided by Operating, Investing, and Financing
Activities                                                                 270,855                    96,989
Fund Balance with Treasury and Cash, End of Year                   $   2,002,141           $    1,731,286



The accompanying notes are an integral part of these consolidated financial statements.




                                                                                                                  95
                                                                                                  www.uspto.gov
         FINANCIAL SECTION



         United States Patent and Trademark Office

         Notes to Financial Statements
         As of and for the years ended September 30, 2013 and 2012

         NOTE 1. Summary of Significant Accounting Policies

         Reporting Entity                                        cordance with accounting principles generally ac-
                                                                 cepted in the United States (GAAP) and the form
         The United States Patent and Trademark Office
                                                                 and content for entity financial statements speci-
         (USPTO) is an agency of the United States within the
                                                                 fied by the Office of Management and Budget
         U.S. Department of Commerce. The USPTO admin-
                                                                 (OMB) in Circular A-136, Financial Reporting Re-
         isters the laws relevant to patents and trademarks
                                                                 quirements, as amended, as well as the account-
         and advises the Secretary of Commerce, the Presi-
                                                                 ing policies of the USPTO. Therefore, they may differ
         dent of the United States, and the Administration
                                                                 from other financial reports submitted pursuant to
         on patent, trademark, and copyright protection,
                                                                 OMB directives for the purpose of monitoring and
         and trade-related aspects of intellectual property.
                                                                 controlling the use of the USPTO's budgetary re-
         These financial statements include the USPTO’s          sources. The GAAP for federal entities are the
         three core business activities – granting patents,      standards prescribed by the Federal Accounting
         registering trademarks, and intellectual property       Standards Advisory Board, which is the official body
         policy, protection, and enforcement – that promote      for setting the accounting standards of the federal
         the use of intellectual property rights as a means of   government.
         achieving economic prosperity. These activities
                                                                 Throughout these financial statements, assets, lia-
         give innovators, businesses, and entrepreneurs the
                                                                 bilities, revenues, and costs have been classified
         protection and encouragement they need to turn
                                                                 according to the type of entity with which the
         their creative ideas into tangible products, and al-
                                                                 transactions are associated. Intra-governmental
         so provide protection for their inventions and
                                                                 assets and liabilities are those from or to other fed-
         trademarks.
                                                                 eral entities. Intra-governmental earned revenues
         The federal budget classifies the USPTO under the       are collections or accruals of revenue from other
         Other Advancement of Commerce (376) budget              federal entities and intra-governmental costs are
         function. The USPTO does not have lending or bor-       payments or accruals to other federal entities.
         rowing authority. The USPTO does not transact
                                                                 Allocation transfers are legal delegations by one
         business among its own operating units, and there-
                                                                 department of its authority to obligate budget au-
         fore, no intra-entity eliminations are necessary.
                                                                 thority and outlay funds to another department.
         The USPTO is not subject to federal, state, or local    The USPTO does not receive any allocation trans-
         income taxes. Accordingly, no provision for in-         fers.
         come taxes is recorded.
                                                                 Basis of Accounting
         Basis of Presentation
                                                                 Transactions are recorded on the accrual basis of
         As required by the Chief Financial Officers Act of      accounting, as well as on a budgetary basis. Ac-
         1990 and 31 United States Code (U.S.C.) §3515(b),       crual accounting allows for revenue to be recog-
         the accompanying financial statements present           nized when earned and expenses to be recog-
         the financial position, net cost of operations,         nized when goods or services are received, without
         budgetary resources, and cash flows for the             regard to the receipt or payment of cash. Budget-
         USPTO’s core business activities. The books and         ary accounting allows for compliance with the re-
         records of the USPTO serve as the source of this in-    quirements for and controls over the use of federal
         formation.                                              funds. The accompanying financial statements
         These financial statements were prepared in ac-         are presented on the accrual basis of accounting.



96
     PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                                           FINANCIAL SECTION



NOTE 1. Summary of Significant Accounting Policies (continued)

Funds from Dedicated Collections                      ported amounts of revenues and expenses during
                                                      the reporting period. Actual results could differ
Statement of Federal Financial Accounting
                                                      from estimates.
Standard (SFFAS) 43, Funds from Dedicated Col-
lections: Amending Statement of Federal Financial     Revenue and Other Financing Sources
Accounting Standards 27, Identifying and Report-
                                                      Exchange Revenue: The USPTO has fee setting
ing Earmarked Funds, requires separate identifica-
                                                      authority under section 10 of the Leahy-Smith
tion of the funds from dedicated collections on
                                                      America Invents Act (AIA). Section 10(a) of the
the Consolidated Balance Sheets (Net Position
                                                      AIA authorizes the Director of the USPTO to set or
section), Consolidated Statements of Changes in
                                                      adjust by rule all patent and trademark fees to
Net Position, and further disclosures in Note 14.
                                                      recover the aggregate estimated cost to the
Funds from dedicated collections are financed by      USPTO. Provided that the fees in the aggregate
specifically identified revenues, which remain        achieve overall aggregate cost recovery, the Di-
available over time. These specifically identified    rector of USPTO may set individual fees under sec-
revenues are required by statute to be used for       tion 10, at, below, or above their respective cost.
designated activities, benefits, or purposes, and     Since FY 1993, the USPTO’s funding has been pri-
must be accounted for separately from the gov-        marily through the collection of user fees. Fees
ernment’s general revenues. At the USPTO, funds       that are remitted with initial applications and re-
from dedicated collections include the salaries       quests for other services are recorded as ex-
and expenses fund (13X1006), fee reserve fund         change revenue when received, with an adjust-
(13X1008), and the special fund receipts              ment to defer revenue for services that have not
(135127).                                             been performed. All amounts remitted by cus-
                                                      tomers without a request for service are recorded
Fiduciary Activities
                                                      as liabilities in customer deposit accounts until
SFFAS 31, Accounting for Fiduciary Activities, re-    services are ordered.
quires that fiduciary activities not be recognized
                                                      The USPTO also receives financial gifts and gifts-in-
on the financial statements, but reported on
                                                      kind. All such transactions are included in the
schedules in the notes to the financial statements.
                                                      consolidated Gifts and Bequests Fund financial
Additional details are provided in Note 20.
                                                      statements of the U.S. Department of Commerce.
Fiduciary balances are not assets of the federal      These gifts are not of significant value and are not
government. Fiduciary activities are the collection   reflected in the USPTO’s financial statements.
or receipt, and the management, protection, ac-       Most gifts-in-kind are used for official travel to fur-
counting, and disposition by the federal govern-      ther attain the USPTO mission and objectives.
ment of cash or other assets in which non-federal
                                                      Imputed Financing Sources from Cost Absorbed
individuals or entities have an ownership interest
                                                      by Others (and Related Imputed Costs): In certain
that the federal government must uphold. At the
                                                      cases, operating costs of the USPTO are paid for in
USPTO, fiduciary activities are recorded in the Pa-
                                                      full or in part by funds appropriated to other fed-
tent Cooperation Treaty fund (13X6538) and the
                                                      eral entities. For example, Civil Service Retirement
Madrid Protocol fund (13X6554).
                                                      System (CSRS) pension benefits for applicable
Use of Estimates                                      USPTO employees are paid for in part by the U.S.
The preparation of financial statements in con-       Office of Personnel Management (OPM), and cer-
formity with GAAP requires management to make         tain legal judgments against the Department are
estimates and assumptions that affect the report-     paid for in full from the Judgment Fund main-
ed amounts of assets and liabilities and the dis-     tained by Treasury. Also, the cost of collections for
closure of contingent assets and liabilities as of    the USPTO are paid for in full by Treasury. The
the date of the financial statements and the re-      USPTO includes applicable Imputed Costs on the
                                                      Consolidated Statements of Net Cost. In addition,


                                                                                                                  97
                                                                                                  www.uspto.gov
         FINANCIAL SECTION



         NOTE 1. Summary of Significant Accounting Policies (continued)


         an Imputed Financing Source from Cost Absorbed            services provided, and other revenue-related re-
         by Others is recognized on the Consolidated               ceivables. This balance in accounts receivable
         Statements of Changes in Net Position.                    remains as a very small portion of the USPTO’s as-
                                                                   sets, as the USPTO requires payment prior to the
         Transfers Out: Intragovernmental transfers of budg-       provision of goods or services during the course of
         et authority without reimbursement are recorded at        its core business activities. Additional details are
         book value.                                               provided in Note 3.
         Entity/Non-Entity                                         The USPTO has written off, but not closed out, cer-
         Assets that an entity is authorized to use in its oper-   tain accounts receivables that are considered not
         ations are termed entity assets, while assets that        collectible. These offsets are established for re-
         are held by an entity and are not available for the       ceivables older than two years with little or no col-
         entity’s use are termed non-entity assets. Most of        lection activity that have been transferred to Treas-
         the USPTO’s assets are entity assets and are availa-      ury, subsequently adjusting the gross amount of its
         ble to carry out the mission of the USPTO, as ap-         employee-related accounts receivable to the net
         propriated by Congress, with the exception of a           realizable value. The USPTO regards all of the inter-
         portion of the Fund Balance with Treasury, cash,          governmental receivables balances as fully col-
         and accounts receivable. Additional details are           lectable.
         provided in Note 7.                                       Advances and Prepayments
         Fund Balance with Treasury                                The USPTO prepays amounts in anticipation of re-
         The USPTO deposits fees collected in commercial           ceiving future benefits. Although a payment has
         bank accounts maintained by the Treasury’s Fi-            been made, an expense is not recorded until
         nancial Management Service (FMS). All moneys              goods have been received or services have been
         maintained in these accounts are transferred to           performed. The USPTO has prepayments and ad-
         the Federal Reserve Bank on the next business day         vances with non-governmental, as well as govern-
         following the day of deposit. In addition, many           mental vendors. Additional details are provided in
         customer deposits are wired directly to the Federal       Note 6.
         Reserve Bank. All banking activity is conducted in        Cash
         accordance with the directives issued by the FMS.
         Treasury processes all disbursements. Additional          The USPTO’s cash balance primarily consists of
         details are provided in Note 2.                           checks, electronic funds transfer, and credit card
                                                                   payments for deposits that are in transit and have
         Accounts Receivable                                       not been credited to the USPTO’s Fund Balance
         Accounts receivable balances are established for          with Treasury. The cash balance also consists of
         amounts owed to the USPTO from its customers.             undeposited checks for fees that were not pro-
         The USPTO’s accounts receivable balances are              cessed at the Balance Sheet date due to the lag
         comprised of amounts due from current and for-            time between receipt and initial review. All such
         mer employees for the reimbursement of education          undeposited check amounts are considered to be
         expenses and other benefits, amounts due from             cash equivalents. Cash is also held outside the
         foreign intellectual property offices for the reim-       Treasury to be used as imprest funds. Additional
         bursement of services provided, amounts due from          details are provided in Note 4.
         other federal agencies for the reimbursement of




98
     PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                                             FINANCIAL SECTION



NOTE 1. Summary of Significant Accounting Policies (continued)

Property, Plant, and Equipment, Net                     fault of their own may receive unemployment
                                                        compensation benefits under the unemployment
The USPTO’s capitalization policies are summarized
                                                        insurance program administered by the DOL. The
below. Costs capitalized are recorded at actual
                                                        DOL bills each agency quarterly as its claims are
historical cost. Depreciation is expensed on a
                                                        paid.
straight-line basis over the estimated useful life of
the asset with the exception of leasehold improve-      Annual, Sick, and Other Leave
ments, which are depreciated over the remaining
                                                        Annual leave and compensatory time are accrued
life of the lease or over the useful life of the im-
                                                        as earned, with the accrual being reduced when
provement, whichever is shorter. Additional details
                                                        leave is taken. An adjustment is made each fiscal
are provided in Note 5.
                                                        quarter to ensure that the balances in the accrued
Contractor costs for developing custom internal         leave accounts reflect current pay rates. No por-
use software are capitalized when incurred for the      tion of this liability has been obligated. To the ex-
design, coding, and testing of the software. Soft-      tent current year funding is not available to pay for
ware in progress is not amortized until placed in       leave earned but not taken, funding will be ob-
service.                                                tained from future financing sources. Sick leave
Property, plant, and equipment acquisitions that        and other types of non-vested leave are expensed
do not meet the capitalization criteria are ex-         as used.
pensed upon receipt.                                    Employee Retirement Systems and Post-
Classes of          Capitalization   Capitalization     Employment Benefits
Property, Plant,      Threshold       Threshold for
                                                        USPTO employees participate in either the CSRS or
and Equipment       for Individual   Bulk Purchases
                                                        the Federal Employees Retirement System (FERS).
                      Purchases
                                                        The FERS was established by the enactment of Pub.
IT Equipment        $50 thousand      $250 thousand
                      or greater        or greater      L. No. 99-335. Pursuant to this law, the FERS and
Software            $50 thousand      $250 thousand
                                                        Social Security automatically cover most employ-
                      or greater        or greater      ees hired after December 31, 1983. Employees
Software in         $50 thousand      $250 thousand     who had five years of federal civilian service prior to
Progress              or greater        or greater      1984 and who are rehired after a break in service
Furniture           $50 thousand      $ 50 thousand     of more than one year may elect to join the FERS
                      or greater        or greater      and Social Security system or be placed in the
Equipment           $50 thousand      $250 thousand     CSRS offset retirement system.
                      or greater        or greater
                                                        The USPTO’s financial statements do not report
Leasehold           $50 thousand      Not applicable
Improvements          or greater
                                                        CSRS or FERS assets, accumulated plan benefits, or
                                                        liabilities applicable to its employees. The reporting
Workers’ Compensation                                   of such amounts is the responsibility of the OPM,
Claims brought by USPTO employees for on-the-job        who administers the plans. While the USPTO re-
injuries fall under the Federal Employees’ Compen-      ported no liability for future payments to employees
sation Act (FECA) administered by the U.S. De-          under these programs, the federal government is
partment of Labor (DOL). The DOL bills each             liable for future payments to employees through
agency annually as its claims are paid, but pay-        the OPM who administers these programs. The
ment on these bills is deferred approximately two       USPTO financial statements recognize a funded
years to allow for funding through the budget pro-      expense for the USPTO’s share of the costs to the
cess.                                                   federal government of providing pension, post- re-
                                                        tirement health, and post-retirement life insurance
Unemployment Compensation                               benefits to all eligible USPTO employees. In addi-
USPTO employees who lose their jobs through no          tion to the funded expense, the USPTO financial



                                                                                                                     99
                                                                                                     www.uspto.gov
          FINANCIAL SECTION



          NOTE 1. Summary of Significant Accounting Policies (continued)

          statements also recognize an imputed cost for the         FERS-eligible employees who contribute to their
          OPM’s share of the costs to the federal government        Thrift Savings Plans. No matching contributions are
          of providing pension, post-retirement health, and         made to the Thrift Savings Plans for employees par-
          post-retirement life insurance benefits to all eligible   ticipating in the CSRS. Employees participating in
          USPTO employees. The USPTO’s appropriation re-            the FERS are also covered under the Federal Insur-
          quires full funding of the present costs, as deter-       ance Contributions Act (FICA), for which the USPTO
          mined by the OPM, of post-retirement benefits for         contributes a matching amount to the Social Secu-
          the Federal Employees Health Benefit Program              rity Administration.
          (FEHB), the Federal Employees Group Life Insur-
                                                                    Deferred Revenue
          ance Program (FEGLI), and pensions under the
          CSRS. While ultimate administration of any post-          Deferred revenue represents fees that have been
          retirement benefits or retirement system payments         received by the USPTO for requested services that
          will continue to be administered by the OPM, the          have not been substantially completed. Two types
          USPTO is responsible for the payment of the present       of deferred revenue are recorded. The first type
          value associated with these costs calculated using        results from checks received, accompanied by re-
          the OPM factors. Any difference between the OPM           quests for services, which were not yet deposited
          factors for funding purposes and the OPM factors          due to the lag time between receipt and initial re-
          for reporting purposes is recognized as an imputed        view. The second type of deferred revenue relates
          cost. Additional details are provided in Note 13.         primarily to fees for applications that have been
                                                                    partially processed. The deferred revenue calcula-
          For the years ended September 30, 2013 and 2012,
                                                                    tion is a complex accounting estimate, dependent
          the USPTO made current year contributions through
                                                                    upon numerous business and administrative pro-
          agency payroll contributions and quarterly sup-
                                                                    cesses, workloads, and inventories. The deferred
          plemental payments to OPM equivalent to approx-
                                                                    revenue balance is calculated by analyzing the
          imately 19.0 percent of the employee’s basic pay
                                                                    process for completing each service that USPTO
          for those employees covered by CSRS, based on
                                                                    provides. The percent incomplete based on the
          OPM cost factors. For the years ended September
                                                                    inventory of pending work and completion status is
          30, 2013 and 2012, the USPTO made current year
                                                                    applied to fee collections to estimate the amount
          contributions through agency payroll contributions
                                                                    for deferred revenue. Determining completion sta-
          equivalent to approximately 11.9 percent of the
                                                                    tus is a difficult process. The components of the
          employee’s basic pay for those employees cov-
                                                                    liability are provided in Note 9.
          ered by FERS, based on OPM cost factors. As con-
          tribution funding increases, imputed costs will cor-      Net Position
          respondingly decrease.                                    Net Position is the residual difference between as-
          All employees are eligible to contribute to a Thrift      sets and liabilities, and is composed of Cumulative
          Savings Plan. For those employees participating in        Results of Operations. Cumulative Results of Oper-
          the FERS, a Thrift Savings Plan is automatically es-      ations is the net result of the USPTO’s operations
          tablished, and the USPTO makes a mandatory con-           since inception.
          tribution to this plan equal to one percent of the
                                                                    Environmental Cleanup
          employees’ compensation. In addition, the USPTO
          makes matching contributions ranging from one to          The USPO does not have any known liabilities for
          four percent of the employees’ compensation for           environmental cleanup.




100
      PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                                             FINANCIAL SECTION



NOTE 2. Fund Balance with Treasury

As of September 30, 2013 and 2012, Fund Balance with Treasury consisted of the following:


(Dollars in Thousands)                                                2013                       2012
Fund Balances by Treasury Fund Type:
 Special Funds                                                       $     233,529           $      233,529
 General Funds                                                           1,645,622                 1,372,713
 Deposit Funds                                                            117,585                   120,713
Total Fund Balance with Treasury                                     $   1,996,736           $     1,726,955

Status of Fund Balance with Treasury:
 Obligated Balance Not Yet Disbursed                                 $     265,513           $      344,756
 Unobligated Balance Available                                            442,291                   237,872
 Temporarily Not Available Pursuant to Public Law                         937,818                   790,085
 Non-Budgetary Fund Balance with Treasury                                 351,114                   354,242
Total Fund Balance with Treasury                                     $   1,996,736           $     1,726,955


No discrepancies exist between the Fund Balance reflected in the general ledger and the balance in the
Treasury accounts.

To help smooth the impact of economic downturns on operations and to help mitigate funding uncertainty,
the USPTO has been reserving a portion of the amount Congress makes available annually through appro-
priations as a designated operating reserve that will be carried over for use in future years. The Unobligated
Balance Available amount above is the Agency’s current operating reserve. As of September 30, 2013, the
Patent operating reserve was $287,211 thousand and the Trademark operating reserve was $155,080 thou-
sand. As of September 30, 2012, the Patent operating reserve was $111,749 thousand and the Trademark
operating reserve was $126,123 thousand.

As of September 30, 2013 and 2012, the Non-Budgetary Fund Balance with Treasury includes surcharge re-
ceipts of $233,529 thousand for each year presented, and non-entity customer deposit accounts of
$117,585 thousand and $120,713 thousand, respectively.




                                                                                                                        101
                                                                                                        www.uspto.gov
          FINANCIAL SECTION



          NOTE 3. Accounts Receivable, Net

          As of September 30, 2013, USPTO entity accounts receivables consisted of the following:


                                                         Accounts                  Allowance for                   Accounts
          (Dollars in Thousands)                      Receivable, Gross        Uncollectible Accounts           Receivable, Net

          Intragovernmental                                $             47            $               -            $              47

          With the Public                                  $             254            $       (124)               $            130


          As of September 30, 2012, USPTO entity accounts receivables consisted of the following:


                                                         Accounts                  Allowance for                   Accounts
          (Dollars in Thousands)                      Receivable, Gross        Uncollectible Accounts           Receivable, Net

          Intragovernmental                                $             36            $               -            $              36

          With the Public                                  $             866            $       (151)               $            715


          NOTE 4. Cash

          As of September 30, 2013 and 2012, cash consisted of the following:


          (Dollars in Thousands)                                                      2013                              2012

          Deposits in Transit                                                          $       5,094                $           3,943
          Undeposited Collections                                                               311                              388
          Total                                                                        $       5,405                $           4,331


          NOTE 5. Property, Plant, and Equipment, Net

          As of September 30, 2013, property, plant, and equipment, net consisted of the following:


          (Dollars in Thousands)
                                                                                              Accumulated
          Classes of Property, Plant, and                 Service Life         Acquisition    Depreciation/             Net Book
          Equipment                                         (Years)              Value         Amortization              Value
          IT Equipment                                         3-5              $   388,156     $      304,537          $      83,619
          Software                                             3-5                  367,670            299,817                 67,853
          Software in Progress                                  -                    45,113                     -              45,113
          Furniture                                            5-7                   12,078                10,087               1,991
          Equipment                                            3-8                    9,804                 9,121                683
          Leasehold Improvements                               5-20                 103,957                46,208              57,749
          Total Property, Plant, and Equipment                                  $   926,778     $      669,770          $   257,008




102
      PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                                                    FINANCIAL SECTION



NOTE 5. Property, Plant, and Equipment, Net                 (continued)


As of September 30, 2012, property, plant, and equipment, net consisted of the following:


(Dollars in Thousands)
                                                                                 Accumulated
Classes of Property, Plant, and              Service Life      Acquisition       Depreciation/          Net Book
Equipment                                      (Years)           Value            Amortization           Value
IT Equipment                                      3-5           $   381,368        $      276,265       $   105,103
Software                                          3-5               316,218               278,010              38,208
Software in Progress                               -                 29,536                     -              29,536
Furniture                                         5-7                15,317                12,996               2,321
Equipment                                         3-8                10,809                10,499                310
Leasehold Improvements                           5-20               101,785                40,283              61,502
Total Property, Plant, and Equipment                            $   855,033        $      618,053       $   236,980



NOTE 6. Other Assets

As of September 30, 2013 and 2012, other assets consisted of the following:


(Dollars in Thousands)                                                    2013                          2012

Intragovernmental Advances and Prepayments                            $           1,726             $           2,450
Advances and Prepayments with the Public                                          7,932                        10,656
Total                                                                 $           9,658             $          13,106


The largest governmental prepayments include the USPTO deposit accounts held with the U.S. Government
Printing Office (GPO) to facilitate recurring transactions, the U.S. Postal Service for postage, and the Depart-
ment of Commerce for centralized services.

The largest prepayments with the public as of September 30, 2013 and 2012 were $6,204 thousand and
$6,982 thousand, respectively, for various hardware and software maintenance agreements and $1,578
thousand and $1,569 thousand, respectively, for various library and online database subscriptions.




                                                                                                                            103
                                                                                                            www.uspto.gov
          FINANCIAL SECTION



          NOTE 7. Entity and Non-Entity Assets

          Non-entity assets are amounts held on deposit for the convenience of the USPTO’s customers and finance
          charges related to employee debts.

          Customers have the option of maintaining a deposit account at the USPTO to facilitate the order process.
          Customers can draw from their deposit account when they place an order and can replenish their deposit
          account as desired. Funds maintained in customer deposit accounts are not available for the USPTO use
          until an order has been placed. Once an order has been placed, the funds are reclassified to entity funds.

          As of September 30, 2013 and 2012, entity and non-entity assets consisted of the following:


          (Dollars in Thousands)                                                       2013                    2012

          Fund Balance with Treasury:
            Intragovernmental Deposit Accounts                                     $          5,934        $          5,977
            Customer Deposit Accounts with the Public                                     111,651                 114,736
          Total Fund Balance with Treasury                                                117,585                 120,713

          Cash:
            Customer Deposit Accounts with the Public                                         1,096                   1,000


          Total Non-Entity Assets                                                         118,681                 121,713
          Total Entity Assets                                                           2,150,303               1,860,410
          Total Assets                                                             $    2,268,984          $    1,982,123


          NOTE 8. Liabilities Covered and Not Covered by Budgetary Resources

          The USPTO records liabilities for amounts that are likely to be paid as the direct result of events that have al-
          ready occurred. The USPTO considers liabilities covered by three types of resources: realized budgetary re-
          sources; unrealized budgetary resources that become available without further Congressional action; and
          cash and Fund Balance with Treasury. Realized budgetary resources include obligated balances funding
          existing liabilities and unobligated balances (operating reserve) as of September 30, 2013. Unrealized
          budgetary resources are amounts that were not available for spending through September 30, 2013, but
          become available for spending on October 1, 2013 once apportioned by the OMB. In addition, cash and
          Fund Balance with Treasury cover liabilities that will never require the use of a budgetary resource. These
          liabilities consist of deposit accounts, refunds payable to customers for fee overpayments, and undeposited
          collections.

          Liabilities not covered by budgetary resources include Accrued Workers’ Compensation, Custodial Liability,
          Accrued Payroll and Benefits, Accrued Leave, Deferred Revenue, and Actuarial Liability. Although future
          appropriations to fund these liabilities are probable and anticipated, Congressional action is needed before
          budgetary resources can be provided.

          As of September 30, 2013 and 2012, liabilities covered and not covered by budgetary resources were as fol-
          lows:




104
      PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                                             FINANCIAL SECTION



NOTE 8. Liabilities Covered and Not Covered by Budgetary Resources                           (continued)


(Dollars in Thousands)                                                       2013                  2012

Liabilities Covered by Resources
  Intragovernmental:
    Accounts Payable                                                     $          8,107      $           5,866
    Accrued Payroll and Benefits                                                    7,365                16,969
    Accrued Unemployment Compensation                                                 19                       7
    Customer Deposit Accounts                                                       5,934                  5,977
  Total Intragovernmental                                                        21,425                  28,819

  Accounts Payable                                                               72,292                  69,320
  Accrued Payroll and Benefits                                                   31,229                  78,038
  Customer Deposit Accounts                                                     112,747                 115,736
  Deferred Revenue                                                              442,437                 238,127
Total Liabilities Covered by Resources                                   $      680,130        $        530,040

Liabilities Not Covered by Resources
  Intragovernmental:
    Accrued Workers’ Compensation                                        $          1,759      $           1,815
  Total Intragovernmental                                                           1,759                  1,815

  Accrued Payroll and Benefits                                                   50,955                  39,451
  Accrued Leave                                                                  88,081                  82,906
  Deferred Revenue                                                              489,111                 592,828
  Actuarial Liability                                                               9,711                  8,209
Total Liabilities Not Covered by Resources                               $      639,617        $        725,209
Total Liabilities                                                        $    1,319,747        $       1,255,249


NOTE 9. Deferred Revenue

As of September 30, 2013, deferred revenue consisted of the following:


(Dollars in Thousands)                       Patent                Trademark                   Total
  Unearned Fees                               $    862,485               $          68,752         $      931,237
  Undeposited Checks                                   282                             29                     311
Total Deferred Revenue                        $    862,767               $          68,781         $      931,548


As of September 30, 2012, deferred revenue consisted of the following:


(Dollars in Thousands)                       Patent                Trademark                   Total
  Unearned Fees                               $    764,323               $          66,244         $      830,567
  Undeposited Checks                                   348                             40                     388
Total Deferred Revenue                        $    764,671               $          66,284         $      830,955




                                                                                                                         105
                                                                                                         www.uspto.gov
          FINANCIAL SECTION



          NOTE 10. Actuarial Liability

          The FECA provides compensation and medical cost protection to covered federal civilian employees injured
          on the job and for those who have contracted a work-related occupational disease, and beneficiaries of
          employees whose death is attributable to a job-related injury or occupational disease. Claims incurred for
          benefits under the FECA for the USPTO’s employees are administered by the DOL and are paid ultimately by
          the USPTO.

          The DOL estimated the future workers compensation liability by applying actuarial procedures developed to
          estimate the liability for FECA benefits. The actuarial liability estimates for FECA benefits include the ex-
          pected liability for death, disability, medical, and miscellaneous costs for approved compensation cases,
          plus a component for incurred but not reported claims. The actuarial liability is updated annually.

          In FY 2013, the DOL effected a change in accounting estimate to refine the methodology used for selecting
          the interest rate assumptions and enhance matching between the timing of cash flows and interest rates.
          For FY 2013, projected annual payments were discounted to present value based on OMB's interest rate as-
          sumptions which were interpolated to reflect the average duration in years for income payments and medi-
          cal payments. In FY 2012 and prior years, projected annual benefit payments were discounted to present
          value using OMB's economic assumptions for 10-year Treasury notes and bonds; these interest rates were
          not split for wage benefits and medical benefits. Interest rate assumptions utilized for discounting were as
          follows:

                                                        2013                 2012
                                                For wage benefits:     2.29% in year 1,
                                                  2.73 % in year 1,    3.14 % in year 2,
                                                  3.13 % in year 2,     and thereafter
                                                   and thereafter
                                               For medical benefits:
                                                  2.33 % in year 1,
                                                  2.86 % in year 2,
                                                   and thereafter

          Based on information provided by the DOL, the U.S. Department of Commerce estimated the USPTO’s liability
          as of September 30, 2013 and 2012 was $9,711 thousand and $8,209 thousand, respectively.


          NOTE 11. Leases

          Operating Leases:
          The General Services Administration (GSA) negotiates long-term office space leases and levies rent charges,
          paid by the USPTO, approximate to commercial rental rates. These operating lease agreements for the
          USPTO’s office buildings expire at various dates between FY 2014 and FY 2024. During the years ended Sep-
          tember 30, 2013 and 2012, the USPTO paid $94,631 thousand and $94,795 thousand, respectively, to the
          GSA for rent.

          Under existing commitments, the future minimum lease payments as of September 30, 2013 are as follows:

                                            Fiscal Year                (Dollars in Thousands)
                                2014                                                     $     66,333
                                2015                                                           66,990
                                2016                                                           65,680
                                2017                                                           64,526
                                2018                                                           63,582
                                Thereafter                                                    331,080
                                Total Future Minimum Lease Payments                      $ 658,191


106
      PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                                                  FINANCIAL SECTION



NOTE 11. Leases        (continued)


The commitments shown above relate primarily to the operating lease for the USPTO headquarters in Alex-
andria, Virginia, beginning in FY 2004 and extending to FY 2024. The operating lease commitments for the
USPTO offices in Shirlington, Virginia and the satellite offices are also included above. The operating leases
in Shirlington, Virginia, and Detroit, Michigan, will expire in FY 2019 and FY 2022, respectively. In addition, the
temporary leases in Lakewood, Colorado; Menlo Park, California; and Dallas, Texas will expire in FY 2014, at
which point the long-term leases in Denver, Colorado and Dallas, Texas are anticipated to be in effect. The
solicitation process for a long-term lease in the Silicon Valley, California was suspended due to budget con-
straints.


NOTE 12. Commitments and Contingencies

The USPTO is a party to various routine administrative proceedings, legal actions, and claims brought by or
against it, including threatened or pending litigation involving labor relations claims, some of which may
ultimately result in settlements or decisions against the federal government.

As of September 30, 2013, management expects it is reasonably possible that approximately $5,900 thou-
sand may be owed for awards or damages involving labor relations claims. As of September 30, 2012,
management expects it is reasonably possible that approximately $5,600 thousand may be owed for
awards or damages involving labor relations claims.


As of September 30, 2013 and 2012, the USPTO was not subject to any suits where adverse outcomes are
probable.


For the years ended September 30, 2013 and 2012, the USPTO was not required to make any payments to
the Judgment Fund.


As of September 30, 2013 and 2012, the USPTO did not have any major long-term commitments.


NOTE 13. Post-employment Benefits

For the years ended September 30, 2013 and 2012, the post-employment benefit expenses were as follows:


(Dollars in
Thousands)                                  2013                                           2012
                          Funded        Imputed            Total         Funded        Imputed             Total
CSRS                      $    10,809   $      3,478   $    14,287      $    11,599    $     2,273     $     13,872
FERS                          136,411         17,268       153,679          122,660         10,378          133,038
FEHB                           52,715          1,015        53,730           50,582          4,152           54,734
FEGLI                            202               -           202             183                -                183
FICA                           85,871              -        85,871           78,223               -          78,223
Total Cost                $ 286,008     $     21,761   $ 307,769        $ 263,247      $    16,803     $ 280,050




                                                                                                                           107
                                                                                                           www.uspto.gov
          FINANCIAL SECTION



          NOTE 14. Funds from Dedicated Collections

          Funds from dedicated collections are financed by specifically identified revenues, which remain available
          over time. These specifically identified revenues are required by statute to be used for designated activities,
          benefits, or purposes, and must be accounted for separately from the government’s general revenues. At
          the USPTO, funds from dedicated collections include the salaries and expenses fund, the fee reserve fund,
          and the special fund receipts. There is no balance shown in the fee reserve fund as of September 30, 2013.
          Non-entity funds, as disclosed in Note 7, are not funds from dedicated collections and are therefore exclud-
          ed from the below amounts.

          The following tables provide the status of the USPTO’s funds from dedicated collections as of and for the
          years ended September 30, 2013 and 2012.

          (Dollars in Thousands)                                                                    Total Funds from
                                                           Salaries and
                                                                               Surcharge Fund          Dedicated
                                                          Expenses Fund
                                                                                                      Collections
          Balance Sheet as of September 30, 2013
            Fund Balance with Treasury                       $    1,645,622        $    233,529          $    1,879,151
            Cash                                                      4,309                     -                 4,309
            Accounts Receivable, Net                                   177                      -                  177
            Other Assets                                           266,666                      -              266,666
            Total Assets                                     $    1,916,774        $    233,529          $    2,150,303


            Total Liabilities                                $    1,201,066       $             -        $    1,201,066
            Cumulative Results of Operations                       715,708              233,529                949,237
            Total Liabilities and Net Position               $    1,916,774        $    233,529          $    2,150,303


          Statement of Net Cost for the
          Year Ended September 30, 2013
            Total Program Cost                               $    2,540,427        $            -        $    2,540,427
            Less Program Earned Income                           (2,719,972)                    -            (2,719,972)
            Net Income from Operations                       $    (179,545)        $            -        $    (179,545)


          Statement of Changes in Net Position
          for the Year Ended September 30, 2013
            Net Position, Beginning of Year                  $     493,345         $    233,529          $     726,874
            Budgetary Financing Sources:
              Transfer Out Without Reimbursement                     (2,000)                    -                (2,000)
            Other Financing Sources:
              Imputed Financing                                     44,818                      -               44,818
            Net Income from Operations                             179,545                      -              179,545
            Change in Net Position                                 222,363                      -              222,363
            Net Position, End of Year                        $     715,708         $    233,529          $     949,237




108
      PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                                     FINANCIAL SECTION



NOTE 14. Funds from Dedicated Collections (continued)

(Dollars in Thousands)                    Salaries and       Surcharge Fund       Total Funds from
                                         Expenses Fund                               Dedicated
                                                                                    Collections
Balance Sheet as of September 30, 2012
 Fund Balance with Treasury                $    1,372,713       $    233,529          $    1,606,242
 Cash                                               3,331                     -                3,331
 Accounts Receivable, Net                            751                      -                 751
 Other Assets                                    250,086                      -             250,086
 Total Assets                              $    1,626,881       $    233,529          $    1,860,410


 Total Liabilities                         $    1,133,536       $             -       $    1,133,536
 Cumulative Results of Operations                493,345             233,529                726,874
 Total Liabilities and Net Position        $    1,626,881       $    233,529          $    1,860,410


Statement of Net Cost for the
Year Ended September 30, 2012
 Total Program Cost                        $    2,320,947        $            -       $    2,320,947
 Less Program Earned Income                    (2,427,082)                    -           (2,427,082)
 Net Income from Operations                $    (106,135)        $            -       $    (106,135)


Statement of Changes in Net Position
for the Year Ended September 30, 2012
 Net Position, Beginning of Year           $     368,731        $    233,529          $     602,260
 Budgetary Financing Sources:
   Transfer Out Without Reimbursement              (1,000)                    -               (1,000)
 Other Financing Sources:
   Imputed Financing                              19,479                      -              19,479
 Net Income from Operations                      106,135                      -             106,135
 Change in Net Position                          124,614                      -             124,614
 Net Position, End of Year                 $     493,345        $    233,529          $     726,874




                                                                                                            109
                                                                                            www.uspto.gov
          FINANCIAL SECTION



          NOTE 14. Funds from Dedicated Collections (continued)

          The Salaries and Expenses Fund contains moneys used for the administering of the laws relevant to patents
          and trademarks and advising the Secretary of Commerce, the President of the United States, and the Ad-
          ministration on patent, trademark, and copyright protection, and trade-related aspects of intellectual prop-
          erty. This fund is used for the USPTO’s three core business activities – granting patents, registering trade-
          marks, and intellectual property policy, protection, and enforcement – that promote the use of intellectual
          property rights as a means of achieving economic prosperity. These activities give innovators, businesses,
          and entrepreneurs the protection and encouragement they need to turn their creative ideas into tangible
          products, and also provide protection for their inventions and trademarks. The USPTO may use moneys from
          this account only as authorized by Congress via appropriations.

          The Surcharge Fund was created through the Patent and Trademark Office Surcharge provision in the Om-
          nibus Budget Reconciliation Act (OBRA) of 1990 (Section 10101, Pub. L. No. 101-508). This required that the
          USPTO impose a surcharge on certain patent fees and set in statute the amounts of money that the USPTO
          should deposit in a special fund receipt account at the U.S. Department of the Treasury. This surcharge ex-
          pired at the end of FY 1998. The USPTO may use moneys from this account only as authorized by Congress,
          and only as made available by the issuance of a Treasury warrant.

          The Patent and Trademark Fee Reserve Fund was created through the Leahy-Smith America Invents Act
          legislation enacted on September 16, 2011 (Pub. L. No. 112-29) modifying 35 U.S.C §42(c). This established
          a statutory provision allowing the USPTO to collect and retain funds in excess of the appropriated levels for
          the current fiscal year. This fund was created to deposit all excess collections. The legislation provided fur-
          ther that the fees will be made available without fiscal limitation or until expended. Current fiscal year ap-
          propriation language requires that the USPTO submit a reprogramming action to the committee on appro-
          priations prior to the expenditures of funds from the reserve.




110
      PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                                                   FINANCIAL SECTION



NOTE 15. Intragovernmental Costs and Exchange Revenue

Total intragovernmental costs and exchange revenue, by Strategic Goal, for the years ended September 30,
2013 and 2012 were as follows:


(Dollars in Thousands)                                                   2013

                                                                                Intellectual
                                                                                  Property
                                                 Patent         Trademark        Protection               Total
Strategic Goal 1: Optimize Patent
Quality and Timeliness
 Intragovernmental Gross Cost                $      485,208     $           -   $              -     $     485,208
 Gross Cost with the Public                       1,795,988                 -                  -         1,795,988
   Total Program Cost                             2,281,196                 -                  -         2,281,196

 Intragovernmental Earned Revenue                     (8,500)               -                  -             (8,500)
 Earned Revenue from the Public                   (2,449,796)               -                  -         (2,449,796)
   Total Program Earned Revenue                   (2,458,296)               -                  -         (2,458,296)
   Net Program Income                        $     (177,100)    $           -   $              -     $    (177,100)


Strategic Goal 2: Optimize Trademark
Quality and Timeliness
 Intragovernmental Gross Cost                 $            -    $     45,336    $              -     $      45,336
 Gross Cost with the Public                                -        167,811                    -           167,811
   Total Program Cost                                      -        213,147                    -           213,147

 Intragovernmental Earned Revenue                          -           (341)                   -              (341)
 Earned Revenue from the Public                            -        (261,335)                  -          (261,335)
   Total Program Earned Revenue                            -        (261,676)                  -          (261,676)
   Net Program Income                         $            -    $    (48,529)   $              -     $     (48,529)

Strategic Goal 3: Provide Domestic and
Global Leadership to Improve Intellectual
Property Policy, Protection and
Enforcement Worldwide
 Intragovernmental Gross Cost                 $            -    $           -    $     9,802         $       9, 802
 Gross Cost with the Public                                -                -         36,282                36,282
   Total Program Cost                         $            -    $           -    $    46,084         $      46,084


Net (Income)/Cost from Operations            $     (177,100)    $    (48,529)    $    46,084         $    (179,545)


Total Entity

 Total Program Cost (Notes 16 and 17)        $ 2,281,196        $   213,147      $    46,084         $ 2,540,427
 Total Earned Revenue                             (2,458,296)       (261,676)                  -         (2,719,972)
Net (Income)/Cost from Operations            $     (177,100)    $    (48,529)    $    46,084         $ (179,545)




                                                                                                                            111
                                                                                                            www.uspto.gov
          FINANCIAL SECTION



          NOTE 15. Intragovernmental Costs and Exchange Revenue                            (continued)


          (Dollars in Thousands)                                                       2012

                                                                                              Intellectual
                                                                                                Property
                                                             Patent        Trademark           Protection             Total
          Strategic Goal 1: Optimize Patent
          Quality and Timeliness
           Intragovernmental Gross Cost                  $     433,079     $           -       $             -   $     433,079
           Gross Cost with the Public                        1,646,278                 -                     -       1,646,278
             Total Program Cost                              2,079,357                 -                     -       2,079,357

           Intragovernmental Earned Revenue                      (7,434)               -                     -           (7,434)
           Earned Revenue from the Public                    (2,173,098)               -                     -       (2,173,098)
             Total Program Earned Revenue                    (2,180,532)               -                     -       (2,180,532)
             Net Program Income                          $    (101,175)    $           -       $             -   $    (101,175)

          Strategic Goal 2: Optimize Trademark
          Quality and Timeliness
           Intragovernmental Gross Cost                  $            -    $     41,927        $             -   $      41,927
           Gross Cost with the Public                                 -        159,380                       -         159,380
             Total Program Cost                                       -        201,307                       -         201,307


           Intragovernmental Earned Revenue                           -           (389)                      -            (389)
           Earned Revenue from the Public                             -        (246,161)                     -        (246,161)
             Total Program Earned Revenue                             -        (246,550)                     -        (246,550)
             Net Program Income                          $            -    $    (45,243)       $             -   $     (45,243)


          Strategic Goal 3: Provide Domestic and
          Global Leadership to Improve Intellectual
          Property Policy, Protection and
          Enforcement Worldwide
           Intragovernmental Gross Cost                  $            -    $           -        $     8,390      $       8,390
           Gross Cost with the Public                                 -                -             31,893             31,893
             Total Program Cost                          $            -    $           -        $    40,283      $      40,283


          Net (Income)/Cost from Operations              $    (101,175)    $    (45,243)        $    40,283      $    (106,135)


          Total Entity
           Total Program Cost (Notes 16 and 17)          $ 2,079,357       $   201,307          $    40,283      $ 2,320,947
           Total Earned Revenue                              (2,180,532)       (246,550)                     -       (2,427,082)
          Net (Income)/Cost from Operations              $    (101,175)    $    (45,243)        $    40,283      $    (106,135)


          Intragovernmental expenses relate to the source of the goods or services, not the classification of the relat-
          ed revenue.




112
      PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                                                     FINANCIAL SECTION



NOTE 16. Program Costs

Program costs consist of both costs related directly to the individual business lines and overall support costs
allocated to the business lines. All costs are assigned to specific programs. Total program or operating
costs for the years ended September 30, 2013 and 2012 by cost category were as follows:


(Dollars in Thousands)                                                                2013
                                                                  Direct         Allocated                 Total
Personnel Services and Benefits                                 $ 1,676,358       $     138,457         $ 1,814,815
Travel and Transportation                                              2,036                  511              2,547
Rent, Communication, and Utilities                                   88,647              35,041              123,688
Printing and Reproduction                                           112,492                   184            112,676
Contractual Services                                                182,327             142,502              324,829
Training                                                                   484                347                  831
Maintenance and Repairs                                                3,069             39,805               42,874
Supplies and Materials                                               36,936                   793             37,729
Equipment not Capitalized                                              3,776                 4,774             8,550
Insurance Claims and Indemnities                                             6                   -                   6
Depreciation, Amortization, or Loss on Asset Dispositions            16,766              55,116               71,882
Total Program Costs                                             $ 2,122,897       $     417,530         $ 2,540,427




(Dollars in Thousands)                                                                2012
                                                                  Direct         Allocated                 Total
Personnel Services and Benefits                                 $ 1,521,472       $     104,879         $ 1,626,351
Travel and Transportation                                              2,758                  757              3,515
Rent, Communication, and Utilities                                   87,427              33,045              120,472
Printing and Reproduction                                            97,653                   347             98,000
Contractual Services                                                168,506             142,240              310,746
Training                                                                   746               1,670             2,416
Maintenance and Repairs                                                3,766             41,650               45,416
Supplies and Materials                                               35,051                  1,342            36,393
Equipment not Capitalized                                              3,566                 6,073             9,639
Insurance Claims and Indemnities                                            10                 89                   99
Depreciation, Amortization, or Loss on Asset Dispositions            20,538              47,362               67,900
Total Program Costs                                             $ 1,941,493       $     379,454         $ 2,320,947


The unfunded portion of personnel services and benefits for the years ended September 30, 2013 and 2012
was $18,126 thousand and $4,374 thousand, respectively.




                                                                                                                            113
                                                                                                            www.uspto.gov
          FINANCIAL SECTION



          NOTE 17. Program Costs by Category and Responsibility Segment

          The program costs for the years ended September 30, 2013 and 2012 by cost category and business line
          were as follows:


          (Dollars in Thousands)                                                  2013

                                                                                         Intellectual
                                                                                           Property
                                                          Patent         Trademark        Protection            Total

          Direct Costs
            Personnel Services and Benefits           $ 1,532,243        $   122,071     $      22,044      $   1,676,358
            Travel and Transportation                              728          132              1,176             2,036
            Rent, Communication, and Utilities               77,932            7,715             3,000            88,647
            Printing and Reproduction                       112,414              68                 10           112,492
            Contractual Services                            157,049           14,335            10,943           182,327
            Training                                               284          159                 41                  484
            Maintenance and Repairs                            2,293            657                119             3,069
            Supplies and Materials                           35,207            1,278               451            36,936
            Equipment not Capitalized                          2,815            846                115             3,776
            Insurance Claims and Indemnities                         6               -                  -                 6
            Depreciation, Amortization, or Loss
             on Asset Dispositions                           11,921            4,680               165            16,766
          Subtotal Direct Costs                       $ 1,932,892        $   151,941     $      38,064      $ 2,122,897

          Allocated Costs
            Automation                                $     175,987      $    33,954     $       2,826      $    212,767
            Resource Management                             172,317           27,252             5,194           204,763
          Subtotal Allocated Costs                    $     348,304      $    61,206     $       8,020      $    417,530

          Total Program Costs                         $ 2,281,196        $   213,147     $      46,084      $ 2,540,427


          The unfunded portion of personnel services and benefits for the year ended September 30, 2013 was
          $18,126 thousand.




114
      PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                                                 FINANCIAL SECTION



NOTE 17. Program Costs by Category and Responsibility Segment                           (continued)


(Dollars in Thousands)                                                    2012
                                                                                  Intellectual
                                                                                    Property
                                                   Patent         Trademark        Protection            Total
Direct Costs
 Personnel Services and Benefits               $ 1,385,426        $   117,596     $      18,450      $ 1,521,472
 Travel and Transportation                                  790           97              1,871             2,758
 Rent, Communication, and Utilities                   77,339            7,391             2,697            87,427
 Printing and Reproduction                            97,547              99                     7         97,653
 Contractual Services                                144,366           15,866             8,274           168,506
 Training                                                   289          418                 39                  746
 Maintenance and Repairs                                2,987            600                179             3,766
 Supplies and Materials                               33,487            1,172               392            35,051
 Equipment not Capitalized                              2,890            475                201             3,566
 Insurance Claims and Indemnities                            10               -                  -                10
 Depreciation, Amortization, or Loss
  on Asset Dispositions                               16,193            4,200               145            20,538
Subtotal Direct Costs                          $ 1,761,324        $   147,914     $      32,255      $ 1,941,493

Allocated Costs
 Automation                                    $     166,476      $    31,564     $       2,600      $    200,640
 Resource Management                                 151,557           21,829             5,428           178,814
Subtotal Allocated Costs                       $     318,033      $    53,393     $       8,028      $    379,454

Total Program Costs                            $ 2,079,357        $   201,307     $      40,283      $ 2,320,947


The unfunded portion of personnel services and benefits for the year ended September 30, 2012 was $4,374
thousand.


NOTE 18. Budgetary Resources

Total budgetary resources are primarily comprised of Congressional authority to spend current year fee col-
lections. For FY 2013, the USPTO was appropriated up to $2,933,241 thousand for fees collected during the
fiscal year. In FY 2012, the USPTO was appropriated up to $2,706,313 thousand for fees collected during the
fiscal year. For the year ended September 30, 2013, the USPTO collected $119,522 thousand less than the
amount apportioned through September 30, 2013 (under-collections of fees of $117,540 thousand and un-
der-collections of other budgetary resources of $1,982 thousand). For the year ended September 30, 2012,
the USPTO collected $302,391 thousand less than the amount apportioned through September 30, 2012
(under-collections of fees of $299,487 thousand and under-collections of other budgetary resources of
$2,904 thousand).

Total budgetary resources also include carryover of prior year budgetary resources (operating reserve).
Carryover is derived from year-end fees that have not been obligated. Usage of the fees in the following fis-
cal year is for compensation and operational requirements on a first-in, first-out basis.




                                                                                                                         115
                                                                                                         www.uspto.gov
          FINANCIAL SECTION



          NOTE 18. Budgetary Resources (continued)

          The USPTO receives an apportionment of Category A funds from OMB, which apportions budgetary re-
          sources by fiscal quarter. The USPTO does not receive any Category B funds, or those exempt from appor-
          tionment. As of September 30, 2013 and 2012, reimbursable obligations incurred were $2,489,268 thousand
          and $2,374,755 thousand, respectively.

          Permanent Indefinite Appropriations
          In addition to the appropriation of fee collections mentioned above, the USPTO received a permanent indef-
          inite appropriation in the America Invents Act (Pub. L. No. 112-29). The permanent indefinite appropriation is
          comprised of offsetting collections for (1) a 15 percent interim surcharge on certain patent fees that will con-
          tinue until each fee is adjusted by regulation and (2) fees paid by patent applicants to request expedited,
          prioritized examination. These offsetting collections are deposited in the salaries and expenses (13X1006)
          no year fund. The FY 2013 and FY 2012 appropriation language superseded the America Invents Act lan-
          guage, eliminating the permanent indefinite appropriation authority for two one-year periods.

          Funding Limitations
          Pursuant to the Patent and Trademark Office Fee Fairness Act of 1999 (35 U.S.C. §42(c)), all fees available to
          the Director under section 31 of the Trademark Act of 1946 are used only for the processing of trademark
          registrations and for other activities, services, and materials relating to trademarks, as well as to cover a pro-
          portionate share of the administrative costs of the USPTO.

          Pursuant to the America Invents Act (35 U.S.C. §42(c)), all fees available to the Director under sections 41,
          42, and 376 of 35 U.S.C. are used only for the processing of patent applications and for other activities, ser-
          vices, and materials relating to patents, as well as to cover a proportionate share of the administrative costs
          of the USPTO.

          The total temporarily unavailable fee collections pursuant to Public Law as of September 30, 2013 are
          $1,171,347 thousand. Of this amount, certain USPTO collections of $233,529 thousand were withheld in ac-
          cordance with the OBRA of 1990, and deposited in a special fund receipt account at the U.S. Department of
          the Treasury.

          Pursuant to the Consolidated and Further Continuing Appropriations Act, 2013 (Pub. L. No. 113-6), the USPTO
          has sequestered funds of $147,733 thousand (8.6 percent of fees collected starting March 1, 2013 through
          the end of the fiscal year). The sequestered funds will not be available for spending without further Con-
          gressional action.

          Undelivered Orders
          In addition to the future lease commitments discussed in Note 11, the USPTO is obligated for the purchase of
          goods and services that have been ordered, but not yet received. Total reimbursable undelivered orders for
          all of the USPTO’s activities were $156,372 thousand and $187,830 thousand as of September 30, 2013 and
          2012, respectively. Of these amounts, $146,714 thousand and $174,724 thousand, respectively, were un-
          paid.




116
      PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                                         FINANCIAL SECTION



NOTE 19. Incidental Custodial Collections

Custodial collections represent miscellaneous general fund receipts, such as non-electronic patent filing
fees, gains on foreign exchange rates, and employee debt finance charges. Non-electronic patent filing
fee collections began in November 2011. Custodial collection activities are considered immaterial and in-
cidental to the mission of the USPTO.


(Dollars in Thousands)                                                2013                    2012

Revenue Activity:
Sources of Collections:
 Miscellaneous                                                    $           832         $           1,059
Total Cash Collections                                                       832                      1,059
Accrual Adjustments                                                             -                         -
Total Custodial Revenue                                                       832                     1,059


Disposition of Collections:
Transferred to Others:
 Treasury                                                                    (832)                   (1,059)
(Increase)/Decrease in Amounts Yet to be Transferred                            -                         -
Net Custodial Activity                                            $             -         $               -




                                                                                                                 117
                                                                                                 www.uspto.gov
          FINANCIAL SECTION



          NOTE 20. Fiduciary Activities

          Fiduciary activities are the collection or receipt, and the management, protection, accounting, and disposi-
          tion by the federal government of cash or other assets in which non-federal individuals or entities have an
          ownership interest that the federal government must uphold. Fiduciary cash and other assets are not assets
          of the federal government and accordingly are not recognized on the proprietary financial statements.

          The Patent Cooperation Treaty authorized the USPTO to collect patent filing and search fees on behalf of the
          WIPO, EPO, Korean Intellectual Property Office, Russian Intellectual Property Organization, and the Australian
          Patent Office from U.S. citizens requesting an international patent. The Madrid Protocol Implementation Act
          authorized the USPTO to collect trademark application fees on behalf of the International Bureau of the WIPO
          from U.S. citizens requesting an international trademark.


          Schedule of Fiduciary Activity
          For the years ended September 30, 2013 and 2012

                                                              2013                                          2012

                                              Patent                          Total      Patent                            Total
                                            Cooperation       Madrid       Fiduciary   Cooperation      Madrid          Fiduciary
          (Dollars in Thousands)              Treaty          Protocol       Funds       Treaty         Protocol          Funds
          Fiduciary Net Assets,
            Beginning of Year                 $     12,620    $     400    $ 13,020     $     12,864    $      338      $ 13,202
          Contributions                           162,565         17,451    180,016         153,716          14,361      168,077
          Disbursements To and
            On Behalf of Beneficiaries            (160,821)   (17,367)     (178,188)        (153,960)       (14,299)    (168,259)
          Increase/(Decrease) in
            Fiduciary Net Assets                      1,744          84       1,828            (244)               62       (182)
          Fiduciary Net Assets,
            End of Year                       $     14,364    $     484    $ 14,848     $     12,620    $      400      $ 13,020



          Fiduciary Net Assets
          As of September 30, 2013 and 2012

                                                              2013                                          2012

                                              Patent                          Total      Patent                            Total
                                            Cooperation       Madrid       Fiduciary   Cooperation      Madrid          Fiduciary
          (Dollars in Thousands)              Treaty          Protocol       Funds       Treaty         Protocol          Funds
          Cash and
           Cash Equivalents                   $    14,364     $     484    $ 14,848     $    12,620     $      400      $ 13,020
          Total Fiduciary
            Net Assets                        $    14,364     $     484    $ 14,848     $    12,620     $      400      $ 13,020




118
      PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                                          FINANCIAL SECTION



NOTE 21. Reconciliation of Net Cost of Operations to Budget

Most entity transactions are recorded in both budgetary and proprietary accounts. However, because dif-
ferent accounting guidelines are used for budgetary and proprietary accounting, some transactions may
appear in only one set of accounts. The following reconciliation provides a means to identify the relation-
ships and differences that exist between the aforementioned budgetary and proprietary accounts.

The reconciliation of net cost of operations to budget for the years ended September 30, 2013 and 2012 is
as follows:


(Dollars in Thousands)                                                        2013              2012

RESOURCES USED TO FINANCE ACTIVITIES
  Budgetary Resources Obligated:
    Obligations Incurred                                                $    2,489,267     $    2,374,755
    Spending Authority from Offsetting Collections and Recoveries           (2,693,686)        (2,435,922)
    Net Obligations                                                          (204,419)           (61,167)
  Other Resources
    Imputed Financing from Costs Absorbed by Others                            44,818              19,479
Total Resources Used to Finance Activities                                   (159,601)            (41,688)

RESOURCES USED TO FINANCE ITEMS NOT PART OF THE NET COST OF
OPERATIONS
  Change in Budgetary Resources Obligated for Goods, Services, and
   Benefits Ordered but not yet Provided                                       31,458             (22,146)
  Resources that Fund Costs Recognized in Prior Periods                           (189)            (1,836)
  Budgetary Offsetting Collections that do not Affect Net Cost of
    Operations                                                                (50,118)            (15,793)
  Resources that Finance the Acquisition of Assets Capitalized
    on the Balance Sheet                                                       (91,910)           (98,252)
Total Resources Used to Finance Items not Part of the Net Cost of
  Operations                                                                 (110,759)          (138,027)

COMPONENTS OF NET COST OF OPERATIONS THAT WILL NOT REQUIRE
OR GENERATE RESOURCES IN THE CURRENT PERIOD
  Components Requiring or Generating Resources in Future Periods:
    Costs that will be Funded by Resources in Future Periods                   18,347               6,258
    Net Decrease in Revenue Receivables not Generating Resources
     until Collected                                                                 -                 70
    Total Components of Net Cost of Operations that will Require or
    Generate Resources in Future Periods                                       18,347               6,328
  Components not Requiring or Generating Resources:
    Depreciation, Amortization, or Loss on Asset Dispositions                  71,882             67,900
    Other Costs that will not Require Resources                                   586               (648)
    Total Components of Net Cost of Operations that will not Require
        or Generate Resources                                                  72,468             67,252
Total Components of Net Cost of Operations that will not Require or
  Generate Resources in the Current Period                                     90,815             73,580
Net Income from Operations                                             $     (179,545)    $     (106,135)




                                                                                                                  119
                                                                                                  www.uspto.gov
          FINANCIAL SECTION




120
      PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                      FINANCIAL SECTION




Independent Auditors’ Report




                                             121
                             www.uspto.gov
          INDEPENDENT AUDITORS’ REPORT




122
      PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                                        INDEPENDENT AUDITORS’ REPORT

                               KPMG LLP
                               Suite 12000
                               1801 K Street, NW
                               Washington, DC 20006




                                        Independent Auditors’ Report


Inspector General, U.S. Department of Commerce and
Under Secretary of Commerce for Intellectual Property and
        Director of the U.S. Patent and Trademark Office:

Report on the Financial Statements
We have audited the accompanying consolidated financial statements of the United States Patent and
Trademark Office (USPTO), which comprise the consolidated balance sheets as of September 30, 2013 and
2012, and the related consolidated statements of net cost, and changes in net position, and combined
statements of budgetary resources for the years then ended, and the related notes to the consolidated
financial statements (hereinafter referred to as “consolidated financial statements”).

Management’s Responsibility for the Financial Statements
Management is responsible for the preparation and fair presentation of these consolidated financial
statements in accordance with U.S. generally accepted accounting principles; this includes the design,
implementation, and maintenance of internal control relevant to the preparation and fair presentation of
consolidated financial statements that are free from material misstatement, whether due to fraud or error.

Auditors’ Responsibility
Our responsibility is to express an opinion on these consolidated financial statements based on our audits.
We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 14-02, Audit Requirements for Federal Financial Statements. Those standards and OMB Bulletin No.
14-02 require that we plan and perform the audit to obtain reasonable assurance about whether the
consolidated financial statements are free from material misstatement.
An audit involves performing procedures to obtain audit evidence about the amounts and disclosures in the
consolidated financial statements. The procedures selected depend on the auditors’ judgment, including the
assessment of the risks of material misstatement of the consolidated financial statements, whether due to
fraud or error. In making those risk assessments, the auditor considers internal control relevant to the
entity’s preparation and fair presentation of the consolidated financial statements in order to design audit
procedures that are appropriate in the circumstances, but not for the purpose of expressing an opinion on
the effectiveness of the entity’s internal control. Accordingly, we express no such opinion. An audit also
includes evaluating the appropriateness of accounting policies used and the reasonableness of significant
accounting estimates made by management, as well as evaluating the overall presentation of the
consolidated financial statements.
We believe that the audit evidence we have obtained is sufficient and appropriate to provide a basis for our
audit opinion.




                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.




                                                                                                                          123
                                                                                                          www.uspto.gov
        INDEPENDENT AUDITORS’ REPORT




               United States Patent and Trademark Office
               Independent Auditors’ Report
               December 4, 2013
               Page 2of 3

             Opinion on the Financial Statements
             In our opinion, the consolidated financial statements referred to above present fairly, in all material
             respects, the financial position of the United States Patent and Trademark Office as of September 30, 2013
             and 2012, and its net costs, changes in net position, and budgetary resources for the years then ended in
             accordance with U.S. generally accepted accounting principles.

             Other Matters

             Required Supplementary Information

             U.S. generally accepted accounting principles require that the information in the Management’s Discussion
             and Analysis be presented to supplement the basic consolidated financial statements. Such information,
             although not a part of the basic consolidated financial statements, is required by the Federal Accounting
             Standards Advisory Board who considers it to be an essential part of financial reporting for placing the
             basic consolidated financial statements in an appropriate operational, economic, or historical context. We
             have applied certain limited procedures to the required supplementary information in accordance with
             auditing standards generally accepted in the United States of America, which consisted of inquiries of
             management about the methods of preparing the information and comparing the information for
             consistency with management’s responses to our inquiries, the basic consolidated financial statements, and
             other knowledge we obtained during our audits of the basic consolidated financial statements. We do not
             express an opinion or provide any assurance on the information because the limited procedures do not
             provide us with sufficient evidence to express an opinion or provide any assurance.

             Supplementary and Other Information

             Our audits were conducted for the purpose of forming an opinion on the basic consolidated financial
             statements as a whole. The consolidated statements of cash flows for the years ended September 30, 2013
             and 2012, the Message from the Deputy Under Secretary of Commerce for Intellectual Property and
             Deputy Director of the USPTO section, the Message from the Chief Financial Officer section, and the
             Other Information section are presented for purposes of additional analysis and are not a required part of
             the basic consolidated financial statements.

             The consolidated statements of cash flows for the years ended September 30, 2012 and 2013 are the
             responsibility of management and was derived from and relates directly to the underlying accounting and
             other records used to prepare the basic consolidated financial statements. Such information has been
             subjected to the auditing procedures applied in the audit of the basic consolidated financial statements and
             certain additional procedures, including comparing and reconciling such information directly to the
             underlying accounting and other records used to prepare the basic consolidated financial statements or to
             the basic consolidated financial statements themselves, and other additional procedures in accordance with
             auditing standards generally accepted in the United States of America. In our opinion, the consolidated
             statements of cash flows for the years ended September 30, 2013 and 2012 are fairly stated in all material
             respects in relation to the basic consolidated financial statements as a whole.

             The information in the Message from the Deputy Under Secretary of Commerce for Intellectual Property
             and Deputy Director of the USPTO section, the Message from the Chief Financial Officer section, and the
             Other Information section have not been subjected to the auditing procedures applied in the audits of the
             basic consolidated financial statements, and accordingly, we do not express an opinion or provide any
             assurance on it.


124
      PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                                   INDEPENDENT AUDITORS’ REPORT




 United States Patent and Trademark Office
 Independent Auditors’ Report
 December 4, 2013
 Page 3 of 3

Other Reporting Required by Government Auditing Standards

Internal Control Over Financial Reporting
In planning and performing our audit of the consolidated financial statements, we considered the USPTO’s
internal control over financial reporting (internal control) to determine the audit procedures that are
appropriate in the circumstances for the purpose of expressing our opinion on the consolidated financial
statements, but not for the purpose of expressing an opinion on the effectiveness of the USPTO’s internal
control. Accordingly, we do not express an opinion on the effectiveness of the USPTO’s internal control.
We did not test all internal controls relevant to operating objectives as broadly defined by the Federal
Managers’ Financial Integrity Act of 1982.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct, misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control, such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis. A
significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is less severe
than a material weakness, yet important enough to merit attention by those charged with governance.

Our consideration of internal control was for the limited purpose described in the first paragraph of this
section and was not designed to identify all deficiencies in internal control that might be material
weaknesses or significant deficiencies. Given these limitations, during our audit we did not identify any
deficiencies in internal control that we consider to be material weaknesses. However, material weaknesses
may exist that have not been identified.

Compliance and Other Matters
As part of obtaining reasonable assurance about whether the USPTO’s consolidated financial statements
are free from material misstatement, we performed tests of its compliance with certain provisions of laws,
regulations, and contracts, noncompliance with which could have a direct and material effect on the
determination of financial statement amounts, and certain provisions of other laws and regulations
specified in OMB Bulletin No. 14-02. However, providing an opinion on compliance with those provisions
was not an objective of our audit, and accordingly, we do not express such an opinion. The results of our
tests of compliance disclosed no instances of noncompliance or other matters that are required to be
reported herein under Government Auditing Standards or OMB Bulletin No. 14-02.

Purpose of the Other Reporting Required by Government Auditing Standards
The purpose of the communication described in the Other Reporting Required by Government Auditing
Standards section is solely to describe the scope of our testing of internal control and compliance and the
result of that testing, and not to provide an opinion on the effectiveness of the USPTO’s internal control or
compliance. Accordingly, this communication is not suitable for any other purpose.




Washington, DC
December 4, 2013



                                                                                                                       125
                                                                                                       www.uspto.gov
          INDEPENDENT AUDITORS’ REPORT




126
      PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
Other Information




                             127
             www.uspto.gov
          OTHER INFORMATION




            Schedule of Spending
          The Schedule of Spending (SOS) provides an overview of how and where the USPTO is spending money. The
          Schedule of Spending presents amounts agreed to be spent for the current year, how the money was spent,
          and who received the money. The Schedule of spending is presented on a budgetary basis, the same as
          the Statement of Budgetary Resources. The Total Amounts Agreed to be Spent lines agree with Obligations
          Incurred during the current year, as presented on the Statement of Budgetary Resources.


          For the years ended September 30, 2013 and 2012

          (Dollars in Thousands)                                                2013                      2012
          What Money is Available to Spend?
          This section presents resources that were available to
          spend by the USPTO.
          Total Resources                                                   $    2,931,558        $         2,612,627
          Less Amount Not Agreed to be Spent                                       442,291                    237,872
          Total Amounts Agreed to be Spent                                  $    2,489,267        $         2,374,755

          How was the Money Spent?
          This section presents services or items purchased; the items in
          this section align to OMB budget object class definitions found
          in OMB Circular No. A-11.
              Personnel Compensation and Benefits                           $    1,758,108        $         1,607,864
              Travel                                                                 3,019                      5,224
              Rent, Communication, and Utilities                                   121,947                    124,685
              Printing                                                             114,382                    100,055
              Contractual Services                                                 373,166                    382,720
              Supplies                                                              37,913                     37,119
              Equipment                                                             78,578                    114,167
              Land, Building, and Structures                                           225                      1,370
              Other                                                                  1,929                      1,551
          Total Amounts Agreed to be Spent                                  $    2,489,267        $         2,374,755

          Who did the Money go to?
          This section presents with whom the USPTO is spending money.
          Federal Government                                                $      193,312        $           198,850
          Non-Federal                                                            2,295,955                  2,175,905
          Total Amounts Agreed to be Spent                                  $    2,489,267            $     2,374,755




128
      PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                                          OTHER INFORMATION




 Inspector General’s Top
 Management Challenges Facing
 the USPTO
Each year, the Inspector General provides the           mation technology investments in support of resolv-
management challenges for the Department of             ing the third Department-wide management chal-
Commerce in accordance with the provisions of           lenge. The USPTO continues to implement im-
the Reports Consolidation Act of 2000 (Pub. L. No.      provements to ensure that an effective security
106-531). The IG’s statement of management chal-        program is in place that will enable us to securely
lenges can be found below.                              maintain systems in support of USPTO operations.

The USPTO is responsible for resolving components       Recent concerns over government-wide funding
of the first Department-wide management chal-           constraints have highlighted the importance of
lenge – Strengthen Commerce Infrastructure to           strong internal controls and the continued need for
Support the Nation’s Economic Growth. Reducing          effective oversight. The USPTO has begun taking
the patent application backlog, improving pro-          action toward implementing new initiatives to im-
cessing times, and effectively implementing patent      prove internal controls and management oversight
reform will help to support the Department’s over-      of day-to-day operations, actions taken in line with
arching goals of advancing economic growth.             the fifth Department-wide challenge to Continue to
Long waits for application decisions could nega-        Foster a Culture of Management Accountability to
tively impact innovation, economic development,         Ensure Responsible Spending. In addition, the
and job growth, inhibiting U.S. companies from ex-      USPTO continues to review its internal controls with
porting until they obtain the appropriate patents for   the goal of strengthening its acquisition and con-
their products.                                         tract management practices.

The USPTO is also responsible for continuing to en-
hance cybersecurity and management of infor-




                                                                                                                  129
                                                                                                  www.uspto.gov
          OTHER INFORMATION




          Note: The USPTO is required to include the entire Department of Commerce Office of the Inspector General’s Top Management Challenges Report.
          The part of the Top Management Challenges Report directly discussing the USPTO can be found on (PAR) Pages 138 and 139 of this Performance
          and Accountability Report


130
      PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
OTHER INFORMATION




                       131
       www.uspto.gov
          OTHER INFORMATION




132
      PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
OTHER INFORMATION




                       133
       www.uspto.gov
          OTHER INFORMATION




134
      PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
OTHER INFORMATION




                       135
       www.uspto.gov
          OTHER INFORMATION




136
      PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
OTHER INFORMATION




                       137
       www.uspto.gov
          OTHER INFORMATION




138
      PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
OTHER INFORMATION




                       139
       www.uspto.gov
          OTHER INFORMATION




140
      PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
OTHER INFORMATION




                       141
       www.uspto.gov
          OTHER INFORMATION




142
      PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
OTHER INFORMATION




                       143
       www.uspto.gov
          OTHER INFORMATION




144
      PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
OTHER INFORMATION




                       145
       www.uspto.gov
          OTHER INFORMATION




146
      PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
OTHER INFORMATION




                       147
       www.uspto.gov
          OTHER INFORMATION




148
      PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
OTHER INFORMATION




                       149
       www.uspto.gov
          OTHER INFORMATION




150
      PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
OTHER INFORMATION




                       151
       www.uspto.gov
          OTHER INFORMATION




152
      PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
OTHER INFORMATION




                       153
       www.uspto.gov
          OTHER INFORMATION




154
      PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
OTHER INFORMATION




                       155
       www.uspto.gov
          OTHER INFORMATION




156
      PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
OTHER INFORMATION




                       157
       www.uspto.gov
          OTHER INFORMATION




158
      PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
OTHER INFORMATION




                       159
       www.uspto.gov
          OTHER INFORMATION




160
      PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
OTHER INFORMATION




                       161
       www.uspto.gov
          OTHER INFORMATION




162
      PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
OTHER INFORMATION




                       163
       www.uspto.gov
          OTHER INFORMATION




164
      PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
OTHER INFORMATION




                       165
       www.uspto.gov
          OTHER INFORMATION




166
      PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
OTHER INFORMATION




                       167
       www.uspto.gov
          OTHER INFORMATION




168
      PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
OTHER INFORMATION




                       169
       www.uspto.gov
          OTHER INFORMATION




170
      PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
OTHER INFORMATION




                       171
       www.uspto.gov
          OTHER INFORMATION




172
      PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
OTHER INFORMATION




                       173
       www.uspto.gov
          OTHER INFORMATION




174
      PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
OTHER INFORMATION




                       175
       www.uspto.gov
          OTHER INFORMATION




176
      PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
OTHER INFORMATION




                       177
       www.uspto.gov
          OTHER INFORMATION




178
      PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
OTHER INFORMATION




                       179
       www.uspto.gov
          OTHER INFORMATION




            Summary of Financial Statements
            Audit and Management
            Assurances
          Table 1. Summary of Financial Statement Audit

           Audit Opinion                      Unqualified
           Restatement                        No
                 Material Weaknesses             Beginning Balance     New       Resolved   Consolidated    Ending Balance
            NONE                                          0             0           0            0                 0
           Total Material Weaknesses                      0             0           0            0                 0

          Table 2. Summary of Management Assurances

                                  Effectiveness of Internal Control over Financial Reporting (FMFIA §2)
           Statement of Assurance       Unqualified
              Material Weaknesses        Beginning Balance    New     Resolved      Consolidated   Reassessed   Ending Balance
            NONE                                  0            0         0               0             0               0
           Total Material Weaknesses              0            0         0               0             0               0
                                       Effectiveness of Internal Control over Operations (FMFIA §2)
           Statement of Assurance       Unqualified
              Material Weaknesses        Beginning Balance    New     Resolved      Consolidated   Reassessed   Ending Balance
            NONE                                  0            0         0               0             0               0
           Total Material Weaknesses              0            0         0               0             0               0
                              Conformance with financial management system requirements (FMFIA §4)
           Statement of Assurance       Systems conform to financial management system requirements
              Non-Conformances           Beginning Balance      New      Resolved    Consolidated Reassessed    Ending Balance
            NONE                                 0                0         0              0          0                0
           Total Non-Conformances                0                0         0              0          0                0
                              Compliance with Federal Financial Management Improvement Act (FFMIA)
                                                                             Agency                         Auditor
           Overall Substantial Compliance                                      Yes                           Yes
           1. System Requirements                                              Yes                           Yes
           2. Accounting Standards                                             Yes                           Yes
           3. USSGL at Transaction Level                                       Yes                           Yes




180
      PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                                            OTHER INFORMATION




 Improper Payments
 Information Act (IPIA) of 2002, as
 amended
The IPIA of 2002, as amended by the Improper            to ensure the integrity of its disbursements.
Payments Elimination and Recovery Act (IPERA) of
                                                        The USPTO annually conducts an assessment of the
2010 and Improper Payments Elimination and Re-
                                                        effectiveness of internal control over financial re-
covery Improvement Act (IPERIA) of 2012, requires
                                                        porting, in compliance with OMB Circular A-123,
agencies to annually estimate and report on im-
                                                        Management’s Responsibility for Internal Control.
proper payments and agency actions to reduce
                                                        Furthermore, the FY 2013 assessment included a
them to the President and Congress, as well as re-
                                                        review of internal controls over disbursement pro-
view prepayment and pre-award procedures to
                                                        cesses, which indicated that current internal con-
ensure that a thorough review of available data-
                                                        trols over disbursement processes are sound.
bases with relevant information on eligibility occurs
to determine program or award eligibility and pre-      The USPTO completes an annual improper pay-
vent improper payments before the release of any        ments risk assessment covering all of its pro-
federal funds. A review of all programs and activi-     grams/activities as required by OMB Circular A-123,
ties that the USPTO administers is performed annu-      Appendix C. These improper payments risk as-
ally to assist in identifying, reporting, and/or pre-   sessments of the entity’s programs/activities also
venting erroneous or improper payments. In addi-        include assessments of the corporate control and
tion, during FY 2013 the USPTO implemented a pe-        procurement environment.       The improper pay-
riodic vendor record eligibility validation process     ments program/activity risk assessment has re-
using Do Not Pay Initiative databases to prevent        vealed no risk-susceptible programs.
improper payments. The USPTO has not identified         The results of the USPTO assessments revealed no
any significant problems with improper payments.        risk-susceptible programs, and demonstrated that,
However, the USPTO recognizes the importance of         overall, the USPTO has strong internal controls over
maintaining adequate internal controls to ensure        disbursement processes, the amount of improper
the accuracy and integrity of payments made by          payments by the USPTO is immaterial, and the risk
the agency, and the USPTO maintains a strong            of improper payments is low. An estimated im-
commitment to continuous improvement in the             proper payment rate, accordingly, was deemed
overall disbursement management process. For FY         not necessary.
2013 and beyond, the USPTO will continue its efforts


                                                                                                                    181
                                                                                                    www.uspto.gov
          OTHER INFORMATION



          During FY 2013, the USPTO did not have any erro-              obligations closed after September 30, 2009 and
          neous payments that exceeded the ten million dol-             through April 30, 2012, and greater than $0.1 mil-
          lar threshold. The USPTO continuously seeks to                lion. Further excluded were grants, travel pay-
          identify overpayments and erroneous payments by               ments, payments to employees, purchase card
          reviewing (1) credit memos and refund checks is-              transactions, inter-agency agreements, govern-
          sued by vendors or customers and (2) undelivered              ment bills of lading, and gift and bequest transac-
          electronic payments returned by financial institu-            tions. The audit was completed in FY 2013 and re-
          tions.                                                        sulted in zero invoices that were identified as re-
                                                                        coverable improper payments. Accordingly, no
          During FY 2008, the USPTO initiated an internal re-
                                                                        recovery audit services were conducted in FY 2013.
          covery audit program. Under this program, a letter
          similar to that sent by our recovery audit contractor         In FY 2013, the USPTO continued its reporting pro-
          is sent to vendors on a rotational basis. This pro-           cedures to senior management and to the De-
          gram excludes grants, travel payment, purchase                partment of Commerce on improper payments,
          card transactions, inter-agency agreements, gov-              identifying the nature and magnitude of any im-
          ernment bills of lading, and gift and bequest trans-          proper payments, along with any necessary control
          actions. This program continued through FY 2013.              enhancements to prevent further occurrences of
          There were no items identified as recoverable. We             the types of improper payments identified.
          do not plan to continue this program into FY 2014,
          as it has not yielded any meaningful results.                        FY 2012 Summary of Recovery Audit Effort
                                                                                             (Dollars in millions)
          During FY 2012, the USPTO entered into an agree-
          ment with the DOC to use an existing contract for               Amount subject to review                         $     578.2
          recovery audit services. The audit was limited to               # of invoices                                          9,489


                                         Improper Payment Reduction Outlook (Dollars in Millions)

                                     FY 2012                           FY 2013                    FY 2014      FY 2015         FY 2016
                                    Improper    Improper               Improper    Improper
                                                                                                 Estimated   Estimated     Estimated
                         Outlays    Payment     Payment      Outlays   Payment     Payment
           Program                                                                                Outlays     Outlays       Outlays
                                     Percent     Dollars                Percent     Dollars
          Patent         $ 2,090        0.05%     $   1.10   $ 2,290      0.02%     $     0.44    $ 2,613      $ 2,802         $ 2,895
          Trademark          202        0.05%         0.10       212      0.02%           0.04         242           259           268
          Intellectual         40       0.05%         0.02        46      0.02%           0.01          52           56              58
          Property
          Total          $ 2,332        0.05%     $   1.22   $ 2,547      0.02%     $     0.49    $ 2,907      $ 3,116         $ 3,221




182
      PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                                             OTHER INFORMATION




 The Nature of the Training
 Provided to USPTO Examiners
Achieving organizational excellence demands a             up-to-date and that coursework reflects develop-
high-performance workforce that delivers high             ments and changes that have taken place in the
quality work products and provides customer ser-          industry.
vice excellence. Training is a critical component in
achieving consistently high quality products and          This training provides examiners with a working
services. Patent examiners and trademark examin-          knowledge of the reforms under the America In-
ing attorneys received extensive legal, technical,        vents Act. The training covers several new statutory
and automation training in FY 2013. The USPTO has         provisions of patent law including first-inventor-to-
a comprehensive training program for new patent           file, preissuance submissions, supplemental exami-
examiners and trademark examining attorneys,              nation, and inventor’s oath and declaration. The
embedding a well-established curriculum including         first-inventor-to-file in person or WebEx training was
initial legal training, automation training, and train-   delivered in three phases: (i) an introductory over-
ing in examination practice and procedure. Auto-          view training with videos; (ii) a comprehensive
mation training is provided to all examiners as new       training session with videos, and (iii) a hands-on
systems are deployed and existing systems are en-         workshop designed to introduce examiners to situ-
hanced. New technology-specific legal and tech-           ations that may arise in prosecution. A computer-
nical training was conducted throughout the ex-           based training library also was developed to cover
amining operations. This specific training either fo-     more nuanced first-inventor-to-file specific topics
cuses on practices particular to a technology or          not covered in the live/WebEx sessions along with a
was developed to address training needs identified        specialized internal website housing lecture mate-
through patent and trademark examination re-              rials, slides, and frequently asked questions. For the
views or staff requests.                                  other provisions of law, computer-based training is
                                                          available.
The USPTO training staff works with the Patent and
Trademark organizations to address specific train-
ing concerns and serve as consultants to design
specific internal programs to fit the education
needs of each business unit. Training is reviewed
and evaluated on an ongoing basis to ensure it is




                                                                                                                       183
                                                                                                       www.uspto.gov
          OTHER INFORMATION




                                                         PATENT EXAMINER TRAINING

          U.S. Patent Training Academy           Training in the Academy

          – Mandatory training for first year    Two new patent examiner training programs: Intellectual Property Experienced
          patent examiners                       Examiner Training and an Entry Level Training, a two-phased program completed
                                                 in 12 months.

                                                 •    Intellectual Property Experienced Examiner Training Curriculum

                                                      This curriculum includes enhanced instruction in legal, procedural, and au-
                                                      tomation training, in areas such as: more than a dozen specialized applica-
                                                      tions used in patent examination, multiple search systems, databases, and
                                                      commonly used office applications such as: Classification Systems, Search-
                                                      ing (classification, text), Claim Interpretation, Advanced Text Searching,
                                                      Technology Center (TC) Specific tools such as STN and Dialog, Writing an Ef-
                                                      fective Examiner’s Answer, Appeal Procedure, and Practice (Appeal Confer-
                                                      ence and Pre-Conference; Prevent Administrative Remand).

                                                 •    Entry Level Two-Phased 12-Month New Examiner Training Curriculum

                                                      The legal and procedural training of this curriculum includes enhanced in-
                                                      struction in areas such as: Classification Systems, Searching (classification,
                                                      text), Claim Interpretation, Advanced Text Searching, Writing an Effective Ex-
                                                      aminer’s Answer, Appeal Procedure, and Practice (Appeal Conference and
                                                      Pre-Conference; Prevent Administrative Remand).

                                                      Technical training includes: Introduction to examining applications in specific
                                                      areas of technology, the current state of specific technologies, ongoing
                                                      technology topics, etc.

                                                      Automation training includes classes in more than a dozen specialized appli-
                                                      cations used in patent examination, multiple search systems, databases, and
                                                      commonly-used office applications.

                                                      Life skills training includes: time management, ethics training, stress man-
                                                      agement, balancing quality and production, professionalism, benefits and fi-
                                                      nancial planning basics, balancing work and personal life, diversity training,
                                                      and negotiating conflict.

                                                 •    Individual Development Plan

                                                      The Academy training program includes creating an Individual Development
                                                      Plan (IDP) for each examiner. The IDP is composed of formal training courses,
                                                      development assignments, and on-the-job training. The IDP is designed to as-
                                                      sist the examiner from day one, through the first 12 months of employment.
                                                      When the examiner graduates from the Academy, and is transferred to a TC,
                                                      the IDP will continue to enable the examiner to acquire the competencies es-
                                                      sential to perform assigned duties and to prepare for further development.




184
      PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                                              OTHER INFORMATION



                                      PATENT EXAMINER TRAINING

Programs for all Patent   Legal Practice and Procedure Training
Examiners
                              •   Patent Examiner Refresher Training

                                  Courses developed to enhance patent examiners’ knowledge and skills in
                                  procedural and legal topics pertaining to patent examination. Participants
                                  may enroll in one or more courses in consultation with their supervisor.

                              •   Advanced Patent Examiner Training

                                  This is a program for examiners who have several years of patent examining
                                  experience. The program provides training in specific legal areas such as un-
                                  expected results and actual reduction to practice found in affidavit practice.

                              •   Legal Lecture Series

                                  Training offered periodically to patent examiners based on major court deci-
                                  sions and office policies.

                              •   In-House Patent Law and Evidence Course

                                  Training for Patent examiners on authoritative court decisions on statutory is-
                                  sues under 35 U.S.C. §§ 101, 102, 103, and 112 and the handling of evidence
                                  during the examination of applications.

                              •   Patent Examiner Technical Training Program

                                  This program seeks public assistance in providing technical training to patent
                                  examiners within all technology centers. The Patent Examiner Technical Train-
                                  ing Program is intended to provide scientists and experts as lecturers to patent
                                  examiners in order to update them on technical developments, the state of
                                  the art, emerging trends, maturing technologies, and recent innovations in
                                  their fields. Such guest lecturers must have relevant technical knowledge, as
                                  well as familiarity with prior art and industry practices/standards in areas of
                                  technologies where such lectures would be beneficial.

                              •   Site Experience Education (SEE) Program

                                  The SEE program provides examiners the opportunity to visit real-world sites,
                                  such as universities or industries. They receive direct hands-on education spe-
                                  cific to the technology area they work in. This program seeks to put experts
                                  such as innovators, experts, scientists, and engineers together with the exam-
                                  iners at the sites where innovation is happening.

                              •   Continuing Education Series

                                  Training for patent examiners to enhance their technical and legal knowledge
                                  in the examination of patent applications.

                          Courses Offered:

                                  •   Non-Duty Hours Legal Studies Program (Budget Dependent)1
                                  •   Non-Duty Hours Technical Training Program (Budget Dependent)1
                                  •   Technology Center Specific Technological Training (Budget Dependent)1
                                  •   Updated Automation Tools Training (in coordination with Office of Patent
                                      Information Management)
                                  •   Brown Bag Informational Seminars
                                  •   Patent Administrative Professional Training
                                  •   Patent Examiner’s Initial Training for Non-Examiners
                                  •   Legal Secretaries and Administrators Conference

                          1
                              These programs remained suspended during FY 2013 due to budget constraints.




                                                                                                                         185
                                                                                                         www.uspto.gov
          OTHER INFORMATION



                                               TRADEMARK EXAMINING ATTORNEY TRAINING

          In FY 2013 the Trademark organization prepared, using data gathered from the results of quality reviews that were ana-
          lyzed, the content of online e-learning training materials for trademark examining attorneys. Live and web cast Training
          Sessions and Modules were developed and released covering the following list of topics.

            •    TMEP October 2012 Update Overview
            •    New USPTO Ethics Rules
            •    Examiner-Led Trade Dress Workshop
            •    INTA Industry Training – Trademark Issues in the Entertainment Industry
            •    Trademarks in China
            •    INTA/USPTO Seminar on Understanding Trademark Rights & ICANN’s gTLD Expansion
            •    Recent Developments in Trademark Law
            •    TEALE – New Examining Attorney Training


          Law Office Presentations and Computer-Based Training Modules were developed and released covering the following list
          of topics.

            •    2(d) Refusals
            •    Webpage specimens for goods

          One Exam Guide published:

            •    Exam Guide on Webpage Specimens for Goods (December 2012)

          Other Guidance covering the following topics was also released.

            •    2(a) & 2(e)(3) Excellent Office Actions
            •    Four issues of guidance newsletter (Two Quick Reminders)
            •    Suspension Practice and Procedure (April 2013)
            •    Processing Amendments to Allege Use (January 2013)
            •    Trademark Style Guidelines (February 2013)




186
      PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                                                   OTHER INFORMATION




FY 2013 USPTO Workload Tables
Index of Tables                                                                                          Page
Table 1     Summary of Patent Examining Activities                                                         188
Table 2     Patent Applications Filed                                                                      189
Table 3     Patent Applications Pending Prior to Allowance                                                 190
Table 4     Patent Pendency Statistics                                                                     190
Table 5     Summary of Total Pending Patent Applications                                                   191
Table 6     Patents Issued                                                                                 192
Table 7     Patent Applications Filed by Residents of the United States                                    193
Table 8     Patents Issued to Residents of the United States                                               194
Table 9     United States Patent Applications Filed by Residents of Foreign Countries                      195
Table 10    Patents Issued by the United States to Residents of Foreign Countries                          197
Table 11    Utility Patents Issued to Small Entities                                                       198
Table 12    Statutory Invention Registrations Published                                                    199
Table 13    United States Government Agency Patents                                                        199
Table 14A   Ex Parte Reexamination                                                                         200
Table 14B   Inter Partes Reexamination                                                                     200
Table 14C   Supplemental Examination                                                                       201
Table 15    Summary of Contested Patent Cases                                                              201
Table 16    Summary of Trademark Examining Activities                                                      202
Table 17    Trademark Applications Filed for Registration and Renewal and Trademark Affidavits Filed       203
Table 18    Summary of Pending Trademark Applications                                                      203
Table 19    Trademarks Registered, Renewed, and Published Under Section 12(C)                              204
Table 20    Trademark Applications Filed by Residents of the United States                                 205
Table 21    Trademarks Registered to Residents of the United States                                        206
Table 22    Trademark Applications Filed by Residents of Foreign Countries                                 207
Table 23    Trademarks Registered to Residents of Foreign Countries                                        209
Table 24    Summary of Contested Trademark Cases                                                           211
Table 25    Actions on Petitions to the Director of the U.S. Patent and Trademark Office                   212
Table 26    Cases in Litigation                                                                            213
Table 27    Patent Classification Activity                                                                 214
Table 28    Scientific and Technical Information Center Activity                                           214
Table 29    End of Year Personnel                                                                          215
Table 30A   Top 50 Trademark Applicants                                                                    216
Table 30B   Top 50 Trademark Registrants                                                                   216




                                                                                                                            187
                                                                                                            www.uspto.gov
          OTHER INFORMATION



           TABLE 1
                                                      SUMMARY OF PATENT EXAMINATION ACTIVITIES
                                                                (FY 2009 – FY 2013)
                                                                   (PRELIMINARY FOR FY 2013)
           Patent Examination Activity                                          2009         2010          2011          2012           2013
                                         1,2
           Applications filed, total                                           486,499      509,367       537,171        565,406       601,317
                       3
               Utility                                                         458,901       478,649       504,663       530,764        563,853
               Reissue                                                            1,035         1,144        1,158          1,201         1,067
               Plant                                                                988         1,015        1,103          1,183         1,320
               Design                                                           25,575         28,559       30,247         32,258        35,077
                                                2,4
           Provisional applications filed                                      134,438      140,551       150,187        163,031       177,942
           First actions
               Design                                                           27,858         26,051       25,042         26,578        27,669
               Utility, Plant, and Reissue                                     469,946       447,485       505,651       542,081        595,110
               PCT/Chapter                                                      20,797         15,574       13,297         18,400        15,060
           Patent application disposals, total                                 487,140      553,549       533,943        574,854       605,994
           Allowed patent applications, total                                  214,523      264,119       266,580        305,840       334,560
               Design                                                           25,403         23,681       22,683         24,231        24,967
               Utility, Plant, and Reissue                                     189,120       240,438       243,897       281,609        309,593
           Abandoned, total                                                    272,607      289,419       267,353        269,009       271,424
               Design                                                             3,840         3,101        2,701          2,567         2,705
               Utility, Plant, and Reissue                                     268,767       286,318       264,652       266,442        268,719
           Statutory invention registration disposals, total                         10            11            10              5            10
           PCT/Chapter II examinations completed                                 3,468         2,265         3,191          2,671         2,016
                                         5
           Applications published                                              325,988      338,452       321,115        328,620       339,775
                              2,6
           Patents issued                                                      190,122      233,127       244,430        270,258       290,083
               Utility                                                         165,213       207,915       221,350       246,464        265,979
               Reissue                                                              398           861           969           921            809
               Plant                                                              1,096           978           816           920            842
               Design                                                           23,415         23,373       21,295         21,953        22,453
                                                                      7
               Pendency time of average patent application                         34.6          35.3          33.7          32.4             29
           Reexamination certificates issued                                        698           776           909           893            819
           PCT international applications received by USPTO as
           receiving office                                                     47,572         45,701       48,285         52,417        56,226
           National requirements received by USPTO as designat-
           ed/elected office                                                    57,879         61,587       65,463         67,573        73,488
                                                               8
           Patents renewed under Pub. L. No. 102-204                           304,096       361,668       378,830       308,812        348,658
                                                           8
           Patents expired under Pub. L. No. 102-204                            66,330         79,993       82,146         80,050        79,689
           1
               FY 2013 filing data are preliminary and will be finalized in the FY 2014 PAR.
           2
               FY 2012 application data has been updated with final end of year numbers.
           3
               Utility patents include chemical, electrical and mechanical applications.
           4
               Provisional applications provided for in Pub. L. No. 103-465.
           5
               Eighteen-month publication of patent applications provided for the American Inventors Protection Act of 1999, Pub. L. No.106-113.
           6
               Excludes withdrawn numbers. Past years’ data may have been revised from prior year reports.
           7
               Average time (in months) between filing and issuance or abandonment of utility, plant, and reissue applications.
               This average does not include design patents.
           8
               The provisions of Pub. L. No.102-204 regarding the renewal of patents superseded Pub. L. No. 96-517 and Pub. L. No. 97-247.




188
      PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                                               OTHER INFORMATION



TABLE 2
                                                  PATENT APPLICATIONS FILED
                                                     (FY 1993 – FY 2013)
                                                  (PRELIMINARY FOR FY 2013)1
          Year                 Utility              Design                   Plant   Reissue         Total
          1993                173,619                13,546                  362      572           188,099
          1994                185,087                15,431                  430      606           201,554
          1995                220,141                15,375                  516      647           236,679
          1996                189,922                15,160                  557      637           206,276
          1997                219,486                16,272                  680      607           237,045
          1998                238,850                16,576                  658      582           256,666
          1999                259,618                17,227                  759      664           278,268
          2000                291,653                18,563                  786      805           311,807
          2001                324,211                18,636                  914      956           344,717
          2002                331,580                19,706                  1,134    974           353,394
          2003                331,729                21,966                  785      938           355,418
          2004                353,319                23,457                  1,212    996           378,984
          2005                381,797                25,304                  1,288    1,143         409,532
          2006                417,453                25,853                  1,204    1,103         445,613
          2007                439,578                26,693                  1,002    1,057         468,330
          2008                466,258                28,217                  1,331    1,080         496,886
          2009                458,901                25,575                  988      1,035         486,499
          2010                478,649                28,559                  1,015    1,144         509,367
          2011                504,663                30,247                  1,103    1,158         537,171
                 2
          2012                530,764                32,258                  1,183    1,201         565,406
                 1
          2013                563,853                35,077                  1,320    1,067         601,317
1   FY 2013 data are preliminary and will be finalized in the FY 2014 PAR.
2   FY 2012 application data has been updated with final end of year numbers.




                                                                                                                        189
                                                                                                        www.uspto.gov
          OTHER INFORMATION



           TABLE 3
                                           PATENT APPLICATIONS PENDING PRIOR TO ALLOWANCES1
                                                            FY 1993 – FY 2013
                               Year                        Awaiting action by Examiner                  Total Applications Pending2
                               1993                                       99,904                                    244,646
                               1994                                      107,824                                    261,249
                               1995                                      124,275                                    298,522
                               1996                                      139,943                                    303,720
                               1997                                      112,430                                    275,295
                               1998                                      224,446                                    379,484
                               1999                                      243,207                                    414,837
                               2000                                      308,056                                    485,129
                               2001                                      355,779                                    542,007
                               2002                                      433,691                                    636,530
                               2003                                      471,382                                    674,691
                               2004                                      528,685                                    756,604
                               2005                                      611,114                                    885,002
                               2006                                      701,147                                   1,003,884
                               2007                                      760,924                                   1,112,517
                               2008                                      771,529                                   1,208,076
                               2009                                      735,961                                   1,207,794
                               2010                                      726,331                                   1,163,751
                               2011                                      690,967                                   1,168,928
                               2012                                      633,812                                   1,157,147
                               2013                                      616,409                                   1,148,823
           1   Includes patent applications pending at end of period indicated, and includes utility, reissue, plant, and design
               applications. Does not include allowed applications.
           2   Applications under examination, including those in preexamination processing.


           TABLE 4
                                                           PATENT PENDENCY STATISTICS
                                                                    (FY 2013)
                                                                                                                Average              Total
                                                                                                               First Action         Average
           UPR Pendency Statistics by Technology Center (in months)                                            Pendency            Pendency
           Total UPR Pendency                                                                                       18.2             29.1
           Tech Center 1600 - Biotechnology & Organic Chemistry                                                     13.4             27.5
           Tech Center 1700 - Chemical and Materials Engineering                                                    17.9             29.7
           Tech Center 2100 - Computer Architecture, Software & Information Security                                19.6             32.3
           Tech Center 2400 - Networks, Multiplexing, Cable & Security                                              18.7             34.2
           Tech Center 2600 - Communications                                                                        19.7             32.1
           Tech Center 2800 - Semiconductor, Electrical, Optical Systems & Components                               17.6             27.2
           Tech Center 3600 - Transportation, Construction, Agriculture & Electronic Commerce                       17.3             28.4
           Tech Center 3700 - Mechanical Engineering, Manufacturing & Products                                      20.7             32.7




190
      PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                                                       OTHER INFORMATION



TABLE 5
                                    SUMMARY OF TOTAL PENDING PATENT APPLICATIONS
                                                      (FY 2013)
                                                                 Utility, Plant,
                                                                 and Reissue          Design            Total Patent
Stage of Processing                                              Applications       Applications        Applications
Pending patent applications, total                                     1,213,723            44,860           1,258,583
In preexamination processing, total                                      121,038             3,626             124,664
Under examination, total                                                 990,507            33,312           1,023,819
     Undocketed                                                            55,810            4,464              60,274
     Awaiting first action by examiner                                   408,150            23,321             431,471
     Subtotal applications awaiting first action by                      584,998            31,411             616,409
     examiner3
     RCE Awaiting First Action                                             78,272                  -            78,272
     Rejected, awaiting response by applicant                            312,628             4,472             317,100
     Amended, awaiting action by examiner                                  93,222              898              94,120
     In interference                                                           98                  -                 98
     On appeal, and other1                                                 42,327              157              42,484
In post-examination processing, total                                    102,178             7,922             110,100
     Awaiting issue fee                                                    81,022            5,827              86,849
     Awaiting printing  2
                                                                           17,825            2,089              19,914
     D-10s (secret cases in condition for allowance)                        3,331                  6              3,337
- Represents zero
1
    Includes cases on appeal and undergoing petitions.
2
    Includes withdrawn cases.
3
    Subtotal is not included in pending patent applications total.




                                                                                                                                191
                                                                                                                www.uspto.gov
          OTHER INFORMATION



           TABLE 6
                                                                  PATENTS ISSUED
                                                                (FY 1993 – FY 2013)1
                     Year                Utility2             Design             Plant   Reissue    Total
                     1993                96,675                9,946              408     302      107,331
                     1994               101,270               11,138              513     346      113,267
                     1995               101,895               11,662              390     294      114,241
                     1996               104,900               11,346              338     291      116,875
                     1997               111,977               10,331              400     267      122,975
                     1998               139,297               14,419              577     284      154,577
                     1999               142,852               15,480              436     393      159,161
                     2000               164,486               16,718              453     561      182,218
                     2001               169,571               17,179              563     504      187,817
                     2002               160,839               15,096              912     465      177,312
                     2003               171,493               16,525             1,178    394      189,590
                     2004               169,295               16,533              998     343      187,169
                     2005               151,077               13,395              816     195      165,483
                     2006               162,509               19,072             1,106    500      183,187
                     2007               160,306               22,543              979     548      184,376
                     2008               154,699               26,016             1,179    662      182,556
                     2009               165,213               23,415             1,096    398      190,122
                     2010               207,915               23,373              978     861      233,127
                     2011               221,350               21,295              816     969      244,430
                     2012               246,464               21,953              920     921      270,258
                     2013               265,979               22,453              842     809      290,083
           1   Past years’ data may have been revised from prior year reports.
           2   Includes chemical, electrical, and mechanical applications.




192
      PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                                                             OTHER INFORMATION



TABLE 7
                            PATENT APPLICATIONS FILED BY RESIDENTS OF THE UNITED STATES1
                                                (FY 2009 – FY 2013)
State/Territory    2009      2010     2011     20122     20133    State/Territory    2009       2010       2011       20122       20133
Total             246,777 254,895 266,243 282,466        N/A      Nebraska             504       600         639        698       N/A
                                                                  Nevada             1,680      1,785      1,726       2,113      N/A
Alabama               912       977      986       988   N/A      New Hampshire      1,510      1,547      1,690       1,656      N/A
Alaska                 95        85       96        88   N/A      New Jersey         9,622      9,861      9,669       9,919      N/A
Arizona             3,927     4,024    4,407     4,544   N/A      New Mexico           814       863         873        850       N/A
Arkansas              418       456      417       502   N/A      New York          15,098 15,279 15,935              17,594      N/A
California         66,132    66,287   70,720    77,273   N/A      North Carolina     5,803      6,053      6,205       6,720      N/A
Colorado            5,019     5,244    5,554     5,677   N/A      North Dakota         207       168         200        215       N/A
Connecticut         4,009     4,229    4,413     4,940   N/A      Ohio               7,528      8,139      8,086       7,934      N/A
Delaware              904       993    1,006       947   N/A      Oklahoma           1,052      1,138      1,107       1,090      N/A
District of           261       261      322       344   N/A      Oregon             3,911      4,203      4,473       4,686      N/A
Columbia
                                                                  Pennsylvania       7,568      8,068      8,085       8,297      N/A
Florida             7,839     8,624    8,580     9,476   N/A      Rhode Island         666       739         753        834       N/A
Georgia             5,051     5,214    5,307     5,390   N/A      South Carolina     1,596      1,669      1,935       2,011      N/A
Hawaii                293       267      295       330   N/A      South Dakota         220       224         254        250       N/A
Idaho               1,544     1,635    1,664     1,566   N/A      Tennessee          2,034      2,287      2,275       2,194      N/A
Illinois            8,985     9,278    9,770    10,450   N/A      Texas             15,667 16,568 17,310              18,732      N/A
Indiana             3,181     3,515    3,726     3,861   N/A      Utah               2,594      2,782      2,907       2,992      N/A
Iowa                1,481     1,581    1,585     1,577   N/A      Vermont              616       679         804        791       N/A
Kansas              1,671     1,678    1,688     1,833   N/A      Virginia           3,402      3,582      3,806       4,106      N/A
Kentucky            1,132     1,124    1,364     1,271   N/A      Washington        12,619 12,815 13,764              14,425      N/A
Louisiana             795       882      835       839   N/A      West Virginia        300       292         316        271       N/A
Maine                 344       415      440       437   N/A      Wisconsin          4,054      3,991      4,179       4,337      N/A
Maryland            3,503     3,551    3,760     3,786   N/A      Wyoming              158       198         180        218       N/A
Massachusetts      11,417    12,376   12,931    13,356   N/A      Puerto Rico           82        67         74          84       N/A
Michigan            7,881     7,834    8,243     8,956   N/A      Virgin Islands        11        13          5          12       N/A
Minnesota           7,805     7,852    7,984     7,981   N/A      U.S. Pacific            1        1          3           2       N/A
                                                                  Islands4
Mississippi           337       338      336       313   N/A
Missouri            2,285     2,314    2,286     2,445   N/A      United States5            -      1          2           1       N/A
Montana               239       249      273       264   N/A      Other                     -          -          -           -   N/A
-   Represents zero.
1   Data include utility, plant, design, and reissue applications.
2   Finalized data for FY 2009 to 2012 provided.
3   FY 2013 preliminary data should be available January 2014 at www.uspto.gov, and finalized in the FY 2014 PAR.
4   Represents residents of American Samoa, Guam, and miscellaneous U.S. Pacific Islands.
5   State/Territory information not available.




                                                                                                                                              193
                                                                                                                              www.uspto.gov
          OTHER INFORMATION



           TABLE 8
                                                PATENT ISSUED TO RESIDENTS OF THE UNITED STATES1
                                                              (FY 2012 – FY 2013)4
           State/Territory                 20123                2013            State/Territory         20123         2013

           Total                          131,651              140,073          Nebraska                        302          351
                                                                                Nevada                          845          936
           Alabama                                  453                554      New Hampshire                   824          825
           Alaska                                     42                   48   New Jersey                  4,529        4,923
           Arizona                               2,294              2,404       New Mexico                      434          451
           Arkansas                                 218                241      New York                    8,395        8,813
           California                           33,886             36,814       North Carolina              3,137        3,252
           Colorado                              2,598              3,002       North Dakota                    104          130
           Connecticut                           2,212              2,312       Ohio                        4,129        4,116
           Delaware                                 503                469      Oklahoma                        493          578
           District of Columbia                     134                140      Oregon                      2,470        2,556
           Florida                               4,364              4,532       Pennsylvania                3,851        4,134
           Georgia                               2,471              2,709       Rhode Island                    378          421
           Hawaii                                   126                141      South Carolina                  938      1,003
           Idaho                                 1,023                 968      South Dakota                    121          128
           Illinois                              5,025              5,098       Tennessee                   1,083        1,079
           Indiana                               1,931              2,067       Texas                       8,731        9,289
           Iowa                                     949                901      Utah                        1,336        1,392
           Kansas                                1,034              1,077       Vermont                         495          505
           Kentucky                                 614                621      Virginia                    1,794        1,926
           Louisiana                                433                420      Washington                  5,839        6,169
           Maine                                    211                228      West Virginia                   145          151
           Maryland                              1,693              1,813       Wisconsin                   2,313        2,354
           Massachusetts                         5,983              6,349       Wyoming                         101          138
           Michigan                              4,950              5,425       Puerto Rico                      43          18
           Minnesota                             4,229              4,556       Virgin Islands                    3           5
           Mississippi                              168                171      U.S. Pacific Islands5             -           3
           Missouri                              1,150              1,238       United States2                    -           2
           Montana                                  124                127
           -   Represents zero.
           1   Data include utility, design, plant, and reissue patents.
           2   No State indicated in database.
           3   Finalized data for FY 2012 provided.
           4
               Past year’s data may have been revised from prior year reports.
           5
               Represents residents of American Samoa, Guam, and miscellaneous U.S Pacific




194
      PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                                                          OTHER INFORMATION



TABLE 9
                  UNITED STATES PATENT APPLICATIONS FILED BY RESIDENTS OF FOREIGN COUNTRIES
                                             (FY 2009 – FY 2013)1
State/Territory            2009     2010    2011    2012     2013   State/Territory      2009    2010    2011    2012      2013
Total                      239,722 255,165 270,928 283,100   N/A    Ecuador                9       5      18      9         N/A
                                                                    Egypt                 33      55      58      59        N/A
Afghanistan                  1       1        1       -      N/A    El Salvador            1      1        1       5        N/A
Albania                      1        -       -       -      N/A    Estonia               36      52      62      79        N/A
Algeria                       -      1        -       -      N/A    Ethiopia               -      1        -       1        N/A
Andorra                      5       4        3      5       N/A    Faroe Islands          -      1        -       -        N/A
Angola                        -       -       2      1       N/A    Fiji                   1       -       -       -        N/A
Anguilla                     3        -       -       -      N/A    Finland              2,793   2,908 2,574 2,819          N/A
Antigua & Barbuda            1       2        3      2       N/A    French Polynesia       -        -     1       -         N/A
Argentina                   151     141      159    167      N/A    France               9,726   10,641 11,436 11,310       N/A
Armenia                      2       8        8      11      N/A    Gabon                  -        -      -     1          N/A
Aruba                         -       -       2       -      N/A    Georgia                2      5       6      5          N/A
Australia                   4,211   4,111   4,174   3,964    N/A    Germany              26,855 28,157 29,543 30,250        N/A
Austria                     1,713   1,872   1,964   2,124    N/A    Ghana                  3      2      4      1           N/A
Azerbaijan                   3       5        1      1       N/A    Gibraltar              7      7       7      8          N/A
Bahamas                      16      15       8      13      N/A    Greece                118     138    139     168        N/A
Bahrain                      2       5        1      5       N/A    Greenland              -       -      -       1         N/A
Bangladesh                    -      2        5      2       N/A    Guatemala              2       8      2       2         N/A
Barbados                     6       8        2       -      N/A    Guernsey               -       -      1       5         N/A
Belarus                      7       11       7      12      N/A    Guinea                 1       -      -       1         N/A
Belgium                     1,917   2,186   2,344   2,262    N/A    Haiti                  -       1      1       -         N/A
Belize                       1        -       -       -      N/A    Honduras               1       1      1       -         N/A
Bermuda                      8       5       11      11      N/A    Hungary               234     251     245     285       N/A
Bolivia                      4       1        1      3       N/A    Iceland               49      52      63      80        N/A
Bonaire, Sint Eustatius,                                            India                2,878   3,696   4,482   5,515      N/A
                              -       -       2       -      N/A
 and Saba4                                                          Indonesia             19      27      21      29        N/A
Bosnia & Herzegovina         -       1        2      1       N/A    Iran                  29      67     87      69         N/A
Brazil                      497     584      684    683      N/A    Iraq                   1       -      -       3         N/A
British Virgin Islands      11       3        3      2       N/A    Ireland               711     785    901     913        N/A
Brunei Darussalam            1       1        -       -      N/A    Isle of Man            -       2       4       9        N/A
Bulgaria                    114      89      70      72      N/A    Israel               4,772   5,119   5,666   6,414      N/A
Cameroon                     9       5        2       4      N/A    Italy                4,460   4,576   4,947   5,086      N/A
Canada                     11,250 12,203 12,921 14,256       N/A    Jamaica                11     3       7     14          N/A
Cayman Islands               10     25     17     10         N/A    Japan                86,456 84,842 88,861 90,240        N/A
Chad                          -      -      1      -         N/A    Jersey                  -     9      9       5          N/A
Chile                        65      68      122    117      N/A    Jordan                14       5      16      16        N/A
China (Hong Kong)          1,254    1,267   1,379   1,380    N/A    Kazakhstan             3       8       4      5         N/A
China (Macau)                5        7      16      10      N/A    Kenya                  4       2      10      7         N/A
China (People's                                                     Korea, Democratic.
                           5,301    8,358   10,562 13,371    N/A                           1       -       -       -        N/A
 Republic)                                                           Republic of
Colombia                     28      53      68      49      N/A    Korea, Republic of   24,066 26,648 28,474 30,618        N/A
Costa Rica                   18      28      21      24      N/A    Kuwait                 39     49     71     98          N/A
Croatia                      35      31      38      38      N/A    Latvia                15      19      10      8         N/A
Cuba                         23      26      19      18      N/A    Lebanon               17       8      28      23        N/A
Curacao                       -       -       1       1      N/A    Liberia4               -       -       -      1         N/A
Cyprus                       12      18      16      17      N/A    Libya                 1        -       -       -        N/A
Czech Republic              245      279     277     398     N/A    Liechtenstein         42      40     39       47        N/A
Denmark                    1,783    1,852   2,162   2,323    N/A    Lithuania             13      13     16       15        N/A
Dominican Republic           5       7        8      7       N/A    Luxembourg            94      92     112     125        N/A




                                                                                                                                         195
                                                                                                                         www.uspto.gov
          OTHER INFORMATION



          TABLE 9 CONT
                               UNITED STATES PATENT APPLICATIONS FILED BY RESIDENTS OF FOREIGN COUNTRIES
                                                          (FY 2009 – FY 2013)1
           State/Territory              2009    2010     2011    2012    2013   State/Territory          2009    2010     2011    2012     2013
          Madagascar                      -       -       -       1      N/A    Senegal  4                 -        -       -        1     N/A
          Macedonia                       2       -       -       -      N/A    Serbia                     5       27      23       22     N/A
          Malaysia                       325     387     426     375     N/A    Seychelles                 1       1        4        9     N/A
          Malta                          11      10       5      12      N/A    Singapore                1,278   1,490    1,655   1,710    N/A
          Mauritius                       -       1       1       -      N/A    Slovakia                  30       42      36      42      N/A
          Mexico                         244     316     351     407     N/A    Slovenia                  69      111      98      107     N/A
          Moldova                         1        1       -       -     N/A    South Africa              323     356      361     338     N/A
          Monaco                         21       21      43      37     N/A    Spain                    1,224   1,470    1,597   1,704    N/A
          Mongolia4                       -        -       4       -     N/A    Sri Lanka                 12       14       9      13      N/A
          Morocco                         6        4       6       3     N/A    Sweden                   3,610   3,906    4,319   4,576    N/A
           Namibia                        -       -        1       1     N/A    Switzerland               3,714 4,168 4,328 4,583          N/A
           Nepal                          2       -        1       2     N/A    Syria Arab Rep              2      -     3      3          N/A
           Netherlands                  4,510   4,639    4,893   4,764   N/A    Taiwan                   17,974 21,282 21,678 21,310       N/A
           Netherlands Antilles           4       1       -       -      N/A    Thailand                  116     111      148     173     N/A
           New Zealand                   579     658     613     600     N/A    Trinidad & Tobago          8      12        8      12      N/A
           Nicaragua4                     -       -       -       1      N/A    Tunisia                    5       5        6      10      N/A
           Niger                          -       1       -       -      N/A    Turkey                    113     142      189     231     N/A
           Nigeria                        2       7        5       2     N/A    Turkmenistan               1        -       -       1      N/A
           Norway                        871    1,024    1,026   1,151   N/A    Turks and Caicos
                                                                                                           1        2       -       3      N/A
           Oman                           4       7        5      5      N/A     Islands
           Pakistan                       7       20      29      14     N/A    Uganda4                     -       -       -       1      N/A
           Panama                         6       3       6       6      N/A    Ukraine                    61      67      92      132     N/A
           Paraguay                       -       -        2      1      N/A    United Arab Emirates   54     45     58             91     N/A
           Peru                           5       8       16      3      N/A    United Kingdom       11,205 11,852 12,149         13,015   N/A
           Philippines                   61      84       99     76      N/A    Uruguay                27     16     16             23     N/A
           Poland                        150     178      249    279     N/A    Uzbekistan              1      -      -             1      N/A
           Portugal                      87      113      115    114     N/A    Vanuatu (New
                                                                                 Hebrides)                  -      2        1       2      N/A
           Qatar                          4       2       20      17     N/A
           Romania                       58       64      102     86     N/A    Venezuela                  32      35      26       51     N/A
           Russian Federation            498     600      741    837     N/A    Vietnam                    4       10       9       26     N/A
           Saint Kitts and Nevis4         -       -        -      1      N/A    West Bank/Gaza             -       1        -        1     N/A
           Samoa                          1       2        -      -      N/A    Zimbabwe                   2        -       4        3     N/A
           San Marino                     3       1        1      1      N/A    Other5                     -        -       -        -     N/A
           Saudi Arabia                  153     267      337    397     N/A
            - Represents zero.
           1
              Data include utility, design, plant, and reissue applications. Country listings include possessions and territories of that country
             unless listed separately in the table. Data are subject to minor revisions.
           2
             FY 2012 data are updated and final.
           3
               FY 2013 preliminary data should be available in January 2014 at www.uspto.gov, and finalized in the FY 2014 PAR.
           4
               Countries/Territories not previously reported.
           5
               Country of origin information not available.




196
      PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                                                         OTHER INFORMATION



TABLE 10
                     PATENTS ISSUED BY THE UNITED STATES TO RESIDENTS OF FOREIGN COUNTRIES1,3
                                                (FY 2009 – FY 2013)2
State/Territory           2009    2010    2011    2012    2013    State/Territory      2009     2010    2011    2012      2013
Total                    96,395 117,264 124,252 138,607 150,010   El Salvador            -        1       -       -         2
                                                                  Estonia                4       11      14      37        37
Afghanistan4                -       -       -       -      1      Faroe Islands 4        -        -       -       -         1
Albania                     -       -      1        -      1      Finland               974     1,223   1,030   1,111     1,206
Algeria                     -      1        -       -       -     France               3,836    4,835   5,024   5,616     6,245
Andorra                     2      8       4       2       1      French Polynesia       1        -       -       -         -
Angola                      -       -       -      1       1      Georgia                1        2      2        2         3
Anguilla                    1       -      1       1        -     Germany              10,279   12,916 13,020   14,569    15,798
Antigua and Barbuda         -      1        -      6       1      Ghana                  -        1      1        3         2
Argentina                  47      60      49      58      76     Gibraltar              1        -      3        6         3
Armenia                     1      2       4       5       4      Greece                26       59      57      80        81
Aruba4                      -       -       -       -      2      Greenland              3        -       -       -         -
Australia                 1,717   1,940   2,213   1,777   1,877   Guatemala              1        2       -       2         -
Austria                    729    850     916     986     1,065   Guernsey               1        1      2        5         2
Azerbaijan                  -       -      1       2       1      Haiti                  -        -       -       1         1
Bahamas                     6      9       12      7       5      Honduras               -        -      1        -         1
Bahrain                     -      1        -      1       1      Hungary               53       92     103      107       134
Bangladesh                  -       -       -      1       2      Iceland               26       22      27      26        22
Barbados                    3      2       2        -       -     India                 678     1,076   1,195   1,599     2,222
Belarus                     6      7       4       6       10     Indonesia             20        5      10      12        15
Belgium                    677    853     945     996     1,110   Iran                   6        7      15      26        38
Belize                      1       -       -       -       -     Ireland               180      259    313      329       435
Bermuda                     -      2       5       4       2      Isle of Man           11       11      13      17        12
Bolivia                     -      1       1        -       -     Israel               1,426    1,828   2,054   2,432     2,940
Bosnia and                                                        Italy                1,842    2,150   2,322   2,458     2,833
                            2       -       -      2       1
 Herzegovina                                                      Jamaica                4        4      2        3         4
Brazil                     146    209     232     261     264     Japan                37,879   44,893 47,674   51,609    53,359
British Virgin Islands      4       -      1        -      2      Jersey                 0        1      3        5         8
Brunei Darussalam           1       -      1        -       -     Jordan                 1        -      4        5         3
Bulgaria                   31      57      45      30      24     Kazakhstan             2        1       -       1         2

Burkina Faso                1       -       -       -       -     Kenya                  6        4      1        2         2
Cameroon                    1      4        -      2       5      Korea, Democratic
                                                                                         -        -      1        1         -
Canada                    4,361   5,225   5,687   6,197   6,914    People's Rep of
Cayman Islands              1      3       4       7       18     Korea, Republic of   9,401    11,811 12,858   13,956    15,058
Chile                      28      23      30      41      54     Kuwait                12       17      23      26        72
China (Hong Kong)          576    726     680     715     732     Latvia                 4        5      3        5         4
China (Macau)               1      2       6       2       7      Lebanon                4        5      8       21         8
China (Mainland)          2,195   3,059   3,465   5,044   6,179   Liechtenstein         20       18      15      16        22
Colombia                   11      10      15      18      23     Lithuania              4        7      10       3         7
Costa Rica                 14      13      14      12      14     Luxembourg            55       50      41      51        56
Croatia                    19      9       18      23      17     Macedonia              1        -      1        1         -
Cuba                        5      8       4       5       12     Malaysia              173      230    175      199       247
Cyprus                      2      5       3       2       11     Malta                  7        3      4        2         9
Czech Republic             48      79      76     137     173     Mexico                82       105    116      138       190
Denmark                    512    706     837     941     1,010   Monaco                 8        9      8        9        11
Dominican Republic          5      3       2       2       6      Mongolia4              -        -       -       -         1
Ecuador                     3      5       1       4       9      Morocco                4        1      2        3         2
Egypt                       2      14      19      32      32     Netherlands          1,634    1,823   1,959   2,205     2,391




                                                                                                                                        197
                                                                                                                        www.uspto.gov
          OTHER INFORMATION



          TABLE 10 CONT.
                                  PATENTS ISSUED BY THE UNITED STATES TO RESIDENTS OF FOREIGN COUNTRIES1,3
                                                             (FY 2009 – FY 2013)2
           State/Territory                   2009       2010       2011       2012   2013    State/Territory        2009    2010    2011     2012     2013
          Netherlands Antilles                -          1          -          -      -      Slovenia                27      26      30       42       47
          New Zealand                        179        243        238        295    285     South Africa           148     143      134      156      179
          Nicaragua 4                         -          -          -          -      1      Spain                  415     484      528      708      739
          Nigeria                             -          -          1          1      3      Sri Lanka               6       4        8        3        5
          Norway                             303        414        411        441    510     Sweden                 1,230   1,509   1,757    2,207    2,309
          Oman                                4          2          3          1      5      Switzerland            1,428   1,833   1,825    2,016    2,282
          Pakistan                            5          2          2          11     14     Syrian Arab Rep          -       -       1        -        1
          Panama                              3          4          1          4      3      Taiwan                 7,958   9,202   9,584    11,309   12,169
          Paraguay                            -          1          -          1      2      Thailand                32      58      65       57       87
          Peru                                8          1          5          4      1      Trinidad and Tobago     3       5        1        3        9
           Philippines                        24         33         37         38     35     Tunisia                  -      2        2        5        2
           Poland                             50         48         61        108    101     Turkey                  32      49      45       48       78
           Portugal                           18         28         34         47     58     Turks and Caicos         -       -       -        -        2
           Qatar                              1          1          1          3      6       Islands
           Romania                            7          17         24         47     52     Ukraine                 21      12      13       42       35
           Russian Federation                206        246        311        335    410     United Arab Emirates    10      7       11       22       20
           Samoa                              -          2          -          -      -      United Kingdom         3,892   4,817   4,907    5,607    6,295
           San Marino4                   -          -          -          -           1      Uruguay                 5       5        4        7        9
           Saudi Arabia                       20         51         56        152    206     Uzbekistan               -       -       -        1        -
           Senegal                            -          1          -          -      -      Vanuatu                  -       -       1        -        -
           Serbia                             5          4          5          11     8      Venezuela               11      16      19       22       16
           Seychelles                         -          -          -          1      1      Vietnam                 2       2        -        1       11
           Singapore                         496        591        693        800    840     Zimbabwe                4        -       -        1        3
           Slovakia                           13         15         22         21     14
           - Represents zero.
           1
               Data includes utility, design, plant, and reissue patents.
           ² Past years' data may have been revised from prior year reports to reflect patent withdrawal information that was updated during the
             year. It is not uncommon for the withdrawal status of patents issued in prior years to change
           3
               Each patent grant is listed under only one country of residence. Country listings include possessions and territories of that country un-
               less separately listed in the table.
           4
               Countries/Territories not previously reported.



           TABLE 11
                                                               UTILITY PATENTS ISSUED TO SMALL ENTITIES
                                                                          (FY 2009 – FY 2013)
           Fiscal Year of Grant                                                             2009       2010         2011            2012            2013
           Percentage Small Entity                                                          19.76%     19.87%       19.80%          20.32%          21.07%
                US Origin   1                                                               27.54%     27.76%       27.87%          28.21%          29.01%
                Foreign Origin1                                                             12.27%     12.22%       12.16%          13.04%          13.86%
           Percentage Large Entity                                                          80.24%     80.13%       80.19%          79.68%          78.93%
                US Origin1                                                                  72.46%     72.24%       72.13%          71.79%          70.99%
                Foreign Origin1                                                             87.73%     87.78%       87.84%          86.96%          86.14%
           1
               Patent origin is based on residence of the first-named inventor.




198
      PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                                                                OTHER INFORMATION



TABLE 12
                                     STATUTORY INVENTION REGISTRATIONS PUBLISHED
                                                  (FY 2009 – FY 2013)
Assignee                                                            2009          2010         2011          2012          2013
Air Force                                                             2             -            1              -             -
Navy                                                                  3             5            7             3              8
Veterans Affairs                                                       -            -            1              -             -
Other Than U.S Government                                             4            12            6             4              6
    Total                                                             9            17            15            7             14
- Represents zero.



TABLE 13
                                      UNITED STATES GOVERNMENT AGENCY PATENTS1
                                                   (FY 2009 – FY 2013)3
Activity                                               2009         2010          2011         2012          2013          Total
Agriculture                                                 24              39           44           52             54           213
Air Force                                                   45              51           40           51             44           231
Army                                                       119             136          141          146            155           697
Attorney General                                              -              1            1             -              -            2
Commerce                                                     5              10           15           11             12            53
Energy                                                      17              42           25           36             41           161
Environmental Protection Agency                              9               9           12           16             17            63
Health, Education, and Welfare/                            105             128          146          137            131           647
Health and Human Services
Interior                                                     4               4            1            3              2            14
National Aeronautics and Space                              86              89          106          106             94           481
Administration
Navy                                                      230              284          300          366            383       1,563
National Security Agency                                   15               24           11           10             11          71
National Science Foundation                                  -               1             -           1              2           4
Postal Service                                             14               37           25           39             27         142
State Department                                             -                -            -           1               -          1
Transportation                                               -               1             -            -              -          1
Tennessee Valley Authority                                   -               1             -            -              -          1
USA
    2
                                                            3                5            3            6              8          25
Veterans Affairs                                           10                9           13            9              8          49
    Total                                                 686              871          883          990            989       4,419
- Represents zero.
1
    Data in this table represent utility patents assigned to agencies at the time of patent issue. Data subject to minor revisions.
2
    United States of America - no agency indicated in database.
3
    Past years' data may have been revised from prior year reports to reflect patent withdrawal information that was updated
     during the year. It is not uncommon for the withdrawal status of patents issued in prior years to change.




                                                                                                                                            199
                                                                                                                            www.uspto.gov
          OTHER INFORMATION



           TABLE 14A
                                                          EX PARTE REEXAMINATION
                                                             (FY 2009 – FY 2013)
           Fiscal Year of Grant                                          2009        2010   2011   2012   2013
           Requests filed, total                                          658        780    759    747    298
             By patent owner                                               67         63    104     64     13
             By third party                                               591        717    654    683    285
             Commissioner ordered                                           -          -     1       -      -

           Determinations on requests, total                              614        662    773    548    526
             Requests granted:
               By examiner                                                574        606    685    502    486
               By petition                                                  -          1      6      4      2
             Requests denied                                               40         55     82     42     38
           Requests known to have related litigation                      372        347    349    311    381
           Filings by discipline, total                                   658        780    759    747    298
             Chemical                                                     120        137    143    149     61
             Electrical                                                   335        414    395    398    174
             Mechanical                                                   203        229    221    192     55
             Design                                                         -          -      -      8      8
           - Represents zero.



           TABLE 14B
                                                       INTER PARTES REEXAMINATION
                                                            (FY 2009 – FY 2013)
           Fiscal Year of Grant                                          2009        2010   2011   2012   2013
           Requests filed, total                                          258        281    374    640     -

           Determinations on requests, total                              229        231    366    354    347
             Requests granted:                                            218        224    344    325    322
               By examiner                                                217        224    342    320    320
               By petition                                                  1         -       2      5      2
             Requests denied                                               11         7      22     29     25

           Requests known to have related litigation                      220        196    280    311    260
           Filings by discipline, total                                   258        281    374    640     -
             Chemical                                                      35         45     57    116     -
             Electrical                                                   153        174    216    316     -
             Mechanical                                                    70         62    101    204     -
             Design                                                         -          -      -     4      -
           - Represents zero.
           *Inter Partes Reexamination were not available after September 16, 2012




200
      PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                                             OTHER INFORMATION



TABLE 14C
                                                SUPPLEMENTAL EXAMINATION (SE)1
                                                          (FY 2013)
Fiscal Year of Grant                                                                    2013
SEs filed, total                                                                        33

SEs granted a filing date, total                                                        25
Determination on SE granted a filing date, total                                        23
    SNQ found:                                                                          19
    SNG not found:                                                                       4

Requests known to have related litigation                                               N/A
Filings by discipline, total                                                            33
    Chemical                                                                             7
    Electrical                                                                          11
    Mechanical                                                                          12
    Design                                                                               3
1
This is the first year to report this information



TABLE 15
                                           SUMMARY OF CONTESTED PATENT CASES
                                         (Within the USPTO, as of September 30, 2013)
Items                                                                                          Total

Ex parte cases
Appeals
    Cases pending as of 9/30/12                                                              26,570
    Cases filed during FY 2013                                                               11,090
    Disposals during FY 2013, total
      Decided, total                                                                         12,223
        Affirmed                                                                              6,576
        Affirmed-in-Part                                                                      1,692
        Reversed                                                                              3,585
        Dismissed/Withdrawn                                                                    246
        Remanded                                                                               124

    Case pending as of 9/30/13                                                               25,437

Rehearings
  Case pending as of 9/30/13                                                                    32

Inter partes cases
  Cases pending as of 9/30/12                                                                   53
  Cases declared or reinstituted during FY 2013                                                 50
  Inter partes cases, FY 2013 total                                                            103

    Cases terminated during FY 2013                                                             52
    Case pending as of 9/30/13                                                                  51




                                                                                                                       201
                                                                                                       www.uspto.gov
          OTHER INFORMATION



           TABLE 16
                                                    SUMMARY OF TRADEMARK EXAMINING ACTIVITIES
                                                                (FY 2009 – FY 2013)
           Item                                                                     2009           2010          2011           2012           2013
           Applications for Registration:
                Applications including Additional Classes                           352,051        368,939       398,667         415,026        433,654
                Applications Filed                                                  266,939        280,649       301,826         311,627        321,055
           Disposal of Trademark Applications:
                Registrations including Additional Classes                          241,637        221,090       237,586         243,459        259,681
                Abandonments including Additional Classes                           189,687        151,027       141,908         139,832        145,731
           Trademark First Actions including Additional Classes                     372,830        367,027       389,084         420,621        441,615
           Applications Approved for Publication including
           Additional Classes                                                       320,246        307,001       323,072         345,649        360,958
           Certificates of Registration Issued:           1


                1946 Act Principal Register
                Principal Register                                                  102,607         93,238       103,233         110,000        116,420
                   ITU-Statements of Use Registered                                   69,920        64,086         66,796         64,057         67,952
                1946 Act Supplemental Register                                         7,993         7,006          7,632          8,704          8,749
           Total Certificates of Registration                                       180,520        164,330       177,661         182,761        193,121
           Renewal of Registration:*                                                  43,953        48,214         49,000         63,636         74,280
                   Section 9 Applications Filed
                   Section 8 Applications Filed**                                     43,868        48,275         49,037         63,642         74,283
                   Registrations Renewed                                              42,282        46,734         44,873         59,871         63,709
           Affidavits, Sec. 8/15:                                                     65,322        61,499         65,771         76,646         93,174
                Affidavits Filed
                Affidavits Disposed                                                   63,483        58,510         58,341         72,346         76,731
           Amendments to Allege Use Filed                                              8,633         7,629          7,647          7,999          7,721
           Statements of Use Filed                                                    90,493        80,927         86,159         86,935         85,004
           Notice of Allowance Issued                                               181,702        169,085       166,035         172,122        183,030
           Total Active Certificates of Registration                              1,547,168      1,614,121     1,719,247      1,838,007       1,903,849
           Pendency - Average Months:
             Between Filing and Examiner's First Action                                   2.7           3.0            3.1            3.2            3.1
                Between Filing, Registration (Use Applications)
                  Abandonments, and NOAs - including                                    13.5           13.0          12.6            12.0           11.7
                  suspended and inter partes proceedings
                Between Filing, Registration (Use Applications)
                  Abandonments, and NOAs - excluding                                    11.2           10.5          10.5            10.2           10.0
                  suspended and inter partes proceedings
           - Represents zero.
           1
               With the exception of Certificates of Registration, Renewal of Registration, Affidavits filed under Section 8/15 and 12(c), the workload
               count includes extra classes.
           "Applications filed" refers simply to the number of individual trademark applications received by the PTO. There are, however, 47 differ-
            ent classes of items in which a trademark may be registered. An application must request registration in at least one class, but may
            request registration in multiple classes. Each class application must be individually researched for registerability. "Applications filed,
            including additional classes" reflects this fact, and therefore more accurately reflects the Trademark business workload. With the ex-
            ception of Certificates of Registration, Renewal of Registration, Affidavits filed under Section 8/15 and 12(c), the workload count in-
            cludes extra classes.
           *Renewal of registration is required beginning 10 years following registration concurrent with 20 - year renewals coming due.
           **Section 8 Affidavit is required for filing a renewal beginning October 30, 1999 (FY 2000) with the implementation of the Trademark
            Law Treaty.




202
      PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                                                         OTHER INFORMATION



TABLE 17
       TRADEMARK APPLICATIONS FILED FOR REGISTRATION AND RENEWAL AND TRADEMARK AFFIDAVITS FILED
                                           (FY1993 – FY 2013)
              Year                     For Registration                For Renewal1                Section B Affidavit
              1993                          139,735                         7,173                          21,999
              1994                          155,376                         7,004                          20,850
              1995                          175,307                         7,346                          23,497
              1996                          200,640                         7,543                          22,169
              1997                          224,355                         6,720                          20,781
              1998                          232,384                         7,413                          33,231
              1999                          295,165                         7,944                          33,104
              2000                          375,428                         24,435                         28,920
              2001                          296,388                         24,174                         33,547
              2002                          258,873                         34,325                         39,484
              2003                          267,218                         35,210                         43,151
              2004                          298,489                         32,352                         41,157
              2005                          323,501                         39,354                         47,752
              2006                          354,775                         36,939                         48,444
              2007                          394,368                         40,786                         49,241
              2008                          401,392                         42,388                         68,470
              2009                          352,051                         43,953                         65,322
              2010                          368,939                         48,214                         61,499
              2011                          398,667                         49,000                         65,771
              2012                          415,026                         63,636                         76,646
              2013                          433,654                        74,280                         93,174
1
    Renewal of registration term changed with implementation of the Trademark Law Reform Act (Pub. L. No. 100-667)
    beginning November 16, 1989 (FY 1990).


TABLE 18
                                   SUMMARY OF PENDING TRADEMARK APPLICATIONS
                                                    (FY 2013)
Stage of Processing                                                       Application Files                Classes
Pending patent applications, total                                             428,872                     602,242
In preexamination processing                                                    74,518                     95,593
Under examination, total                                                       274,223                     395,233
    Applications under initial examination                                      88,478                     131,165
      Amended, awaiting action by Examiner                                      84,400                     125,665
      Awaiting first action by examiner                                          4,078                      5,500
  Intent-To-Use applications pending Use                                       148,056                     208,735
  Applications under second examination                                          7,035                      9,766
    Administrative processing of Statements of Use                                 60                         70
    Undergoing second examination                                                1,771                      2,356
    Amended, awaiting action by Examiner                                         5,204                      7,340
  Other pending applications1                                                   30,654                     45,567
In post-examination processing                                                  80,131                     111,416
(Includes all applications in all phases of publication and issue and
registration)
1 Includes applications pending before the Trademark Trial and Appeal Board, and suspended cases.




                                                                                                                                     203
                                                                                                                     www.uspto.gov
          OTHER INFORMATION



           TABLE 19
                                TRADEMARK REGISTERED, RENEWED, AND PUBLISHED UNDER SECTION 12(c)1
                                                        (FY 1993 – FY 2013)
                   Year           Certificates of Regis. Issued           Renewed2             Registrations (incl Classes)
                   1993                       74,349                         6,182                         86,122
                   1994                       59,797                         6,136                         68,853
                   1995                       65,662                         6,785                         75,372
                   1996                       78,674                         7,346                         91,339
                   1997                       97,294                         7,389                        112,509
                   1998                       89,634                         6,504                        106,279
                   1999                       87,774                         6,280                        104,324
                   2000                      106,383                         8,821                        127,794
                   2001                      102,314                        31,477                        124,502
                   2002                      133,225                        29,957                        164,457
                   2003                      143,424                        34,370                        185,182
                   2004                      120,056                        34,735                        155,991
                   2005                      112,495                        32,279                        143,396
                   2006                      147,118                        37,305                        188,899
                   2007                      150,064                        47,336                        194,327
                   2008                      209,904                        42,159                        274,250
                   2009                      180,520                        42,282                        241,637
                   2010                      164,330                        46,734                        221,090
                   2011                      177,661                        44,873                        237,586
                   2012                      182,761                        59,871                        243,459
                   2013                      193,121                        63,709                        259,681
           - Represents zero.
           1
               Includes withdrawn numbers.
           2
               Includes Renewal of registration term changed with implementation of the Trademark Law Reform Act (Pub. L. No.
               100-667) beginning November 16, 1989 (FY 1990).




204
      PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                                                          OTHER INFORMATION



TABLE 20
                          TRADEMARK APPLICATIONS FILED BY RESIDENTS OF THE UNITED STATES
                                                   (FY 2013)
State/Territory                 2013       State/Territory                  2013      State/Territory             2013
Total                          333,705     Kentucky                           1,748   Oklahoma                       1,625
                                           Louisiana                          2,293   Oregon                         3,849
Alabama                           1,962    Maine                                688   Pennsylvania                   9,231
Alaska                              301    Maryland                           5,816   Rhode Island                   1,225
Arizona                           1,091    Massachusetts                      9,146   South Carolina                 2,649
Arkansas                          5,829    Michigan                           6,933   South Dakota                    418
California                       70,806    Minnesota                          5,931   Tennessee                      4,589
Colorado                          7,250    Mississippi                          690   Texas                        21,074
Connecticut                       4,870    Missouri                           4,385   Utah                           3,511
Delaware                          2,963    Montana                              615   Vermont                         616
District of Columbia              3,309    Nebraska                           1,227   Virginia                       7,648
Florida                          24,736    Nevada                             5,541   Washington                     7,129
Georgia                           8,756    New Hampshire                      1,178   West Virginia                   301
Hawaii                            1,029    New Jersey                        12,599   Wisconsin                      4,219
Idaho                             1,028    New Mexico                           880   Wyoming                         565
Illinois                         13,843    New York                          35,030   Puerto Rico                     475
Indiana                           3,613    North Carolina                     6,871   Virgin Islands                    75
Iowa                              1,604    North Dakota                         258   U.S. Pacific Islands   1
                                                                                                                        34
Kansas                            1,528    Ohio                               8,004   United States   2
                                                                                                                      121
1
    Represents residents of American Samoa, Guam and miscellaneous U.S. Pacific Islands
2
    No state indicated in database, includes Army Post Office filings




                                                                                                                                   205
                                                                                                                   www.uspto.gov
          OTHER INFORMATION



           TABLE 21
                                         TRADEMARKS REGISTERED TO RESIDENTS OF THE UNITED STATES
                                                              (FY 2013)1
           State/Territory                2013       State/Territory                      2013       State/Territory               2013
           Total                         156,205     Kentucky                                 640    Oklahoma                          629
                                                     Louisiana                                696    Oregon                          1,424
           Alabama                            575    Maine                                    302    Pennsylvania                    3,023
           Alaska                             110    Maryland                               1,713    Rhode Island                      359
           Arizona                          1,886    Massachusetts                          2,248    South Carolina                    737
           Arkansas                           362    Michigan                               2,490    South Dakota                      173
           California                      17,156    Minnesota                              2,521    Tennessee                       1,336
           Colorado                         2,440    Mississippi                              237    Texas                           6,812
           Connecticut                      1,362    Missouri                               1,751    Utah                            1,287
           Delaware                        28,819    Montana                                  249    Vermont                           212
           District of Columbia             1,027    Nebraska                                 533    Virginia                        2,457
           Florida                          8,329    Nevada                                 3,230    Washington                      2,439
           Georgia                          2,793    New Hampshire                            391    West Virginia                     111
           Hawaii                             299    New Jersey                             3,476    Wisconsin                       1,768
           Idaho                              371    New Mexico                               286    Wyoming                           345
           Illinois                         4,594    New York                               9,051    Puerto Rico                       160
           Indiana                          1,431    North Carolina                         1,999    Virgin Islands                     39
           Iowa                               733    North Dakota                             137    U.S. Pacific Islands   2
                                                                                                                                        22
           Kansas                             642    Ohio                                   3,307    United States   3
                                                                                                                                    24,686
           1
               When a trademark is registered, the trademark database is corrected to indicate the home state of the entity registering the
               trademark.
           2
               Represents residents of American Samoa, Guam, and miscellaneous U.S. Pacific Islands.
           3
               No state indicated in database, includes APO filings.




206
      PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                                                                OTHER INFORMATION



TABLE 22
                         TRADEMARK APPLICATIONS FILED BY RESIDENTS OF FOREIGN COUNTRIES
                                              (FY 2009 – FY 2013)
State/Territory            2009     2010     2011     2012     2013     State/Territory      2009     2010     2011       2012       2013
Total                      77,448 79,664 85,101 89,100 99,949           Dominican Republic       50     79     51     71     63
                                                                        Ecuador                  32     27     47     34     35
Afghanistan                    9        3       11        4        8    Egypt                    14     27     38     18     58
Albania                         -        -       6        1        2    El Salvador              34     36     36     25     56
Algeria                         -        -        -       2         -   Estonia                  48     64     37     56     86
Andorra                        8        7         -      20        3    Ethiopia                  1       -     1      4      3
Angola                          -      11       11        1        3    Faroe Islands             1        -    2        -    4
Anguilla                      23        3       17       34       22    Fiji                       -     6      5     15     26
Antigua & Barbuda              4       18        s        6         -   Finland                 547   746    675    714 1,117
Argentina                    223      279      283      268      266    France                5,620 6,176 5,868 6,375 6,575
Armenia                       10        7       32       16       32    French Polynesia          2       -    11       -     4
Aruba                          3        3        1        3        4    Gabon                      -      -    10       -      -
Australia                  3,025    3,004    3,154    3,381    3,960    Georgia                  11      8     27      9     18
Austria                    1,181      980    1,212    1,155    1,292    Germany              11,345 10,300 10,603 10,525 11,504
Azerbaijan                      -        -       8        3        1    Ghana                     1        -    1      1      4
Bahamas                      121       99      153      331      191    Gibraltar                52     30     61     63     49
Bahrain                       19       20       31       21       10    Greece                  137   209    166    135    203
Bangladesh                     4        1        7        6        1    Grenada                    -      -     1      4      3
Barbados                     164      274      161      198      116    Guadeloupe                 -     3       -      -     1
Belarus                       10       46       35       43       30    Guatemala                29     27     16     44     44
Belgium                      997      788      760      917    1,093    Guinea                     -     3       -      -      -
Belize                        20       20       30       33       32    Guyana                    1       -     1      5      4
Benin                           -        -       1        1         -   Haiti                      -     5      2      8      3
Bermuda                      178      164      182      222      253    Honduras                 17     15      2      4      7
Bolivia                        8        3        4        5        1    Hungary                 155   118      87   102    161
Bosnia & Herzegovina           1        1        1         -       1    Iceland                  87     67     62     65   100
Botswana                       3        1       48        6         -   India                   461    645    717    606    684
Brazil                       477      546      548      608      676    Indonesia               64       51       56         91         70
British Virgin Islands       498      558      597      825    1,087    Iran                    27       38       28         11         31
Brunei Darussalam              8       13        2        4        8    Iraq                     4         -       1           -         1
Bulgaria                      95       77       72      109      178    Ireland                441      567      615        619        699
Burkina Faso                    -       1         -        -        -   Isle of Man             36       82       56         48        113
Cambodia                       2        1         -        -        -   Israel                 679      598      677        795      1,025
Cameroon                        -        -       1        1         -   Italy                4,203    3,770    4,284      3,960      4,382
Canada                     8,354    8,707    9,257    9,823    9,984    Jamaica                 53       14       20         42         46
Cayman Islands               390      263      292      400      351    Japan                4,832    4,633    5,054      5,358      6,110
Channel Islands               37       73      127       58         -   Jordan                  21       28       33         30         32
Chile                        185      193      263      178      170    Kazakhstan                -        -       3           -        12
China (Hong Kong)          1,162    1,190    1,492    1,768    1,785    Kenya                    2        9        1         12          2
China (Macau)                   -       1         -       8         -   Korea, Democratic.
                                                                          Republic of            1        6           -          -          -
China (mainland)           2,096    2,808    3,652    3,735    4,756
Colombia                     183      185      184      300      296    Korea, Republic of   1,554    2,069    2,028      2,323      3,160
Cook Islands                   5        4         -        -        -   Kuwait                  16       20       10         14         21
Costa Rica                    66       91       65       59       44    Kyrgyzstan                -        -        -         3          2
Croatia                       42       33       14       40       64    Latvia                  30       48       33         40         45
Cuba                           6        1        3        5        2    Lebanon                 24       28       34         32         57
Curacao                         -        -      60       65       41    Liberia                   -        -       1          1          1
Cyprus                       115      151      210      718      333    Liechtenstein          240       99      182        152        105
Czech Republic               266      164      256      201      307    Lithuania               17       10       30         26         41
Denmark                      997      884      827      869    1,120    Luxembourg             499      888      807        831      1,044
Dominica                        -       2        2         -       6    Macao                   12        5       10           -       126




                                                                                                                                                 207
                                                                                                                                 www.uspto.gov
          OTHER INFORMATION



          TABLE 22 CONT
                                   TRADEMARK APPLICATIONS FILED BY RESIDENTS OF FOREIGN COUNTRIES
                                                        (FY 2009 – FY 2013)
           State/Territory            2009       2010      2011      2012     2013      State/Territory        2009     2010     2011       2012     2013
          Macedonia                          -        8         4       27        11    San Marino                17       10        8         13       16
          Madagascar                       7           -         -       1          -   Sao Tome/Principe           -       1        1           -        -
          Malaysia                       126       122        89        89      131     Saudi Arabia              49       61       66        108       71
          Malta                           81        34        63        99      424     Scotland                  18       27       56         57       46
          Marshall Island                  4         4        12         7        3     Senegal, Republic of        -        -       7           -        -
          Martinique                        -         -        1         1         -    Serbia/Montenegro         14       38       47         38       30
          Mauritania                       1          -         -         -        -    Seychelles                26       19       38         27       37
          Mauritius                       28        39        64        29       74     Singapore                526      470      695        627      880
          Mexico                       1,393     1,790     1,792     1,990    1,898     Slovakia                  46       56       65         84       90
          Micronesia                       2          -        1         1         -    Slovenia                 152       82      129         89       98
          Moldova, Republic of             9        14         9         7       15     South Africa             183      232      253        271      294
          Monaco                          81        96       168       135      144     Spain                  1,798    1,789    2,200      2,097    1,881
           Mongolia                        7         2        30         3        1     Sri Lanka                 15       17       19         21       13
           Montserrat                       -         -        6          -        -    Suriname                    -       1         -         2         -
           Morocco                        35        48        23        50       43     Swaziland                   -        -       1           -        -
           Myanmar                          -        1          -         -        -    Sweden                 1,222    1,467    1,536      1,709    1,804
           N. Mariana Island               5         9         2         7        4     Switzerland            3,883    4,750    4,770      4,901    5,613
           Namibia                         2          -        2         4         -    Syria                      7       14        7           -        -
           Nepal                           2          -        5         1        1     Taiwan                 1,221    1,359    1,525      1,661    1,464
           Netherlands                 2,220     2,387     2,357     1,851    2,419     Tanzania                    -       1        2           -       3
           Netherlands Antilles           68       113        41          -        -    Thailand                 146      105      174        190      167
           New Zealand                   486       482       520       522      520     Timor-Leste                 -        -       1           -        -
           Nicaragua                       5         7         8        16        6     Togo                        -        -       8          2       14
           Nigeria                        25         8         4         6       11     Trinidad & Tobago         23       13        5         13       10
           Norway                        835       556       638       434      813     Tunisia                    7       14       17          6       30
           Oman                           11         5         6          -        -    Turkey                   511      363      571        610      868
           Pakistan                       19        17        17        12       31     Turkmenistan                -        -        -         6         -
           Palau                           1          -         -         -        -    Turks and Caicos Is-      10       30       18         48       34
           Panama                        114       167       148       126      159      lands
           Papua New Guinea                1         3          -         -       3     Uganda                     1         -       3          2      1
           Paraguay                        7         4        12         6       18     Ukraine                   63      102       92        118    155
           Peru                           49        38        69        62       84     United Arab Emirates     212      135      172        224    192
           Philippines                    66        54        65       128       88     United Kingdom         7,624    7,727    8,451      8,939 10,629
           Poland                        300       225       240       330      381     Uruguay                   35       47       35         14     53
           Portugal                      318       335       261       232      301     Uzbekistan                 3         -        -         2      3
           Qatar                          10        20        43        26       56     Vanuatu (New
                                                                                         Hebrides)                  -        -          -       1        9
           Romania                        37        78        83        61       94
           Russian Federation            676       650       591     1,036    1,025     Venezuela                 35       38       62         46       52
           Rwanda                          1          -         -         -        -    Vietnam                  101       71       61         99     108
           Saint Christ-Nevis             16         6          -         -        -    West Bank/Gaza              -       3        1          2        -
           Saint Kitts & Nevis              -         -       31        18       22     Yemen                       -       1        4          1       2
           Saint Lucia                    12        21        12         8       15     Yugoslavia                  -       3         -          -       -
           Saint Marten                     -         -        2         3        5     Zambia                      -        -        -          -      1
           Saint Vincent/                                                               Zimbabwe                   1         -        -         4        -
                                           6        17          1        4         5
           Grenadines                                                                   Other 1                   33       11        8          3        -
           Samoa                           5        15        11        11       10
            - Represents zero.
           1
              Country of Origin information not available or not indicated in database, includes African Regional Industrial Property Organization
             filings




208
      PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                                                                 OTHER INFORMATION



TABLE 23
                          TRADEMARKS REGISTERED TO RESIDENTS OF FOREIGN COUNTRIES
                                            (FY 2009 – FY 2013)
State/Territory          2009     2010     2011     2012     2013     State/Territory       2009      2010      2011      2012      2013
Total                    34,648 31,855 33,752 34,003 36,916           Cuba                      6         7         7         4        8
                                                                      Curacao                    -         -        1         9       18
Afghanistan                  2        3        4        2        8    Cyprus                   37        44        78        80      135
Albania                      6        4         -       3         -   Czech Republic           69        68        57        94      107
Algeria                      3        3        2        1        2    Denmark                 424       378       372       333      377
Andorra                      1        1        4        3        4    Djibouti                   -         -         -        1         -
Angola, Republic of          2         -       2        2        1    Dominica                  1         1         2         1        1
Anguilla                     5        7        7       25       17    Dominican Republic       25        26        47        29       24
Antigua & Barbuda           13        4        3        4        5    Ecuador                  17        15        23        19       14
Argentina                  131      127      161      150      158    Egypt                     6         6         8        16       16
Armenia                      6        8       17       11       12    El Salvador              38        36        20        26        17
Aruba                        5         -       2        2         -   Estonia                  13        16        15        14        33
Australia                1,383    1,295    1,338    1,331    1,385    Ethiopia                  1         4         3          -        1
Austria                    367      322      337      361      361    Faroe Islands             1          -        1         1         1
Azerbaijan                    -        -       1        2        1    Fiji                      2          -        1         2         1
Bahamas                     56       44       60       71       60    Finland                 221       196       225       212       217
Bahrain                      2        3       18        6        9    France                2,278     2,154     2,353     2,160     2,390
Bangladesh                   1        3        1        6        1    French Guiana              -         -         -         -         -
Barbados                    92       62       89       67       51    French Polynesia          2          -        2          -        2
Belarus                     10        6       13       17       18    Gabon                      -         -         -        1         1
Belgium                    337      309      287      302      362    Georgia                    -        3         4        14         8
Belize                       5       20       12       29       25    Germany                ,409     3,759     3,730     3,660     3,641
Benelux Convention          13        9       18        8       12    Ghana                     2         3         2         5         5
Benin                        1        1         -                1    Gibraltar                30        10        29        38        43
Bermuda                    197      161      105       95      128    Greece                   53        52        42        67        55
Bhutan                        -        -        -       1         -   Greenland                  -        1          -         -         -
Bolivia                      5        7        1        3        2    Grenada                     -         -         -         -       1
Bosnia & Herzegovina         1         -       1        2        1    Guatemala                  -       24          -         -         -
Botswana                      -        -        -       2        1    Guinea                     -         -         -        1          -
Brazil                     227      188      180      209      242    Guinea (Equatorial)        -         -        1         1          -
British Virgin Islands     323      302      315      258      396    Guinea-Bissau              -         -        1         3         1
Brunei Darussalam             -       1         -        -       3    Guyana                    5          -        4         3         3
Bulgaria                    26       24       21       28       45    Haiti                     2         5         2         4         3
Burkina Faso                  -        -       1         -        -   Honduras                  8        17         4         7         5
Burundi                       -        -        -        -        -   Hungary                  36        64        36        34        52
Cambodia                      -       1        1        1         -   Iceland                  66        48        17        29        37
Cameroon                     2        2        3        2        4    India                   213       202       252       259       294
Canada                   4,084    3,714    4,069    3,888    3,944    Indonesia                29        36        23        40        34
Cape Verde                   3         -        -        -        -   Iran                     13         9         4        17         8
Cayman Islands             170      151      133      124      155    Iraq                       -        1         2          -         -
Channel Islands              2       15       25       29         -   Ireland                 260       211       212       227       257
Chile                       84       97      100      122       92    Isle of Man               7          -       24        13        25
China (Hong Kong)          521      502      562      601      775    Israel                  319       348       341       412       462
China (Macau)                2        5        2        1        1    Italy                 1,819     1,556     1,733     1,657     1,821
China (mainland)         1,459    1,356    1,705    2,024    2,444    Jamaica                  23        24        21        28        27
Colombia                   115      105       94      134      132    Japan                 2,453     2,344     2,272     2,198     2,568
Congo                         -       1         -        -        -   Jordan                   13         7        16        20        14
Cook Islands                 1        1         -       1        2    Kazakhstan                1          -        1         1         3
Costa Rica                  27       36       21       25       51    Kenya                     4         5         3         1         4
Cote D'Ivoire                1         -       1        4        1    Korea, Democratic.        7         4         2         9-        7
Croatia                      8       10       14        7       16     Republic of




                                                                                                                                                 209
                                                                                                                                 www.uspto.gov
          OTHER INFORMATION



         TABLE 23 CONT
                                             TRADEMARKS REGISTERED TO RESIDENTS OF FOREIGN COUNTRIES
                                                               (FY 2009 – FY 2013)
          State/Territory                  2009      2010     2011      2012      2013     State/Territory             2009      2010     2011       2012       2013
          Korea, Republic of                  760      773       904     1,043    1,153    Saint Christ & Nevis            26       26       10         31         36
          Kuwait                                6        6         3         7        8    Saint Lucia                      8        2        6          1         10
          Kyrgyzstan                             -       1          -        1        2    Saint Martin                      -        -        -         3          1
          Laos                                   -        -        1          -        -   Saint Vincent/                   2        1        2          2          2
          Latvia                                6        8        14        10       18    Grenadines
          Lebanon                               6       12        15        15       16    San Marino                      2     7             -         1          1
          Liberia                              22       12         8         6        4    Saudi Arabia                   13    14           10         38         22
          Liechtenstein                        75       48        37        45       56    Scotland                       50    15           17         12         16
          Lithuania                             8        7        11        16       15    Senegal                          -    3            2          1          1
          Luxembourg                          184      177       246      270       271    Serbia                           -    4            6          9          7
          Macedonia                             1         -        3         2        3    Serbia/Montenegro                -     -            -          -         2
          Madagascar                             -        -         -         -       1    Seychelles                      8    12           14         18         17
          Malawi                                 -        -        1          -        -   Sierra Leone                     -     -           2          1          1
          Malaysia                             57       63        78        76       45    Singapore                     174   220          230        239        324
          Mali                                   -       1          -         -        -   Slovakia                       26    12           17         17         17
          Malta                                 5       11        20        24       28    Slovenia                       33    15           29         31         30
          Marshall Islands                      3        6         3         5        3    South Africa                  104   140          119         93        138
          Martinique                             -        -        1          -       2    Spain                         821   780          797        885        965
          Mauritius                            25       13        15        28       15    Sri Lanka                      21    13           16         12         15
          Mexico                              830      736       954      897     1,040    St Kitts & Nevis                 -     -            -          -        36
          Micronesia                            1        3         2          -        -   Swaziland                       4      -            -         3          1
          Monaco                               24       19        25        19       29    Sweden                        603   566          524        655        661
          Mongolia                              1         -        3         1        1    Switzerland                 1,672 1,338        1,566      1,560      1,623
          Montenegro                             -       1          -        1        2    Syria                           2      -           5          3          1
          Montserrat                                                         1         -   Taiwan                        845   782          843        820        957
          Morocco                               7        8         9         8       10    Tajikistan                       -     -            -          -          -
          Mozambique                             -        -         -         -        -   Tanzania                         -     -           1          1          1
          Myanmar                                -        -        1          -        -   Thailand                       71    53           49         67         74
          N. Mariana Island                      -       3         5         1        2    Timor-Leste                      -     -            -         1           -
          Namibia                                -        -         -        1        3    Togo                            1      -            -         2          1
          Nauru                                  -        -         -         -       1    Trinidad & Tobago               7    14            5          6          7
          Nepal                                 1         -        2         2        1    Tunisia                         3     3            5          3          2
          Netherlands                         931      883       831      897       810    Turkey                        169   167          167        194        250
          Netherlands Antilles                 32       39        30        21        8    Turks and Caicos
                                                                                                                            2         -      12          8         11
          New Zealand                         265      267       285      223       219    Islands
          Nicaragua                             5        2         6        10        7    Uganda                          3     1            1          2          2
          Nigeria                              10        4         6        12       14    Ukraine                        18    30           41         33         38
          Norway                              175      212       197      195       167    United Arab Emirates           36    56           52         62         90
          Oman                                   -       1         6         2         -   United Kingdom              3,098 3,010        2,989      2,905      3,092
          Pakistan                             11       15        20        11       12    Uruguay                        20    23           24         19         16
          Palistinian Authority                  -        -        3                  2    Uzbekistan                      2      -           1           -         1
          Panama                               58       68        88       53        92    Vanuatu (New
                                                                                                                            1         -          -          -       2
          Papua New Guinea                      1         -         -        -         -   Hebrides)
          Paraguay                              4        5         7        2         3    Vatican City                      -        -       1          1           -
          Peru                                 57       26        31       33        32    Venezuela                       45       42       41         49         37
          Philippines                          50       41        38       34        37    Vietnam                         34       39       37         43         52
          Poland                              103       74        87       98       102    Western Samoa/ Sa-
                                                                                                                             -       8         9         4          1
          Portugal                            136      123       130       91       106    moa
          Qatar                                 6        9         5        1         9    Yemen                            1        1         -         4          1
          Republic Moldova                      3        2         4        1         6    Yugoslavia                       3        1        1          2           -
          Romania                              20       11        17       15        28    Zambia                            -        -       1           -          -
          Russian Federation                  162      154       206      252       281    Zimbabwe                         2         -       4          2          1
          Rwanda                                 -        -        1         -         -   Other 1                         55       19       14         16         20
              - Represents zero.
          1
              Country of Origin information not available or not indicated in database, includes African Regional Industrial Property Organization filings.




210
      PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                                              OTHER INFORMATION



TABLE 24
                                    SUMMARY OF CONTESTED TRADEMARK CASES
                                    (Within the USPTO, as of September 30, 2013)
                                                                            Concurrent
             Activity               Ex Parte   Opposition   Cancellations                Interference   Total
                                                                               Use
Cases pending as of
                                      1,191        5,496           1,533           56               -    8,276
9/30/12, total
Cases filed during FY 2013            2,685        5,278           1,513           16               -    9,492
Disposals during FY 2013,
                                      2,767        5,112           1,417           41               -    9,337
total
    Before hearing                    2,229         5,011           1,381           40              -     8,661
    After hearing                       538           101              36            1              -       676
Cases pending as of
                                      1,109        5,662           1,629           31               -    8,431
9/30/13, total
    Awaiting decision                    58            22               6            2              -        88
    In process before hearing   1     1,051         5,640           1,623           29              -     8,343
Requests for extension of
                                           -      16,939                -            -              -   16,939
time to oppose FY 2013
- Represents zero.
1
Includes suspended cases.




                                                                                                                        211
                                                                                                        www.uspto.gov
          OTHER INFORMATION



           TABLE 25
                           ACTIONS ON PETITIONS TO THE DIRECTOR OF THE U.S. PATENT AND TRADEMARK OFFICE
                                                         (FY 2009 – FY 2013)
           Nature of Petition                                               2009         2010         2011          2012             2013
           Patent matters
             Actions on patent petitions, total                             51,482        51,649       53,755        51,323          48,109
             Acceptance of:
                Late assignments                                                628          773           892           739            804
                Late issue fees                                               1,792        1,720         1,920         1,529           1,765
                Late priority papers                                             13             5            4              6                5
             Access                                                              42           14             9              4                3
             Certificates of correction                                      25,527       27,611        26,033        25,441          24,738
             Deferment of issue                                                  20             9            8              9                9
             Entity Status Change                                             1,246        2,567         2,842         3,016           2,874
             Filing date                                                        723          539           531           413            432
             Maintenance fees                                                 1,949        2,173         2,457         1,984           1,702
             Revivals                                                        11,478        9,326         9,949         8,202           8,660
             Rule 47 (37 CFR 1.47)                                            2,583        2,259         3,077         2,748           1,648
             Supervisory authority                                              347          411           470           439            461
             Suspend rules                                                      301          237           275           162            120
             Withdrawal from issue                                            1,423        1,912         1,948         2,196           3,363
             Withdrawals of holding of aband.                                 3,410        2,093         3,340         4,435           1,525
           Late Claim for Priority                                            1,121        1,094         1,389         1,298           1,254
           Withdraw as Attorney                                               6,133        5,237         5,798         3,922           3,846
           Matters Not Provided For (37 CFR 1.182)                            1,334        1,236         1,603         1,775           1,338
           To Make Special                                                    4,797        4,264        10,573        12,832          17,805
           Patent Term Adjustment/Extension                                   1,613       28,775         2,117         1,298            964
           Trademark matters
             Actions on trademark petitions, total                          24,747        21,852       23,133        21,036          22,268
                Filing date restorations1                                        20           13             6             19                8
                Inadvertently issued registrations                              134          116            78             81           118
                Letters of Protest                                            1,011        1,003         1,213         1,490           1,595
                Madrid Petitions                                                 21           28            46             43               61
                Make special                                                     94          225           170           302            244
                Reinstatements2                                                 851          563           547           354            319
                Revive (reviewed on paper)                                    2,526        1,096         1,276           698            324
                Revive (granted electronically) 3
                                                                             18,967       17,686        18,802        16,913          18,165
                Waive fees/refunds                                               18           18             5             18                7
                Miscellaneous Petitions to the Director                       1,008          971           840           967           1,223
                Board Matters                                                    11           16             9             15               25
                Post Registration Matters                                        86          117           141           136            179
             Petitions awaiting action as of 9/30
                Trademark petitions awaiting response                            72           51            60             26               29
                Trademark petitions awaiting action                                3            5            2              5               17
                Trademark pending filing date issues                               -            -             -             -                -
           - Represents zero.
           1 Trademark Applications entitled to a particular filing date; based on clear evidence of Trademark organization error.
           2 Trademark Applications restored to pendency; inadvertently abandoned by the Trademark organization.
           3 The petition to revive numbers were not separated into two categories (paper versus electronic) in previous years.




212
      PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                                                 OTHER INFORMATION



TABLE 26
                                               CASES IN LITIGATION
                         (Selected Courts of the United States, as of September 30, 2013)
                                                           Patents      Trademarks          OED          Total

United States District Courts                                 110             1              1            112
  Civil actions pending as of 9/30/12, total
  Filed during FY 2013                                        130             5              -            135
  Disposals, total                                            44              2              1             47
     Reversed                                                   -             -              -              -
     Remanded                                                  4              1              -              5
     Dismissed                                                 29             1              1             31
     SJ Granted -USPTO                                         7              -              -              7
     SJ Granted - Opposing Party                               3              -              -              3
     Transfer                                                  1              -              -              1
Civil actions pending as of 9/30/13, total                    196             4              -            200
United States Courts of Appeals1
  Ex parte cases
    Cases pending as of 9/30/12                               70              6              -            76
    Cases filed during FY 2013                                71              9              2            82
    Disposals, total                                          81              6              2            89
      USPTO Affirmed                                          47              5              1            53
      District Court Affirmed                                  -              -              -             -
      Reversed                                                 5              -              -             5
      Remanded                                                12              -              -            12
      Dismissed                                               17              1              1            19
      Vacated                                                  -              -              -             -
      Transfer                                                 -              -              -             -
      Mandamus Denied                                          -              -              -             -
      Mandamus Granted                                         -              -              -             -
    Total ex parte cases pending as of 9/30/13                60              9              -            69
    Inter partes cases
      Cases pending as of 9/30/12                             6              5               -            11
      Cases filed during FY 2013                              46             12              -            58
      Disposals, total                                        9              7               -            16
         Affirmed                                              3              3              -             6
         Reversed                                              -              -              -             -
         Remanded                                              1              1              -             2
         Dismissed                                             4              3              -             7
         Transferred                                           1              -              -             1
    Total inter partes cases pending as of 9/30/13            43             10              -            53
Total United States Courts of Appeals cases pending as
                                                               -              -              -            122
  of 9/30/13
Supreme Court
  Ex parte cases
    Cases pending as of 9/30/12                                3              -              -             3
    Cases filed during FY 2013                                 5              -              1             6
    Disposals, total                                           6              -              1             7
    Cases pending as of 9/30/13, total                         -              -              -             2

Notices of Suit filed in FY 2013
- Represents zero.
1
Includes suspended cases.




                                                                                                                          213
                                                                                                          www.uspto.gov
          OTHER INFORMATION



           TABLE 27
                                                         PATENT CLASSIFICATION ACTIVITY
                                                               (FY 2009 – FY 2013)
           Item                                                          2009     2010       2011      2012         2013
           Original patents professionally reclassified -
            completed projects                                            9,955    90,869     25,540    6,175       29,042

           Subclasses established                                          631      1,429       753       311          349

           Reclassified patents clerically processed, total              60,778   156,590    165,019   31,232       40,007
                Original U.S. patents                                    18,765    52,036     55,090   10,969       25,485
                Cross-reference U.S. patents                             42,013   104,554    109,929   20,263       14,522



           TABLE 28
                                          SCIENTIFIC AND TECHNICAL INFORMATION CENTER ACTIVITY
                                                                (FY 2013)
           Activity                                                                                     Quantity
           Prior Art Search Services Provided:
               Commercial Database Searches Completed                                                    30,705
               Genetic Sequence Searches Completed                                                        7,968
               Number of Genetic Sequences Searched                                                      41,506
               CRF Submissions Processed                                                                 18,929
               PLUS Searches Completed                                                                   70,411
               Foreign Patent Searches Completed                                                          5,856
           Document Delivery Services Provided:
               Document Delivery/Interlibrary Loan Requests Processed                                    19,517
               Copies of Foreign Patents Provided                                                         9,889
           Information Assistance and Automation Services:
               One-on-One Examiner Information Assistance                                                25,682
               One-on-One Examiner Automation Assistance                                                 44,858
               Patents Employee Attendance at Automation Classes                                         19,485
               Foreign Patents Assistance for Examiners and Public                                        6,589
               Examiner Briefings on Scientific & Technical Information Center Information               22,800
               Sources and Services
           Translation Services Provided for Examiners:
               Written Translations of Documents                                                         4,045
               Number of Words Translated (Written)                                                    14,896,762
               Documents Orally Translated1                                                              3,778
           Total Number of Examiner Service Contacts                                                     332,018
           Collection Usage and Growth:
               Print/Electronic Non-Patent Literature Collection Usage                                  1,728,244
               Print Books/Subscriptions Purchased                                                        86,944
               Full Text Electronic Journal Titles Available                                              74,973
               Full Text Electronic Book Titles Available                                                240,067
               NPL Databases Available for Searching (est.)                                                1,581
           1
               Includes orally translated requests for Trademarks




214
      PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                                                     OTHER INFORMATION



TABLE 29
                                              END OF YEAR PERSONNEL1
                                                (FY 2009 – FY 2013)
Activity                                                2009      2010    2011     2012      2013
Business
    Patent Business Line                                8,786     8,645   9,234    10,632    10,847
    Trademark Business Line                              930       862     976      899       926
Total USPTO                                             9,716     9,507   10,210   11,531    11,773
Examination Staff
    Patent Examiners
      Utility, Plant, and Reissue Examiners             6,145     6,128   6,690    7,831      7928
      Design Examiners                                   98        97      95       104       123
Total UPR and Design Examiners                          6,243     6,225   6,780    7,935     8,051
Patent Examiner Attrition Rate Less Transfers and       5.51%     3.75%   2.96%    3.07%     4.23%
Retirees
Trademark Examining Attorneys                            388       378     378      386       409
Trademark Examining Attorneys Attrition Rate            3.24%     3.08%   2.83%    3.98%     1.92%
1
    Number of people on-board.




                                                                                                              215
                                                                                              www.uspto.gov
          OTHER INFORMATION



          TABLE 30A                                            TABLE 30B
                        TOP 50 TRADEMARK APPLICANTS                        TOP 50 TRADEMARK REGISTRANTS
                                  (FY 2013)                                          (FY 2013)
          Name of Applicant                           Class1   Name of Registrant                         Registrations
          MATTEL, INC.                                 927     MATTEL, INC.                                    346
          Novartis AG                                  462     LG Electronics Inc.                             183
          Lidl Stiftung & Co. KG                       457     JOHNSON & JOHNSON                               169
          LG Electronics Inc.                          449     Disney Enterprises, Inc.                        156
          SAMSUNG ELECTRONICS CO., LTD.                399     The Procter & Gamble Company                    136
          Rovio Entertainment Ltd                      334     Boehringer Ingelheim International GmbH         129
          BRISTOL-MYERS SQUIBB COMPANY                 315     Twentieth Century Fox Film Corporation          104
          The Procter & Gamble Company                 298     Target Brands, Inc.                             98
          S. C. Johnson & Son, Inc.                    278     Societe des Produits Nestle S.A.                96
          Comité International Olympique               266     Novartis AG                                     86
          Societe des Produits Nestle S.A.             256     L'Oreal                                         77
          JOHNSON & JOHNSON                            249     Sears Brands, LLC                               73
          Xyleco, Inc.                                 238     Columbia Insurance Company                      71
          Disney Enterprises, Inc.                     235     Conair Corporation                              71
          Fuhu Holdings, Inc.                          228     L'Oreal USA Creative, Inc.                      71
          Home Focus Development Limited               228     Discovery Communications, LLC                   65
          UNITED STATES POSTAL SERVICE                 212     IGT                                             65
          Twentieth Century Fox Film Corporation       211     HEB GROCERY COMPANY, LP                         63
          King.Com Limited                             201     Bally Gaming, Inc.                              62
          DreamWorks Animation L.L.C.                  189     OMS Investments, Inc.                           61
          Bally Gaming, Inc.                           180     Walgreen Co.                                    61
          A&E Television Networks, LLC                 176     Summit Entertainment, LLC                       60
          Gamesys Limited                              168     General Motors LLC                              57
          Glaxo Group Limited                          167     Playtika Ltd.                                   56
          Conair Corporation                           164     UnitedHealth Group Incorporated                 55
          Merck Sharp & Dohme Corp.                    162     Siemens Aktiengesellschaft                      54
          KARL STORZ GmbH & Co. KG                     159     AGC, LLC                                        53
          Discovery Communications, LLC                151     Mars, Incorporated                              53
          Conopco, Inc.                                149     Topco Holdings, Inc.                            53
          BossMedia AB                                 147     Huawei Technologies Co., Ltd.                   52
          Advance Magazine Publishers Inc.             146     Konami Gaming, Inc.                             52
          CHEIL INDUSTRIES INC.                        145     Lidl Stiftung & Co. KG                          52
          LOTTE SHOPPING CO., LTD.                     145     Koninklijke Philips Electronics N.V.            51
          Wal-Mart Stores, Inc.                        144     Samsung Electronics Co., Ltd.                   51
          L'Oreal USA Creative, Inc.                   140     The Saul Zaentz Company                         50
          Sears Brands, LLC                            139     UHS of Delaware, Inc.                           49
          Michelin North America, Inc.                 136     Nintendo of America Inc.                        48
          Eli Lilly and Company                        135     Advance Magazine Publishers Inc.                46
          IGT                                          134     Amorepacific Corporation                        46
          Colgate-Palmolive Company                    133     Aristocrat Technologies Australia Pty Lt        46
          Homer TLC, Inc.                              131     Microsoft Corporation                           46
          L'OREAL                                      130     VIACOM INTERNATIONAL INC.                       46
          THE WINE GROUP LLC                           123     VTech Electronics North America, LLC            46
          WMS GAMING INC.                              122     AOL Inc.                                        45
          Televisa, S.A. de C.V.                       121     CONOPCO, INC.                                   45
          World Wrestling Entertainment, Inc.          121     Diageo North America, Inc.                      45
          Forest Laboratories, Inc.                    120     Home Box Office, Inc.                           45
          Warner Bros. Entertainment Inc.              120     K. Hansotia & Co., Inc.                         45
          Nissan Jidosha Kabushiki Kaisha              119     Wal-Mart Stores, Inc.                           45
          Aristocrat Technologies Australia Pty Lt     116     U.S. Marine Corps, a component of the U.        44
          1
              Applications with Additional Classes.




216
      PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
Glossary of Acronyms
and Abbreviations List




                                  217
                  www.uspto.gov
          GLOSSARY OF ACRONYMS AND ABBREVIATIONS LIST




            Glossary of Acronyms and
            Abbreviations List
          ABC           Activity Based Costing                   DOC     Department of Commerce

          ACR           Accelerated Case Resolution              DoD     Department of Defense

          AFCP          After Final Consideration Pilot          DOL     Department of Labor

          AIA           America Invents Act                      EFT     Electronic Funds Transfer

          AIPA          American Inventors Protection Act        eOG     electronic Official Gazette

          ASEAN         Association of Southeast Asian Nations   EPA     Environmental Protection Agency

          CAFC          U.S. Court of Appeals for the Federal    EPO     European Patent Office
                        Circuit
                                                                 EVS     Employee Viewpoint Survey
          cDNA          complementary Deoxyribonucleic acid
                                                                 FECA    Federal Employees’ Compensation Act
          CFR           Code of Federal Regulations
                                                                 FEGLI   Federal Employees Group Life
          CFS           Consolidated Financial System                    Insurance

          COOP          Continuity of Operations Plan            FEHB    Federal Employees Health Benefit
                                                                         Program
          COTS          Commercial-off-the-shelf (software)

          CPC           Cooperative Patent Classification        FERS    Federal Employees Retirement System

          CRF           Computer Readable Form                   FFMIA   Federal Financial Management
                                                                         Improvement Act
          CSRS          Civil Service Retirement System
                                                                 FICA    Federal Insurance Contributions Act
          D&ISP         Diversity and Inclusion Strategic Plan
                                                                 FISMA   Federal Information Security
          DNA           Deoxyribonucleic acid                            Management Act




218
      PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                                                           GLOSSARY OF ACRONYMS AND ABBREVIATIONS LIST



FMFIA      Federal Managers’ Financial Integrity   N/A        Not Available
           Act
                                                   NIST       National Institute of Standards and
FMS        Financial Management Services                      Technology

FPNG       Fee Processing Next Generation          NOA        Notice of Allowance (Table 16)

FY         Fiscal Year                             NPL        Non-Patent Literature

GAAP       Generally Accepted Accounting           NSF        National Science Foundation
           Principles
                                                   NSTA       National Science Teachers Association
GAO        Government Accountability Office
                                                   NTIA       National Telecommunication and
GIPA       Global Intellectual Property Academy               Information Administration

GOTS       Government-off-the-shelf                OBRA       Omnibus Budget Reconciliation Act

GPO        U.S. Government Printing Office         OCAO       Office of the Chief Administration
                                                              Officer
GSA        U.S. General Services Administration
                                                   OCFO       Office of Chief Financial Officer
HRLOB      Human Resources Line of Business
                                                   OCIO       Office of Chief Information Officer
ID         Identification
                                                   OED        Office of Enrollment and Discipline
IDP        Individual Development Plan
                                                   OEEOD      Office of Equal Employment
IDS        Information Disclosure Statement
                                                              Opportunity and Diversity
IG         Inspector General
                                                   OGC        Office of General Counsel
ILT        Instructor-Led Training
                                                   OGL        Office of General Law
INTERPOL   International Criminal Police
                                                   OHIM       Office for Harmonization in the Internal
           Organization
                                                              Market
IP         Intellectual Property
                                                   OHR        Office of Human Resources
IP5        USPTO, EPO, SIPO, KIPO, and JPO
                                                   OID        Office of Innovation Development
IPIA       Improper Payments Information Act
                                                   OIG        Office of the Inspector General
IPR        Intellectual Property Rights
                                                   OMB        Office of Management and Budget
IPTF       Internet Policy Task Force
                                                   OPEA       Office of Policy and External Affairs
ISO        International Organization for
                                                   OPIM       Office of Patent Information
           Standardization
                                                              Management
IT         Information Technology
                                                   OPM        Office of Personnel Management
JPO        Japan Patent Office
                                                   OPQA       Office of Patent Quality Assurance
KIPO       Korean Intellectual Property Office
                                                   OPT        Office of Patent Training
LDP        Leadership Development Program
                                                   PAR        Performance and Accountability
MTS        Metric Tracking System                             Report




                                                                                                                219
                                                                                                www.uspto.gov
          GLOSSARY OF ACRONYMS AND ABBREVIATIONS LIST



          PCT           Patent Cooperation Treaty                 SME         Small to Medium-Sized Enterprise

          PE2E          Patent End-to-End                         TBMP        Trademark Board Manual of Procedure

          PETTP         Patent Examiner Technical Training        TC          Technology Center

                        Program                                   TEAPP       Telework Enhancement Act Pilot
                                                                              Program
          PEWLAN        Public and Enterprise Wireless Local
                        Area Network                              TEAS        Trademark Electronic Application
                                                                              System
          PLUS          Patent Linguistics Utility System
                                                                  TM          Trademarks
          POA&M         Plan of Actions and Milestones
                                                                  TM5          JPO,EPO, KIPO, SIPO, USPTO
          PPAC          Patent Public Advisory Committee
                                                                  TPAC        Trademark Public Advisory Committee
          PPH           Patent Prosecution Highway
                                                                  TPP         Trans-Pacific Partnership
          PPS           Partnership for Public Service
                                                                  TSDR        Trademark Status and Data Retrieval
          PTAB          Patent Trial and Appeal Board
                                                                  TTAB        Trademark Trial and Appeal Board
          Pub. L. No. Public Law
                                                                  TTIP        Trans-Atlantic Trade and Investment
          QPIDS         Final Practice and Quick Path IDS
                                                                              Partnership
          RAM           Revenue Accounting and
                                                                  TVA         Tennessee Valley Authority
                        Management
                                                                  U.S.        United States
          RCE           Request for Continued Examination
                                                                  U.S.C.      United States Code
          SDLC          System Development Life Cycle
                                                                  UPRD        Utility, Plant, Reissue, Design
          SEE           Site Examiner Education Program
                                                                  USG         United States Government
          SES           Senior Executive Service
                                                                  USPTO       United States Patent and Trademark
          SFFAS         Statements of Federal Financial
                                                                              Office
                        Accounting Standards
                                                                  USTR        United States Trade Representative
          SIPO          Chinese State Intellectual Property
                        Office                                    WIPO        World Intellectual Property
                                                                              Organization
          SJ            Summary Judgment
                                                                  WTO         World Trade Organization
          SM            Service Mark
                                                                  XML         Extensible Markup Language



          A limited glossary containing some USPTO-specific definitions can be found here:

          www.uspto.gov/main/glossary/index.html




220
      PERFORMANCE AND ACCOUNTABILITY REPORT FY 2013
                     Acknowledgements



This Performance and Accountability Report was produced with the ener-
gies and talents of the USPTO staff.

To these individuals we would like to offer our sincerest thanks and
acknowledgement.

In particular, we would like to recognize the following organizations and
individuals for their contributions:

Office of the Under Secretary and Director – Norma Rose and Lisa Houston;
Office of the Chief Communications Office – Patrick Ross, Paul Rosenthal,
Eric Atkisson, and Cheron Green; Office of the Chief Administrative Officer –
Roger Williams; Office of the Chief Financial Officer – Michelle Picard; Office
of Planning and Budget – Bonita Royall, Walter Schlueter, Robert Fawcett,
and Candice Goodman; Office of Finance – Shana Willard, Dennis Detar,
and Mark Krieger; Office of External Affairs and Policy – George Elliot and
Janette Brown; Office of the Chief Information Officer – Scott Williams and
Maureen Brown; Office of the General Counsel – Mary Kelly; Patent Trial
and Appeal Board – Kurt Brown; Trademark Trial and Appeal Board –
Latoya Brown; Office of the Commissioner for Patents – Jennifer Jacobs
and David Fitzpatrick; Office of the Commissioner for Trademarks – Nabil
Chbouki and Karen Strohecker.

We would also like to acknowledge the Office of the Inspector General and
KPMG LLP for the professional manner in which they conducted the audit
of the FY 2013 Financial Statements.

To send comments or provide feedback about this report, please contact:

Office of Planning and Budget
600 Dulany Street
Alexandria, VA 22314
PARmail@uspto.gov
Phone: 571-272-3333
Fax: 571-273-0127
